<html>
<title> - THE NATIONAL FOREST SYSTEM: RESTORING OUR FOREST INFRASTRUCTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    THE NATIONAL FOREST SYSTEM: RESTORING OUR FOREST INFRASTRUCTURE

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           SEPTEMBER 26, 2019
                               __________

                           Serial No. 116-19
                           

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
38-016 PDF                WASHINGTON : 2020 



                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

               ABIGAIL DAVIS SPANBERGER, Virginia, Chair

MARCIA L. FUDGE, Ohio                DOUG LaMALFA, California, Ranking 
TOM O'HALLERAN, Arizona              Minority Member
CHELLIE PINGREE, Maine               RICK W. ALLEN, Georgia
CYNTHIA AXNE, Iowa                   RALPH LEE ABRAHAM, Louisiana
                                     TRENT KELLY, Mississippi

             Felix Muniz, Jr., Subcommittee Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
LaMalfa, Hon. Doug, a Representative in Congress from California, 
  opening statement..............................................     8
Pingree, Hon. Chellie, a Representative in Congress from Maine, 
  submitted article..............................................    68
Schrier, Hon. Kim, a Representative in Congress from Washington, 
  submitted letter...............................................    72
Spanberger, Hon. Abigail Davis, a Representative in Congress from 
  Virginia, opening statement....................................     1
    Prepared statement...........................................     2
    Submitted news release.......................................    29

                                Witness

Lago, Lenise, Associate Chief, U.S. Forest Service, U.S. 
  Department of Agriculture, Washington, D.C.....................     3
    Prepared statement...........................................     5
    Submitted questions..........................................    73

 
    THE NATIONAL FOREST SYSTEM: RESTORING OUR FOREST INFRASTRUCTURE

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2019

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Abigail 
Davis Spanberger [Chair of the Subcommittee] presiding.
    Members present: Representatives Spanberger, Fudge, 
O'Halleran, Pingree, Axne, Schrier, Panetta, Peterson (ex 
officio), LaMalfa, Allen, Kelly, Johnson, and Thompson.
    Staff present: Melinda Cep, Prescott Martin III, Felix 
Muniz, Jr., Alison Titus, Ricki Schroeder, Patricia Straughn, 
Josh Maxwell, Dana Sandman, and Jennifer Yezak.

     OPENING STATEMENT OF HON. ABIGAIL DAVIS SPANBERGER, A 
            REPRESENTATIVE IN CONGRESS FROM VIRGINIA

    The Chair. This hearing of the Subcommittee on Conservation 
and Forestry entitled, The National Forest System: Restoring 
our Forest Infrastructure, will come to order.
    Good morning. I would like to welcome everyone to this 
hearing of the Conservation and Forestry Subcommittee on the 
National Forest System: restoring our forest infrastructure, a 
critically important topic. I would also like to thank Ranking 
Member LaMalfa, who will be arriving shortly, for his 
engagement on this issue, as well as each Subcommittee Member 
for taking part in this hearing today.
    The roads, trails, bridges, dams, and other facilities that 
make up our National Forest infrastructure help ensure safe and 
reliable access to natural resources and serve as an essential 
backbone for our economic activity.
    More than 140 million Americans visit National Forest lands 
every year to camp, hike, fish, hunt, ski, and more. Recreation 
on and around Forest Service land contributes more than $10 
billion to the U.S. economy every year and supports more than 
143,000 full-time and part-time American jobs.
    In addition to recreation, 66 million Americans in over 
3,000 communities depend on Forest Service infrastructure for 
drinking water and wastewater services and many communities 
rely on Forest Service roads to drive their children to school; 
shop in neighborhood stores; and visit their doctors.
    However, as a consequence of deferring maintenance across 
the agency's infrastructure portfolio, our forest 
infrastructure is in disrepair, and no longer meets the needs 
of forest users, local communities, and emergency responders. 
As is the case with all Federal land management agencies, 
appropriated funds have so far been insufficient.
    With the deferred maintenance backlog of $5.2 billion, the 
ability of the American public to safely access and benefit 
from National Forests is greatly diminished. As many of our 
Subcommittee Members know all too well, one contributing factor 
to this acute backlog has been soaring fire suppression costs. 
The increasing frequency and intensity of wildfires has forced 
the agency to make some tough decisions, often pulling funds 
from non-fire accounts to address wildfires, and leaving fewer 
and fewer resources to support other aspects of the agency's 
work, like deferred maintenance. We hope that the fire fix that 
goes into effect in Fiscal Year 2020 helps address this part of 
the deferred maintenance challenge.
    Despite the challenges of aging infrastructure, the 
dedicated public servants at the Forest Service have 
continually worked to do more with less, and to deliver upon 
their mission: to sustain the health, diversity, and 
productivity of the nation's forests and grasslands to meet the 
needs of present and future generations.
    Proper maintenance of our National Forests is a matter of 
safety and economic well-being. I hope this hearing will help 
us better understand the severity of the deferred maintenance 
backlog, its impact on regional economies, and the agency's 
future plans for capital improvement.
    [The prepared statement of Ms. Spanberger follows:]

 Prepared Statement of Hon. Abigail Davis Spanberger, a Representative 
                       in Congress from Virginia
    Good morning, I would like to welcome everyone to this hearing of 
the Conservation and Forestry Subcommittee on The National Forest 
System: Restoring Our Forest Infrastructure, a critically important 
topic. I would also like to thank Ranking Member LaMalfa for his 
engagement on this issue, as well as each Subcommittee Member for 
taking part in this hearing today.
    National Forest infrastructure is the physical link to the 
outdoors. Its network of roads, trails, bridges, dams, and facilities 
helps ensure access to natural resources and secure the economic well-
being of neighboring communities.
    Over 140 million Americans visit National Forest lands year-round 
to camp, hike, fish, hunt, ski and snowboard, and take part in a wide 
range of other recreation. Recreation on and around Forest Service land 
contributes more than $10 billion to the U.S. economy every year and 
supports more than 143,000 full and part-time jobs.
    66 million Americans in over 3,000 communities depend on Forest 
Service infrastructure for drinking water and wastewater services. 
Similarly, many communities rely on Forest Service roads to drive their 
children to school; shop in neighborhood stores; or visit their doctor, 
among other routine travel needs. Over the last 2 decades alone, 
community development along the Wildland-Urban Interface has expanded 
by more than 46 million acres, an area larger than the State of 
Washington.
    However, as a consequence of deferring maintenance in the agency's 
infrastructure portfolio, the state of our forest infrastructure has 
fallen far behind what is necessary to meet the needs of forest users, 
local communities, and emergency responders. As is the case with all 
Federal land management agencies, appropriated funds have been 
insufficient to adequately maintain roads, trails, bridges, dams, and 
other important structures.
    Over the last few decades, fire suppression costs have increased as 
the frequency and intensity of wildfires have also increased. These 
escalating costs have forced the agency to make some tough decisions, 
often pulling funds from non-fire accounts to address wildfires and 
leaving fewer and fewer resources to support other aspects of the 
agency's work, like deferred maintenance. We hope that the fire budget 
fix that goes into effect in FY20 solves that component of this issue. 
With a deferred maintenance backlog of $5.2 billion, the ability of the 
American public to safely access and benefit from National Forests is 
greatly diminished.
    Despite the challenges of aging infrastructure, the Forest Service 
has continually worked to do more with less and has charged itself to 
develop a long-term plan to deliver upon its mission to ``sustain the 
health, diversity, and productivity of the nation's forests and 
grasslands to meet the needs of present and future generations.''
    Proper maintenance of our National Forests is a matter of safety 
and economic well-being. I hope this hearing will help us better 
understand the severity of the deferred maintenance backlog, its impact 
on regional economies, and the agency's future plans for capital 
improvement.
    This is the important subject of our hearing today, to better 
understand the level of deferred maintenance; its impact on economic 
opportunity and public use; and to examine agency plans for capital 
improvement.

    The Chair. With that, I will recognize the Ranking Member 
once he has arrived. But in consultation with the Ranking 
Member and pursuant to Rule XI(e), I want to make Members of 
the Subcommittee aware that other Members of the full Committee 
may join us today.
    The chair would request that other Members submit their 
opening statements for the record so the witness may begin her 
testimony, and to ensure there is ample time for questions 
today.
    I would like to welcome our witness, Ms. Lenise Lago, 
Associate Chief for the U.S. Forest Service. In coordination 
with the Chief, Ms. Lago helps lead a workforce of more than 
28,000 year-round employees, and an additional 12,000 seasonal 
employees, and is a steward to 193 million acres of National 
Forests and Grasslands.
    Ms. Lago worked briefly in the forest products industry 
before joining the Forest Service in 1989. She has worked in a 
variety of planning, budget, and resource management jobs, 
splitting time between Washington, D.C., and the western United 
States, including Montana, Washington, and Oregon.
    Associate Chief Lago is a native of Athens, Georgia, and a 
graduate of the University of Georgia's Warnell School of 
Forest Resources.
    Ms. Lago, you will have 5 minutes to present your 
testimony. The light will turn yellow, signaling when you have 
1 minute left to complete your testimony. Please begin when you 
are ready.

STATEMENT OF LENISE LAGO, ASSOCIATE CHIEF, U.S. FOREST SERVICE, 
                U.S. DEPARTMENT OF AGRICULTURE, 
                        WASHINGTON, D.C.

    Ms. Lago. Thank you, Madam Chair, Ranking Member LaMalfa, 
and Members of the Committee. Thank you for inviting me to 
share the Administration's views on infrastructure within 
USDA's Forest Service. I want to thank and acknowledge how 
important this opportunity is to testify on this important 
topic. I would also like to thank you for the support you have 
given us to carry out our programs.
    Infrastructure is the physical link between Americans and 
their public lands, and Forest Service infrastructure is vital 
to rural and urban communities alike. It includes roads, 
trails, bridges, visitor centers used by the public, as well as 
offices, air tanker bases, employee housing, water and 
wastewater systems which we use to manage and protect all of 
the other resources. People depend on a safe Forest Service 
road network to get to schools, to hospitals, homes, stores. 
The road system is also critical to carrying out active 
management to improve forest conditions.
    Infrastructure drives the economic benefits communities 
derive from National Forests. The Forest Service provides the 
most diverse recreation opportunities in the nation, across 
world-class landscapes that attract, as you mentioned, Madam 
Chair, over 140 million visitors annually, contributes $10 
billion to the U.S. economy each year, and supports over 
140,000 jobs, mostly in gateway and rural communities. Outdoor 
recreation and tourism are the single greatest source of jobs 
for local economies in the National Forest System.
    Perhaps most critically, forest infrastructure provides 
fire protection for communities. Firefighters and emergency 
responders use forest infrastructure to access forest lands for 
firefighting operations, to protect communities, to evacuate 
families from areas at risk, and to rescue individuals from 
danger.
    Of specific interest here today is deferred maintenance, 
and my written testimony includes tables listing various assets 
the Forest Service owns and maintains, and the deferred 
maintenance by asset category. I am not going to cite all that 
here, but just to roughly identify the portfolio that we are 
talking about, the Forest Service maintains over 370,000 miles 
of roads. That includes over 6,000 bridges. We have 158,000 
miles of trail, including over 7,000 trail bridges. We have 
almost 40,000 buildings of all types, including administrative 
buildings, research buildings, employee housing, and recreation 
sites.
    I think you know; deferred maintenance is scheduled 
maintenance that doesn't get done. It has a dollar value, and 
the dollar value accumulates over time. As a result of deferred 
maintenance, the state of the Forest Service infrastructure has 
fallen far behind what is necessary to meet the needs of our 
forests and our forest users.
    Today, the Forest Service has a deferred maintenance 
backlog of more than $5.2 billion. Our capital improvement 
budget has not kept up with needed maintenance. The President's 
budget request for Fiscal Year 2020 includes a public land 
infrastructure fund, which allocates monies for deferred 
maintenance in the National Forest System.
    Another funding source for Forest Service infrastructure 
comes from the Federal Highway Administration Federal Lands 
Transportation Program. Interestingly, while the Forest Service 
has more miles of publicly accessible road and many times more 
bridges than other Federal land management agencies, the Forest 
Service receives only about five percent of the funding from 
this program.
    In addition to funding, the agency is doing its part to 
reduce deferred maintenance. We are taking bold steps to 
streamline our environmental review process and speed up 
important work that could protect communities, livelihoods, and 
resources. We are using tools provided by Congress as well. We 
have continued to use conveyance authority, which allows us to 
sell facilities that are no longer needed, and keep the 
proceeds to address other infrastructure needs. We just 
proposed a rulemaking for the Powerline Utility Corridor 
Authority from the 2018 appropriations bill, and the 
Communication Sites Authority from the 2018 Farm Bill, in 
addition to the Leasing Authority, which was included in the 
2018 Farm Bill.
    FLREA, the Federal Lands Recreation Enhancement Act, has 
enabled us to keep up with needed maintenance at heavily-used 
developed recreation sites across the country.
    So, with funding, innovation, efficiency, and partnerships, 
those are the keys to taking care of these important assets. 
Managing a healthy infrastructure is an important part of our 
job, and it supports our ability to carry out our mission.
    Again, I am deeply grateful to the Committee for this 
opportunity to talk about our infrastructure, to share ideas 
about how to improve our backlog of deferred maintenance, and 
we appreciate your support. I am happy to answer any questions.
    Thank you.
    [The prepared statement of Ms. Lago follows:]

    Prepared Statement of Lenise Lago, Associate Chief, U.S. Forest 
       Service, U.S. Department of Agriculture, Washington, D.C.
Regarding Infrastructure on National Forest System Lands
    Madam Chair and Members of the Subcommittee, thank you for inviting 
me to share the Administration's position on deferred maintenance 
within the U.S. Department of Agriculture's Forest Service.
    On the National Forest System, infrastructure is the physical link 
between Americans and their public lands. It strengthens communities by 
giving them safe access to the many ecological, economic, and social 
amenities these lands provide. For instance, people use infrastructure 
on the National Forest System for ranching, farming, logging, outdoor 
recreation, tourism, and municipal water services, all of which support 
thriving small businesses, particularly in local communities. People 
depend on the Forest Service road network to get to schools, stores, 
hospitals, and homes. Perhaps most critically, forest infrastructure 
provides fire protection for communities. Firefighters and emergency 
responders use forest infrastructure to access forest lands for 
firefighting operations to protect communities, evacuate families from 
areas at risk, and rescue individuals from danger.
    The infrastructure on the National Forest System includes over 
370,000 miles of road, 13,400 bridges and trail bridges (see table 1), 
158,000 miles of trail, nearly 500 Forest Service owned dams, over 
1,100 privately owned dams overseen by the Forest Service, and 
facilities for both administration and wildland fire management. The 
roads, bridges, facilities, and other infrastructure affect every 
aspect of the Forest Service mission and are critical to the effective 
management of National Forests and Grasslands on behalf of the American 
public.
    However, as a consequence of deferring maintenance in our extensive 
infrastructure portfolio, the state of the Forest Service's 
infrastructure has fallen far behind what is necessary to meet the 
needs of our forests and forest users. Today, the Forest Service has a 
deferred maintenance \1\ backlog of more than $5.2 billion (table 3--
Deferred Maintenance Backlog; data is also available by state).
---------------------------------------------------------------------------
    \1\ ``Deferred maintenance'' is the continual delay of maintenance 
of Forest Service infrastructure assets. Deferred maintenance prevents 
buildings, roads, bridges, and other assets from reaching their 
expected useful lifespans. The total dollar value of deferred 
maintenance is determined by totaling all of the work items of 
components and systems that need to be repaired or replaced. It does 
not include unforeseen failures such as a boiler leak, or a wash out of 
a road or bridge by a storm, etc.
---------------------------------------------------------------------------
    The President's Budget for Fiscal Year 2020 includes a Public Lands 
Infrastructure Fund allocating monies for deferred maintenance on the 
National Forest System. USDA welcomes the opportunity for further 
discussion with the Subcommittee regarding the proposed fund to meet 
the Forest Service's deferred maintenance needs.
    Our infrastructure needs are pressing, and neglecting to meet them 
only makes the problem worse. Neglecting routine maintenance turns 
minor repairs into major-overhaul work. Ultimately, if left unchecked, 
it can turn critical infrastructure unusable to the point of requiring 
full replacement. Every delay expands deferred maintenance beyond the 
Forest Service's ability to maintain our infrastructure and keep up 
with vital services such as fire suppression, timber production, and 
outdoor recreation.
    Infrastructure on the National Forests and Grasslands also supports 
a rising demand for outdoor recreation. The Forest Service provides 
recreation opportunities in the nation across landscapes that attract 
over 149 million visitors annually. According to the National Visitor 
Use Monitoring (NVUM) program, through both direct and ripple effects, 
National Forest visitor spending contributes over $10 billion to the 
U.S. economy each year while supporting about 143,000 jobs, mostly in 
gateway and rural communities. Outdoor recreation and tourism are the 
single greatest source of jobs on the National Forest System.
    Forest roads and bridges are critical for sustaining landscapes 
across the 193 million acres of National Forest System lands for the 
benefit of visitors and communities; wildland fire management also 
requires an extensive system of forest roads and bridges in good 
condition. However, the backlog of deferred maintenance for forest 
roads and bridges is $3.4 billion--needed maintenance and repairs 
delayed until some future time.
    One example of deferred maintenance impacts to Forest Service 
assets is the Longhouse Scenic Drive road system on the Allegh[e]ny 
National Forest in Pennsylvania. Wear and tear on the road is exceeding 
the ability for most passenger cars to reasonably travel over it. 
Without needed repairs, the road system cannot bring visitors from 
across the country to enjoy the National Forest and sustain local 
businesses through their spending. Each year, users of the road system 
spend about $1.5 million at local businesses.

 Table 1.--Roads and bridges on the National Forest System, by type and
                                measure.
------------------------------------------------------------------------
                     Number of Asset
  Asset Category        Locations         Quantity       Unit of Measure
------------------------------------------------------------------------
 Trail Bridges                 N/A             7,156              Each
       Bridges               6,245             6,245              Each
         Roads                 N/A           370,755             Miles
------------------------------------------------------------------------

    The Forest Service supports outdoor recreation at more than 29,000 
recreation sites ranging from highly developed campgrounds, target 
ranges, and boating areas to minimally developed trailheads and fishing 
areas. Many of these sites, built by the Civilian Conservation Corps, 
are more than 75 years old and remain in use far beyond their expected 
lifespans. The deterioration of this recreation infrastructure has a 
direct impact on all forest users including outfitters and guides who 
create jobs in forest communities and utilize recreation infrastructure 
for activities such as fishing and river rafting in National Forests. 
Unless the Forest Service invests in recreation infrastructure, the 
quality of visitor experience will suffer and local businesses who 
depend on forest visitors for their livelihoods might fail.
    The Forest Service manages over 158,000 miles of trails--the 
largest managed system of trails in the country. These trails provide 
motorized and nonmotorized access and high-quality recreation 
opportunities across the National Forest System, benefiting economies 
and human health in communities nationwide while also fostering 
extensive volunteerism and citizen stewardship. Only about 25 percent 
of these trails meet agency standards for safety and quality. Total 
maintenance across the trail system is estimated at over $600 million, 
$300 million in deferred maintenance and $300 million in annual 
operational maintenance.
    The Forest Service uses 40,510 USDA-owned buildings for 
administrative and other purposes (table 2). The buildings include 
facilities for research and wildland fire management as well as visitor 
centers, bathrooms, communications towers, living quarters, and 
warehouses. The Forest Service's deferred maintenance backlog for 
facilities totals $1.2 billion, about 65 percent of which is for 
buildings older than 50 years. Due to both age and deferred 
maintenance, only 57 percent of the buildings used by the Forest 
Service are up to standard.
    The agency is taking a number of actions to help reduce deferred 
maintenance. For example, the Forest Service approach to travel 
management helps forests plan a road system that best meets community 
needs and transfers ownership to local communities, counties, or states 
where appropriate. In West Virginia, Monongahela National Forest, Red 
Creek Bridge at Laneville accesses 100 structures, including camps, 
cabins, permanent residences, mail route, etc. This bridge also 
accesses the Dolly Sods Wilderness, an eastern recreation destination 
and economic generator. The Red Creek bridge structure has been 
identified for much needed, significant, repairs for the past 10 years.

  Table 2.--Buildings owned by USDA and used by the Forest Service, by
                  purpose, number, and square footage.
------------------------------------------------------------------------
                     Number of Asset
  Asset Category        Locations         Quantity       Unit of Measure
------------------------------------------------------------------------
     Buildings              38,939        27,351,760               GSF
     Residence               1,571         2,470,133               GSF
------------------------------------------------------------------------

    The agency is doing its part to reduce deferred maintenance. We are 
taking bold steps to streamline our environmental review processes and 
speed up important work that could help protect communities, 
livelihoods and resources. The proposed updates would not only give the 
Forest Service the tools and flexibility to manage the land and tackle 
critical challenges like wildfire, insects, and disease but also 
improve service to the American people. Revising the rules will improve 
forest conditions and make it simpler for people to use and enjoy their 
National Forests and Grasslands at lower cost to the taxpayer. The 
revised rules will also make it easier to maintain and repair the 
infrastructure people need to use and enjoy their public lands--the 
roads, trails, campgrounds, and other facilities.
    The updates will help reduce our maintenance backlog by 
implementing a new suite of ``categorical exclusions,'' a 
classification under NEPA excluding certain routine activities from 
more extensive, time-consuming environmental impact analyses. The 
proposed categorical exclusions would be for restoration projects, 
roads and trails management, recreation and facility management, as 
well as special use authorizations that issue permits for outfitters 
and guides, community organizations, civic groups and others who seek 
to recreate on our National Forests and Grasslands. The new categorical 
exclusions are based on intensive analysis of hundreds of environmental 
assessments and related data and, when fully implemented, will reduce 
process delays for routine activities by months or years. We are also 
streamlining our business practices and implementing new programmatic 
agreements for consultation with other agencies.
    For example, this agency is specifically streamlining business 
practices to reduce deferred maintenance by strategically prioritizing 
capital improvement projects. For road projects, the agency uses the 
following criteria in order: (a) projects vital for near-term forest-
based economic activity (that is, restoration within the next 5 years); 
(b) projects needed for safety; (c) projects that improve access to 
recreation sites and trails; and (d) projects that improve wildlife 
connectivity, aquatic organism passage, and flood resiliency. Projects 
are evaluated based on how they can provide support and infrastructure 
necessary to accomplish national Forest Service goals and mission 
areas. The goals are better community service and better access to 
public lands for emergency response, outdoor recreation, and active 
resource management. Projects are also evaluated on how they use 
partnerships to achieve mutual conservation goals through combined 
efforts.
    Primary funding for Forest Service infrastructure comes from both 
Forest Service appropriations and from the Federal Highway 
Administration's Federal Lands Transportation Program (FLTP). Adjusted 
for inflation, appropriated resources have been decreasing over the 
past 2 decades, notwithstanding a spike in funding for roads in 2010 
under the American Recovery and Reinvestment Act. The Fixing America's 
Surface Transportation Act of 2015 authorized a total of $85 million in 
FLTP program funding for the agency for Fiscal Years 2016-2020. This 
amount derives from the Highway Trust Fund.
    With more than $5.2 billion in deferred maintenance, the Forest 
Service cannot keep much of its infrastructure on the National Forest 
System from deteriorating. A deteriorating infrastructure keeps us from 
properly managing the National Forest System. With roads in poor 
condition, for example, emergency vehicles have trouble getting to 
wildfires, undermining our firefighting and rescue capabilities. 
Conversely, by reducing deferred maintenance and improving 
infrastructure, the Forest Service would be better able to protect 
communities from wildfire, in part through projects to reduce hazardous 
fuels through prescribed fire and mechanical treatments. In addition, 
visitors would get better access to recreational activities and the 
Forest Service would become a better neighbor by offering more 
opportunities for jobs and economic activity in rural areas.
    The Forest Service is eager to work with the Committee to meet our 
infrastructure needs and reduce our deferred maintenance backlog. We 
are deeply committed to accomplishing our multiple-use goals for 
National Forest System lands, goals enshrined in our mission and in the 
laws of the United States, in accordance with the needs and desires of 
the people we serve.
Figure 1.--Appropriations for infrastructure on the National Forest 
        System, in thousands of dollars, Fiscal Years 2001-19.
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Adjusted for inflation, appropriations declined, despite a 
        spike in funding for roads in (CMRD)/(CMLG) in Fiscal Year 2010 
        under the American Recovery and Reinvestment Act. FY = fiscal 
        year; CMRD = Capital Improvement and Maintenance-Roads program; 
        CMLG = Legacy Roads and Trails Restoration program.

                              Table 3.--Forest Service Deferred Maintenance Backlog
----------------------------------------------------------------------------------------------------------------
                                                                   Current                           Facility
  Asset    Number of Asset      Quantity     Unit of Measure     Replacement        Deferred         Condition
 Category     Locations                                             Value          Maintenance         Index
----------------------------------------------------------------------------------------------------------------
Buildings           38,939       27,351,760              GSF    $7,206,149,429    $1,086,287,917              79
Residence            1,571        2,470,133              GSF      $576,242,605      $132,536,427              76
Trails                 N/A          158,726            Miles               N/A      $278,012,495             N/A
Trail                  N/A            7,156             Each               N/A        $7,846,506             N/A
 Bridges
Heritage             7,046            7,046             Each               N/A       $17,503,549             N/A
Misc.                  N/A           18,264            Sites    $3,141,811,123       $85,809,375              91
 Recreati
 on
 Features
Wastewate            4,736              N/A             Each      $162,601,900       $29,988,070              81
 r
 Systems
Water                4,710              N/A             Each      $321,539,254       $85,840,039              82
 Systems
Roads                  N/A          370,755            Miles   $36,789,857,403    $3,153,000,000             N/A
Dams                   497              497             Each    $3,914,284,327       $79,560,275              98
Bridges              6,245            6,245             Each    $2,336,703,257      $260,505,526              89
          ------------------------------------------------------------------------------------------------------
  Total             63,744       30,390,582              GSF   $54,449,189,297    $5,216,890,180              85
----------------------------------------------------------------------------------------------------------------
Figures in the table above represent a snapshot of the Natural Resource Management (NRM) data as of June 2019
  and does not represent the end of the fiscal year summary for 2018; numbers may differ slightly from the end
  of the fiscal year National Forest System Statistics. See individual asset tabs for more information.
* Residence is defined as residential structures associated with the Employee Housing Program.
+ Roads includes paved and unpaved roadways.
 Not included are towers, as this program is in the midst of reevaluating assets and determining these figures.


    The Chair. Thank you for your testimony.
    Before proceeding to questions, I recognize Ranking Member 
LaMalfa for his opening statement.

  OPENING STATEMENT OF HON. DOUG LaMALFA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. LaMalfa. Thank you, Madam Chair, and I have no excuse 
for my tardiness, but I did bring a forest green pen today, if 
there is any redeeming value to that.
    So, thank you, and thank you for joining with us, Associate 
Chief Lago.
    As we know, the National Forest System created more than 
100 years ago, designed--and this is an important key point--
for multiple uses for the surrounding communities. And so, it 
is a vast network, 193 million acres of public land, and much 
of the infrastructure, like we hear with our National Park 
System, is aging and requires regular upkeep, which hasn't been 
quite regular. We have budget challenges, such as fire 
borrowing, loss of revenue due to declining timber harvests, 
all contributing to the backlog we are talking about.
    A significant portion of the backlog, nearly 75 percent, is 
maintenance of the 370,000 mile road system within our forests, 
a lot of that in California, my home state. Of course, the 
maintenance of these forest roads cannot be understated, and 
they provide access to the public for access to their lands, 
recreation, resources. They connect our communities and are 
very important for our firefighters, of which we suffer a lot 
of fire in the West lately.
    Congress has worked to provide several solutions to address 
the deferred maintenance, such as providing the fire funding 
fix in the Consolidated Appropriations Act of 2018 to prevent 
fire borrowing, something we are all happy about, from other 
accounts, including those accounts used for National Forest 
roads. The 2018 Farm Bill provided more tools for the Forest 
Service, with management of forest lands, and allows more 
partners to assist them in these activities. The House-passed 
version of the farm bill also contained several provisions that 
would have strengthened these goals, including several 
categorical exclusions that would have addressed bureaucratic 
red tape that has hindered the Forest Service from addressing 
many of the maintenance issues we will be talking about today.
    Unfortunately, that version did not make it through the 
Senate last year. Earlier this year, though, the Forest Service 
announced they were working on streamlining environmental 
analyses. I believe it is common sense that current facilities 
should be able to be improved without wasting significant time 
and money due to unnecessary hurdles.
    The Forest Service has recently completed a comprehensive 
capital improvement plan also that we hope can be a strategy to 
help address this maintenance backlog, and get back to a 
healthy and sustainable functioning forest system.
    Again, Associate Chief Lago, we appreciate your being here 
today, and look forward to the dialogue and Q&A.
    So, thank you, and I appreciate it, Madam Chair. I yield 
back.
    The Chair. Members will be recognized for questioning in 
order of seniority for Members who were here at the start of 
the hearing. After that, Members will be recognized in the 
order of their arrival.
    I first recognize myself for 5 minutes.
    Associate Chief Lago, in your written testimony, you 
mention the Forest Service currently has a deferred maintenance 
backlog of more than $5.2 billion. Can you speak to the 
backlog's impact on local economies, including recreational 
outfitters and other small businesses that serve locals and 
visitors alike? Additionally, please discuss the impact on 
local small businesses that would complete some of the 
infrastructure work on projects such as building and 
maintaining roads?
    Ms. Lago. Certainly. Thank you, Madam Chair.
    The condition of deteriorated infrastructure means we can't 
provide a full season of use to many users of National Forest 
lands. You mentioned outfitter guides, campground operators. 
Just to bring it down to the operator level, an outfitter and 
guide needs road access, typically some parking lots, uses 
campgrounds sometimes, boat launches. When we can't keep those 
open or when we have to restrict the season of use, that means 
that outfitter and guide has to reduce their season days. It 
has a direct economic effect on that outfitter and guide.
    It is the same with a campground. A campground operator is 
charging a fee, and we can't maintain the water system so we 
have to shut the water off to that campground. They can still 
have campers, but they have to provide their own water. It 
degrades the experience for campers, and they are less likely 
to go to that campground. Again, a direct economic hit to a 
service provider.
    How increasing our maintenance affects local economies is 
for the most part, that deferred maintenance is carried out by 
contractors, partners, service providers in those local 
communities.
    The Chair. Thank you, and I do have a second question with 
a little bit of a personal bit to it.
    I have been a Girl Scout leader for the past 5 years, and I 
have seen the importance of scouting and the role that the 
outdoors play in the lives of young women and in boys who 
participate in Boy Scouts. And events like the upcoming Hike-a-
palooza in George Washington National Forest not only provides 
young women with the opportunity to explore the outdoors, but 
also promotes environmental stewardship and provides exposure 
to careers in conservation.
    The Forest Service's ability to maintain its infrastructure 
is central to ensuring that the future generations are invested 
in conservation and have the opportunity to enjoy our country's 
stunning public lands.
    On the topic of environmental stewardship, I understand the 
Forest Service relies on partnerships and volunteers, in 
addition to Federal funding. Can you tell us about some of 
these cooperative agreements, and how they help maintain safe, 
accessible trails in places like the George Washington National 
Forest?
    Ms. Lago. Sure. Thank you for that.
    Just generally speaking, the total value of our 
partnerships and agreements is over $1 billion annually, and 
more than half of that is contributed by the partner.
    Within the volunteer service hours that we rack up, trails 
work represents the majority of that work. We have people 
volunteering to do trail maintenance that is more than 1.5 
billion hours annually. That is more than 800 full-time 
equivalents, and they help us maintain over 30,000 miles of 
trail a year.
    And in your local forest, the G.W. Jeff, we have more than 
50 cooperators on trails projects. I think last year they 
helped us maintain almost 5,000 miles of trail. We have 
partnerships with student conservation organizations, back 
country horsemen, lots of partnerships interested in helping us 
maintain that infrastructure.
    The Chair. Thank you very much. I appreciate your answering 
my questions, and I would now recognize Ranking Member LaMalfa 
for his questions.
    Mr. LaMalfa. Thank you again, Assistant Chief.
    We are talking about--and you mentioned in your comments a 
$5.2 billion maintenance backlog, and that has been a number 
that seems to be frozen for quite a few years, going back as 
far as 2012. Which if you look at inflation costs alone, but 
then obviously we have had some big events there in many of our 
forests with large fires, runoff, record levels of snow pack, 
and flooding, et cetera. And we know, we hear about it from our 
forest people out there about considerable damage to the roads, 
trails, et cetera, culverts.
    But the dollar figure has stayed the same since 2012, so it 
makes me wonder, is there really some type of system as to how 
the Forest Service is monitoring, cataloging the damage to the 
various pieces of infrastructure in the forests to see that we 
are actually keeping up with the real number on the maintenance 
backlog that we are talking about.
    Again, we know that there is a huge number for our National 
Parks, and I am wondering is there a system in place that we 
could be improving or one that you are working on to get what 
probably needs to be a more accurate number?
    Ms. Lago. Yes, sir. So it is, first of all, a big number, 
and as I described, our totality of infrastructure is big, 
diverse, spread out, and inaccessible.
    The way we arrive at that number is we do sampling on an 
annual basis. We sample a portion of the roads, and then 
calculate an estimate. We sample buildings and dams on a 5 year 
cycle, dams on a 2 year cycle.
    But in addition, events like fires and floods can take out 
bridges. Sometimes we don't replace them, so that removes the 
asset and it removes the deferred maintenance along with it.
    We are doing lands transactions every year, and we may 
convey an asset with a deferred maintenance, and thus reduce 
it.
    Mr. LaMalfa. So, with the loss of a bridge in a situation 
like that, you can take it off the books because it doesn't 
exist anymore.
    Now on my farm, if one of my tractors catches fire, I don't 
get just to write of the asset. I still need that amount of 
tractor power to be able to get over the acres I do in a year.
    How is this going to be serving the people in the area, 
whether it is for firefighters, access, logging, whatever it 
is? How can we just write that asset off?
    Ms. Lago. It depends on the local area, and a lot of these 
assets are legacies from many, many years ago. It might be in a 
portion of the forest where access has been terminated or is 
seasonally closed, and we may decide not to replace that bridge 
in-kind, but do some sort of lower scale, more like a trail 
bridge or something like that.
    Mr. LaMalfa. Is it done in conjunction with local needs, 
with local--whether it is safety officials or logging or 
access, or is that decision made in D.C.? Is it made by the 
local forester? I mean, that is kind of disturbing to me that 
we can just write this off and maybe not have the input. How is 
that done?
    Ms. Lago. Yes, sir. It is a local decision. It is done with 
public input, environmental analysis, and disclosure.
    Mr. LaMalfa. Okay. So timber receipts have been down. Back 
years ago, we are looking at 1991, we could see that there is 
$680 million in timber receipts, of which ten percent goes 
directly towards forest roads, and it is also very important, 
those receipts, for local schools and roads under what is the 
Secure Rural Schools Fund. And so, now you want $680 million in 
receipts, and more recently, it is down to $21 million. It 
would seem to me we could be going farther if we had the timber 
receipts for the road maintenance for that ten percent.
    Would you comment upon that?
    Ms. Lago. Yes, sir. In recent years, we have been 
increasing our timber sales. Those receipts are increasing as a 
result of that, and so----
    Mr. LaMalfa. Do you know that number now compared to the 
$680 million not-inflation-adjusted 1991 number?
    Ms. Lago. I don't know the total revenue, but I believe our 
timber receipts--I will have to get back to you. No, I don't.
    Mr. LaMalfa. Okay, please do.
    With them down significantly, and since recreation is a 
primary driver of road use; how much is being done to boost 
what is coming in on recreation fees, not by just raising the 
fees, but actually having more access in order to keep from 
losing more roads to deterioration?
    Ms. Lago. Our annual recreation fee collection is about 
$100 million. Eighty-five percent of that goes back to the site 
where it was generated, and the decision about fees for 
recreation use is on a site-by-site basis.
    Mr. LaMalfa. I mean, as far as boosting the amount of 
recreation happening, is that a part of the strategy?
    Ms. Lago. On an individual site basis, the local management 
can and does suggest a fee increase, or to add an additional 
site into the fee revenue program.
    Mr. LaMalfa. Yes. I am not angling for fee increases, but 
just more access where it is possible.
    So, I am over time. I will yield back, Madam Chair.
    The Chair. I now recognize the gentlewoman from Ohio, for 5 
minutes.
    Ms. Fudge. Thank you, Madam Chair, and thank you, Chief 
Lago, for being here this morning.
    I want to change the subject a bit to Job Corps, if we 
could just talk about that for a bit. The Job Corps Civilian 
Conservation Centers in particular.
    We know that last year almost 2,000 Job Corps students from 
under-served communities contributed more than 100,000 hours to 
infrastructure improvements and to maintenance projects. Tell 
me what you see as the opportunity to grow that program?
    Ms. Lago. Yes, ma'am. Thank you.
    Just this week, Secretary of Agriculture Perdue traveled to 
Denver, national Job Corps headquarters, and met with our Job 
Corps leadership, several center directors, and laid out a plan 
for a more formal program between National Forests and the Job 
Corps centers where they reside to have more students doing 
restoration and maintenance work on Forest Service facilities, 
more conservation-related trades at Job Corps centers, and 
ultimately, more hiring of Job Corps graduates into Forest 
Service jobs.
    Ms. Fudge. If I understand you correctly then, USDA is 
supportive of the program, wants to keep the program, and is 
going to try to broaden the program?
    Ms. Lago. Yes, ma'am.
    Ms. Fudge. Good.
    Let me also ask, do the students who participate in this 
program have any path toward becoming employed with the Forest 
Service or some other land management agency?
    Ms. Lago. Yes, ma'am. We currently have an authority called 
Public Land Corps Authority, which Job Corps students qualify 
for by doing certain number of hours of restoration work on 
public land. They are still required to compete for jobs in an 
open merit application.
    What we would like to do is work with OPM on a direct hire 
authority for Job Corps graduates.
    Ms. Fudge. Can you tell me just for maybe some of my 
colleagues' benefit who are not familiar with the program, how 
has this program helped the agency?
    Ms. Lago. Well, you said it yourself. More than 2,000 
students and 100,000 hours on projects doing restoration work 
in National Forests.
    In addition to those numbers, we have upwards of 300,000 
students annually supporting firefighting, either doing things 
like mobile cooking camps, or actually being on the fire line. 
About, ten of our 24 centers have conservation trades. You 
know, the typical trade at Job Corps is carpentry, masonry, 
plumbing, painting, auto mechanics. We have ten centers where 
we have forestry-related trades, and we would like to expand 
the conservation trades to all of our centers.
    Ms. Fudge. Well, I just appreciate the fact that the 
program is going to continue. It is an outstanding program. It 
gets young people involved at a level that we could never do in 
any other way.
    I thank you, Assistant Chief, and I yield back, Madam 
Chair.
    The Chair. Thank you. I now recognize the gentleman from 
Mississippi, for 5 minutes.
    Mr. Kelly. Thank you, Madam Chair.
    I guess, what is the primary purpose of the National 
Forests?
    Ms. Lago. To have enduring natural resources for the 
nation.
    Mr. Kelly. And specifically for recreation or for people--I 
know there is some money-making, but sometimes we forget the 
main thing has got to be the main thing, and it is to provide 
opportunities for people who may not have forests of their own 
to go enjoy that, the recreation, and also, there is some 
financial benefits to the United States as a whole. But it is 
to provide those opportunities, recreational and hunting and 
other things, for our people.
    I just ask that you remember, the main thing has always got 
to be the main thing. And so, I ask that we do all that we can 
to keep that open and accessible to all those hunters and 
recreationers and campers and bikers and cross-country runners 
and trail hikers, that we do everything we can. Because that is 
the purpose of these National Forests, what it was originally, 
is to keep that open.
    That being said, the House farm bill last time contained 
several categorical exclusions that would have streamlined NEPA 
for reconstructing or rehabilitating National Forest 
infrastructure, from roads to dams and bridges, even bathroom 
and shower facilities at recreational sites. How would these 
CEs have been helpful to saving time and money, while 
addressing the backlog of deferred maintenance programs?
    Ms. Lago. Yes, sir. Thank you, Congressman.
    The CEs that did not get included in the farm bill are very 
similar to the CEs we have just proposed in our rulemaking for 
NEPA for infrastructure for roads, bridges, and facilities. And 
we have existing CEs for routine maintenance. But, most of our 
facilities need something beyond routine maintenance, major 
reconstruction, decommissioning, and so, these CEs in the 
footprint of an existing structure allow us to be consistent 
with state law, Federal law, documenting a decision, do that 
work without going through a longer environmental analysis.
    Mr. Kelly. And I just want you to understand, this has 
major impacts. I received several calls last year when we 
closed some National Forest roads, trails--that cars could go 
on--to my squirrel hunters and folks who use those National 
Forests to do that. There are significant impacts that maybe 
you guys don't always see, but I can assure you, when you start 
getting calls at the Congressional office because my squirrel 
hunters can't get to where they want to go.
    What have we done to do public-private partnerships? Are 
you forbidden to do that? You know, because a lot of these 
folks would go on and improve those trails, which would also 
make them accessible to fight fires. Or are we co-oping with 70 
percent of the engineers in the entire United States Army or in 
the Guard and Reserves? Camp Shelby is a National Forest which 
you have engineers, and they just did a new running trail down 
there in the old rail bed system. What opportunities do we use 
to use those to help us with the maintenance under the 
supervision of the Forest Service?
    Ms. Lago. Yes, sir. Thank you.
    In a minute and 47 seconds, I won't be able to tell you all 
the partnerships that we have, but for example, we have 
partnerships with user groups--and I mentioned before Student 
Conservation Association, Ducks Unlimited. We also have 
partnerships with counties in particular that help us maintain 
roads. The Army National Guard has an authority--because they 
are largely engineers--they can do major construction, 
reconstruction, demolition work on our sites and our 
facilities.
    The pathway to those things is the instrument that 
documents the agreement and what each side needs to do. We can 
be bureaucratic about that. We need to instill all of our 
workforce with the curiosity and the innovation to use those 
partnerships.
    Mr. Kelly. What can we in Congress and on this Committee do 
to make that process easier?
    Ms. Lago. Sir, the attention in this hearing is a 
tremendous, tremendous value. I will confer with my staff about 
what is limiting in those partnerships and be happy to visit 
with your staff.
    Mr. Kelly. Please let me know. As an Army engineer who 
still serves, I am interested in whatever we can do to make 
this easier for you all so that we can serve the main thing, 
the public that we are trying to give opportunities, offer 
recreation to.
    And with that, I yield back, Madam Chair.
    The Chair. Thank you. I now recognize the gentlewoman from 
Maine, for 5 minutes.
    Ms. Pingree. Thank you very much, Madam Chair, and thank 
you to the Chair and Ranking Member for holding this hearing, 
and to Associate Chief Lago, thank you very much for being here 
today and for your long career and service in the Forest 
Service. That is so important to all of us.
    I am also on the House Appropriations Committee, the 
Interior Subcommittee, so we had a very interesting and 
instructive hearing earlier this year with Chief Christiansen. 
We appreciated that very much, and also have spent a lot of 
time trying to understand the funding of the Forest Service and 
the unique challenges you have been dealing with because of the 
wildfires and the challenges out West.
    I am going to take a little bit different tact because I am 
a Representative from Maine, and in Maine, we know the 
importance of our forests. Eighty-six percent of Maine is 
forested land. Only six percent of that is public, so very 
different from the issues we deal with in the West. I think 
that is the highest percentage of any state in the nation. We 
have almost 17 million acres of forests, 16 million of which 
are privately-owned, and that supports about 30,000 good paying 
jobs.
    One imminent concern that we feel our forests can help us 
with is the issue of climate change, but it also presents a 
challenge. Forests are facing rising temperatures, increased 
and prolonged drought, extreme weather events, invasive 
species, all contributing in many ways to widespread declines 
in the forest health.
    But on the other hand, forests can be a positive force for 
change in the climate debate because of their role as carbon 
sinks. Just last week, there was an article in the Portland 
Press Herald in Maine that highlights the carbon store capacity 
of our Maine forests, and without objection, Madam Chair, I 
would like to submit that for the record.
    The Chair. Without objection.
    [The article referred to is located on p. 68.]
    Ms. Pingree. Thank you.
    By promoting the value of working forests in the United 
States and recognizing the continual cycle of growth, 
harvesting, and replanting, our working forests provide a 
carbon solution.
    Can you tell me a little bit about some of the efforts by 
the Forest Service that promote healthy working forests, and 
the carbon benefits associated with growing trees and the wood 
products they produce?
    Ms. Lago. Yes, Congresswoman, thank you.
    We have a branch of the Forest Service called State and 
Private Forestry. We have authorities under State and Private 
Forestry that enable us--and first of all, recognizes there is 
800 million acres of forest and land in this country owned by 
states and private entities, and it is just as important for 
conservation on those lands as on Federal lands. Our State and 
Private Forestry authorities allow us to work with State 
Foresters, private land owners, industrial corporations on 
conservation efforts.
    Just this morning, talking about innovation and 
partnerships, one of my colleagues sent me an announcement from 
the National Forest Foundation, U.S. Endowment for Forests and 
Communities, and the Forest Service Partnership Office, 
announcing grants for public-private partnerships for forest 
stewardship and forest conservation. There is a lot of growing 
interest in the importance and the benefits to all of us from a 
health standpoint, from a climate change standpoint of keeping 
forests healthy.
    Finally, in the Southeast and in the Northeast, we have 
programs called Keeping Forests Forests. They are big 
partnerships between us, state forests, and industrial land 
owners.
    Ms. Pingree. Just to tack on one of the earlier questions, 
I know the Forest Service is trying to streamline the NEPA 
review to make it easier for people to manage forests without 
significant environmental review. But what will you do if those 
management practices aren't actually storing carbon? Are they 
considering carbon sequestration in their efforts to streamline 
NEPA reviews, or is that not part of the consideration?
    Ms. Lago. No, ma'am, I don't see carbon sequestration as a 
calculus in those environmental reviews.
    Ms. Pingree. Okay. Well, I will follow up on that later.
    One other quick thing. I am very familiar with the USDA's 
regional climate hubs and have asked other USDA agencies about 
their hubs in previous hearings. Based on budget documents that 
I have received from USDA, I understand the Forest Service 
spent $3.3 million on the climate hubs in 2016, which I think 
is great, but the 2019 estimate is $400,000. Given the 
challenges that we are dealing with, why is there such a big 
drop, and do you see those as a valuable part of what you are 
doing?
    Ms. Lago. Yes. Our investment and our continued commitment 
to climate hubs is significant. I don't have the dollar values 
at hand. I can research that with staff and get back to you or 
submit it for the record.
    Ms. Pingree. Great. Well, I do have great concerns about 
that number going down, and I appreciate your talking about the 
value of them.
    And I am basically out of time, so again, thank you very 
much for your answers to the questions.
    Ms. Lago. Thank you.
    The Chair. I want to recognize the Chair of the full 
Committee has joined us. Thank you for being here, Chairman 
Peterson, and I now recognize the gentleman from Georgia, for 5 
minutes.
    Mr. Allen. Thank you, Madam Chair, and thank you for being 
with us today.
    In your written testimony, you mentioned that perhaps most 
critically, forest infrastructure provides fire protection for 
communities, especially by providing access to forest lands and 
roads for firefighters and emergency responders during rescue 
operations.
    Due to the deferred maintenance backlog, how many miles of 
Forest Service system roads have been decommissioned over the 
past 10 years?
    Ms. Lago. I don't have 10 year figures. On an average 
basis, I think we decommission somewhere between 300 and 400 
miles of road a year. It is not strictly related to deferred 
maintenance. There might be restoration management objective 
tied, but in any event, I will get you 10 year figures.
    Mr. Allen. Okay. All right, and during wildfire 
suppression, what percentage of decommissioned roads from 
within the fire perimeter are reopened and used for suppression 
activities? Do you have any idea?
    Ms. Lago. I don't know on a percentage basis.
    Mr. Allen. Okay.
    Ms. Lago. I know we do do that. The fire line officer has 
the call on it.
    Mr. Allen. Right, okay.
    And then to that, can you further elaborate on the 
potential threat the deferred maintenance poses on being able 
to respond to wildfires, and as a result, additional damage to 
forest infrastructure?
    Ms. Lago. I can't quantitatively summarize it, but the 
deferred maintenance accumulates not just on roads, but also 
our fire guard stations, our air tanker bases, our bunkhouses 
where our firefighters are housed over the summer. So, the 
accumulated effect of that is our capacity is diminished where 
it wouldn't otherwise be.
    Mr. Allen. And why is your capacity diminished? I mean, why 
would you do that?
    Ms. Lago. Well, we are not able to house people in 
bunkhouses because of the deteriorating condition.
    Mr. Allen. I got you.
    Well, then that gets to my next question. The U.S. Forest 
Service recently completed its comprehensive Capital 
Improvement Plan. Can you further detail how you plan to 
implement this strategy, going forward, as far as dealing with 
these issues?
    Ms. Lago. Yes, sir. Thank you.
    Our plan has been released in the last couple of weeks. 
What it primarily does is identifies criteria for submitting 
projects for the national prioritization, and those criteria 
include access to active forest management, access to 
recreation facilities, access for fire operations, research and 
development, and revenue generating destinations. Those 
criteria are applied to the submitted project. It runs through 
a model. The model prioritizes projects, and so we have funding 
set aside and cut off the funding at the level that----
    Mr. Allen. Outside of that, what is your biggest challenge?
    Ms. Lago. The level of funding.
    Mr. Allen. The level of funding?
    Ms. Lago. Yes, sir.
    Mr. Allen. You are looking at Members of this Committee who 
are Members of the United States Congress, and you need more 
funding?
    Ms. Lago. That is correct.
    Mr. Allen. Okay. All right. Thank you, and I yield back.
    The Chair. Thank you. I now recognize the gentleman from 
Arizona.
    Mr. O'Halleran. Thank you, Madam Chair.
    My district contains all or parts of six National Forests, 
and the Grand Canyon, and 22 other National Parks and 
monuments. I fully understand the conditions that you are 
under, because I live in Forest Service country. I also--my 
house is located--I take Forest Service roads back to the 
house. That road hasn't been touched by a blade in about 20 
years, and we even offered at one time to pay for part of it--
well, half of it, and they still didn't--because they only have 
one grader for the entire Coconino National Forest. And that 
grader has to be borrowed by the Kaibab sometimes in order to 
get some roads done over there. And so, this whole concept of--
how many personnel has the Forest Service lost or percentage in 
the last decade because of funding?
    Ms. Lago. I have heard the figure \1/3\, 33 percent in non-
fire professions. I would have to double check is that the last 
10 years or some other time period, but that is the figure that 
I am familiar with.
    Mr. O'Halleran. And how much more personnel are you going 
to be able to hire now that you have been able to get the fire 
funding off your books?
    Ms. Lago. That is a good question. It is not easy to 
answer.
    In my own career, we have changed significantly from using 
Forest Service employees and equipment doing projects, road 
projects, for example, to funding partners or counties or 
contract workers. So, the increase in funding may not 
necessarily turn around more, let's say, road crews. What we do 
need is senior experienced engineers and specialists who can 
plan and design the work, and then do contract oversight.
    Mr. O'Halleran. Well, let's put it another way. The fire 
funding has been taken out. How much has been restored to your 
budget in order to meet your other obligations and needs?
    Ms. Lago. Okay, I can do that one.
    It goes into effect in 2020, and if we had to request the 
10 year average for fire suppression, it would--which we don't, 
because the fire funding fix froze it at 2015 level, we would 
have to increase the request for fire suppression by $270 
million.
    What that means is we get to add $270 million back to 
programs, as long as our cap stays the same.
    Mr. O'Halleran. Now, it is also, at least out in the West 
and in my district, a lot of the forests were put in place 
because of watershed protection. What impact has the lack of 
funding had on the ability of us to protect our watersheds, our 
wildlife that the hunters love, and our fish that they--and the 
streams that impact the quality of our tourists and our 
recreational activities in the forest?
    Ms. Lago. Yes, sir. The two most important things that 
affect water quality and water coming off National Forests is 
healthy forest condition and maintaining the road system.
    A former long-time Member of the House, Norm Dicks, used to 
say, ``You don't fix the roads, you're going to drink the 
roads.'' Our inability to maintain the road system contributes 
to degraded water. Overcrowded, over-dense forests that 
stagnate, lead to insect infestation, wildfire, that 
contributes to poor water quality. We need to take care of 
those two things.
    Mr. O'Halleran. Well, I want to thank the Forest Service 
for helping start the 4FRI projects in Arizona. It has been 
very important. We are on another step now, and hopefully we 
will move forward again.
    But the management process that you just talked about is 
critical to watershed protection and wildlife and the whole 
ecosystem that is there. And I just look at Arizona as an 
example. We have millions and millions of acres that are not 
managed or haven't been able to be managed, I should say, that 
are just going up in fire all the time, and that is throughout 
the West. I would kind of like to know the plan of attack, 
other than a 4FRI for the other National Forests.
    Ms. Lago. Yes, sir.
    You might recall, we announced an initiative earlier this 
year that we called Shared Stewardship, and we have ten states 
now under an agreement where we are partnering with states to 
agree on the areas of highest priority treatment, and then we 
are working on those areas together. And I think that is a 
commitment that is going to build both support for the work 
that we need to do, and additional capacity for doing it.
    Mr. O'Halleran. Thank you, and I yield back.
    The Chair. Thank you. Before moving to recognize Members of 
the full Committee, I am going to recognize, for 5 minutes, the 
gentlewoman from Iowa, who stepped out. Excuse me. I apologize. 
I will now recognize, for 5 minutes, the gentleman from South 
Dakota, Mr. Johnson.
    Mr. Johnson. Thank you very much, Madam Chair.
    I know in your line of work you get a fair amount of 
criticism, but I just want to start by saying thank you on a 
personal basis, ma'am. The Black Hills National Forest is a 
ways, we have a very large Congressional district. I suppose I 
am probably 4 hours from the National Forest, but I can't tell 
you how many hundreds of memories my family has made in that 
great national asset that you, throughout your career, and your 
people have helped to maintain.
    And it is wonderful. I mean, some of the most beautiful, 
quiet moments in our lives have been nestled among those Black 
Hills ponderosa pine. Some of our most active moments of our 
life have been in that forest. And so, thank you for what you 
are doing.
    Of course, it is not just the Johnson family that enjoys 
that resource. Every year, there are millions of South Dakotans 
and folks from all over the world who recreate there. I get the 
sense that our deferred maintenance backlog is perhaps smaller 
there than in many of the forests we have discussed. Perhaps, 
because it is such an actively managed, well-maintained forest. 
We have some of the highest timber sales of National Forests in 
the country. And so, if you are willing to, ma'am, could you 
elaborate on the connection, if any, that exists between a 
well-maintained, actively managed forest and the impact that 
that can have on lower deferred maintenance?
    Ms. Lago. Yes, sir. Thank you for the opportunity, and 
thank you very much for the compliment. The Black Hills is a 
very special place, I agree.
    All our forests are similar in the way that people love 
them and rely on them. And that said, they are still unique in 
their own way. And where a forest is well-maintained, able to 
reduce deferred maintenance, my guess is that is a forest with 
a lot of thriving partnerships. We don't have the same ability 
to partner everywhere. It depends on opportunity and economic 
capacity. But it also depends on commitment to partnering.
    And so, I would put my finger on partnerships where the 
Black Hills are concerned.
    Mr. Johnson. Well, I think that is exquisitely well said, 
and I do think thriving partnerships are a key part of that 
story of a lower deferred maintenance backlog, and higher use 
of the forest. Thank you for calling out the importance of 
having a USDA commitment to that, and to the extent that that 
commitment can even grow in the Black Hills National Forest and 
elsewhere, I would certainly love to see more efforts in that 
regard.
    I hate to bring up such a terrible subject of the mountain 
pine beetle, because I know that little fellow has done a lot 
of damage in a lot of places. In the Black Hills, we had less 
damage from the pine beetle than was feared at the onset of 
this round of the epidemic, and frankly, less damage than many 
National Forests.
    I have attributed that to a more actively managed forest. I 
want to give you an opportunity to correct my misconception, if 
I have one, and offer any other thoughts you have.
    Ms. Lago. Yes, sir.
    Definitely, well-maintained forests are in a more vigorous 
condition, and a more vigorous condition allows forests to 
repel bark beetle attacks. It is a native pest. They have been 
around a long time. What has changed is the vitality of forests 
and their ability to just naturally withstand them.
    I think definitely better maintained forests, active 
management such as what we have in the Black Hills, is key to 
preventing further spread by that insect.
    Mr. Johnson. Well, Madam Chair, I would just close by 
trying to highlight some of these great phrases. This 
conversation has pulled out the importance of active 
management, being well-maintained, and having thriving 
partnerships. Those are wonderful phrases, Associate Chief. 
Thanks for the work you do, and thanks for your presence here 
today.
    Ms. Lago. Thank you, sir.
    Mr. Johnson. And I yield back.
    The Chair. I now recognize Mr. Thompson from Pennsylvania, 
for 5 minutes.
    Mr. Thompson. Thank you, Madam Chair. Thanks for hosting 
this, and Ranking Member, for this hearing.
    Assistant Chief, good to see you. Thank you for your 
service and your record of service to the nation through the 
Forest Service, I greatly appreciate it. Also, special thanks 
when you were testifying on the other side of the Capitol in 
the Senate Energy and Natural Resources Committee. You used 
Longhouse Drive in the Allegheny National Forest as an example 
of the threat of lack of maintenance and roadways 
deteriorating. And as you really nicely point out in your 
testimony, the users of that road contribute about $1.5 million 
a year to the local businesses, local economy. That just speaks 
to the importance--the economic importance of this.
    You have talked a lot about partnership. I am going to 
start out by really--I think one of our best partners--and we 
have many great partners, obviously, with the Forest Service--
but one of the best partners are those from the forest products 
industry, the timber industry, that bid on contracts, help us 
so that we can maintain a healthy forest. We make it so that 
they are the largest carbon sinks in the world. Also, as my 
friend across the aisle talked about making sure that those 
healthy forests are--making sure that we have a great 
filtration system for those watersheds that start in our 
National Forests.
    And so, I am concerned right now. The first thing I have 
for you is not really looking for a response on, just a request 
to take back. And I am going to follow up in writing; but, the 
situation with the tariffs, and specifically the hardwoods 
industry, we have a lot of folks, good people that bid and 
obtain contracts. Specifically, I am going to speak about 
hardwoods, because I have the Allegheny National Forest. 
Unfortunately, with the trade wars that are going on, the 
bottom just completely dropped out of the price. They bid at a 
certain price. They are mandated contracted to pursue that, but 
they have lost their market for the time being.
    I will say talking with them, they are all behind the 
President and they are supportive, and you know, they want to 
see fair and free trade, which is what the President wants.
    But in the meantime, just two things that we could look at 
that and will be sent along in a written request. You know, any 
type of trade relief for hardwoods. They were not included in 
that package. And I get it. It is different for--it might be 
because a part of this is administered--that part of trade is 
administered through commerce. I don't know why. Trees are a 
crop. It is agriculture. But they need--we are hoping, 
actually, just to get resolution to trade agreements. But if 
this goes on for any amount of time, those hardwood folks need 
this. Because if we lose those industries, then we will not 
have that valuable partner to keep our forests healthy. And in 
the long run, that would be a deterioration of tremendous 
proportions of our National Forests.
    The other thing is a request to take back is we need 
extension on current contracts, and I would say up to a period 
of 2 years at this point, because there is not a business plan 
given what the contracts are at and where the pricing has 
fallen. That may be a little more difficult, I understand, but 
those are just--not really looking for a response on that. If 
you could take that back and I will be following back up with 
certainly the Secretary and the President on those.
    The most pressing maintenance issue that we currently have 
in the Allegheny National Forest is the Mayburg Bridge located 
in Forest County. There are 128 permanent and seasonal 
dwellings in Mayburg and the bridge, which is owned by the 
Forest Service, and it is the only really practical year-round 
route in and out of that village. Thankfully, we don't have any 
kids right now living in that area, so there are no school 
buses, because that bridge would not handle a school bus. And I 
would be concerned if there is a fire, because an emergency 
vehicle is not going to be handled as well.
    Unfortunately, that bridge has fallen into disrepair and is 
in need of critical repairs. The Forest Service has indicated 
that the funding will be coming for the bridge, but there is 
still a lot of uncertainty about the future.
    Now, currently maintenance for infrastructure like this 
must be a priority, yet it is not being completed. So, it is a 
simple question. How is the Forest Service prioritizing this 
kind of maintenance, especially when it comes down to access 
for local residents and public safety?
    Ms. Lago. Thank you, Congressman.
    I thought we had the funding for that bridge and completed 
the environmental analysis, and I thought it was moving 
forward. I will double check on that.
    Funding for maintenance is part of regional allocations, 
and the priorities for maintenance is decided at the local 
level. When it exceeds routine maintenance and becomes a 
capital investment, then it is going to be subject to that 
capital investment strategy and those criteria for 
prioritization that I mentioned.
    Mr. Thompson. I appreciate it. I also appreciate your 
engagement with the community, because it was apparent in the 
beginning--I am not sure the Forest Service or whoever was 
involved even locally recognized that there was a permanent 
village, basically. People live there year-round, and quite 
frankly, it was the only way in and out. But, because of how 
you all did conduct yourselves, engaging in the community, that 
all came to light, and I really appreciate it. And I appreciate 
the support with the Mayburg bridge.
    Ms. Lago. Thank you.
    The Chair. I now recognize the gentlewoman from Washington, 
for 5 minutes.
    Ms. Schrier. Thank you, Madam Chair, and Ms. Lago, thank 
you for coming today and joining us. It is great to have a 
witness with experience in Washington forests, and I would love 
to host you back at home, along with the Forest Service Chief, 
in the district--which by the way, includes Mount Rainier, the 
Mount Baker-Snoqualmie National Forest----
    Ms. Lago. Beautiful area.
    Ms. Schrier. To raise some of these various issues on 
deferred maintenance, and in addition to the deferred 
maintenance projects the Forest Service Legacy Roads and Trails 
Remediation Program is a critical program that leverages 
dollars outside of the Forest Service to address water quality 
issues, and I have an appropriations letter for the record that 
I would like to submit, outlining the importance of that 
program, and the need for it to have a dedicated line item.
    The Chair. So noted.
    [The letter referred to is located on p. 72.]
    Ms. Schrier. The program was created in 2008, because the 
general Forest Service road maintenance budget was unable to 
address the sheer volume of blocked culverts, landslides, and 
washouts, which were impacting water quality and access for 
threatened and endangered species. And in Washington State and 
other parts of the country, the program is critical to address 
water quality issues and habitat, particularly for Chinook 
salmon, bull trout, and steelhead. These fish are an important 
part of the Northwest culture, heritage, ecosystem, and they 
have suffered heavily, as you know. A recent New York Times 
report stated that the Chinook salmon may be extinct in 20 
years. I will also add that Chinook salmon are the key food 
source for the endangered southern resident Orcas, and old 
weather-damaged roads and broken culverts are key culprits in 
this demise.
    Washington State has invested millions, multiple millions 
of dollars to address downstream barriers and culverts, 
including dams and whatnot, while the Chinook salmon spawning 
grounds are located upstream in the National Forest headwaters.
    And on page 4 of your testimony, you outline the criteria 
for road projects, listing priorities. And unfortunately, the 
projects that improve wildlife and aquatic passage are last. 
And so, I was just wondering if you could expand on this and 
help me understand how projects affecting water quality can be 
addressed in a timely manner when the Forest Service is facing 
a $5+ billion backlog?
    Ms. Lago. Yes, thank you, Congresswoman.
    When I was still in the Pacific Northwest, we hosted a 
chiefs review, and the theme of the entire review was Save our 
Salmon. I really understand the integral role of salmon in the 
economy and lifestyle, and that ecosystem.
    In addition to the criteria, which includes benefits--the 
ability to be an economic driver in water and recreation, there 
is an intangible benefit criteria. You know, salmon is a lot 
more--and water quality is a lot more than an intangible 
benefit certainly, and local managers--also there is a layer 
where they put a personal priority on their projects, based on 
their knowledge of local issues and what is important to the 
local economy, people, community.
    So, there is more than just the criteria that I named in my 
testimony. It is fair to really think about how we are valuing 
water, the economic value of water, as well as the fact that we 
all rely on it. I will go back and discuss that.
    Ms. Schrier. Thank you, and the way I interpreted economic 
was really related to timber; but, if you think about the 
recreational economy and salmon and habitat and our Tribes, 
that those do weave in economics.
    Yes. I appreciate your going back. I think that is it, and 
I would just like to reiterate my invitation, and thank you for 
paying attention to this issue.
    I yield back the rest of my time.
    The Chair. Thank you. I now recognize the gentleman from 
California, for 5 minutes, Mr. Panetta.
    Mr. Panetta. Thank you, Madam Chair. I appreciate you 
allowing me to sit in on this very important hearing, 
especially when it comes to my district on the Central Coast.
    Ranking Member LaMalfa, good morning, and good morning, 
Chief. Thank you for being here. I appreciate your testimony 
and appreciate your service.
    I represent the Central Coast of California, Big Sur Los 
Padres National Forest, and in 2016, I am sure you know well, 
we had a pretty extensive fire there called the Soberanes fire, 
which encompassed about 206\2\ miles being burned, and the cost 
at the time was the most expensive in our nation's history at 
the time, until recently, a cost of about $260 million.
    The reason that fire started was because of an illegal 
campfire, unfortunately, and we are seeing a lot of that, 
especially in Los Padres Forest, in the sense that you have a 
number of people out there, despite the numerous signs 
everywhere, saying don't do something as stupid as that. But 
people continue to conduct themselves in that manner, 
unfortunately. Obviously, it would be nice to have staff there, 
Forest Service officers there, who actually are on the grounds 
and enforcing those types of laws. But unfortunately, we had to 
resort to certain volunteers. I say unfortunately because that 
shouldn't be their job. They are not armed. They don't have the 
right law and the legal background to enforce those types of 
laws. But that is what we have had to resort to in order to 
ensure that people are out there, making sure that people don't 
do these acts that could threaten--the forest could threaten 
people.
    Obviously staffing is a big issue, and you know that. And 
so, I was wondering if you could elaborate on any sort of plans 
that you have to address the chronic staffing issues, obviously 
not just in Los Padres National Forest, but in other National 
Forests across our country?
    Ms. Lago. Yes, sir. Thank you.
    As I mentioned, and I am not sure if you were in the room 
at the time.
    Mr. Panetta. And I apologize if I was not. I just came in 
late. Thank you.
    Ms. Lago. No problem. The result of the fire funding fix is 
we have room, if our cap stays the same, to request funding for 
other programs that would have had to go to the 10 year average 
for fire suppression. And so, we are deeply aware of the 
shortages in many programs. Law enforcement and fire prevention 
are two of the areas forest protection officers--which is a 
designation for people in all kinds of resources--but in 
addition to their resource job, they patrol. So, having more 
people on the ground is something that we are acutely aware of.
    We did get direct hire authority recently for firefighting 
jobs, which allows us to more efficiently hire people to be on 
the ground. It will last for 1 year while OPM sees how we use 
it. There is not unlimited money. We all know that. Being more 
efficient with the money that we have and prioritizing these 
on-the-ground activities is how we can address those issues.
    Mr. Panetta. Got you. Thank you. Thank you. I appreciate 
that.
    Now, obviously, and I know you have talked about deferred 
maintenance, and in Los Padres, our deferred maintenance 
exceeds $24 million.
    First of all, my question is where does that lie relative 
to other National Forests and deferred maintenance?
    Ms. Lago. I believe I submitted for the record a deferred 
maintenance breakdown by state. I don't have one by forest, but 
I am sure it exists and I would be happy to supply it.
    Mr. Panetta. Understood.
    Obviously, as we approach the start of the new fiscal year, 
as the wildfire fix funding becomes available, can you give me 
a little bit of light on the priorities, little bit of light on 
your priorities, specifically whether you will be prioritizing 
deferred maintenance backlog? I would like to hear about Los 
Padres, but I would be more than willing to hear about 
California.
    Ms. Lago. Okay, thank you.
    A lot of people will eventually weigh in on what the 
priorities are.
    Mr. Panetta. Sure.
    Ms. Lago. We have had a continuing emphasis on active 
management and reducing fuels. I don't see that changing. This 
hearing helps us highlight the issue of maintenance and 
deferred maintenance for our facilities. It is felt throughout 
the Forest Service and throughout the communities that we 
serve. I am happy to work with you and your staff and this 
Committee's staff on how to prioritize, going forward.
    Mr. Panetta. Outstanding. I look forward to that.
    I yield back my time. Thank you, Madam Chair.
    The Chair. Thank you. With the first round of questions 
completed and without objection, we will begin a second round 
of questions. Members will be recognized for 3 minutes in order 
of seniority.
    All right. I will begin by recognizing myself for 3 
minutes.
    Associate Chief Lago, thank you for all of your answers 
today, and I would also offer for the hearing record a copy of 
the Department of Commerce's news release on outdoor recreation 
economy.
    [The news release referred to is located on p. 29.]
    The Chair. The report released just last week shows that 
the outdoor recreation economy accounted for 2.2 percent of GDP 
and supported 5.2 million jobs in 2017. This not only includes 
conventional activities like camping, hiking, boating, but also 
value-added activities such as construction and travel. For the 
first time, the report included information on the recreation 
industry's contributions by state.
    Is data from reports like this considered as the Forest 
Service prioritizes maintenance, and does the Forest Service 
use data like this to leverage assistance from states and other 
partners?
    Ms. Lago. Yes, thank you, Madam Chair.
    First of all with regard to that report, it is interesting 
that the statistic of 2.2 percent might sound small, but it is 
interesting to note that it is growing almost 50 percent faster 
than general GDP. And I can tell you from the communities that 
I have lived in, the ones that I hear from that depend on a 
recreation economy, it is far more impactful to their economies 
than 2.2 percent.
    We recognize that 15 states across the country now have 
recreation officers, so showing that states recognize the 
importance of this recreation economy. It is not right for 
every state, but definitely the recognition of the Commerce 
Department, our own within USDA, not just our agency, but Rural 
Development has an expanding recreation economy interest. So, 
it helps us bring partners to the table. It helps us bring 
investors to the table.
    So, to answer your question in a word, yes.
    The Chair. Thank you so much, and coming from the 
Commonwealth of Virginia where we have seen recreation continue 
to be a strong use of our natural resources and a major 
economic driver here, I thank you for your comments.
    I now recognize Mr. LaMalfa, for 3 minutes.
    Mr. LaMalfa. Thank you again. I appreciate, again, 
Assistant Chief Lago, for your being here.
    I wanted to delve a little bit more into, again with the 
road maintenance and the issues there where access has been 
more difficult over the years. We have wrestled in northern 
California with what is being put in travel management plans, 
and it seems like it just means less and less access. We are 
finding more and more closed gates and less ability for people 
during the snow season for snowmobiling or off-road activity, 
hunting, anybody to take vehicles in, or without vehicles. We 
are finding more and more closed gates.
    Does this tie in partly towards a changing view of the 
multi-purpose, multi-use forest policy, or is it more about the 
backlog we have of maintenance? You are talking about bridges 
being removed and no longer counting them as an asset, but you 
know, a great amount of frustration by my constituents, and 
neighboring districts as well, is that whether you call it the 
travel management plan or the maintenance backlog, it is just 
meaning less access.
    The travel management plan efforts, are they moving in that 
direction because of the lack of maintenance, or is it some 
other philosophical shift?
    Ms. Lago. Thank you, Ranking Member.
    We are not walking away from the multiple-use sustained 
yield mandate from Congress. It is more the observation that we 
want people to have access to their public lands. They don't 
need public lands if they don't have access to them. But we 
need to maintain the resource in a healthy condition, but we 
also need to maintain those roads in a safe condition for 
people to use them, roads and trails.
    Our effort at travel management is aimed at looking at the 
resource from the standpoint of what can we safely provide?
    Mr. LaMalfa. Okay. Well, even as Mr. Panetta mentioned 
here, he had a six-digit fire in number of acres in his 
district. We have multiple six-digit fires in the more northern 
part and other western states, and an important component of 
being able to do the pre-fire work is this access, and as well 
when it does come to fire suppression time, having these roads 
available and intact bridges and all that, and not closed gates 
and all that.
    Can you please comment on the fire aspect of that and how 
important it is we step back up on this?
    Ms. Lago. Well, yes, sir. Roads are an essential way that 
we stop fires before they get large, get people out of harm's 
way when there are fires, and we absolutely need a safe, 
accessible road system to be able to fulfill that part of our 
mission.
    Mr. LaMalfa. The multi-use? Okay, thank you. I yield back.
    The Chair. I now recognize Mr. Thompson, for 3 minutes.
    Mr. Thompson. Madam Chair, thank you.
    Chief, I just want to check in. I know in the Forest 
Service we use a concessionaire style approach, and 
concessionaires play a very important role, obviously. They 
help us where we need, it helps supplement the staffing and in 
keeping areas open and access. My understanding, it's the 
Granger-Thye Act which basically defines a landlord-tenant 
relationship where the Forest Service is the landlord 
responsible for all behind-the-wall fixes, including the 
maintenance, capital improvements. And the tenant, the 
concessionaire, just keeps everything clean and operating.
    My question for you is would you like to have the authority 
actually that has been granted to the Department of Defense and 
to the Army Corps of Engineers which allows, basically, where 
30 year leases are an option--not mandated, but an option, and 
in that 30 years, that longevity, what would be that the 
concessionaires are able to take on the responsibility for some 
of the capital improvements.
    Today, that doesn't occur in the Forest Service with a 
concessionaire system. I don't know the timeline on when the 
Department of Defense and the Army Corps made that transition. 
Just a simple question. Was that something Forest Service would 
want to consider getting the authority to do? Obviously, we 
would have to provide that through the bill or whatever.
    Ms. Lago. Yes, sir. I am not sure what the Army Corps of 
Engineers authority is, but in fact, the Forest Service did get 
leasing authority in the 2018 Farm Bill. We are developing 
rules and directives, but it would enable us to do those kind 
of long-term leases. I am not sure of the time period, but also 
to enable the leaseholder to do improvements.
    I think the Park Service has some kind of authority like 
that, too. I can check on that and get back to you.
    Mr. Thompson. I appreciate that. It just seems like it is 
working well with the Army Corps. I have seen some of the 
projects, obviously, in my Congressional district from time to 
time with what these folks do, and so, it would be great to be 
able--I am glad to hear that we provided at least part of that 
authority.
    Ms. Lago. Yes, sir.
    Mr. Thompson. If we haven't done enough, please let us 
know. We want you to have the authority to be successful.
    Ms. Lago. Thank you.
    Mr. Thompson. Thank you, Madam Chair. I yield back.
    The Chair. And I now recognize Ranking Member LaMalfa for 
one more 3 minute question.
    Mr. LaMalfa. Just one more. Thank you so much.
    Again, when we were talking about the backlog, when we are 
seeing the Forest Service absorbing more lands through 
donations from maybe NGOs or other instances, or the LWCF has 
also introduced more land back into Forest Service control. How 
is that contributing to the backlog and your ability to keep 
up, and as well as updating this $5.2 billion backlog figure?
    Ms. Lago. Well, that is a great question.
    I am not sure what the value or the assets that a lot of 
the lands that we acquire through Land and Water Conservation 
Fund. I am familiar with areas that we prioritize because they 
have important wildlife habitat value, water quality value, 
that kind of thing, which leads me to think they don't have a 
lot of infrastructure on them. But you know, I don't know that 
conclusively and I would have to do some checking.
    Mr. LaMalfa. I would be really interested in that, how much 
that is adding to the burden of an already difficult situation.
    So, with that, I appreciate it, Madam Chair, and for your 
appearance today, Ms. Lago, and I will yield back.
    The Chair. Thank you. I would like to thank Associate Chief 
Lago for her comments and for her time here today.
    What we have heard today underscores the importance of the 
Forest Service's work, and the challenges it faces. I hope we 
all leave here with an appreciation for the role that well-
maintained forest infrastructure can have significant impacts 
on people's lives, their work, and their play in and around 
National Forests, as well as the communities and economies 
surrounding our National Forests.
    We have also heard loud and clear that dozens of 
infrastructure projects are ready for implementation, but 
require the necessary funding, and carrying out these much-
needed maintenance projects will support jobs in rural 
communities, as soon as the Forest Service receives the funding 
to complete them.
    I hope that we all leave here with a better sense of what 
we can do in the Subcommittee to help the Forest Service carry 
out its mission, and again, I thank you, Ms. Lago, for your 
time today.
    Before we adjourn, I invite the Ranking Member to make any 
closing remarks that he may have.
    Without any, under the Rules of the Committee, the record 
of today's hearing will remain open for 10 calendar days to 
receive additional material and supplemental written responses 
from the witness to any question posed by a Member.
    This hearing of the Subcommittee on Conservation and 
Forestry is adjourned.
    [Whereupon, at 11:23 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      Submitted News Release by Hon. Abigail Davis Spanberger, a 
                Representative in Congress from Virginia
News Release
Embargoed Until Release At 8:30 A.M. EDT, Friday, September 20, 2019
BEA 19-45
https://www.bea.gov/news/2019/outdoor-recreation-satellite-account-us-
and-prototype-states-2017

    Technical: Christian Awuku-Budu (Regional),(301) 278-9235, 
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c2319180803031e3e090f1e090d180503022c0e090d420b031a">[email&#160;protected]</a>
    Connor Franks (Industry), (301) 278-9710
    Media: Thomas Dail, (301) 278-9003, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="efbb8780828e9cc1ab8e8683af8d8a8ec1888099">[email&#160;protected]</a>
Outdoor Recreation Satellite Account, U.S. and Prototype for States, 
        2017
New prototype statistics show state value added, compensation, and 
        employment
    The U.S. outdoor recreation economy accounted for 2.2 percent 
($427.2 billion) of current-dollar gross domestic product (GDP) in 2017 
(national table 2) according to statistics released today by the Bureau 
of Economic Analysis. The Outdoor Recreation Satellite Account (ORSA) 
also shows that inflation-adjusted (real) GDP for the outdoor 
recreation economy grew by 3.9 percent in 2017, faster than the 2.4 
percent growth of the overall U.S. economy. Real gross output, 
compensation, and employment all grew faster in outdoor recreation than 
for the economy as a whole.
    With this release, BEA introduces prototype statistics on outdoor 
recreation for all 50 states and the District of Columbia. These new 
statistics show that the relative size of the outdoor recreation 
economy ranged from 5.4 percent of GDP for Hawaii to 1.2 percent of GDP 
for the District of Columbia.
Outdoor Recreation Value-Added: Percent of State GDP, 2017

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          U.S. Bureau of Economic Analysis.
Outdoor Recreation by Activity
    For the first time, ORSA includes information on the contribution 
of outdoor recreation activities to GDP. These data, referred to as 
value added by activity statistics, are available at both the national 
and state level.
    Activities are grouped into three categories: conventional core 
activities (such as camping, hiking, boating, and hunting); other core 
activities (such as gardening and outdoor concerts); and supporting 
activities (such as construction, travel and tourism, local trips, and 
government expenditures).
    Conventional outdoor recreation accounted for 30.6 percent of the 
outdoor recreation economy nationwide in 2017, other recreation 
accounted for 19.3 percent, and the remaining 50.1 percent was 
supporting activities (national table 2).
Nominal Value-Added for Largest Conventional Outdoor Recreation 
        Activities, 2017 ($ Billions)
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Other value added by activity highlights include the following:

  <bullet> Boating/fishing was the largest conventional activity for 
        the nation as a whole at $20.9 billion in current-dollar value 
        added. At the state level, this was the largest conventional 
        activity in 29 states and the District of Columbia, led by 
        Florida ($2.7 billion) and California ($1.8 billion).

  <bullet> RVing was the second-largest conventional activity 
        nationally with $16.9 billion in current-dollar value added. It 
        was also the largest conventional activity in nine states, led 
        by Indiana ($2.9 billion) and Ohio ($599.5 million).

  <bullet> Snow activities was the sixth-largest conventional activity 
        at the national level with $5.6 billion in current-dollar value 
        added. At the state level, snow activities was the largest 
        conventional activity in Colorado ($1.5 billion), Utah ($549.2 
        million), and Vermont ($175.9 million).

  <bullet> Guided tours/outfitted travel, part of the other core 
        activities category, accounted for $12.9 billion and was also 
        one of the fastest growing activities in 2017, growing 11.4 
        percent.
Outdoor Recreation by Industry
    Today's data also show the role that different industries play in 
the outdoor recreation economy, including their impact on value added, 
gross output, employment, and compensation. The arts, entertainment, 
recreation, accommodation, and food services sector was the largest 
contributor to the U.S. outdoor recreation economy in 2017, accounting 
for $112.9 billion (national table 10). At the state level, this same 
sector was the largest contributor to outdoor recreation for 26 states 
and the District of Columbia.
Industry Composition of Outdoor Recreation Nominal Value-Added, 2017 ($ 
        Billions)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Other value added by industry highlights include the following:

  <bullet> Retail trade had the second largest sector contribution to 
        outdoor recreation nationally, accounting for $95.7 billion of 
        current-dollar value added. Retail trade was the largest 
        contributor to outdoor recreation value added in 17 states, 
        including Texas ($8.5 billion), Washington ($2.8 billion), and 
        Ohio ($2.7 billion).

  <bullet> Manufacturing contributed $51.7 billion nationally to the 
        outdoor recreation economy in 2017 and was the third largest 
        outdoor recreation sector. At the state level, manufacturing 
        was the largest sector for outdoor recreation value added in 
        Indiana ($4.7 billion), Wisconsin ($2.0 billion), Louisiana 
        ($1.6 billion), and Kansas ($684.2 million).
Seeking Public Comment
    The public is invited to submit comments on the prototype state 
statistics by emailing <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98d7edecfcf7f7eacafdfbeafdf9ecf1f7f6d8fafdf9b6fff7eeb6">[email&#160;protected]</a> Comments are due by 
March 31, 2020. The feedback will be used to help finalize data sources 
and methodology for the state outdoor recreation statistics. Official 
state statistics are scheduled for release in the fall of 2020.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
  Preparing State-Level Outdoor Recreation Satellite Account Estimates
 
    State Outdoor Recreation Satellite Account (ORSA) statistics isolate
 the economic activity associated with outdoor recreation spending and
 production in a state's economy. The state-level prototype statistics
 are an extension of the national industry ORSA statistics. The
 concepts, definitions, and methodology used to produce state-level
 prototype statistics are consistent with the national industry
 concepts, definitions, and methodology. The U.S. ORSA methodology paper
 (https://www.bea.gov/resources/methodologies/outdoor-recreation-
 satellite-account-methodology) provides more information about these
 concepts, definitions, and methodology.
 
                     Geography of outdoor recreation
 
    Outdoor recreation is measured by place of production, not residence
 of consumer. The value of manufactured goods, such as boats, is
 assigned to the state where they are produced, even if the goods are
 not ultimately used there. Services, such as sailing lessons, are
 assigned to the location where they are consumed. The value of services
 provided by retailers, such as boat dealers, is also assigned to the
 location of sale. The services of retailers (known as trade margins)
 are not measured by sales but are most akin to sales less the cost of
 goods sold. The production of imported goods is excluded from ORSA, but
 the value of the services of retailers selling the imported goods is
 included.
    Outdoor recreation spending and production are allocated to states
 by applying state-level data to detailed, underlying national values.
 The underlying estimates are distributed to states before aggregation
 to publication levels to provide the most accurate state values
 possible. Prototype statistics are primarily based on time-series data
 generated from the Economic Census and Quarterly Census of Employment
 and Wages (QCEW). Additional government and nongovernment data sources
 are used to supplement the census data and to refine and evaluate the
 statistics.
 
                             Regional tables
 
    Activity tables show states' total outdoor recreation value-added
 contributions to an activity, regardless of the contributing industry.
 For example, boating value added by state represents all contributions
 by in-state boat manufacturers, marinas, repair shops, etc., to the
 boating activity.
    Industry tables show states' total outdoor recreation-related value
 added, employment, and compensation by industry, regardless of the
 outdoor activities the industries support. Outdoor recreation-related
 activity is included in the states' industry totals even if the final
 consumption occurs outside the state.
    A state's total value added across all outdoor recreation activities
 will equal the state's total value added across all outdoor recreation
 industries.
 
                               Definitions
 
    ORSA employment consists of all full-time, part-time, and temporary
 wage-and-salary jobs where the workers are engaged in the production of
 outdoor recreation goods and services. Self-employed individuals are
 excluded from employment totals.
    ORSA compensation consists of the pay to employees (including wages
 and salaries, and benefits such as employer contributions to pension
 and health funds) in return for their outdoor recreation-related work
 during a given year. Pay to the self-employed is excluded from
 compensation but included in value added.
    ORSA value-added (also referred to as GDP) consists of the value of
 outdoor recreation goods and services produced less the value of
 expenses incurred for their production. The activity of self-employed
 individuals is included in value added.
------------------------------------------------------------------------

Additional Information
Resources
    Additional resources available at www.bea.gov:

  <bullet> Find the latest information on the Outdoor Recreation 
        Satellite Account at BEA's outdoor recreation page (https://
        www.bea.gov/data/special-topics/outdoor-recreation).

  <bullet> Stay informed about BEA developments by reading the BEA blog 
        (https://www.bea.gov/news/blog), signing up for BEA's email 
        subscription service (https://www.bea.gov/_subscribe/), or 
        following BEA on Twitter @BEA_News (https://twitter.com/
        bea_news).

  <bullet> Access BEA data by registering for BEA's Data application 
        programming interface (https://apps.bea.gov/API/signup/
        index.cfm) (API).

  <bullet> For more on BEA's statistics, see our monthly online 
        journal, the Survey of Current Business (https://apps.bea.gov/
        scb/index.htm).

  <bullet> BEA's news release schedule (https://www.bea.gov/news/
        schedule).

  <bullet> NIPA Handbook (https://www.bea.gov/resources/methodologies/
        nipa-handbook): Concepts and Methods of the U.S. National 
        Income and Product Accounts.

  <bullet> Complete information on the sources and methods for the 
        estimation of BEA's State Personal Income and Employment 
        (https://www.bea.gov/resources/methodologies/spi2017).
Definitions
    Gross domestic product (GDP) or value-added is the value of the 
goods and services produced by the nation's economy less the value of 
the goods and services used up in production. GDP is also equal to the 
sum of personal consumption expenditures, gross private domestic 
investment, net exports of goods and services, and government 
consumption expenditures and gross investment.
    Gross output (GO) is the value of the goods and services produced 
by the nation's economy. It is principally measured using industry 
sales or receipts, including sales to final users (GDP) and sales to 
other industries.
    Current-dollar estimates are valued in the prices of the period 
when the transactions occurred--that is, at ``market value.'' Also 
referred to as ``nominal estimates'' or as ``current-price estimates.''
    Chained-dollar estimates are calculated by taking the current-
dollar level of a series in the base period and multiplying it by the 
change in the chained-type quantity index number for the series since 
the base period. Chained-dollar estimates correctly show growth rates 
for a series but are not additive in periods other than the base 
period.
    ORSA employment consists of all full-time, part-time, and temporary 
wage-and-salary jobs where the workers are engaged in the production of 
outdoor recreation goods and services. Self-employed individuals are 
excluded from employment totals.
    ORSA compensation consists of the pay to employees (including wages 
and salaries, and benefits such as employer contributions to pension 
and health funds) in return for their outdoor recreation-related work 
during a given year. Pay to the self-employed is excluded from 
compensation but included in value added.
    ORSA value-added (also referred to as GDP) consists of the value of 
outdoor recreation goods and services produced less the value of 
expenses incurred for their production. The activity of self-employed 
individuals is included in value added.
Statistical Conventions
    Quarter-to-quarter percent changes are calculated from unrounded 
data and are annualized. Annualized growth rates show the rate of 
change that would have occurred had the pattern been repeated over four 
quarters (1 year). Annualized rates of change can be calculated as 
follows: (((level of later quarter/level of earlier quarter)-4)^1)*100. 
Quarterly estimates are expressed at seasonally adjusted annual rates, 
unless otherwise specified. Quarter-to-quarter dollar changes are 
differences between published estimates.
List of National Level News Release Tables
    Table 1. Real Outdoor Recreation Value-Added by Activity
    Table 2. Outdoor Recreation Value-Added by Activity
    Table 3. Outdoor Recreation Value-Added by Activity as a Percentage 
of Gross Domestic Product
    Table 4. Outdoor Recreation Value-Added by Activity as a Percentage 
of Total Outdoor Recreation Value-Added
    Table 5. Chain-type Quantity Indexes for Outdoor Recreation Value-
Added by Activity
    Table 6. Percent Changes in Chain-Type Quantity Indexes for Outdoor 
Recreation Value-Added by Activity
    Table 7. Chain-Type Price Indexes for Outdoor Recreation Value-
Added by Activity
    Table 8. Percent Changes in Chain-Type Price Indexes for Outdoor 
Recreation Value-Added by Activity
    Table 9. Real Outdoor Recreation Value-Added by Industry
    Table 10. Outdoor Recreation Value-Added by Industry
    Table 11. Outdoor Recreation Value-Added by Industry as a 
Percentage of Gross Domestic Product
    Table 12. Outdoor Recreation Value-Added by Industry as a 
Percentage of Total Outdoor Recreation Value-Added
    Table 13. Chain-type Quantity Indexes for Outdoor Recreation Value-
Added by Industry
    Table 14. Percent Changes in Chain-Type Quantity Indexes for 
Outdoor Recreation Value-Added by Industry
    Table 15. Chain-Type Price Indexes for Outdoor Recreation Value-
Added by Industry
    Table 16. Percent Changes in Chain-Type Price Indexes for Outdoor 
Recreation Value-Added by Industry
    Table 17. Real Outdoor Recreation Gross Output by Activity
    Table 18. Outdoor Recreation Gross Output by Activity
    Table 19. Chain-type Quantity Indexes for Outdoor Recreation Gross 
Output by Activity
    Table 20. Percent Changes in Chain-Type Quantity Indexes for 
Outdoor Recreation Gross Output by Activity
    Table 21. Chain-Type Price Indexes for Outdoor Recreation Gross 
Output by Activity
    Table 22. Percent Changes in Chain-Type Price Indexes for Outdoor 
Recreation Gross Output by Activity
    Table 23. Real Outdoor Recreation Gross Output by Industry
    Table 24. Outdoor Recreation Gross Output by Industry
    Table 25. Chain-type Quantity Indexes for Outdoor Recreation Gross 
Output by Industry
    Table 26. Percent Changes in Chain-Type Quantity Indexes for 
Outdoor Recreation Gross Output by Industry
    Table 27. Chain-Type Price Indexes for Outdoor Recreation Gross 
Output by Industry
    Table 28. Percent Changes in Chain-Type Price Indexes for Outdoor 
Recreation Gross Output by Industry
    Table 29. Outdoor Recreation Compensation by Industry
    Table 30. Outdoor Recreation Employment by Industry
List of State Level News Release Tables
    Table 1. Outdoor Recreation Value-Added, Employment, and 
Compensation as a percent of Total, 2017
    Table 2. Value-Added Outdoor Recreation by State, Selected 
Activities, 2017
    Table 3. Value-Added Outdoor Recreation by State, Selected 
Industries, 2017
    Table 4. Employment, Outdoor Recreation by State, Selected 
Industries, 2017
    Table 5. Compensation, Outdoor Recreation by State, Selected 
Industries, 2017
                   national level news release tables

                            Table 1. Real Outdoor Recreation Value-Added by Activity
                                      [Millions of chained (2012) dollars]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   Total Outdoor           360,509     361,153     363,128     370,446     371,789     386,107
                      Recreation
 2                     Total Core            181,182     182,453     185,380     186,452     187,001     196,628
                     Outdoor Recreation
 3                       Conventional        111,349     112,623     113,991     116,012     116,392     122,221
                        Outdoor
                        Recreation
 4                        Bicycling            1,750       1,877       1,904       1,839       2,073       2,091
 5                        Boating/            17,436      17,165      17,235      17,629      17,897      18,733
                         Fishing
 6                         Canoeing               76          73          76          78          80          83
 7                         Kayaking              326         323         315         327         347         363
 8                         Fishing             2,583       2,478       2,486       2,533       2,522       2,500
                          (excludes
                          Boating)
 9                         Sailing             1,042       1,039       1,095       1,105       1,145       1,192
10                         Other Boating      13,408      13,254      13,267      13,589      13,805      14,590
11                        Climbing/            3,067       3,141       3,179       3,106       3,266       3,241
                         Hiking/Tent
                         Camping
12                        Equestrian           5,245       5,389       5,686       5,800       6,139       6,800
13                        Hunting/             6,514       7,288       6,821       7,393       6,938       7,900
                         Shooting/
                         Trapping
14                         Hunting/            3,457       3,763       3,474       3,872       3,388       3,811
                          Trapping
15                         Shooting            3,057       3,526       3,349       3,517       3,563       4,107
                          (includes
                          Archery)
16                        Motorcycling/        8,144       8,177       8,384       8,474       8,255       8,315
                         ATVing
17                        Recreational         1,166       1,111       1,186       1,208       1,247       1,258
                         Flying
18                        RVing               12,654      13,048      13,146      13,314      13,485      14,797
19                        Snow                 5,041       4,888       5,214       5,220       5,055       5,152
                         Activities
20                         Skiing              1,565       1,541       1,675       1,689       1,646       1,725
21                         Snowboarding        1,346       1,342       1,429       1,430       1,443       1,524
22                        Other Snow           2,130       2,005       2,111       2,102       1,966       1,903
                         Activities
                         (includes
                         Snowmobiling) \
                         1\1
23                        Other                8,813       8,694       9,425       9,603       9,797      10,111
                         Conventional
                         Outdoor
                         Recreation
                         Activities
24                         Other               6,909       6,907       7,521       7,623       7,845       8,175
                          Conventional
                          Air and Land
                          Activities \2\
25                         Other               1,904       1,787       1,908       1,980       1,959       1,952
                          Conventional
                          Water
                          Activities \3\
26                        Multi-use           41,519      41,842      41,851      42,451      42,255      43,722
                         Apparel and
                         Accessories
                         (Conventional)
                         \4\
27                       Other Outdoor        69,833      69,828      71,388      70,445      70,613      74,407
                        Recreation
28                        Amusement            8,918       8,087       7,916       7,940       8,033       8,639
                         Parks/Water
                         Parks
29                        Festivals/          10,703      11,102      11,800      10,731      11,218      11,594
                         Sporting Events/
                         Concerts
30                        Field Sports         2,719       2,659       2,791       2,868       2,931       2,975
31                        Game Areas          16,996      17,168      16,982      16,550      16,882      17,831
                         (includes
                         Golfing and
                         Tennis)
32                        Guided Tours/       12,054      11,904      12,069      11,156      10,139      11,136
                         Outfitted
                         Travel
33                         Air and Land        6,588       6,536       6,830       6,678       6,393       6,687
                          Guided Tours/
                          Outfitted
                          Travel
34                         Water Guided        5,466       5,368       5,241       4,487       3,761       4,457
                          Tours/
                          Outfitted
                          Travel
                          (includes
                          Boating and
                          Fishing
                          Charters)
35                        Productive           6,680       6,928       7,795       8,300       8,564       8,882
                         Activities
                         (includes
                         Gardening)
36                        Other Outdoor        8,249       8,208       8,511       9,304       9,312       9,621
                         Recreation
                         Activities \5\
37                        Multi-use            3,513       3,803       3,599       3,805       3,779       3,904
                         Apparel and
                         Accessories
                         (Other) \4\
38                     Supporting            179,327     178,700     177,768     183,951     184,743     189,505
                     Outdoor Recreation
39                        Construction         5,392       5,187       5,217       5,497       5,688       5,809
40                        Local Trips         33,019      33,206      33,578      33,398      32,322      33,005
                         and Travel \6\
41                        Trips and          122,373     121,888     120,768     126,700     127,733     131,103
                         Travel \7\
42                         Food and           21,802      17,871      18,218      18,783      18,817      19,074
                          Beverages
43                         Lodging            34,614      35,523      32,472      35,057      34,973      34,726
44                         Shopping and       20,725      21,141      21,330      21,354      21,419      21,721
                          Souvenirs
45                         Transportatio      45,231      47,379      48,823      51,551      52,584      55,730
                          n
46                        Government          18,543      18,424      18,222      18,351      18,912      19,493
                         Expenditures
47                         Federal             2,751       2,960       2,743       2,677       2,776       2,746
                          Government
48                         State and          15,793      15,469      15,474      15,664      16,127      16,732
                          Local
                          Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


                               Table 2. Outdoor Recreation Value-Added by Activity
                                          [Millions of current dollars]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   Total Outdoor           360,509     369,280     378,654     400,205     407,362     427,189
                      Recreation
 2                     Total Core            181,182     186,700     191,226     198,881     202,513     213,246
                     Outdoor Recreation
 3                       Conventional        111,349     115,482     117,737     123,249     124,873     130,844
                        Outdoor
                        Recreation
 4                        Bicycling            1,750       1,850       1,876       1,845       2,151       2,145
 5                        Boating/            17,436      17,691      18,306      19,253      19,920      20,887
                         Fishing
 6                         Canoeing               76          74          79          83          88          92
 7                         Kayaking              326         335         343         362         397         414
 8                         Fishing             2,583       2,623       2,635       2,730       2,715       2,686
                          (excludes
                          Boating)
 9                         Sailing             1,042       1,048       1,124       1,183       1,259       1,295
10                         Other Boating      13,408      13,611      14,125      14,894      15,461      16,399
11                        Climbing/            3,067       3,201       3,303       3,441       3,488       3,465
                         Hiking/Tent
                         Camping
12                        Equestrian           5,245       5,523       6,146       6,437       6,842       7,756
13                        Hunting/             6,514       7,604       7,225       8,063       7,746       8,787
                         Shooting/
                         Trapping
14                         Hunting/            3,457       3,967       3,768       4,354       3,922       4,404
                          Trapping
15                         Shooting            3,057       3,637       3,457       3,709       3,824       4,383
                          (includes
                          Archery)
16                        Motorcycling/        8,144       8,311       8,463       8,789       8,861       9,079
                         ATVing
17                        Recreational         1,166       1,221       1,289       1,326       1,318       1,400
                         Flying
18                        RVing               12,654      13,500      14,123      14,888      15,411      16,888
19                        Snow                 5,041       4,897       5,297       5,530       5,449       5,646
                         Activities
20                         Skiing              1,565       1,534       1,682       1,779       1,784       1,849
21                         Snowboarding        1,346       1,341       1,441       1,521       1,579       1,648
22                         Other Snow          2,130       2,022       2,174       2,230       2,086       2,149
                          Activities
                          (includes
                          Snowmobiling)
                          \1\
23                        Other                8,813       8,969       9,192       9,575       9,697      10,072
                         Conventional
                         Outdoor
                         Recreation
                         Activities
24                         Other               6,909       7,106       7,206       7,448       7,557       7,965
                          Conventional
                          Air and Land
                          Activities \2\
25                         Other               1,904       1,863       1,987       2,127       2,141       2,107
                          Conventional
                          Water
                          Activities \3\
26                        Multi-use           41,519      42,713      42,517      44,101      43,989      44,719
                         Apparel and
                         Accessories
                         (Conventional)
                         \4\
27                       Other Outdoor        69,833      71,219      73,490      75,633      77,640      82,402
                        Recreation
28                        Amusement            8,918       8,804       9,112       9,740      10,537      11,859
                         Parks/Water
                         Parks
29                        Festivals/          10,703      11,385      12,477      12,258      13,368      14,143
                         Sporting Events/
                         Concerts
30                        Field Sports         2,719       2,738       2,896       3,057       3,184       3,238
31                        Game Areas          16,996      17,071      16,993      17,306      18,015      18,471
                         (includes
                         Golfing and
                         Tennis)
32                        Guided Tours/       12,054      12,113      12,545      12,275      11,572      12,890
                         Outfitted
                         Travel
33                         Air and Land        6,588       6,632       7,051       7,288       7,217       7,666
                          Guided Tours/
                          Outfitted
                          Travel
34                         Water Guided        5,466       5,481       5,494       4,987       4,354       5,224
                          Tours/
                          Outfitted
                          Travel
                          (includes
                          Boating and
                          Fishing
                          Charters)
35                        Productive           6,680       6,979       7,146       7,478       7,628       8,098
                         Activities
                         (includes
                         Gardening)
36                        Other Outdoor        8,249       8,315       8,722       9,710       9,597       9,822
                         Recreation
                         Activities \5\
37                        Multi-use            3,513       3,814       3,599       3,810       3,741       3,882
                         Apparel and
                         Accessories
                         (Other) \4\
38                     Supporting            179,327     182,580     187,428     201,324     204,849     213,944
                     Outdoor Recreation
39                        Construction         5,392       5,504       5,930       6,650       7,315       7,853
40                        Local Trips         33,019      33,467      34,534      35,489      34,118      35,763
                         and Travel \6\
41                        Trips and          122,373     124,141     126,877     138,338     141,933     147,813
                         Travel \7\
42                         Food and           21,802      18,405      19,218      20,800      21,714      22,678
                          Beverages
43                         Lodging            34,614      36,498      34,698      38,805      40,036      40,786
44                         Shopping and       20,725      21,372      21,984      22,719      22,901      23,196
                          Souvenirs
45                         Transportatio      45,231      47,866      50,977      56,014      57,281      61,152
                          n
46                        Government          18,543      19,468      20,087      20,846      21,483      22,515
                         Expenditures
47                         Federal             2,751       3,018       2,874       2,858       3,013       3,066
                          Government
48                         State and          15,793      16,450      17,213      17,989      18,470      19,449
                          Local
                          Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


          Table 3. Outdoor Recreation Value-Added by Activity as a Percentage of Gross Domestic Product
                                                    [Percent]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   Total Outdoor               2.2         2.2         2.2         2.2         2.2         2.2
                      Recreation
 2                     Total Core                1.1         1.1         1.1         1.1         1.1         1.1
                     Outdoor Recreation
 3                       Conventional            0.7         0.7         0.7         0.7         0.7         0.7
                        Outdoor
                        Recreation
 4                        Bicycling              0.0         0.0         0.0         0.0         0.0         0.0
 5                        Boating/               0.1         0.1         0.1         0.1         0.1         0.1
                         Fishing
 6                         Canoeing              0.0         0.0         0.0         0.0         0.0         0.0
 7                         Kayaking              0.0         0.0         0.0         0.0         0.0         0.0
 8                         Fishing               0.0         0.0         0.0         0.0         0.0         0.0
                          (excludes
                          Boating)
 9                         Sailing               0.0         0.0         0.0         0.0         0.0         0.0
10                         Other Boating         0.1         0.1         0.1         0.1         0.1         0.1
11                        Climbing/              0.0         0.0         0.0         0.0         0.0         0.0
                         Hiking/Tent
                         Camping
12                        Equestrian             0.0         0.0         0.0         0.0         0.0         0.0
13                        Hunting/               0.0         0.0         0.0         0.0         0.0         0.0
                         Shooting/
                         Trapping
14                         Hunting/              0.0         0.0         0.0         0.0         0.0         0.0
                          Trapping
15                         Shooting              0.0         0.0         0.0         0.0         0.0         0.0
                          (includes
                          Archery)
16                        Motorcycling/          0.1         0.0         0.0         0.0         0.0         0.0
                         ATVing
17                        Recreational           0.0         0.0         0.0         0.0         0.0         0.0
                         Flying
18                        RVing                  0.1         0.1         0.1         0.1         0.1         0.1
19                        Snow                   0.0         0.0         0.0         0.0         0.0         0.0
                         Activities
20                         Skiing                0.0         0.0         0.0         0.0         0.0         0.0
21                         Snowboarding          0.0         0.0         0.0         0.0         0.0         0.0
22                         Other Snow            0.0         0.0         0.0         0.0         0.0         0.0
                          Activities
                          (includes
                          Snowmobiling)
                          \1\
23                        Other                  0.1         0.1         0.1         0.1         0.1         0.1
                         Conventional
                         Outdoor
                         Recreation
                         Activities
24                         Other                 0.0         0.0         0.0         0.0         0.0         0.0
                          Conventional
                          Air and Land
                          Activities \2\
25                         Other                 0.0         0.0         0.0         0.0         0.0         0.0
                          Conventional
                          Water
                          Activities \3\
26                        Multi-use              0.3         0.3         0.2         0.2         0.2         0.2
                         Apparel and
                         Accessories
                         (Conventional)
                         \4\
27                       Other Outdoor           0.4         0.4         0.4         0.4         0.4         0.4
                        Recreation
28                        Amusement              0.1         0.1         0.1         0.1         0.1         0.1
                         Parks/Water
                         Parks
29                        Festivals/             0.1         0.1         0.1         0.1         0.1         0.1
                         Sporting Events/
                         Concerts
30                        Field Sports           0.0         0.0         0.0         0.0         0.0         0.0
31                        Game Areas             0.1         0.1         0.1         0.1         0.1         0.1
                         (includes
                         Golfing and
                         Tennis)
32                        Guided Tours/          0.1         0.1         0.1         0.1         0.1         0.1
                         Outfitted
                         Travel
33                         Air and Land          0.0         0.0         0.0         0.0         0.0         0.0
                          Guided Tours/
                          Outfitted
                          Travel
34                         Water Guided          0.0         0.0         0.0         0.0         0.0         0.0
                          Tours/
                          Outfitted
                          Travel
                          (includes
                          Boating and
                          Fishing
                          Charters)
35                        Productive             0.0         0.0         0.0         0.0         0.0         0.0
                         Activities
                         (includes
                         Gardening)
36                        Other Outdoor          0.1         0.0         0.0         0.1         0.1         0.1
                         Recreation
                         Activities \5\
37                        Multi-use              0.0         0.0         0.0         0.0         0.0         0.0
                         Apparel and
                         Accessories
                         (Other) \4\
38                     Supporting                1.1         1.1         1.1         1.1         1.1         1.1
                     Outdoor Recreation
39                        Construction           0.0         0.0         0.0         0.0         0.0         0.0
40                        Local Trips            0.2         0.2         0.2         0.2         0.2         0.2
                         and Travel \6\
41                        Trips and              0.8         0.7         0.7         0.8         0.8         0.8
                         Travel \7\
42                         Food and              0.1         0.1         0.1         0.1         0.1         0.1
                          Beverages
43                         Lodging               0.2         0.2         0.2         0.2         0.2         0.2
44                         Shopping and          0.1         0.1         0.1         0.1         0.1         0.1
                          Souvenirs
45                         Transportatio         0.3         0.3         0.3         0.3         0.3         0.3
                          n
46                        Government             0.1         0.1         0.1         0.1         0.1         0.1
                         Expenditures
47                         Federal               0.0         0.0         0.0         0.0         0.0         0.0
                          Government
48                         State and             0.1         0.1         0.1         0.1         0.1         0.1
                          Local
                          Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


   Table 4. Outdoor Recreation Value-Added by Activity as a Percentage of Total Outdoor Recreation Value-Added
                                                    [Percent]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   Total Outdoor             100.0       100.0       100.0       100.0       100.0       100.0
                      Recreation
 2                     Total Core               50.3        50.6        50.5        49.7        49.7        49.9
                     Outdoor Recreation
 3                       Conventional           30.9        31.3        31.1        30.8        30.7        30.6
                        Outdoor
                        Recreation
 4                        Bicycling              0.5         0.5         0.5         0.5         0.5         0.5
 5                        Boating/               4.8         4.8         4.8         4.8         4.9         4.9
                         Fishing
 6                         Canoeing              0.0         0.0         0.0         0.0         0.0         0.0
 7                         Kayaking              0.1         0.1         0.1         0.1         0.1         0.1
 8                         Fishing               0.7         0.7         0.7         0.7         0.7         0.6
                          (excludes
                          Boating)
 9                         Sailing               0.3         0.3         0.3         0.3         0.3         0.3
10                         Other Boating         3.7         3.7         3.7         3.7         3.8         3.8
11                        Climbing/              0.9         0.9         0.9         0.9         0.9         0.8
                         Hiking/Tent
                         Camping
12                        Equestrian             1.5         1.5         1.6         1.6         1.7         1.8
13                        Hunting/               1.8         2.1         1.9         2.0         1.9         2.1
                         Shooting/
                         Trapping
14                         Hunting/              1.0         1.1         1.0         1.1         1.0         1.0
                          Trapping
15                         Shooting              0.8         1.0         0.9         0.9         0.9         1.0
                          (includes
                          Archery)
16                        Motorcycling/          2.3         2.3         2.2         2.2         2.2         2.1
                         ATVing
17                        Recreational           0.3         0.3         0.3         0.3         0.3         0.3
                         Flying
18                        RVing                  3.5         3.7         3.7         3.7         3.8         4.0
19                        Snow                   1.4         1.3         1.4         1.4         1.3         1.3
                         Activities
20                         Skiing                0.4         0.4         0.4         0.4         0.4         0.4
21                         Snowboarding          0.4         0.4         0.4         0.4         0.4         0.4
22                         Other Snow            0.6         0.5         0.6         0.6         0.5         0.5
                          Activities
                          (includes
                          Snowmobiling)
                          \1\
23                        Other                  2.4         2.4         2.4         2.4         2.4         2.4
                         Conventional
                         Outdoor
                         Recreation
                         Activities
24                         Other                 1.9         1.9         1.9         1.9         1.9         1.9
                          Conventional
                          Air and Land
                          Activities \2\
25                         Other                 0.5         0.5         0.5         0.5         0.5         0.5
                          Conventional
                          Water
                          Activities \3\
26                        Multi-use             11.5        11.6        11.2        11.0        10.8        10.5
                         Apparel and
                         Accessories
                         (Conventional)
                         \4\
27                       Other Outdoor          19.4        19.3        19.4        18.9        19.1        19.3
                        Recreation
28                        Amusement              2.5         2.4         2.4         2.4         2.6         2.8
                         Parks/Water
                         Parks
29                        Festivals/             3.0         3.1         3.3         3.1         3.3         3.3
                         Sporting Events/
                         Concerts
30                        Field Sports           0.8         0.7         0.8         0.8         0.8         0.8
31                        Game Areas             4.7         4.6         4.5         4.3         4.4         4.3
                         (includes
                         Golfing and
                         Tennis)
32                        Guided Tours/          3.3         3.3         3.3         3.1         2.8         3.0
                         Outfitted
                         Travel
33                         Air and Land          1.8         1.8         1.9         1.8         1.8         1.8
                          Guided Tours/
                          Outfitted
                          Travel
34                         Water Guided          1.5         1.5         1.5         1.2         1.1         1.2
                          Tours/
                          Outfitted
                          Travel
                          (includes
                          Boating and
                          Fishing
                          Charters)
35                        Productive             1.9         1.9         1.9         1.9         1.9         1.9
                         Activities
                         (includes
                         Gardening)
36                        Other Outdoor          2.3         2.3         2.3         2.4         2.4         2.3
                         Recreation
                         Activities \5\
37                        Multi-use              1.0         1.0         1.0         1.0         0.9         0.9
                         Apparel and
                         Accessories
                         (Other) \4\
38                     Supporting               49.7        49.4        49.5        50.3        50.3        50.1
                     Outdoor Recreation
39                        Construction           1.5         1.5         1.6         1.7         1.8         1.8
40                        Local Trips            9.2         9.1         9.1         8.9         8.4         8.4
                         and Travel \6\
41                        Trips and             33.9        33.6        33.5        34.6        34.8        34.6
                         Travel \7\
42                         Food and              6.0         5.0         5.1         5.2         5.3         5.3
                          Beverages
43                         Lodging               9.6         9.9         9.2         9.7         9.8         9.5
44                         Shopping and          5.7         5.8         5.8         5.7         5.6         5.4
                          Souvenirs
45                         Transportatio        12.5        13.0        13.5        14.0        14.1        14.3
                          n
46                        Government             5.1         5.3         5.3         5.2         5.3         5.3
                         Expenditures
47                         Federal               0.8         0.8         0.8         0.7         0.7         0.7
                          Government
48                         State and             4.4         4.5         4.5         4.5         4.5         4.6
                          Local
                          Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


               Table 5. Chain-Type Quantity Indexes for Outdoor Recreation Value-Added by Activity
                                           [index numbers, 2012 = 100]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   Total Outdoor           100.000     100.179     100.726     102.756     103.129     107.100
                      Recreation
 2                     Total Core            100.000     100.701     102.317     102.909     103.212     108.525
                     Outdoor Recreation
 3                       Conventional        100.000     101.144     102.372     104.188     104.529     109.764
                        Outdoor
                        Recreation
 4                        Bicycling          100.000     107.240     108.818     105.065     118.450     119.503
 5                        Boating/           100.000      98.447      98.851     101.108     102.648     107.441
                         Fishing
 6                         Canoeing          100.000      95.799      99.911     102.616     105.238     109.753
 7                         Kayaking          100.000      98.969      96.444     100.009     106.303     111.097
 8                         Fishing           100.000      95.938      96.230      98.074      97.624      96.795
                          (excludes
                          Boating)
 9                         Sailing           100.000      99.695     105.104     106.027     109.881     114.393
10                         Other Boating     100.000      98.845      98.944     101.346     102.960     108.814
11                        Climbing/          100.000     102.414     103.649     101.273     106.483     105.675
                         Hiking/Tent
                         Camping
12                        Equestrian         100.000     102.742     108.406     110.581     117.034     129.638
13                        Hunting/           100.000     111.883     104.710     113.490     106.514     121.281
                         Shooting/
                         Trapping
14                         Hunting/          100.000     108.862     100.517     112.028      98.031     110.262
                          Trapping
15                         Shooting          100.000     115.334     109.540     115.035     116.529     134.345
                          (includes
                          Archery)
16                        Motorcycling/      100.000     100.408     102.951     104.050     101.368     102.098
                         ATVing
17                        Recreational       100.000      95.281     101.700     103.588     106.945     107.869
                         Flying
18                        RVing              100.000     103.114     103.886     105.209     106.567     116.933
19                        Snow               100.000      96.965     103.424     103.558     100.273     102.196
                         Activities
20                         Skiing            100.000      98.431     106.990     107.911     105.166     110.214
21                         Snowboarding      100.000      99.753     106.177     106.260     107.193     113.259
22                         Other Snow        100.000      94.146      99.107      98.703      92.305      89.350
                          Activities
                          (includes
                          Snowmobiling)
                          \1\
23                        Other              100.000      98.651     106.942     108.958     111.158     114.725
                         Conventional
                         Outdoor
                         Recreation
                         Activities
24                         Other             100.000      99.978     108.856     110.336     113.546     118.325
                          Conventional
                          Air and Land
                          Activities \2\
25                         Other             100.000      93.855     100.167     103.952     102.860     102.493
                          Conventional
                          Water
                          Activities \3\
26                        Multi-use          100.000     100.779     100.801     102.246     101.773     105.308
                         Apparel and
                         Accessories
                         (Conventional)
                         \4\
27                       Other Outdoor       100.000      99.993     102.227     100.876     101.117     106.551
                        Recreation
28                        Amusement          100.000      90.681      88.766      89.034      90.077      96.872
                         Parks/Water
                         Parks
29                        Festivals/         100.000     103.722     110.242     100.261     104.805     108.326
                         Sporting Events/
                         Concerts
30                        Field Sports       100.000      97.794     102.641     105.473     107.807     109.408
31                        Game Areas         100.000     101.016      99.922      97.377      99.329     104.912
                         (includes
                         Golfing and
                         Tennis)
32                        Guided Tours/      100.000      98.755     100.127      92.550      84.115      92.385
                         Outfitted
                         Travel
33                         Air and Land      100.000      99.219     103.683     101.370      97.042     101.512
                          Guided Tours/
                          Outfitted
                          Travel
34                         Water Guided      100.000      98.197      95.884      82.077      68.807      81.539
                          Tours/
                          Outfitted
                          Travel
                          (includes
                          Boating and
                          Fishing
                          Charters)
35                        Productive         100.000     103.717     116.690     124.253     128.195     132.963
                         Activities
                         (includes
                         Gardening)
36                        Other Outdoor      100.000      99.497     103.176     112.794     112.884     116.632
                         Recreation
                         Activities \5\
37                        Multi-use          100.000     108.246     102.460     108.301     107.576     111.145
                         Apparel and
                         Accessories
                         (Other) \4\
38                     Supporting            100.000      99.650      99.130     102.578     103.020     105.675
                     Outdoor Recreation
39                        Construction       100.000      96.194      96.753     101.957     105.495     107.746
40                        Local Trips        100.000     100.566     101.692     101.148      97.888      99.957
                         and Travel \6\
41                        Trips and          100.000      99.604      98.688     103.536     104.381     107.135
                         Travel \7\
42                         Food and          100.000      81.967      83.558      86.153      86.305      87.485
                          Beverages
43                         Lodging           100.000     102.626      93.812     101.278     101.036     100.323
44                         Shopping and      100.000     102.006     102.918     103.035     103.347     104.806
                          Souvenirs
45                         Transportatio     100.000     104.749     107.941     113.973     116.258     123.212
                          n
46                        Government         100.000      99.359      98.265      98.965     101.989     105.121
                         Expenditures
47                         Federal           100.000     107.628      99.726      97.330     100.910      99.832
                          Government
48                         State and         100.000      97.947      97.981      99.186     102.117     105.947
                          Local
                          Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


     Table 6. Percent Changes in Chain-Type Quantity Indexes for Outdoor Recreation Value-Added by Activity
                                                [Percent Change]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                                         2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                         Total Outdoor Recreation          0.2         0.5         2.0         0.4         3.9
 2                           Total Core Outdoor              0.7         1.6         0.6         0.3         5.1
                           Recreation
 3                             Conventional Outdoor          1.1         1.2         1.8         0.3         5.0
                              Recreation
 4                              Bicycling                    7.2         1.5        ^3.4        12.7         0.9
 5                              Boating/Fishing             ^1.6         0.4         2.3         1.5         4.7
 6                               Canoeing                   ^4.2         4.3         2.7         2.6         4.3
 7                               Kayaking                   ^1.0        ^2.6         3.7         6.3         4.5
 8                               Fishing (excludes          ^4.1         0.3         1.9        ^0.5        ^0.8
                                Boating)
 9                               Sailing                    ^0.3         5.4         0.9         3.6         4.1
10                               Other Boating              ^1.2         0.1         2.4         1.6         5.7
11                              Climbing/Hiking/Tent         2.4         1.2        ^2.3         5.1        ^0.8
                               Camping
12                              Equestrian                   2.7         5.5         2.0         5.8        10.8
13                              Hunting/Shooting/           11.9        ^6.4         8.4        ^6.1        13.9
                               Trapping
14                               Hunting/Trapping            8.9        ^7.7        11.5       ^12.5        12.5
15                               Shooting (includes         15.3        ^5.0         5.0         1.3        15.3
                                Archery)
16                              Motorcycling/ATVing          0.4         2.5         1.1        ^2.6         0.7
17                              Recreational Flying         ^4.7         6.7         1.9         3.2         0.9
18                              RVing                        3.1         0.7         1.3         1.3         9.7
19                              Snow Activities             ^3.0         6.7         0.1        ^3.2         1.9
20                               Skiing                     ^1.6         8.7         0.9        ^2.5         4.8
21                               Snowboarding               ^0.2         6.4         0.1         0.9         5.7
22                               Other Snow                 ^5.9         5.3        ^0.4        ^6.5        ^3.2
                                Activities (includes
                                Snowmobiling) \1\
23                              Other Conventional          ^1.3         8.4         1.9         2.0         3.2
                               Outdoor Recreation
                               Activities
24                               Other Conventional          0.0         8.9         1.4         2.9         4.2
                                Air and Land
                                Activities \2\
25                               Other Conventional         ^6.1         6.7         3.8        ^1.1        ^0.4
                                Water Activities \3\
26                              Multi-use Apparel            0.8         0.0         1.4        ^0.5         3.5
                               and Accessories
                               (Conventional) \4\
27                             Other Outdoor                 0.0         2.2        ^1.3         0.2         5.4
                              Recreation
28                              Amusement Parks/            ^9.3        ^2.1         0.3         1.2         7.5
                               Water Parks
29                              Festivals/Sporting           3.7         6.3        ^9.1         4.5         3.4
                               Events/Concerts
30                              Field Sports                ^2.2         5.0         2.8         2.2         1.5
31                              Game Areas (includes         1.0        ^1.1        ^2.5         2.0         5.6
                               Golfing and Tennis)
32                              Guided Tours/               ^1.2         1.4        ^7.6        ^9.1         9.8
                               Outfitted Travel
33                               Air and Land Guided        ^0.8         4.5        ^2.2        ^4.3         4.6
                                Tours/Outfitted
                                Travel
34                               Water Guided Tours/        ^1.8        ^2.4       ^14.4       ^16.2        18.5
                                Outfitted Travel
                                (includes Boating
                                and Fishing
                                Charters)
35                              Productive                   3.7        12.5         6.5         3.2         3.7
                               Activities (includes
                               Gardening)
36                              Other Outdoor               ^0.5         3.7         9.3         0.1         3.3
                               Recreation Activities
                               \5\
37                              Multi-use Apparel            8.2        ^5.3         5.7        ^0.7         3.3
                               and Accessories
                               (Other) \4\
38                           Supporting Outdoor             ^0.3        ^0.5         3.5         0.4         2.6
                           Recreation
39                              Construction                ^3.8         0.6         5.4         3.5         2.1
40                              Local Trips and              0.6         1.1        ^0.5        ^3.2         2.1
                               Travel \6\
41                              Trips and Travel \7\        ^0.4        ^0.9         4.9         0.8         2.6
42                               Food and Beverages        ^18.0         1.9         3.1         0.2         1.4
43                               Lodging                     2.6        ^8.6         8.0        ^0.2        ^0.7
44                               Shopping and                2.0         0.9         0.1         0.3         1.4
                                Souvenirs
45                               Transportation              4.7         3.0         5.6         2.0         6.0
46                              Government                  ^0.6        ^1.1         0.7         3.1         3.1
                               Expenditures
47                               Federal Government          7.6        ^7.3        ^2.4         3.7        ^1.1
48                               State and Local            ^2.1         0.0         1.2         3.0         3.8
                                Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


                Table 7. Chain-Type Price Indexes for Outdoor Recreation Value-Added by Activity
                                           [index numbers, 2012 = 100]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   Total Outdoor           100.000     102.250     104.428     108.191     109.728     110.802
                      Recreation
 2                     Total Core            100.000     102.327     103.452     106.974     108.608     108.764
                     Outdoor Recreation
 3                       Conventional        100.000     102.537     103.769     106.734     107.788     107.556
                        Outdoor
                        Recreation
 4                        Bicycling          100.000      98.587      98.519     100.361     103.751     102.555
 5                        Boating/           100.000     103.067     106.216     109.215     111.301     111.496
                         Fishing
 6                         Canoeing          100.000     102.473     103.881     107.413     109.999     110.752
 7                         Kayaking          100.000     103.655     108.939     110.997     114.343     114.140
 8                         Fishing           100.000     105.840     106.008     107.765     107.662     107.422
                          (excludes
                          Boating)
 9                         Sailing           100.000     100.861     102.663     107.072     110.005     108.681
10                         Other Boating     100.000     102.701     106.473     109.608     111.994     112.399
11                        Climbing/          100.000     101.906     103.895     110.791     106.818     106.918
                         Hiking/Tent
                         Camping
12                        Equestrian         100.000     102.483     108.081     110.969     111.457     114.060
13                        Hunting/           100.000     104.338     105.926     109.072     111.648     111.228
                         Shooting/
                         Trapping
14                         Hunting/          100.000     105.436     108.437     112.449     115.747     115.563
                          Trapping
15                         Shooting          100.000     103.135     103.234     105.455     107.342     106.704
                          (includes
                          Archery)
16                        Motorcycling/      100.000     101.626     100.924     103.710     107.331     109.185
                         ATVing
17                        Recreational       100.000     109.964     108.679     109.813     105.709     111.321
                         Flying
18                        RVing              100.000     103.459     107.428     111.826     114.277     114.127
19                        Snow               100.000     100.184     101.595     105.924     107.796     109.586
                         Activities
20                         Skiing            100.000      99.575     100.416     105.287     108.375     107.171
21                         Snowboarding      100.000      99.880     100.844     106.366     109.457     108.137
22                         Other Snow        100.000     100.835     102.994     106.081     106.093     112.894
                          Activities
                          (includes
                          Snowmobiling)
                          \1\
23                        Other              100.000     103.164     103.763     106.078     105.310     105.978
                         Conventional
                         Outdoor
                         Recreation
                         Activities
24                         Other             100.000     102.883     103.670     105.717     104.227     105.424
                          Conventional
                          Air and Land
                          Activities \2\
25                         Other             100.000     104.229     104.147     107.431     109.281     107.941
                          Conventional
                          Water
                          Activities \3\
26                        Multi-use          100.000     102.081     101.591     103.886     104.104     102.279
                         Apparel and
                         Accessories
                         (Conventional)
                         \4\
27                       Other Outdoor       100.000     101.992     102.944     107.365     109.951     110.744
                        Recreation
28                        Amusement          100.000     108.869     115.102     122.665     131.166     137.269
                         Parks/Water
                         Parks
29                        Festivals/         100.000     102.550     105.738     114.223     119.168     121.982
                         Sporting Events/
                         Concerts
30                        Field Sports       100.000     102.954     103.754     106.597     108.604     108.823
31                        Game Areas         100.000      99.432     100.065     104.566     106.710     103.589
                         (includes
                         Golfing and
                         Tennis)
32                        Guided Tours/      100.000     101.754     103.938     110.031     114.124     115.748
                         Outfitted
                         Travel
33                         Air and Land      100.000     101.469     103.228     109.135     112.896     114.634
                          Guided Tours/
                          Outfitted
                          Travel
34                         Water Guided      100.000     102.099     104.818     111.156     115.763     117.201
                          Tours/
                          Outfitted
                          Travel
                          (includes
                          Boating and
                          Fishing
                          Charters)
35                        Productive         100.000     100.733      91.679      90.088      89.075      91.175
                         Activities
                         (includes
                         Gardening)
36                        Other Outdoor      100.000     101.308     102.477     104.358     103.062     102.086
                         Recreation
                         Activities \5\
37                        Multi-use          100.000     100.293      99.984     100.134      98.979      99.412
                         Apparel and
                         Accessories
                         (Other) \4\
38                     Supporting            100.000     102.171     105.435     109.445     110.884     112.897
                     Outdoor Recreation
39                        Construction       100.000     106.116     113.700     120.989     128.643     135.206
40                        Local Trips        100.000     100.785     102.847     106.261     105.555     108.357
                         and Travel \6\
41                        Trips and          100.000     101.848     105.059     109.186     111.117     112.745
                         Travel \7\
42                         Food and          100.000     102.988     105.490     110.735     115.400     118.898
                          Beverages
43                         Lodging           100.000     102.743     106.853     110.693     114.479     117.450
44                         Shopping and      100.000     101.093     103.068     106.390     106.922     106.791
                          Souvenirs
45                         Transportatio     100.000     101.029     104.413     108.658     108.932     109.730
                          n
46                        Government         100.000     105.666     110.236     113.596     113.595     115.504
                         Expenditures
47                         Federal           100.000     101.946     104.763     106.737     108.545     111.650
                          Government
48                         State and         100.000     106.347     111.240     114.842     114.531     116.241
                          Local
                          Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


       Table 8. Percent Changes in Chain-Type Price Indexes for Outdoor Recreation Value-Added by Activity
                                                [Percent Change]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                                         2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                         Total Outdoor Recreation          2.2         2.1         3.6         1.4         1.0
 2                           Total Core Outdoor              2.3         1.1         3.4         1.5         0.1
                           Recreation
 3                             Conventional Outdoor          2.5         1.2         2.9         1.0        ^0.2
                              Recreation
 4                              Bicycling                   ^1.4        ^0.1         1.9         3.4        ^1.2
 5                              Boating/Fishing              3.1         3.1         2.8         1.9         0.2
 6                               Canoeing                    2.5         1.4         3.4         2.4         0.7
 7                               Kayaking                    3.7         5.1         1.9         3.0        ^0.2
 8                               Fishing (excludes           5.8         0.2         1.7        ^0.1        ^0.2
                                Boating)
 9                               Sailing                     0.9         1.8         4.3         2.7        ^1.2
10                               Other Boating               2.7         3.7         2.9         2.2         0.4
11                              Climbing/Hiking/Tent         1.9         2.0         6.6        ^3.6         0.1
                               Camping
12                              Equestrian                   2.5         5.5         2.7         0.4         2.3
13                              Hunting/Shooting/            4.3         1.5         3.0         2.4        ^0.4
                               Trapping
14                               Hunting/Trapping            5.4         2.8         3.7         2.9        ^0.2
15                               Shooting (includes          3.1         0.1         2.2         1.8        ^0.6
                                Archery)
16                              Motorcycling/ATVing          1.6        ^0.7         2.8         3.5         1.7
17                              Recreational Flying         10.0        ^1.2         1.0        ^3.7         5.3
18                              RVing                        3.5         3.8         4.1         2.2        ^0.1
19                              Snow Activities              0.2         1.4         4.3         1.8         1.7
20                               Skiing                     ^0.4         0.8         4.9         2.9        ^1.1
21                               Snowboarding               ^0.1         1.0         5.5         2.9        ^1.2
22                               Other Snow                  0.8         2.1         3.0         0.0         6.4
                                Activities (includes
                                Snowmobiling) \1\
23                              Other Conventional           3.2         0.6         2.2        ^0.7         0.6
                               Outdoor Recreation
                               Activities
24                               Other Conventional          2.9         0.8         2.0        ^1.4         1.1
                                Air and Land
                                Activities \2\
25                               Other Conventional          4.2        ^0.1         3.2         1.7        ^1.2
                                Water Activities \3\
26                              Multi-use Apparel            2.1        ^0.5         2.3         0.2        ^1.8
                               and Accessories
                               (Conventional) \4\
27                             Other Outdoor                 2.0         0.9         4.3         2.4         0.7
                              Recreation
28                              Amusement Parks/             8.9         5.7         6.6         6.9         4.7
                               Water Parks
29                              Festivals/Sporting           2.6         3.1         8.0         4.3         2.4
                               Events/Concerts
30                              Field Sports                 3.0         0.8         2.7         1.9         0.2
31                              Game Areas (includes        ^0.6         0.6         4.5         2.1        ^2.9
                               Golfing and Tennis)
32                              Guided Tours/                1.8         2.1         5.9         3.7         1.4
                               Outfitted Travel
33                               Air and Land Guided         1.5         1.7         5.7         3.4         1.5
                                Tours/Outfitted
                                Travel
34                              Water Guided Tours/          2.1         2.7         6.0         4.1         1.2
                               Outfitted Travel
                               (includes Boating and
                               Fishing Charters)
35                              Productive                   0.7        ^9.0        ^1.7        ^1.1         2.4
                               Activities (includes
                               Gardening)
36                              Other Outdoor                1.3         1.2         1.8        ^1.2        ^0.9
                               Recreation Activities
                               \5\
37                              Multi-use Apparel            0.3        ^0.3         0.2        ^1.2         0.4
                               and Accessories
                               (Other) \4\
38                           Supporting Outdoor              2.2         3.2         3.8         1.3         1.8
                           Recreation
39                              Construction                 6.1         7.1         6.4         6.3         5.1
40                              Local Trips and              0.8         2.0         3.3        ^0.7         2.7
                               Travel \6\
41                              Trips and Travel \7\         1.8         3.2         3.9         1.8         1.5
42                               Food and Beverages          3.0         2.4         5.0         4.2         3.0
43                               Lodging                     2.7         4.0         3.6         3.4         2.6
44                               Shopping and                1.1         2.0         3.2         0.5        ^0.1
                                Souvenirs
45                               Transportation              1.0         3.4         4.1         0.3         0.7
46                              Government                   5.7         4.3         3.0         0.0         1.7
                               Expenditures
47                               Federal Government          1.9         2.8         1.9         1.7         2.9
48                               State and Local             6.3         4.6         3.2        ^0.3         1.5
                                Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


------------------------------------------------------------------------
 
-------------------------------------------------------------------------
  Editor's note: this table of information was excluded from the pdf
 submitted, and posted on the U.S. Bureau of Economic Analysis website.
 It is incoporated herein, in [brackets] and is available in the xlsx
 file entitled, Tables--Value-Added by Activity (https://www.bea.gov/
 system/files/2019-09/orsa0919-VA-Activity_1.xlsx)
                            [Activity List *
 
        [Outdoor Recreation Activities in Conventional Definition
 
[Bicycling (All recreational bicycling, including BMX, E-bikes,
 Mountain, On-road)
[Boating/Fishing (All recreational boating, including Canoeing, Fishing,
 Inboard/Outboard, Kayaking, Personal watercraft, Sailing)
[Climbing/Hiking/Tent Camping
[Equestrian
[Hunting/Trapping/Shooting (including Archery)
[Motorcycling/ATVs (Off-road, On-road)
[Recreational flying (Experimental, Glider, Turboprop, Ultralight)
[RVing
[Snow activities (Dog mushing, Skiing, Sleighing, Snowboarding,
 Snowmobiling, Snow shoeing, Tubing)
 
                     [Other Conventional Activities
 
[Other Conventional Air and Land activities
  [Air sports (Base jumping, Hang gliding, Skydiving)
  [Driving for pleasure (Gas spending only)
  [Geocaching/Orienteering/Rock hounding
  [Ice skating
  [Inline skating
  [Land/Sand sailing
  [Races (includes Bike and Endurance racing)
  [Running/Jogging/Walking
  [Skateboarding
  [Wildlife watching/Birding
[Other Conventional Water activities
  [Boardsailing/Windsurfing
  [SCUBA Diving
  [Snorkeling
  [Stand-up paddling
  [Surfing
  [Tubing/Wakeboarding
  [Water skiing
  [Whitewater rafting
 
           [Outdoor Recreation Activities in Other Definition
[Amusement parks/Water parks
[Festivals/Sporting events/Concerts (includes Professional sports)
[Field sports (e.g., Football, Lacrosse, Soccer)
[Game area sports (e.g., Basketball, Golf, Tennis)
[Guided tours/Outfitted travel (includes Boating and Fishing charters)
[Productive activities (Beekeeping, Foraging, Gardening, Panning for
 ore)
 
                            [Other Activities
 
[Agritourism (Animal sanctuaries, Petting zoos, Pick-your-own produce
 farms, Vineyard tours)
[Augmented reality games
[Beachgoing
[Disc golf
[Hot springs soaking
[Kite flying
[Model airplane/rocket/UAV
[Paintball
[Photography
[Stargazing/Astronomy
[Swimming
[Therapeutic Programs
[Water Polo
[Yard sports (e.g., Bocce ball, Croquet)]
------------------------------------------------------------------------


                            Table 9. Real Outdoor Recreation Value-Added by Industry
                                      [Millions of chained (2012) dollars]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   All Industries          360,509     361,153     363,128     370,446     371,789     386,107
 2                     Private               339,779     340,215     342,222     349,558     350,389     363,963
                      industries
 3                       Agriculture,          6,782       7,519       8,025       8,485       7,962       8,040
                        forestry,
                        fishing, and
                        hunting
 4                        Farms                4,791       5,455       6,145       6,407       6,586       6,536
 5                        Forestry,            1,991       2,066       1,918       2,097       1,563       1,655
                         fishing, and
                         related
                         activities
 6                       Mining                  340         313         284         264         249         321
 7                        Oil and gas            105         107         104         133         133          96
                         extraction
 8                        Mining, except         183         159         125          93          87         199
                         oil and gas
 9                        Support                 51          46          50          33          28          31
                         activities for
                         mining
10                       Utilities                 1           1           1           1           1           1
11                       Construction          5,274       4,902       4,925       5,110       5,298       5,410
12                       Manufacturing        48,726      50,739      50,611      49,377      47,541      51,812
13                        Durable goods       18,433      18,940      18,414      18,039      17,603      20,012
14                         Wood products           3           3           3           3           3           3
15                         Nonmetallic            47          50          51          50          51          51
                          mineral
                          products
16                         Primary                 5           4           5           4           4           4
                          metals
17                         Fabricated          1,728       1,861       1,647       1,813       1,855       2,434
                          metal products
18                         Machinery           1,942       1,939       1,725       1,435       1,010       1,419
19                         Computer and          551         568         683       1,202         909       1,088
                          electronic
                          products
20                         Electrical            643         612         582         596         459         472
                          equipment,
                          appliances,
                          and components
21                         Motor               3,436       3,693       3,616       3,333       3,338       4,184
                          vehicles,
                          bodies and
                          trailers, and
                          parts
22                         Other               6,699       7,123       7,158       6,888       6,941       6,954
                          transportation
                          equipment
23                         Furniture and          55          55          53          47          41          40
                          related
                          products
24                         Miscellaneous       3,325       3,023       2,907       2,757       3,002       3,320
                          manufacturing
25                        Nondurable          30,293      31,808      32,261      31,391      29,925      31,534
                         goods
26                         Food and            6,440       6,583       6,516       6,241       6,187       6,071
                          beverage and
                          tobacco
                          products
27                         Textile mills         482         405         437         452         468         464
                          and textile
                          product mills
28                         Apparel and         2,653       2,574       2,524       2,491       2,817       2,965
                          leather and
                          allied
                          products
29                         Paper                 300         306         334         315         302         283
                          products
30                         Printing and          112         110         115         116         115         102
                          related
                          support
                          activities
31                         Petroleum and      16,578      17,910      18,499      18,237      15,888      18,053
                          coal products
32                         Chemical            3,490       3,713       3,694       3,457       3,506       3,501
                          products
33                         Plastics and          240         239         230         235         241         252
                          rubber
                          products
34                       Wholesale trade      32,193      28,419      29,897      31,085      30,137      29,952
35                       Retail trade         84,301      88,246      86,834      87,613      87,987      92,151
36                        Motor vehicle        8,170       8,230       7,840       8,879       9,833      11,468
                         and parts
                         dealers
37                        Food and             6,002       5,943       5,790       5,631       5,450       5,598
                         beverage stores
38                        General             15,056      16,204      16,162      16,699      16,299      16,445
                         merchandise
                         stores
39                        Other retail        55,074      57,885      57,086      56,465      56,440      58,673
40                       Transportation       33,036      34,962      36,346      38,494      39,700      41,681
                        and warehousing
41                        Air                 21,998      23,069      24,678      27,736      30,141      31,803
                         transportation
42                        Rail                   580         562         560         567         566         600
                         transportation
43                        Water                2,733       3,704       3,639       2,975       2,116       2,382
                         transportation
44                        Truck                3,808       3,693       3,603       3,370       3,253       3,240
                         transportation
45                        Transit and          2,235       2,169       2,104       2,026       1,942       2,017
                         ground
                         passenger
                         transportation
46                        Pipeline               354         362         348         455         486         486
                         transportation
47                        Other                1,291       1,381       1,386       1,293       1,259       1,201
                         transportation
                         and support
                         activities
48                        Warehousing             36          37          35          36          38          36
                         and storage
49                       Information           1,297       1,340       1,343       1,450       1,546       1,685
50                        Publishing             529         481         462         460         460         481
                         industries,
                         except internet
                         (includes
                         software)
51                        Motion picture          47          42          42          47          52          53
                         and sound
                         recording
                         industries
52                        Broadcasting           601         683         693         750         803         869
                         and
                         telecommunicati
                         ons
53                        Data                   120         135         149         195         235         290
                         processing,
                         internet
                         publishing, and
                         other
                         information
                         services
54                       Finance,             22,226      21,498      18,905      21,076      21,947      21,717
                        insurance, real
                        estate, rental,
                        and leasing
55                        Finance and          3,805       3,325       4,005       4,357       4,196       3,775
                         insurance
56                         Federal               408         376         384         423         414         406
                          Reserve banks,
                          credit
                          intermediation
                          , and related
                          activities
57                         Securities,             0           0           0           0           0           0
                          commodity
                          contracts, and
                          investments
58                         Insurance           3,396       2,949       3,622       3,936       3,783       3,371
                          carriers and
                          related
                          activities
59                         Funds,                  0           0           0           0           0           0
                          trusts, and
                          other
                          financial
                          vehicles
60                        Real estate         18,421      18,173      14,910      16,728      17,768      17,984
                         and rental and
                         leasing
61                         Real estate        15,460      15,195      12,047      12,965      13,192      13,027
62                          Housing           15,455      15,191      12,043      12,960      13,187      13,022
63                          Other real             5           5           5           5           5           5
                           estate
64                         Rental and          2,961       2,977       2,859       3,787       4,720       5,208
                          leasing
                          services and
                          lessors of
                          intangible
                          assets
65                       Professional          6,078       5,806       5,967       6,203       6,256       6,906
                        and business
                        services
66                        Professional,        1,246       1,220       1,338       1,434       1,489       1,586
                         scientific, and
                         technical
                         services
67                         Legal                   0           0           0           0           0           0
                          services
68                         Computer               62          50          49          60          61          67
                          systems design
                          and related
                          services
69                         Miscellaneous       1,184       1,170       1,290       1,375       1,428       1,519
                          professional,
                          scientific,
                          and technical
                          services
70                        Management of            0           0           0           0           0           0
                         companies and
                         enterprises
71                        Administrative       4,832       4,586       4,628       4,766       4,764       5,318
                         and waste
                         management
                         services
72                         Administrativ       4,831       4,585       4,627       4,765       4,763       5,317
                          e and support
                          services
73                         Waste                   1           1           1           1           1           1
                          management and
                          remediation
                          services
74                       Educational           3,061       2,931       3,055       3,007       3,039       3,009
                        services, health
                        care, and social
                        assistance
75                        Educational          2,554       2,464       2,568       2,498       2,510       2,470
                         services
76                        Health care            507         467         487         511         533         545
                         and social
                         assistance
77                         Ambulatory            296         276         292         309         327         335
                          health care
                          services
78                         Hospitals             161         143         146         152         158         161
79                         Nursing and            22          19          19          19          20          20
                          residential
                          care
                          facilities
80                         Social                 28          29          30          31          29          30
                          assistance
81                        Arts,               91,833      89,264      91,506      92,641      93,637      96,546
                         entertainment,
                         recreation,
                         accommodation,
                         and food
                         services
82                        Arts,               41,793      41,465      43,034      41,527      42,897      45,712
                         entertainment,
                         and recreation
83                         Performing         10,481      10,792      11,495      10,586      11,082      11,505
                          arts,
                          spectator
                          sports,
                          museums, and
                          related
                          activities
84                         Amusements,        31,312      30,672      31,534      30,949      31,817      34,226
                          gambling, and
                          recreation
                          industries
85                        Accommodation       50,041      47,801      48,483      51,105      50,729      50,837
                         and food
                         services
86                         Accommodation      27,868      29,079      29,265      31,299      30,931      30,746
87                         Food services      22,173      18,725      19,221      19,805      19,798      20,088
                          and drinking
                          places
88                       Other services,       4,631       4,551       4,640       4,687       4,736       4,770
                        except
                        government
89                     Government             20,730      20,936      20,910      20,917      21,404      22,152
90                       Federal               3,093       3,412       3,198       3,133       3,225       3,197
91                        General              2,768       2,975       2,759       2,692       2,796       2,766
                         government
92                         National                0           1           1           0           1           1
                          defense
93                         Non-defense         2,768       2,974       2,759       2,691       2,796       2,766
94                        Government             325         440         445         450         430         434
                         enterprises
95                       State and local      17,637      17,531      17,706      17,772      18,169      18,931
96                        General             18,134      17,538      17,581      17,785      18,271      18,972
                         government
97                        Government            ^497          53         170          80          66          80
                         enterprises
----------------------------------------------------------------------------------------------------------------


                              Table 10. Outdoor Recreation Value-Added by Industry
                                          [Millions of current dollars]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   All Industries          360,509     369,280     378,654     400,205     407,362     427,189
 2                     Private               339,779     347,211     355,672     376,142     382,564     401,264
                      industries
 3                       Agriculture,          6,782       7,718       7,621       7,851       7,181       7,428
                        forestry,
                        fishing, and
                        hunting
 4                        Farms                4,791       5,528       5,487       5,422       5,286       5,414
 5                        Forestry,            1,991       2,189       2,133       2,429       1,895       2,014
                         fishing, and
                         related
                         activities
 6                       Mining                  340         312         284         205         182         271
 7                        Oil and gas            105         117         128          92          81          91
                         extraction
 8                        Mining, except         183         143         102          73          65         139
                         oil and gas
 9                        Support                 51          52          54          41          36          40
                         activities for
                         mining
10                       Utilities                 1           1           1           1           1           1
11                       Construction          5,274       5,192       5,593       6,193       6,838       7,338
12                       Manufacturing        48,726      50,409      50,590      50,494      46,638      51,667
13                        Durable goods       18,433      19,866      19,734      20,438      20,478      23,064
14                         Wood products           3           3           3           3           3           4
15                         Nonmetallic            47          50          51          53          55          56
                          mineral
                          products
16                         Primary                 5           4           5           5           5           4
                          metals
17                         Fabricated          1,728       2,118       1,896       2,137       2,186       2,860
                          metal products
18                         Machinery           1,942       2,002       1,861       1,629       1,120       1,554
19                         Computer and          551         551         663       1,094         732         864
                          electronic
                          products
20                         Electrical            643         622         598         633         493         496
                          equipment,
                          appliances,
                          and components
21                         Motor               3,436       3,975       4,088       4,176       4,517       5,853
                          vehicles,
                          bodies and
                          trailers, and
                          parts
22                         Other               6,699       7,381       7,501       7,659       8,084       8,119
                          transportation
                          equipment
23                         Furniture and          55          59          58          57          54          51
                          related
                          products
24                         Miscellaneous       3,325       3,101       3,010       2,993       3,228       3,204
                          manufacturing
25                        Nondurable          30,293      30,543      30,856      30,056      26,160      28,604
                         goods
26                         Food and            6,440       6,720       7,057       7,511       7,645       7,339
                          beverage and
                          tobacco
                          products
27                         Textile mills         482         439         484         512         541         532
                          and textile
                          product mills
28                         Apparel and         2,653       2,674       2,605       2,616       3,022       3,267
                          leather and
                          allied
                          products
29                         Paper                 300         300         317         307         304         272
                          products
30                         Printing and          112         110         117         124         125         112
                          related
                          support
                          activities
31                         Petroleum and      16,578      16,258      16,130      14,760      10,089      12,640
                          coal products
32                         Chemical            3,490       3,803       3,915       3,973       4,168       4,171
                          products
33                         Plastics and          240         239         231         253         267         270
                          rubber
                          products
34                       Wholesale trade      32,193      31,794      33,303      35,298      34,612      34,774
35                        Retail trade        84,301      87,648      87,539      91,022      92,373      95,661
36                         Motor vehicle       8,170       8,453       8,483       9,441      10,260      11,309
                          and parts
                          dealers
37                         Food and            6,002       6,092       6,197       6,486       6,591       6,800
                          beverage
                          stores
38                         General            15,056      15,640      15,159      15,452      15,337      15,543
                          merchandise
                          stores
39                         Other retail       55,074      57,464      57,700      59,644      60,186      62,008
40                        Transportation      33,036      35,587      38,432      42,981      45,538      47,932
                         and warehousing
41                         Air                21,998      23,448      26,385      30,828      33,607      35,680
                          transportation
42                         Rail                  580         590         603         639         641         688
                          transportation
43                         Water               2,733       3,670       3,524       3,412       3,142       3,336
                          transportation
44                         Truck               3,808       3,809       3,864       3,830       3,741       3,766
                          transportation
45                         Transit and         2,235       2,246       2,182       2,215       2,225       2,314
                          ground
                          passenger
                          transportation
46                         Pipeline              354         383         401         563         620         622
                          transportation
47                         Other               1,291       1,404       1,438       1,459       1,524       1,490
                          transportation
                          and support
                          activities
48                         Warehousing            36          37          36          36          38          36
                          and storage
49                        Information          1,297       1,368       1,382       1,493       1,580       1,711
50                         Publishing            529         493         481         486         496         527
                          industries,
                          except
                          internet
                          (includes
                          software)
51                         Motion                 47          50          53          59          60          66
                          picture and
                          sound
                          recording
                          industries
52                         Broadcasting          601         687         697         751         789         826
                          and
                          telecommunicat
                          ions
53                         Data                  120         137         151         198         236         291
                          processing,
                          internet
                          publishing,
                          and other
                          information
                          services
54                        Finance,            22,226      22,085      20,070      22,647      24,002      24,600
                         insurance, real
                         estate, rental,
                         and leasing
55                         Finance and         3,805       3,415       4,184       4,662       4,757       4,595
                          insurance
56                          Federal              408         394         410         459         467         468
                           Reserve
                           banks, credit
                           intermediatio
                           n, and
                           related
                           activities
57                          Securities,            0           0           0           0           0           0
                           commodity
                           contracts,
                           and
                           investments
58                          Insurance          3,396       3,020       3,774       4,202       4,289       4,127
                           carriers and
                           related
                           activities
59                          Funds,                 0           0           0           0           0           0
                           trusts, and
                           other
                           financial
                           vehicles
60                         Real estate        18,421      18,670      15,886      17,985      19,245      20,005
                          and rental and
                          leasing
61                         Real estate        15,460      15,625      12,785      14,263      15,066      15,453
62                          Housing           15,455      15,620      12,780      14,258      15,061      15,447
63                          Other real             5           5           5           5           5           5
                             estate
64                          Rental and         2,961       3,045       3,101       3,722       4,179       4,552
                           leasing
                           services and
                           lessors of
                           intangible
                           assets
65                        Professional         6,078       5,898       6,133       6,595       6,859       7,786
                         and business
                         services
66                         Professional,       1,246       1,249       1,396       1,547       1,658       1,805
                          scientific,
                          and technical
                          services
67                          Legal                  0           0           0           0           0           0
                           services
68                          Computer              62          53          54          65          63          71
                           systems
                           design and
                           related
                           services
69                          Miscellaneou       1,184       1,195       1,342       1,482       1,594       1,733
                           s
                           professional,
                           scientific,
                           and technical
                           services
70                         Management of           0           0           0           0           0           0
                          companies and
                          enterprises
71                         Administrativ       4,832       4,649       4,737       5,048       5,201       5,981
                          e and waste
                          management
                          services
72                          Administrati       4,831       4,648       4,736       5,047       5,200       5,980
                           ve and
                           support
                           services
73                          Waste                  1           1           1           1           1           1
                           management
                           and
                           remediation
                           services
74                        Educational          3,061       3,058       3,267       3,328       3,482       3,610
                         services,
                         health care,
                         and social
                         assistance
75                         Educational         2,554       2,583       2,772       2,806       2,936       3,047
                          services
76                         Health care           507         475         495         522         546         562
                          and social
                          assistance
77                          Ambulatory           296         282         296         309         323         329
                           health care
                           services
78                          Hospitals            161         146         152         163         172         180
79                          Nursing and           22          20          20          21          22          22
                           residential
                           care
                           facilities
80                          Social                28          27          28          29          29          30
                           assistance
81                        Arts,               91,833      91,434      96,529     102,891     107,934     112,870
                         entertainment,
                         recreation,
                         accommodation,
                         and food
                         services
82                         Arts,              41,793      42,291      44,954      46,169      49,500      52,880
                          entertainment,
                          and recreation
83                          Performing        10,481      11,062      12,145      12,070      13,181      14,006
                           arts,
                           spectator
                           sports,
                           museums, and
                           related
                           activities
84                          Amusements,       31,312      31,229      32,809      34,099      36,319      38,874
                           gambling, and
                           recreation
                           industries
85                         Accommodation      50,041      49,143      51,575      56,722      58,434      59,990
                          and food
                          services
86                          Accommodatio      27,868      29,865      31,308      34,779      35,538      36,072
                           n
87                          Food              22,173      19,278      20,268      21,943      22,896      23,918
                           services and
                           drinking
                           places
88                        Other                4,631       4,708       4,927       5,142       5,344       5,615
                         services,
                         except
                         government
89                     Government             20,730      22,069      22,982      24,063      24,799      25,926
90                       Federal               3,093       3,456       3,293       3,248       3,400       3,471
91                        General              2,768       3,033       2,891       2,872       3,034       3,087
                         government
92                         National                0           1           1           0           1           1
                          defense
93                         Non-defense         2,768       3,032       2,890       2,872       3,034       3,087
94                        Government             325         423         402         376         366         383
                         enterprises
95                       State and local      17,637      18,613      19,689      20,815      21,398      22,455
96                        General             18,134      18,569      19,448      20,359      20,890      21,948
                         government
97                        Government            ^497          44         241         456         508         508
                         enterprises
----------------------------------------------------------------------------------------------------------------


         Table 11. Outdoor Recreation Value-Added by Industry as a Percentage of Gross Domestic Product
                                                    [Percent]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   All Industries              2.2         2.2         2.2         2.2         2.2         2.2
 2                     Private                   2.1         2.1         2.0         2.1         2.0         2.1
                      industries
 3                       Agriculture,            0.0         0.0         0.0         0.0         0.0         0.0
                        forestry,
                        fishing, and
                        hunting
 4                       Mining                  0.0         0.0         0.0         0.0         0.0         0.0
 5                       Utilities               0.0         0.0         0.0         0.0         0.0         0.0
 6                       Construction            0.0         0.0         0.0         0.0         0.0         0.0
 7                       Manufacturing           0.3         0.3         0.3         0.3         0.2         0.3
 8                        Durable goods          0.1         0.1         0.1         0.1         0.1         0.1
 9                        Nondurable             0.2         0.2         0.2         0.2         0.1         0.1
                         goods
10                       Wholesale trade         0.2         0.2         0.2         0.2         0.2         0.2
11                       Retail trade            0.5         0.5         0.5         0.5         0.5         0.5
12                       Transportation          0.2         0.2         0.2         0.2         0.2         0.2
                        and warehousing
13                       Information             0.0         0.0         0.0         0.0         0.0         0.0
14                       Finance,                0.1         0.1         0.1         0.1         0.1         0.1
                        insurance, real
                        estate, rental,
                        and leasing
15                        Finance and            0.0         0.0         0.0         0.0         0.0         0.0
                         insurance
16                        Real estate            0.1         0.1         0.1         0.1         0.1         0.1
                         and rental and
                         leasing
17                       Professional            0.0         0.0         0.0         0.0         0.0         0.0
                        and business
                        services
18                        Professional,          0.0         0.0         0.0         0.0         0.0         0.0
                         scientific, and
                         technical
                         services
19                        Management of          0.0         0.0         0.0         0.0         0.0         0.0
                         companies and
                         enterprises
20                        Administrative         0.0         0.0         0.0         0.0         0.0         0.0
                         and waste
                         management
                         services
21                       Educational             0.0         0.0         0.0         0.0         0.0         0.0
                        services, health
                        care, and social
                        assistance
22                        Educational            0.0         0.0         0.0         0.0         0.0         0.0
                         services
23                        Health care            0.0         0.0         0.0         0.0         0.0         0.0
                         and social
                         assistance
24                       Arts,                   0.6         0.5         0.6         0.6         0.6         0.6
                        entertainment,
                        recreation,
                        accommodation,
                        and food
                        services
25                        Arts,                  0.3         0.3         0.3         0.3         0.3         0.3
                         entertainment,
                         and recreation
26                        Accommodation          0.3         0.3         0.3         0.3         0.3         0.3
                         and food
                         services
27                       Other services,         0.0         0.0         0.0         0.0         0.0         0.0
                        except
                        government
28                     Government                0.1         0.1         0.1         0.1         0.1         0.1
29                       Federal                 0.0         0.0         0.0         0.0         0.0         0.0
30                       State and local         0.1         0.1         0.1         0.1         0.1         0.1
----------------------------------------------------------------------------------------------------------------


  Table 12. Outdoor Recreation Value-Added by Industry as a Percentage of Total Outdoor Recreation Value-Added
                                                    [Percent]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   All Industries            100.0       100.0       100.0       100.0       100.0       100.0
 2                     Private                  94.2        94.0        93.9        94.0        93.9        93.9
                      industries
 3                       Agriculture,            1.9         2.1         2.0         2.0         1.8         1.7
                        forestry,
                        fishing, and
                        hunting
 4                        Farms                  1.3         1.5         1.4         1.4         1.3         1.3
 5                        Forestry,              0.6         0.6         0.6         0.6         0.5         0.5
                         fishing, and
                         related
                         activities
 6                       Mining                  0.1         0.1         0.1         0.1         0.0         0.1
 7                        Oil and gas            0.0         0.0         0.0         0.0         0.0         0.0
                         extraction
 8                        Mining, except         0.1         0.0         0.0         0.0         0.0         0.0
                         oil and gas
 9                        Support                0.0         0.0         0.0         0.0         0.0         0.0
                         activities for
                         mining
10                       Utilities               0.0         0.0         0.0         0.0         0.0         0.0
11                       Construction            1.5         1.4         1.5         1.5         1.7         1.7
12                       Manufacturing          13.5        13.7        13.4        12.6        11.4        12.1
13                        Durable goods          5.1         5.4         5.2         5.1         5.0         5.4
14                         Wood products         0.0         0.0         0.0         0.0         0.0         0.0
15                         Nonmetallic           0.0         0.0         0.0         0.0         0.0         0.0
                          mineral
                          products
16                         Primary               0.0         0.0         0.0         0.0         0.0         0.0
                          metals
17                         Fabricated            0.5         0.6         0.5         0.5         0.5         0.7
                          metal products
18                         Machinery             0.5         0.5         0.5         0.4         0.3         0.4
19                         Computer and          0.2         0.1         0.2         0.3         0.2         0.2
                          electronic
                          products
20                         Electrical            0.2         0.2         0.2         0.2         0.1         0.1
                          equipment,
                          appliances,
                          and components
21                         Motor                 1.0         1.1         1.1         1.0         1.1         1.4
                          vehicles,
                          bodies and
                          trailers, and
                          parts
22                         Other                 1.9         2.0         2.0         1.9         2.0         1.9
                          transportation
                          equipment
23                         Furniture and         0.0         0.0         0.0         0.0         0.0         0.0
                          related
                          products
24                         Miscellaneous         0.9         0.8         0.8         0.7         0.8         0.8
                          manufacturing
25                        Nondurable             8.4         8.3         8.1         7.5         6.4         6.7
                         goods
26                         Food and              1.8         1.8         1.9         1.9         1.9         1.7
                          beverage and
                          tobacco
                          products
27                         Textile mills         0.1         0.1         0.1         0.1         0.1         0.1
                          and textile
                          product mills
28                         Apparel and           0.7         0.7         0.7         0.7         0.7         0.8
                          leather and
                          allied
                          products
29                         Paper                 0.1         0.1         0.1         0.1         0.1         0.1
                          products
30                         Printing and          0.0         0.0         0.0         0.0         0.0         0.0
                          related
                          support
                          activities
31                         Petroleum and         4.6         4.4         4.3         3.7         2.5         3.0
                          coal products
32                         Chemical              1.0         1.0         1.0         1.0         1.0         1.0
                          products
33                         Plastics and          0.1         0.1         0.1         0.1         0.1         0.1
                          rubber
                          products
34                       Wholesale trade         8.9         8.6         8.8         8.8         8.5         8.1
35                       Retail trade           23.4        23.7        23.1        22.7        22.7        22.4
36                        Motor vehicle          2.3         2.3         2.2         2.4         2.5         2.6
                         and parts
                         dealers
37                        Food and               1.7         1.6         1.6         1.6         1.6         1.6
                         beverage stores
38                        General                4.2         4.2         4.0         3.9         3.8         3.6
                         merchandise
                         stores
39                        Other retail          15.3        15.6        15.2        14.9        14.8        14.5
40                       Transportation          9.2         9.6        10.1        10.7        11.2        11.2
                        and warehousing
41                        Air                    6.1         6.3         7.0         7.7         8.2         8.4
                         transportation
42                        Rail                   0.2         0.2         0.2         0.2         0.2         0.2
                         transportation
43                        Water                  0.8         1.0         0.9         0.9         0.8         0.8
                         transportation
44                        Truck                  1.1         1.0         1.0         1.0         0.9         0.9
                         transportation
45                        Transit and            0.6         0.6         0.6         0.6         0.5         0.5
                         ground
                         passenger
                         transportation
46                        Pipeline               0.1         0.1         0.1         0.1         0.2         0.1
                         transportation
47                        Other                  0.4         0.4         0.4         0.4         0.4         0.3
                         transportation
                         and support
                         activities
48                        Warehousing            0.0         0.0         0.0         0.0         0.0         0.0
                         and storage
49                       Information             0.4         0.4         0.4         0.4         0.4         0.4
50                        Publishing             0.1         0.1         0.1         0.1         0.1         0.1
                         industries,
                         except internet
                         (includes
                         software)
51                        Motion picture         0.0         0.0         0.0         0.0         0.0         0.0
                         and sound
                         recording
                         industries
52                        Broadcasting           0.2         0.2         0.2         0.2         0.2         0.2
                         and
                         telecommunicati
                         ons
53                        Data                   0.0         0.0         0.0         0.0         0.1         0.1
                         processing,
                         internet
                         publishing, and
                         other
                         information
                         services
54                       Finance,                6.2         6.0         5.3         5.7         5.9         5.8
                        insurance, real
                        estate, rental,
                        and leasing
55                        Finance and            1.1         0.9         1.1         1.2         1.2         1.1
                         insurance
56                         Federal               0.1         0.1         0.1         0.1         0.1         0.1
                          Reserve banks,
                          credit
                          intermediation
                          , and related
                          activities
57                         Securities,           0.0         0.0         0.0         0.0         0.0         0.0
                          commodity
                          contracts, and
                          investments
58                         Insurance             0.9         0.8         1.0         1.0         1.1         1.0
                          carriers and
                          related
                          activities
59                         Funds,                0.0         0.0         0.0         0.0         0.0         0.0
                          trusts, and
                          other
                          financial
                          vehicles
60                        Real estate            5.1         5.1         4.2         4.5         4.7         4.7
                         and rental and
                         leasing
61                         Real estate           4.3         4.2         3.4         3.6         3.7         3.6
62                          Housing              4.3         4.2         3.4         3.6         3.7         3.6
63                          Other real           0.0         0.0         0.0         0.0         0.0         0.0
                           estate
64                        Rental and             0.8         0.8         0.8         0.9         1.0         1.1
                         leasing
                         services and
                         lessors of
                         intangible
                         assets
65                        Professional           1.7         1.6         1.6         1.6         1.7         1.8
                         and business
                         services
66                         Professional,         0.3         0.3         0.4         0.4         0.4         0.4
                          scientific,
                          and technical
                          services
67                          Legal                0.0         0.0         0.0         0.0         0.0         0.0
                           services
68                          Computer             0.0         0.0         0.0         0.0         0.0         0.0
                           systems
                           design and
                           related
                           services
69                          Miscellaneou         0.3         0.3         0.4         0.4         0.4         0.4
                           s
                           professional,
                           scientific,
                           and technical
                           services
70                         Management of         0.0         0.0         0.0         0.0         0.0         0.0
                          companies and
                          enterprises
71                         Administrativ         1.3         1.3         1.3         1.3         1.3         1.4
                          e and waste
                          management
                          services
72                          Administrati         1.3         1.3         1.3         1.3         1.3         1.4
                           ve and
                           support
                           services
73                          Waste                0.0         0.0         0.0         0.0         0.0         0.0
                           management
                           and
                           remediation
                           services
74                        Educational            0.8         0.8         0.9         0.8         0.9         0.8
                         services,
                         health care,
                         and social
                         assistance
75                         Educational           0.7         0.7         0.7         0.7         0.7         0.7
                          services
76                         Health care           0.1         0.1         0.1         0.1         0.1         0.1
                          and social
                          assistance
77                          Ambulatory           0.1         0.1         0.1         0.1         0.1         0.1
                           health care
                           services
78                          Hospitals            0.0         0.0         0.0         0.0         0.0         0.0
79                          Nursing and          0.0         0.0         0.0         0.0         0.0         0.0
                           residential
                           care
                           facilities
80                          Social               0.0         0.0         0.0         0.0         0.0         0.0
                           assistance
81                        Arts,                 25.5        24.8        25.5        25.7        26.5        26.4
                         entertainment,
                         recreation,
                         accommodation,
                         and food
                         services
82                         Arts,                11.6        11.5        11.9        11.5        12.2        12.4
                          entertainment,
                          and recreation
83                          Performing           2.9         3.0         3.2         3.0         3.2         3.3
                           arts,
                           spectator
                           sports,
                           museums, and
                           related
                           activities
84                          Amusements,          8.7         8.5         8.7         8.5         8.9         9.1
                           gambling, and
                           recreation
                           industries
85                         Accommodation        13.9        13.3        13.6        14.2        14.3        14.0
                          and food
                          services
86                          Accommodatio         7.7         8.1         8.3         8.7         8.7         8.4
                           n
87                          Food                 6.2         5.2         5.4         5.5         5.6         5.6
                           services and
                           drinking
                           places
88                        Other                  1.3         1.3         1.3         1.3         1.3         1.3
                         services,
                         except
                         government
89                     Government                5.8         6.0         6.1         6.0         6.1         6.1
90                       Federal                 0.9         0.9         0.9         0.8         0.8         0.8
91                        General                0.8         0.8         0.8         0.7         0.7         0.7
                         government
92                         National              0.0         0.0         0.0         0.0         0.0         0.0
                          defense
93                         Non-defense           0.8         0.8         0.8         0.7         0.7         0.7
94                        Government             0.1         0.1         0.1         0.1         0.1         0.1
                         enterprises
95                       State and local         4.9         5.0         5.2         5.2         5.3         5.3
96                        General                5.0         5.0         5.1         5.1         5.1         5.1
                         government
97                        Government            ^0.1         0.0         0.1         0.1         0.1         0.1
                         enterprises
----------------------------------------------------------------------------------------------------------------


              Table 13. Chain-Type Quantity Indexes for Outdoor Recreation Value-Added by Industry
                                           [index numbers, 2012 = 100]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   All Industries          100.000     100.179     100.726     102.756     103.129     107.100
 2                     Private               100.000     100.128     100.719     102.878     103.123     107.118
                      industries
 3                       Agriculture,        100.000     110.855     118.316     125.097     117.392     118.538
                        forestry,
                        fishing, and
                        hunting
 4                        Farms              100.000     113.866     128.267     133.734     137.464     136.429
 5                        Forestry,          100.000     103.727      96.336     105.325      78.471      83.091
                         fishing, and
                         related
                         activities
 6                       Mining              100.000      91.995      83.533      77.753      73.402      94.548
 7                        Oil and gas        100.000     101.665      98.613     126.151     126.547      91.355
                         extraction
 8                        Mining, except     100.000      86.508      68.233      50.942      47.643     108.457
                         oil and gas
 9                        Support            100.000      90.057      96.816      64.890      54.216      60.290
                         activities for
                         mining
10                       Utilities           100.000      97.457      80.986      83.511      88.696      84.879
11                       Construction        100.000      92.945      93.393      96.893     100.455     102.573
12                       Manufacturing       100.000     104.130     103.868     101.335      97.566     106.332
13                        Durable goods      100.000     102.747      99.896      97.861      95.496     108.564
14                         Wood products     100.000     106.507     113.158     112.935     114.960     122.015
15                         Nonmetallic       100.000     106.820     107.633     106.012     107.868     108.734
                          mineral
                          products
16                         Primary           100.000      73.981      88.934      71.047      74.985      74.946
                          metals
17                         Fabricated        100.000     107.675      95.343     104.918     107.343     140.856
                          metal products
18                         Machinery         100.000      99.866      88.837      73.929      52.016      73.062
19                         Computer and      100.000     103.102     123.994     218.194     164.995     197.573
                          electronic
                          products
20                         Electrical        100.000      95.108      90.499      92.723      71.418      73.328
                          equipment,
                          appliances,
                          and components
21                         Motor             100.000     107.486     105.231      97.005      97.156     121.759
                          vehicles,
                          bodies and
                          trailers, and
                          parts
22                         Other             100.000     106.328     106.846     102.823     103.611     103.809
                          transportation
                          equipment
23                         Furniture and     100.000     100.448      97.506      86.207      74.622      73.604
                          related
                          products
24                         Miscellaneous     100.000      90.903      87.424      82.910      90.285      99.837
                          manufacturing
25                        Nondurable         100.000     105.001     106.496     103.625      98.784     104.096
                         goods
26                         Food and          100.000     102.232     101.193      96.908      96.083      94.280
                          beverage and
                          tobacco
                          products
27                         Textile mills     100.000      84.095      90.700      93.821      97.045      96.200
                          and textile
                          product mills
28                         Apparel and       100.000      97.042      95.153      93.909     106.212     111.797
                          leather and
                          allied
                          products
29                         Paper             100.000     102.086     111.241     105.164     100.797      94.290
                          products
30                         Printing and      100.000      98.498     102.687     103.480     102.699      91.515
                          related
                          support
                          activities
31                         Petroleum and     100.000     108.037     111.592     110.009      95.838     108.901
                          coal products
32                         Chemical          100.000     106.402     105.861      99.054     100.459     100.314
                          products
33                         Plastics and      100.000      99.664      95.828      97.955     100.563     105.202
                          rubber
                          products
34                       Wholesale trade     100.000      88.279      92.870      96.560      93.614      93.040
35                       Retail trade        100.000     104.679     103.004     103.928     104.372     109.312
36                        Motor vehicle      100.000     100.733      95.965     108.679     120.360     140.366
                         and parts
                         dealers
37                        Food and           100.000      99.022      96.480      93.832      90.804      93.276
                         beverage stores
38                        General            100.000     107.626     107.350     110.913     108.258     109.229
                         merchandise
                         stores
39                        Other retail       100.000     105.103     103.652     102.525     102.479     106.534
40                       Transportation      100.000     105.831     110.018     116.520     120.172     126.169
                        and warehousing
41                        Air                100.000     104.873     112.184     126.085     137.020     144.578
                         transportation
42                        Rail               100.000      96.854      96.460      97.719      97.579     103.427
                         transportation
43                        Water              100.000     135.553     133.147     108.882      77.419      87.160
                         transportation
44                        Truck              100.000      96.990      94.603      88.506      85.420      85.086
                         transportation
45                        Transit and        100.000      97.039      94.140      90.637      86.904      90.218
                         ground
                         passenger
                         transportation
46                        Pipeline           100.000     102.229      98.152     128.498     137.238     137.187
                         transportation
47                        Other              100.000     106.952     107.323     100.148      97.513      92.969
                         transportation
                         and support
                         activities
48                        Warehousing        100.000     100.921      97.106      98.480     103.744      98.199
                         and storage
49                       Information         100.000     103.315     103.609     111.819     119.212     129.931
50                        Publishing         100.000      90.894      87.288      86.974      87.025      90.858
                         industries,
                         except internet
                         (includes
                         software)
51                        Motion picture     100.000      89.537      89.267      99.471     110.279     111.517
                         and sound
                         recording
                         industries
52                        Broadcasting       100.000     113.754     115.339     124.942     133.682     144.636
                         and
                         telecommunicati
                         ons
53                        Data               100.000     112.204     123.880     162.878     195.915     241.861
                         processing,
                         internet
                         publishing, and
                         other
                         information
                         services
54                       Finance,            100.000      96.727      85.061      94.827      98.749      97.710
                        insurance, real
                        estate, rental,
                        and leasing
55                        Finance and        100.000      87.404     105.271     114.532     110.294      99.228
                         insurance
56                         Federal           100.000      91.993      94.114     103.453     101.384      99.401
                          Reserve banks,
                          credit
                          intermediation
                          , and related
                          activities
57                         Securities,         0.000       0.000       0.000       0.000       0.000       0.000
                          commodity
                          contracts, and
                          investments
58                         Insurance         100.000      86.846     106.653     115.906     111.404      99.270
                          carriers and
                          related
                          activities
59                         Funds,              0.000       0.000       0.000       0.000       0.000       0.000
                          trusts, and
                          other
                          financial
                          vehicles
60                        Real estate        100.000      98.651      80.940      90.809      96.454      97.625
                         and rental and
                         leasing
61                         Real estate       100.000      98.288      77.925      83.863      85.329      84.259
62                          Housing          100.000      98.291      77.922      83.861      85.328      84.258
63                          Other real       100.000      88.142      88.794      89.007      89.119      86.836
                           estate
64                         Rental and        100.000     100.555      96.571     127.886     159.409     175.899
                          leasing
                          services and
                          lessors of
                          intangible
                          assets
65                       Professional        100.000      95.520      98.181     102.052     102.932     113.631
                        and business
                        services
66                        Professional,      100.000      97.906     107.381     115.107     119.482     127.272
                         scientific, and
                         technical
                         services
67                         Legal               0.000       0.000       0.000       0.000       0.000       0.000
                          services
68                         Computer          100.000      80.061      78.410      95.697      98.177     107.796
                          systems design
                          and related
                          services
69                         Miscellaneous     100.000      98.868     108.959     116.165     120.638     128.346
                          professional,
                          scientific,
                          and technical
                          services
70                        Management of        0.000       0.000       0.000       0.000       0.000       0.000
                         companies and
                         enterprises
71                        Administrative     100.000      94.902      95.780      98.639      98.599     110.060
                         and waste
                         management
                         services
72                         Administrativ     100.000      94.901      95.777      98.634      98.594     110.058
                          e and support
                          services
73                         Waste             100.000     100.583     113.102     120.260     123.868     120.606
                          management and
                          remediation
                          services
74                       Educational         100.000      95.750      99.807      98.235      99.287      98.304
                        services, health
                        care, and social
                        assistance
75                        Educational        100.000      96.466     100.537      97.811      98.288      96.721
                         services
76                        Health care        100.000      92.091      96.079     100.779     105.075     107.519
                         and social
                         assistance
77                         Ambulatory        100.000      93.147      98.651     104.256     110.265     112.972
                          health care
                          services
78                         Hospitals         100.000      88.998      90.620      94.788      98.151     100.419
79                         Nursing and       100.000      86.386      86.310      86.465      87.132      87.244
                          residential
                          care
                          facilities
80                         Social            100.000     103.781     109.171     110.982     105.543     108.337
                          assistance
81                       Arts,               100.000      97.202      99.644     100.879     101.964     105.132
                        entertainment,
                        recreation,
                        accommodation,
                        and food
                        services
82                        Arts,              100.000      99.217     102.969      99.364     102.643     109.377
                         entertainment,
                         and recreation
83                         Performing        100.000     102.969     109.674     101.006     105.741     109.777
                          arts,
                          spectator
                          sports,
                          museums, and
                          related
                          activities
84                         Amusements,       100.000      97.957     100.710      98.840     101.613     109.307
                          gambling, and
                          recreation
                          industries
85                        Accommodation      100.000      95.525      96.886     102.126     101.376     101.591
                         and food
                         services
86                         Accommodation     100.000     104.347     105.016     112.315     110.994     110.328
87                         Food services     100.000      84.449      86.687      89.320      89.287      90.597
                          and drinking
                          places
88                       Other services,     100.000      98.292     100.202     101.214     102.268     103.003
                        except
                        government
89                     Government            100.000     100.996     100.868     100.903     103.250     106.861
90                       Federal             100.000     110.314     103.393     101.291     104.258     103.366
91                        General            100.000     107.469      99.683      97.231     101.014      99.932
                         government
92                         National          100.000     138.177     145.667     132.300     143.584     147.661
                          defense
93                         Non-defense       100.000     107.465      99.677      97.226     101.008      99.925
94                        Government         100.000     135.379     136.758     138.396     132.290     133.509
                         enterprises
95                       State and local     100.000      99.402     100.395     100.769     103.017     107.340
96                        General            100.000      96.712      96.950      98.078     100.759     104.620
                         government
97                        Government        ^100.000      10.640      34.078      16.137      13.309      16.125
                         enterprises
----------------------------------------------------------------------------------------------------------------


     Table 14. Percent Changes in Chain-Type Quantity Indexes for Outdoor Recreation Value-Added by Industry
                                                [Percent Change]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                                         2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                         All Industries                    0.2         0.5         2.0         0.4         3.9
 2                           Private industries              0.1         0.6         2.1         0.2         3.9
 3                             Agriculture,                 10.9         6.7         5.7        ^6.2         1.0
                              forestry, fishing, and
                              hunting
 4                              Farms                       13.9        12.6         4.3         2.8        ^0.8
 5                              Forestry, fishing,           3.7        ^7.1         9.3       ^25.5         5.9
                               and related
                               activities
 6                             Mining                       ^8.0        ^9.2        ^6.9        ^5.6        28.8
 7                              Oil and gas                  1.7        ^3.0        27.9         0.3       ^27.8
                               extraction
 8                              Mining, except oil         ^13.5       ^21.1       ^25.3        ^6.5       127.6
                               and gas
 9                              Support activities          ^9.9         7.5       ^33.0       ^16.5        11.2
                               for mining
10                             Utilities                    ^2.5       ^16.9         3.1         6.2        ^4.3
11                             Construction                 ^7.1         0.5         3.7         3.7         2.1
12                             Manufacturing                 4.1        ^0.3        ^2.4        ^3.7         9.0
13                              Durable goods                2.7        ^2.8        ^2.0        ^2.4        13.7
14                               Wood products               6.5         6.2        ^0.2         1.8         6.1
15                               Nonmetallic mineral         6.8         0.8        ^1.5         1.8         0.8
                                products
16                               Primary metals            ^26.0        20.2       ^20.1         5.5        ^0.1
17                               Fabricated metal            7.7       ^11.5        10.0         2.3        31.2
                                products
18                               Machinery                  ^0.1       ^11.0       ^16.8       ^29.6        40.5
19                               Computer and                3.1        20.3        76.0       ^24.4        19.7
                                electronic products
20                               Electrical                 ^4.9        ^4.8         2.5       ^23.0         2.7
                                equipment,
                                appliances, and
                                components
21                               Motor vehicles,             7.5        ^2.1        ^7.8         0.2        25.3
                                bodies and trailers,
                                and parts
22                               Other                       6.3         0.5        ^3.8         0.8         0.2
                                transportation
                                equipment
23                               Furniture and               0.4        ^2.9       ^11.6       ^13.4        ^1.4
                                related products
24                               Miscellaneous              ^9.1        ^3.8        ^5.2         8.9        10.6
                                manufacturing
25                              Nondurable goods             5.0         1.4        ^2.7        ^4.7         5.4
26                               Food and beverage           2.2        ^1.0        ^4.2        ^0.9        ^1.9
                                and tobacco products
27                               Textile mills and         ^15.9         7.9         3.4         3.4        ^0.9
                                textile product
                                mills
28                               Apparel and leather        ^3.0        ^1.9        ^1.3        13.1         5.3
                                and allied products
29                               Paper products              2.1         9.0        ^5.5        ^4.2        ^6.5
30                               Printing and               ^1.5         4.3         0.8        ^0.8       ^10.9
                                related support
                                activities
31                               Petroleum and coal          8.0         3.3        ^1.4       ^12.9        13.6
                                products
32                               Chemical products           6.4        ^0.5        ^6.4         1.4        ^0.1
33                               Plastics and rubber        ^0.3        ^3.8         2.2         2.7         4.6
                                products
34                             Wholesale trade             ^11.7         5.2         4.0        ^3.1        ^0.6
35                             Retail trade                  4.7        ^1.6         0.9         0.4         4.7
36                              Motor vehicle and            0.7        ^4.7        13.2        10.7        16.6
                               parts dealers
37                              Food and beverage           ^1.0        ^2.6        ^2.7        ^3.2         2.7
                               stores
38                              General merchandise          7.6        ^0.3         3.3        ^2.4         0.9
                               stores
39                              Other retail                 5.1        ^1.4        ^1.1         0.0         4.0
40                             Transportation and            5.8         4.0         5.9         3.1         5.0
                              warehousing
41                              Air transportation           4.9         7.0        12.4         8.7         5.5
42                              Rail transportation         ^3.1        ^0.4         1.3        ^0.1         6.0
43                              Water transportation        35.6        ^1.8       ^18.2       ^28.9        12.6
44                              Truck transportation        ^3.0        ^2.5        ^6.4        ^3.5        ^0.4
45                              Transit and ground          ^3.0        ^3.0        ^3.7        ^4.1         3.8
                               passenger
                               transportation
46                              Pipeline                     2.2        ^4.0        30.9         6.8         0.0
                               transportation
47                              Other transportation         7.0         0.3        ^6.7        ^2.6        ^4.7
                               and support
                               activities
48                              Warehousing and              0.9        ^3.8         1.4         5.3        ^5.3
                               storage
49                             Information                   3.3         0.3         7.9         6.6         9.0
50                              Publishing                  ^9.1        ^4.0        ^0.4         0.1         4.4
                               industries, except
                               internet (includes
                               software)
51                              Motion picture and         ^10.5        ^0.3        11.4        10.9         1.1
                               sound recording
                               industries
52                              Broadcasting and            13.8         1.4         8.3         7.0         8.2
                               telecommunications
53                              Data processing,            12.2        10.4        31.5        20.3        23.5
                               internet publishing,
                               and other information
                               services
54                             Finance, insurance,          ^3.3       ^12.1        11.5         4.1        ^1.1
                              real estate, rental,
                              and leasing
55                              Finance and                ^12.6        20.4         8.8        ^3.7       ^10.0
                               insurance
56                               Federal Reserve            ^8.0         2.3         9.9        ^2.0        ^2.0
                                banks, credit
                                intermediation, and
                                related activities
57                               Securities,                 0.0         0.0         0.0         0.0         0.0
                                commodity contracts,
                                and investments
58                               Insurance carriers        ^13.2        22.8         8.7        ^3.9       ^10.9
                                and related
                                activities
59                               Funds, trusts, and          0.0         0.0         0.0         0.0         0.0
                                other financial
                                vehicles
60                              Real estate and             ^1.3       ^18.0        12.2         6.2         1.2
                               rental and leasing
61                               Real estate                ^1.7       ^20.7         7.6         1.7        ^1.3
62                                Housing                   ^1.7       ^20.7         7.6         1.7        ^1.3
63                                Other real estate        ^11.9         0.7         0.2         0.1        ^2.6
64                               Rental and leasing          0.6        ^4.0        32.4        24.6        10.3
                                services and lessors
                                of intangible assets
65                             Professional and             ^4.5         2.8         3.9         0.9        10.4
                              business services
66                              Professional,               ^2.1         9.7         7.2         3.8         6.5
                               scientific, and
                               technical services
67                               Legal services              0.0         0.0         0.0         0.0         0.0
68                               Computer systems          ^19.9        ^2.1        22.0         2.6         9.8
                                design and related
                                services
69                               Miscellaneous              ^1.1        10.2         6.6         3.9         6.4
                                professional,
                                scientific, and
                                technical services
70                              Management of                0.0         0.0         0.0         0.0         0.0
                               companies and
                               enterprises
71                              Administrative and          ^5.1         0.9         3.0         0.0        11.6
                               waste management
                               services
72                               Administrative and         ^5.1         0.9         3.0         0.0        11.6
                                support services
73                               Waste management            0.6        12.4         6.3         3.0        ^2.6
                                and remediation
                                services
74                             Educational services,        ^4.3         4.2        ^1.6         1.1        ^1.0
                              health care, and
                              social assistance
75                              Educational services        ^3.5         4.2        ^2.7         0.5        ^1.6
76                              Health care and             ^7.9         4.3         4.9         4.3         2.3
                               social assistance
77                               Ambulatory health          ^6.9         5.9         5.7         5.8         2.5
                                care services
78                               Hospitals                 ^11.0         1.8         4.6         3.5         2.3
79                               Nursing and               ^13.6        ^0.1         0.2         0.8         0.1
                                residential care
                                facilities
80                               Social assistance           3.8         5.2         1.7        ^4.9         2.6
81                             Arts, entertainment,         ^2.8         2.5         1.2         1.1         3.1
                              recreation,
                              accommodation, and
                              food services
82                              Arts, entertainment,        ^0.8         3.8        ^3.5         3.3         6.6
                               and recreation
83                               Performing arts,            3.0         6.5        ^7.9         4.7         3.8
                                spectator sports,
                                museums, and related
                                activities
84                               Amusements,                ^2.0         2.8        ^1.9         2.8         7.6
                                gambling, and
                                recreation
                                industries
85                              Accommodation and           ^4.5         1.4         5.4        ^0.7         0.2
                               food services
86                               Accommodation               4.3         0.6         7.0        ^1.2        ^0.6
87                               Food services and         ^15.6         2.6         3.0         0.0         1.5
                                drinking places
88                             Other services,              ^1.7         1.9         1.0         1.0         0.7
                              except government
89                           Government                      1.0        ^0.1         0.0         2.3         3.5
90                             Federal                      10.3        ^6.3        ^2.0         2.9        ^0.9
91                              General government           7.5        ^7.2        ^2.5         3.9        ^1.1
92                               National defense           38.2         5.4        ^9.2         8.5         2.8
93                               Non-defense                 7.5        ^7.2        ^2.5         3.9        ^1.1
94                              Government                  35.4         1.0         1.2        ^4.4         0.9
                               enterprises
95                             State and local              ^0.6         1.0         0.4         2.2         4.2
96                              General government          ^3.3         0.2         1.2         2.7         3.8
97                              Government                ^110.6       220.3       ^52.6       ^17.5        21.2
                               enterprises
----------------------------------------------------------------------------------------------------------------


                Table 15. Chain-Type Price Indexes for Outdoor Recreation Value-Added by Industry
                                           [index numbers, 2012 = 100]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   All Industries          100.000     102.250     104.428     108.191     109.728     110.802
 2                     Private               100.000     102.057     104.092     107.772     109.352     110.420
                      industries
 3                       Agriculture,        100.000     102.646      94.965      92.527      90.193      92.397
                        forestry,
                        fishing, and
                        hunting
 4                        Farms              100.000     101.334      89.292      84.616      80.259      82.832
 5                        Forestry,          100.000     105.996     111.206     115.809     121.287     121.737
                         fishing, and
                         related
                         activities
 6                       Mining              100.000      99.765     100.096      77.739      72.960      84.269
 7                        Oil and gas        100.000     109.456     123.234      69.302      61.111      95.243
                         extraction
 8                        Mining, except     100.000      90.342      81.828      77.964      74.009      70.033
                         oil and gas
 9                        Support            100.000     111.602     108.614     122.041     129.422     129.293
                         activities for
                         mining
10                       Utilities           100.000     106.754     112.094     123.102     129.483     136.101
11                       Construction        100.000     105.926     113.582     121.209     129.112     135.681
12                       Manufacturing       100.000      99.351      99.972     102.278      98.115      99.735
13                        Durable goods      100.000     104.893     107.167     113.300     116.332     115.249
14                         Wood products     100.000      99.091      96.990     101.796     108.993     108.279
15                         Nonmetallic       100.000     100.525      99.966     106.032     108.963     109.257
                          mineral
                          products
16                         Primary           100.000     107.806     109.555     125.391     123.990     112.750
                          metals
17                         Fabricated        100.000     113.853     115.065     117.904     117.881     117.499
                          metal products
18                         Machinery         100.000     103.238     107.885     113.490     110.902     109.515
19                         Computer and      100.000      96.964      97.132      90.992      80.493      79.411
                          electronic
                          products
20                         Electrical        100.000     101.606     102.683     106.082     107.375     105.156
                          equipment,
                          appliances,
                          and components
21                         Motor             100.000     107.643     113.062     125.286     135.309     139.897
                          vehicles,
                          bodies and
                          trailers, and
                          parts
22                         Other             100.000     103.622     104.796     111.186     116.462     116.747
                          transportation
                          equipment
23                         Furniture and     100.000     107.332     108.810     120.811     132.593     126.301
                          related
                          products
24                         Miscellaneous     100.000     102.596     103.564     108.575     107.543      96.509
                          manufacturing
25                        Nondurable         100.000      96.022      95.668      95.769      87.439      90.728
                         goods
26                         Food and          100.000     102.081     108.295     120.356     123.559     120.878
                          beverage and
                          tobacco
                          products
27                         Textile mills     100.000     108.255     110.775     113.326     115.671     114.919
                          and textile
                          product mills
28                         Apparel and       100.000     103.875     103.470     105.270     107.552     110.441
                          leather and
                          allied
                          products
29                         Paper             100.000      98.017      95.073      97.481     100.461      96.359
                          products
30                         Printing and      100.000     100.048     101.885     107.338     108.704     109.103
                          related
                          support
                          activities
31                         Petroleum and     100.000      90.775      87.195      80.933      63.503      70.017
                          coal products
32                         Chemical          100.000     102.426     105.965     114.933     118.883     119.142
                          products
33                         Plastics and      100.000      99.870     100.508     107.810     110.484     107.061
                          rubber
                          products
34                       Wholesale trade     100.000     111.874     111.685     113.852     115.151     116.404
35                       Retail trade        100.000      99.322     101.295     104.389     105.488     104.305
36                        Motor vehicle      100.000     102.707     108.205     106.333     104.345      98.619
                         and parts
                         dealers
37                        Food and           100.000     102.506     107.068     115.219     120.988     121.526
                         beverage stores
38                        General            100.000      96.519      94.153      92.891      94.460      94.879
                         merchandise
                         stores
39                        Other retail       100.000      99.273     101.704     106.285     107.299     106.341
40                       Transportation      100.000     101.786     105.786     111.704     114.753     115.047
                        and warehousing
41                        Air                100.000     101.640     106.919     111.148     111.501     112.190
                         transportation
42                        Rail               100.000     104.881     107.617     112.609     113.187     114.530
                         transportation
43                        Water              100.000      99.086      96.845     114.658     148.501     140.076
                         transportation
44                        Truck              100.000     103.116     107.667     114.089     115.449     116.666
                         transportation
45                        Transit and        100.000     103.533     103.691     109.338     114.547     114.756
                         ground
                         passenger
                         transportation
46                        Pipeline           100.000     105.792     115.403     123.639     127.543     128.054
                         transportation
47                        Other              100.000     101.682     103.749     112.803     121.034     124.145
                         transportation
                         and support
                         activities
48                        Warehousing        100.000     101.199     102.699     100.296      99.431     101.553
                         and storage
49                       Information         100.000     102.105     102.868     103.004     102.256     101.574
50                        Publishing         100.000     102.608     104.068     105.556     107.833     109.559
                         industries,
                         except internet
                         (includes
                         software)
51                        Motion picture     100.000     119.052     126.244     125.165     115.004     126.585
                         and sound
                         recording
                         industries
52                        Broadcasting       100.000     100.638     100.685     100.133      98.225      95.139
                         and
                         telecommunicati
                         ons
53                        Data               100.000     101.569     101.556     101.270     100.413     100.627
                         processing,
                         internet
                         publishing, and
                         other
                         information
                         services
54                       Finance,            100.000     102.732     106.162     107.457     109.360     113.278
                        insurance, real
                        estate, rental,
                        and leasing
55                        Finance and        100.000     102.693     104.474     106.989     113.355     121.730
                         insurance
56                         Federal           100.000     104.974     106.740     108.748     112.835     115.391
                          Reserve banks,
                          credit
                          intermediation
                          , and related
                          activities
57                         Securities,         0.000       0.000       0.000       0.000       0.000       0.000
                          commodity
                          contracts, and
                          investments
58                         Insurance         100.000     102.411     104.195     106.762     113.373     122.416
                          carriers and
                          related
                          activities
59                         Funds,              0.000       0.000       0.000       0.000       0.000       0.000
                          trusts, and
                          other
                          financial
                          vehicles
60                        Real estate        100.000     102.740     106.546     107.517     108.315     111.238
                         and rental and
                         leasing
61                         Real estate       100.000     102.828     106.122     110.010     114.206     118.625
62                          Housing          100.000     102.828     106.122     110.011     114.208     118.627
63                          Other real       100.000     102.151     105.820     107.900     110.025     112.350
                           estate
64                         Rental and        100.000     102.284     108.455      98.305      88.543      87.397
                          leasing
                          services and
                          lessors of
                          intangible
                          assets
65                       Professional        100.000     101.584     102.781     106.329     109.637     112.737
                        and business
                        services
66                        Professional,      100.000     102.377     104.355     107.895     111.361     113.822
                         scientific, and
                         technical
                         services
67                         Legal               0.000       0.000       0.000       0.000       0.000       0.000
                          services
68                         Computer          100.000     107.336     110.272     108.471     103.292     106.495
                          systems design
                          and related
                          services
69                         Miscellaneous     100.000     102.140     104.079     107.835     111.673     114.101
                          professional,
                          scientific,
                          and technical
                          services
70                        Management of        0.000       0.000       0.000       0.000       0.000       0.000
                         companies and
                         enterprises
71                        Administrative     100.000     101.376     102.358     105.909     109.172     112.469
                         and waste
                         management
                         services
72                         Administrativ     100.000     101.375     102.358     105.909     109.173     112.469
                          e and support
                          services
73                         Waste             100.000     107.857     104.949     105.651     106.833     111.679
                          management and
                          remediation
                          services
74                       Educational         100.000     104.335     107.295     111.036     114.961     120.355
                        services, health
                        care, and social
                        assistance
75                        Educational        100.000     104.813     107.946     112.313     116.976     123.367
                         services
76                        Health care        100.000     101.871     103.902     104.403     104.696     105.361
                         and social
                         assistance
77                         Ambulatory        100.000     102.355     104.862     103.839     102.554     101.967
                          health care
                          services
78                         Hospitals         100.000     102.282     104.226     106.925     109.393     111.715
79                         Nursing and       100.000     102.253     104.249     107.852     110.897     113.751
                          residential
                          care
                          facilities
80                         Social            100.000      94.500      92.530      94.822      98.252     102.062
                          assistance
81                       Arts,               100.000     102.431     105.492     111.068     115.271     116.911
                        entertainment,
                        recreation,
                        accommodation,
                        and food
                        services
82                       Arts,               100.000     101.991     104.468     111.184     115.398     115.687
                        entertainment,
                        and recreation
83                        Performing         100.000     102.501     105.662     114.027     118.942     121.740
                         arts, spectator
                         sports,
                         museums, and
                         related
                         activities
84                        Amusements,        100.000     101.815     104.047     110.183     114.154     113.585
                         gambling, and
                         recreation
                         industries
85                        Accommodation      100.000     102.807     106.380     110.992     115.188     118.006
                         and food
                         services
86                         Accommodation     100.000     102.704     106.980     111.119     114.896     117.324
87                         Food services     100.000     102.953     105.445     110.794     115.648     119.068
                          and drinking
                          places
88                       Other services,     100.000     103.429     106.203     109.723     112.848     117.731
                        except
                        government
89                     Government            100.000     105.402     109.913     115.044     115.864     117.038
90                       Federal             100.000     101.280     103.009     103.717     105.486     108.603
91                        General            100.000     101.941     104.752     106.706     108.505     111.596
                         government
92                         National          100.000      99.968     100.313     100.392      98.502      98.675
                          defense
93                         Non-defense       100.000     101.942     104.753     106.707     108.507     111.599
94                        Government         100.000      96.180      90.855      83.919      85.485      88.752
                         enterprises
95                       State and local     100.000     106.161     111.192     117.116     117.767     118.606
96                        General            100.000     105.879     110.621     114.472     114.333     115.686
                         government
97                        Government         100.000      83.278     142.780     569.888     769.711     634.725
                         enterprises
----------------------------------------------------------------------------------------------------------------


      Table 16. Percent Changes in Chain-Type Price Indexes for Outdoor Recreation Value-Added by Industry
                                                [Percent Change]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                                         2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                         All Industries                    2.2         2.1         3.6         1.4         1.0
 2                           Private industries              2.1         2.0         3.5         1.5         1.0
 3                             Agriculture,                  2.6        ^7.5        ^2.6        ^2.5         2.4
                              forestry, fishing, and
                              hunting
 4                              Farms                        1.3       ^11.9        ^5.2        ^5.1         3.2
 5                              Forestry, fishing,           6.0         4.9         4.1         4.7         0.4
                               and related
                               activities
 6                             Mining                       ^0.2         0.3       ^22.3        ^6.1        15.5
 7                              Oil and gas                  9.5        12.6       ^43.8       ^11.8        55.9
                               extraction
 8                               Mining, except oil         ^9.7        ^9.4        ^4.7        ^5.1        ^5.4
                                and gas
 9                               Support activities         11.6        ^2.7        12.4         6.0        ^0.1
                                for mining
10                             Utilities                     6.8         5.0         9.8         5.2         5.1
11                             Construction                  5.9         7.2         6.7         6.5         5.1
12                             Manufacturing                ^0.6         0.6         2.3        ^4.1         1.7
13                              Durable goods                4.9         2.2         5.7         2.7        ^0.9
14                               Wood products              ^0.9        ^2.1         5.0         7.1        ^0.7
15                               Nonmetallic mineral         0.5        ^0.6         6.1         2.8         0.3
                                products
16                               Primary metals              7.8         1.6        14.5        ^1.1        ^9.1
17                               Fabricated metal           13.9         1.1         2.5         0.0        ^0.3
                                products
18                               Machinery                   3.2         4.5         5.2        ^2.3        ^1.3
19                               Computer and               ^3.0         0.2        ^6.3       ^11.5        ^1.3
                                electronic products
20                               Electrical                  1.6         1.1         3.3         1.2        ^2.1
                                equipment,
                                appliances, and
                                components
21                               Motor vehicles,             7.6         5.0        10.8         8.0         3.4
                                bodies and trailers,
                                and parts
22                               Other                       3.6         1.1         6.1         4.7         0.2
                                transportation
                                equipment
23                               Furniture and               7.3         1.4        11.0         9.8        ^4.7
                                related products
24                               Miscellaneous               2.6         0.9         4.8        ^1.0       ^10.3
                                manufacturing
25                              Nondurable goods            ^4.0        ^0.4         0.1        ^8.7         3.8
26                               Food and beverage           2.1         6.1        11.1         2.7        ^2.2
                                and tobacco products
27                               Textile mills and           8.3         2.3         2.3         2.1        ^0.7
                                textile product
                                mills
28                               Apparel and leather         3.9        ^0.4         1.7         2.2         2.7
                                and allied products
29                               Paper products             ^2.0        ^3.0         2.5         3.1        ^4.1
30                               Printing and                0.0         1.8         5.4         1.3         0.4
                                related support
                                activities
31                               Petroleum and coal         ^9.2        ^3.9        ^7.2       ^21.5        10.3
                                products
32                               Chemical products           2.4         3.5         8.5         3.4         0.2
33                               Plastics and rubber        ^0.1         0.6         7.3         2.5        ^3.1
                                products
34                             Wholesale trade              11.9        ^0.2         1.9         1.1         1.1
35                             Retail trade                 ^0.7         2.0         3.1         1.1        ^1.1
36                              Motor vehicle and            2.7         5.4        ^1.7        ^1.9        ^5.5
                               parts dealers
37                              Food and beverage            2.5         4.5         7.6         5.0         0.4
                               stores
38                              General merchandise         ^3.5        ^2.5        ^1.3         1.7         0.4
                               stores
39                              Other retail                ^0.7         2.4         4.5         1.0        ^0.9
40                             Transportation and            1.8         3.9         5.6         2.7         0.3
                              warehousing
41                              Air transportation           1.6         5.2         4.0         0.3         0.6
42                              Rail transportation          4.9         2.6         4.6         0.5         1.2
43                              Water transportation        ^0.9        ^2.3        18.4        29.5        ^5.7
44                              Truck transportation         3.1         4.4         6.0         1.2         1.1
45                              Transit and ground           3.5         0.2         5.4         4.8         0.2
                               passenger
                               transportation
46                              Pipeline                     5.8         9.1         7.1         3.2         0.4
                               transportation
47                              Other transportation         1.7         2.0         8.7         7.3         2.6
                               and support
                               activities
48                              Warehousing and              1.2         1.5        ^2.3        ^0.9         2.1
                               storage
49                             Information                   2.1         0.7         0.1        ^0.7        ^0.7
50                              Publishing                   2.6         1.4         1.4         2.2         1.6
                               industries, except
                               internet (includes
                               software)
51                              Motion picture and          19.1         6.0        ^0.9        ^8.1        10.1
                               sound recording
                               industries
52                              Broadcasting and             0.6         0.0        ^0.5        ^1.9        ^3.1
                               telecommunications
53                              Data processing,             1.6         0.0        ^0.3        ^0.8         0.2
                               internet publishing,
                               and other information
                               services
54                             Finance, insurance,           2.7         3.3         1.2         1.8         3.6
                              real estate, rental,
                              and leasing
55                              Finance and                  2.7         1.7         2.4         5.9         7.4
                               insurance
56                               Federal Reserve             5.0         1.7         1.9         3.8         2.3
                                banks, credit
                                intermediation, and
                                related activities
57                               Securities,                 0.0         0.0         0.0         0.0         0.0
                                commodity contracts,
                                and investments
58                               Insurance carriers          2.4         1.7         2.5         6.2         8.0
                                and related
                                activities
59                               Funds, trusts, and          0.0         0.0         0.0         0.0         0.0
                                other financial
                                vehicles
60                              Real estate and              2.7         3.7         0.9         0.7         2.7
                               rental and leasing
61                               Real estate                 2.8         3.2         3.7         3.8         3.9
62                                Housing                    2.8         3.2         3.7         3.8         3.9
63                                Other real estate          2.2         3.6         2.0         2.0         2.1
64                               Rental and leasing          2.3         6.0        ^9.4        ^9.9        ^1.3
                                services and lessors
                                of intangible assets
65                             Professional and              1.6         1.2         3.5         3.1         2.8
                              business services
66                              Professional,                2.4         1.9         3.4         3.2         2.2
                               scientific, and
                               technical services
67                               Legal services              0.0         0.0         0.0         0.0         0.0
68                               Computer systems            7.3         2.7        ^1.6        ^4.8         3.1
                                design and related
                                services
69                               Miscellaneous               2.1         1.9         3.6         3.6         2.2
                                professional,
                                scientific, and
                                technical services
70                              Management of                0.0         0.0         0.0         0.0         0.0
                               companies and
                               enterprises
71                              Administrative and           1.4         1.0         3.5         3.1         3.0
                               waste management
                               services
72                               Administrative and          1.4         1.0         3.5         3.1         3.0
                                support services
73                               Waste management            7.9        ^2.7         0.7         1.1         4.5
                                and remediation
                                services
74                             Educational services,         4.3         2.8         3.5         3.5         4.7
                              health care, and
                              social assistance
75                              Educational services         4.8         3.0         4.0         4.2         5.5
76                              Health care and              1.9         2.0         0.5         0.3         0.6
                               social assistance
77                               Ambulatory health           2.4         2.4        ^1.0        ^1.2        ^0.6
                                care services
78                               Hospitals                   2.3         1.9         2.6         2.3         2.1
79                               Nursing and                 2.3         2.0         3.5         2.8         2.6
                                residential care
                                facilities
80                               Social assistance          ^5.5        ^2.1         2.5         3.6         3.9
81                             Arts, entertainment,          2.4         3.0         5.3         3.8         1.4
                              recreation,
                              accommodation, and
                              food services
82                              Arts, entertainment,         2.0         2.4         6.4         3.8         0.3
                               and recreation
83                               Performing arts,            2.5         3.1         7.9         4.3         2.4
                                spectator sports,
                                museums, and related
                                activities
84                               Amusements,                 1.8         2.2         5.9         3.6        ^0.5
                                gambling, and
                                recreation
                                industries
85                              Accommodation and            2.8         3.5         4.3         3.8         2.4
                               food services
86                               Accommodation               2.7         4.2         3.9         3.4         2.1
87                               Food services and           3.0         2.4         5.1         4.4         3.0
                                drinking places
88                             Other services,               3.4         2.7         3.3         2.8         4.3
                              except government
89                           Government                      5.4         4.3         4.7         0.7         1.0
90                             Federal                       1.3         1.7         0.7         1.7         3.0
91                              General government           1.9         2.8         1.9         1.7         2.8
92                               National defense            0.0         0.3         0.1        ^1.9         0.2
93                               Non-defense                 1.9         2.8         1.9         1.7         2.8
94                              Government                  ^3.8        ^5.5        ^7.6         1.9         3.8
                               enterprises
95                             State and local               6.2         4.7         5.3         0.6         0.7
96                              General government           5.9         4.5         3.5        ^0.1         1.2
97                              Government                 ^16.7        71.5       299.1        35.1       ^17.5
                               enterprises
----------------------------------------------------------------------------------------------------------------


                           Table 17. Real Outdoor Recreation Gross Output by Activity
                                      [Millions of chained (2012) dollars]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   Total Outdoor           691,782     699,173     708,666     730,321     742,793     762,768
                      Recreation
 2                     Total Core            342,735     352,736     359,960     368,509     375,449     391,354
                     Outdoor Recreation
 3                       Conventional        214,386     222,085     226,931     233,108     238,877     248,087
                        Outdoor
                        Recreation
 4                        Bicycling            3,182       3,353       3,445       3,306       3,729       3,874
 5                        Boating/            32,428      32,760      33,153      34,769      35,854      38,039
                         Fishing
 6                         Canoeing              124         121         126         129         133         141
 7                         Kayaking              580         580         581         618         680         736
 8                         Fishing             4,863       4,829       4,947       5,082       5,063       5,031
                          (excludes
                          Boating)
 9                         Sailing             1,824       1,888       1,974       2,052       2,151       2,231
10                         Other Boating      25,037      25,343      25,527      26,891      27,833      29,913
11                        Climbing/            5,588       5,823       5,967       5,815       6,102       6,058
                         Hiking/Tent
                         Camping
12                        Equestrian           9,307       9,862      10,663      11,046      11,887      13,446
13                        Hunting/            11,371      12,968      12,397      13,267      13,043      14,068
                         Shooting/
                         Trapping
14                         Hunting/            5,844       6,518       6,217       6,779       6,280       6,709
                          Trapping
15                         Shooting            5,527       6,451       6,181       6,486       6,772       7,371
                          (includes
                          Archery)
16                        Motorcycling/       17,154      17,575      17,989      18,825      18,703      19,592
                         ATVing
17                        Recreational         2,870       2,849       3,018       3,068       3,251       3,206
                         Flying
18                        RVing               26,710      28,869      30,374      31,147      33,016      34,552
19                        Snow                10,638      10,733      11,091      11,323      11,298      11,575
                         Activities
20                         Skiing              2,929       2,988       3,211       3,321       3,277       3,411
21                         Snowboarding        2,534       2,635       2,770       2,864       2,912       3,050
22                         Other Snow          5,175       5,110       5,108       5,125       5,092       5,067
                          Activities
                          (includes
                          Snowmobiling)
                          \1\
23                        Other               18,331      18,560      19,923      20,510      21,416      21,970
                         Conventional
                         Outdoor
                         Recreation
                         Activities
24                         Other              15,308      15,595      16,786      17,153      18,104      18,678
                          Conventional
                          Air and Land
                          Activities \2\
25                         Other               3,023       2,966       3,141       3,344       3,338       3,340
                          Conventional
                          Water
                          Activities \3\
26                        Multi-use           76,807      78,728      78,969      80,095      80,680      81,727
                         Apparel and
                         Accessories
                         (Conventional)
                         \4\
27                       Other Outdoor       128,349     130,650     133,030     135,421     136,652     143,306
                        Recreation
28                        Amusement           13,206      12,460      12,234      12,685      13,045      14,153
                         Parks/Water
                         Parks
29                        Festivals/          20,560      20,852      21,587      21,728      22,373      23,189
                         Sporting Events/
                         Concerts
30                        Field Sports         5,232       5,243       5,490       5,720       5,923       6,026
31                        Game Areas          32,082      33,243      32,501      32,621      33,537      34,800
                         (includes
                         Golfing and
                         Tennis)
32                        Guided Tours/       25,481      25,938      26,992      26,062      24,167      26,280
                         Outfitted
                         Travel
33                         Air and Land       13,811      14,382      15,349      15,663      15,277      15,885
                          Guided Tours/
                          Outfitted
                          Travel
34                         Water Guided       11,670      11,556      11,646      10,410       8,910      10,406
                          Tours/
                          Outfitted
                          Travel
                          (includes
                          Boating and
                          Fishing
                          Charters)
35                        Productive          10,703      11,193      12,326      13,258      14,025      14,529
                         Activities
                         (includes
                         Gardening)
36                        Other Outdoor       14,722      15,022      15,547      16,905      17,072      17,480
                         Recreation
                         Activities \5\
37                        Multi-use            6,362       6,728       6,420       6,568       6,678       6,911
                         Apparel and
                         Accessories
                         (Other) \4\
38                     Supporting            349,046     346,420     348,688     361,855     367,350     371,099
                     Outdoor Recreation
39                        Construction         9,385       9,060       9,127      10,441      11,184      10,932
40                        Local Trips         71,515      72,271      72,463      73,093      73,031      73,708
                         and Travel \6\
41                        Trips and          234,570     231,223     232,960     242,296     245,136     248,304
                         Travel \7\
42                         Food and           38,079      31,475      32,171      33,746      34,668      34,852
                          Beverages
43                         Lodging            49,531      50,373      48,973      51,489      52,619      52,420
44                         Shopping and       40,398      41,297      41,968      42,558      43,454      44,251
                          Souvenirs
45                         Transportatio     106,561     108,119     109,935     114,569     114,187     116,815
                          n
46                        Government          33,576      33,870      34,135      35,772      37,458      37,675
                         Expenditures
47                         Federal             3,947       4,176       3,853       3,834       3,985       3,944
                          Government
48                         State and          29,629      29,696      30,279      31,935      33,470      33,731
                          Local
                          Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


                              Table 18. Outdoor Recreation Gross Output by Activity
                                          [Millions of current dollars]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   Total Outdoor           691,782     709,072     725,728     730,955     741,630     778,487
                      Recreation
 2                     Total Core            342,735     358,561     368,355     377,843     386,701     408,053
                     Outdoor Recreation
 3                       Conventional        214,386     225,790     231,538     235,600     241,433     253,955
                        Outdoor
                        Recreation
 4                        Bicycling            3,182       3,341       3,454       3,342       3,840       4,011
 5                        Boating/            32,428      33,413      34,434      35,757      37,050      39,878
                         Fishing
 6                         Canoeing              124         123         130         136         142         153
 7                         Kayaking              580         595         616         661         738         805
 8                         Fishing             4,863       5,007       5,171       5,353       5,337       5,346
                          (excludes
                          Boating)
 9                         Sailing             1,824       1,906       2,027       2,148       2,282       2,372
10                         Other Boating      25,037      25,781      26,489      27,458      28,552      31,202
11                        Climbing/            5,588       5,910       6,171       6,170       6,327       6,361
                         Hiking/Tent
                         Camping
12                        Equestrian           9,307      10,031      11,106      11,487      12,315      14,174
13                        Hunting/            11,371      13,342      12,918      13,942      13,807      15,060
                         Shooting/
                         Trapping
14                         Hunting/            5,844       6,745       6,558       7,227       6,741       7,312
                          Trapping
15                         Shooting            5,527       6,597       6,360       6,715       7,066       7,747
                          (includes
                          Archery)
16                        Motorcycling/       17,154      17,680      17,996      18,134      18,082      19,553
                         ATVing
17                        Recreational         2,870       2,957       3,069       2,727       2,747       2,888
                         Flying
18                        RVing               26,710      29,388      31,524      31,980      33,974      36,095
19                        Snow                10,638      10,754      11,135      10,770      10,670      11,304
                         Activities
20                         Skiing              2,929       2,996       3,260       3,438       3,439       3,593
21                         Snowboarding        2,534       2,646       2,820       2,979       3,068       3,225
22                         Other Snow          5,175       5,112       5,055       4,352       4,162       4,486
                          Activities
                          (includes
                          Snowmobiling)
                          \1\
23                        Other               18,331      18,856      19,026      18,206      18,620      19,669
                         Conventional
                         Outdoor
                         Recreation
                         Activities
24                         Other              15,308      15,803      15,775      14,687      15,071      16,116
                          Conventional
                          Air and Land
                          Activities \2\
25                         Other               3,023       3,054       3,251       3,519       3,550       3,552
                          Conventional
                          Water
                          Activities \3\
26                        Multi-use           76,807      80,117      80,705      83,085      84,001      84,963
                         Apparel and
                         Accessories
                         (Conventional)
                         \4\
27                       Other Outdoor       128,349     132,772     136,817     142,243     145,268     154,099
                        Recreation
28                        Amusement           13,206      13,246      13,609      14,708      15,805      17,765
                         Parks/Water
                         Parks
29                        Festivals/          20,560      21,326      22,660      24,156      25,656      27,153
                         Sporting Events/
                         Concerts
30                        Field Sports         5,232       5,352       5,665       5,983       6,256       6,416
31                        Game Areas          32,082      33,316      32,945      33,674      34,917      36,011
                         (includes
                         Golfing and
                         Tennis)
32                        Guided Tours/       25,481      26,275      27,770      27,387      25,769      28,403
                         Outfitted
                         Travel
33                         Air and Land       13,811      14,547      15,733      16,383      16,186      17,057
                          Guided Tours/
                          Outfitted
                          Travel
34                         Water Guided       11,670      11,728      12,037      11,004       9,583      11,346
                          Tours/
                          Outfitted
                          Travel
                          (includes
                          Boating and
                          Fishing
                          Charters)
35                        Productive          10,703      11,288      11,749      12,322      12,792      13,484
                         Activities
                         (includes
                         Gardening)
36                        Other Outdoor       14,722      15,195      15,931      17,405      17,411      17,891
                         Recreation
                         Activities \5\
37                        Multi-use            6,362       6,775       6,489       6,608       6,663       6,977
                         Apparel and
                         Accessories
                         (Other) \4\
38                     Supporting            349,046     350,511     357,372     353,112     354,929     370,433
                     Outdoor Recreation
39                        Construction         9,385       9,429       9,936      11,696      12,956      13,197
40                        Local Trips         71,515      72,417      72,354      64,665      62,214      66,300
                         and Travel \6\
41                        Trips and          234,570     233,694     239,182     239,604     241,213     251,064
                         Travel \7\
42                         Food and           38,079      32,197      33,699      36,283      38,145      39,281
                          Beverages
43                         Lodging            49,531      51,543      51,805      55,703      58,250      59,378
44                         Shopping and       40,398      41,746      43,215      43,161      43,558      44,975
                          Souvenirs
45                         Transportatio     106,561     108,208     110,464     104,457     101,260     107,431
                          n
46                        Government          33,576      34,971      35,900      37,147      38,546      39,873
                         Expenditures
47                         Federal             3,947       4,247       4,011       4,036       4,247       4,313
                          Government
48                         State and          29,629      30,724      31,889      33,111      34,299      35,560
                          Local
                          Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


              Table 19. Chain-Type Quantity Indexes for Outdoor Recreation Gross Output by Activity
                                           [index numbers, 2012 = 100]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   Total Outdoor           100.000     101.069     102.441     105.571     107.374     110.261
                      Recreation
 2                     Total Core            100.000     102.918     105.026     107.520     109.545     114.186
                     Outdoor Recreation
 3                       Conventional        100.000     103.591     105.851     108.733     111.423     115.720
                        Outdoor
                        Recreation
 4                        Bicycling          100.000     105.353     108.245     103.884     117.189     121.722
 5                        Boating/           100.000     101.026     102.236     107.221     110.565     117.303
                         Fishing
 6                         Canoeing          100.000      97.093     100.948     103.910     106.698     113.516
 7                         Kayaking          100.000     100.146     100.252     106.719     117.267     126.939
 8                         Fishing           100.000      99.299     101.714     104.502     104.098     103.459
                          (excludes
                          Boating)
 9                         Sailing           100.000     103.516     108.214     112.473     117.947     122.335
10                         Other Boating     100.000     101.224     101.959     107.407     111.168     119.477
11                        Climbing/          100.000     104.210     106.781     104.074     109.196     108.419
                         Hiking/Tent
                         Camping
12                        Equestrian         100.000     105.960     114.564     118.683     127.719     144.470
13                        Hunting/           100.000     114.048     109.028     116.680     114.709     123.725
                         Shooting/
                         Trapping
14                         Hunting/          100.000     111.543     106.395     116.009     107.475     114.805
                          Trapping
15                         Shooting          100.000     116.712     111.832     117.348     122.521     133.370
                          (includes
                          Archery)
16                        Motorcycling/      100.000     102.452     104.870     109.740     109.031     114.214
                         ATVing
17                        Recreational       100.000      99.280     105.167     106.905     113.285     111.701
                         Flying
18                        RVing              100.000     108.080     113.718     116.609     123.608     129.356
19                        Snow               100.000     100.889     104.261     106.442     106.205     108.806
                         Activities
20                         Skiing            100.000     101.997     109.613     113.391     111.892     116.466
21                         Snowboarding      100.000     103.957     109.296     112.996     114.884     120.348
22                         Other Snow        100.000      98.756      98.713      99.052      98.397      97.915
                          Activities
                          (includes
                          Snowmobiling)
                          \1\
23                        Other              100.000     101.249     108.680     111.885     116.828     119.848
                         Conventional
                         Outdoor
                         Recreation
                         Activities
24                         Other             100.000     101.875     109.653     112.051     118.263     122.011
                          Conventional
                          Air and Land
                          Activities \2\
25                         Other             100.000      98.101     103.913     110.609     110.401     110.467
                          Conventional
                          Water
                          Activities \3\
26                        Multi-use          100.000     102.501     102.816     104.281     105.043     106.406
                         Apparel and
                         Accessories
                         (Conventional)
                         \4\
27                       Other Outdoor       100.000     101.793     103.647     105.510     106.469     111.654
                        Recreation
28                        Amusement          100.000      94.350      92.635      96.054      98.778     107.167
                         Parks/Water
                         Parks
29                        Festivals/         100.000     101.417     104.991     105.677     108.813     112.784
                         Sporting Events/
                         Concerts
30                        Field Sports       100.000     100.214     104.931     109.327     113.217     115.187
31                        Game Areas         100.000     103.617     101.303     101.678     104.535     108.470
                         (includes
                         Golfing and
                         Tennis)
32                        Guided Tours/      100.000     101.792     105.930     102.279      94.841     103.135
                         Outfitted
                         Travel
33                         Air and Land      100.000     104.133     111.135     113.403     110.608     115.012
                          Guided Tours/
                          Outfitted
                          Travel
34                         Water Guided      100.000      99.027      99.794      89.205      76.349      89.169
                          Tours/
                          Outfitted
                          Travel
                          (includes
                          Boating and
                          Fishing
                          Charters)
35                        Productive         100.000     104.584     115.164     123.879     131.045     135.749
                         Activities
                         (includes
                         Gardening)
36                        Other Outdoor      100.000     102.039     105.606     114.826     115.961     118.733
                         Recreation
                         Activities \5\
37                        Multi-use          100.000     105.752     100.903     103.227     104.963     108.624
                         Apparel and
                         Accessories
                         (Other) \4\
38                     Supporting            100.000      99.248      99.897     103.670     105.244     106.318
                     Outdoor Recreation
39                        Construction       100.000      96.532      97.243     111.246     119.163     116.481
40                        Local Trips        100.000     101.057     101.325     102.207     102.119     103.066
                         and Travel \6\
41                        Trips and          100.000      98.573      99.314     103.294     104.504     105.855
                         Travel \7\
42                         Food and          100.000      82.656      84.485      88.622      91.041      91.526
                          Beverages
43                         Lodging           100.000     101.699      98.872     103.951     106.234     105.831
44                         Shopping and      100.000     102.224     103.886     105.346     107.564     109.536
                          Souvenirs
45                         Transportatio     100.000     101.462     103.166     107.515     107.157     109.623
                          n
46                        Government         100.000     100.876     101.666     106.540     111.560     112.209
                         Expenditures
47                         Federal           100.000     105.796      97.623      97.132     100.955      99.914
                          Government
48                         State and         100.000     100.226     102.193     107.783     112.965     113.846
                          Local
                          Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


    Table 20. Percent Changes in Chain-Type Quantity Indexes for Outdoor Recreation Gross Output by Activity
                                                [Percent Change]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                                         2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                         Total Outdoor Recreation          1.1         1.4         3.1         1.7         2.7
 2                           Total Core Outdoor              2.9         2.0         2.4         1.9         4.2
                           Recreation
 3                             Conventional Outdoor          3.6         2.2         2.7         2.5         3.9
                              Recreation
 4                              Bicycling                    5.4         2.7        ^4.0        12.8         3.9
 5                              Boating/Fishing              1.0         1.2         4.9         3.1         6.1
 6                               Canoeing                   ^2.9         4.0         2.9         2.7         6.4
 7                               Kayaking                    0.1         0.1         6.5         9.9         8.2
 8                               Fishing (excludes          ^0.7         2.4         2.7        ^0.4        ^0.6
                                Boating)
 9                               Sailing                     3.5         4.5         3.9         4.9         3.7
10                               Other Boating               1.2         0.7         5.3         3.5         7.5
11                              Climbing/Hiking/Tent         4.2         2.5        ^2.5         4.9        ^0.7
                               Camping
12                              Equestrian                   6.0         8.1         3.6         7.6        13.1
13                              Hunting/Shooting/           14.0        ^4.4         7.0        ^1.7         7.9
                               Trapping
14                               Hunting/Trapping           11.5        ^4.6         9.0        ^7.4         6.8
15                               Shooting (includes         16.7        ^4.2         4.9         4.4         8.9
                                Archery)
16                              Motorcycling/ATVing          2.5         2.4         4.6        ^0.6         4.8
17                              Recreational Flying         ^0.7         5.9         1.7         6.0        ^1.4
18                              RVing                        8.1         5.2         2.5         6.0         4.6
19                              Snow Activities              0.9         3.3         2.1        ^0.2         2.4
20                               Skiing                      2.0         7.5         3.4        ^1.3         4.1
21                               Snowboarding                4.0         5.1         3.4         1.7         4.8
22                               Other Snow                 ^1.2         0.0         0.3        ^0.7        ^0.5
                                Activities (includes
                                Snowmobiling) \1\
23                              Other Conventional           1.2         7.3         2.9         4.4         2.6
                               Outdoor Recreation
                               Activities
24                               Other Conventional          1.9         7.6         2.2         5.5         3.2
                                Air and Land
                                Activities \2\
25                               Other Conventional         ^1.9         5.9         6.4        ^0.2         0.1
                                Water Activities \3\
26                              Multi-use Apparel            2.5         0.3         1.4         0.7         1.3
                               and Accessories
                               (Conventional) \4\
27                             Other Outdoor                 1.8         1.8         1.8         0.9         4.9
                              Recreation
28                              Amusement Parks/            ^5.7        ^1.8         3.7         2.8         8.5
                               Water Parks
29                              Festivals/Sporting           1.4         3.5         0.7         3.0         3.6
                               Events/Concerts
30                              Field Sports                 0.2         4.7         4.2         3.6         1.7
31                              Game Areas (includes         3.6        ^2.2         0.4         2.8         3.8
                               Golfing and Tennis)
32                              Guided Tours/                1.8         4.1        ^3.4        ^7.3         8.7
                               Outfitted Travel
33                               Air and Land Guided         4.1         6.7         2.0        ^2.5         4.0
                                Tours/Outfitted
                                Travel
34                               Water Guided Tours/        ^1.0         0.8       ^10.6       ^14.4        16.8
                                Outfitted Travel
                                (includes Boating
                                and Fishing
                                Charters)
35                              Productive                   4.6        10.1         7.6         5.8         3.6
                               Activities (includes
                               Gardening)
36                              Other Outdoor                2.0         3.5         8.7         1.0         2.4
                               Recreation Activities
                               \5\
37                              Multi-use Apparel            5.8        ^4.6         2.3         1.7         3.5
                               and Accessories
                               (Other) \4\
38                           Supporting Outdoor             ^0.8         0.7         3.8         1.5         1.0
                           Recreation
39                              Construction                ^3.5         0.7        14.4         7.1        ^2.3
40                              Local Trips and              1.1         0.3         0.9        ^0.1         0.9
                               Travel \6\
41                              Trips and Travel \7\        ^1.4         0.8         4.0         1.2         1.3
42                               Food and Beverages        ^17.3         2.2         4.9         2.7         0.5
43                               Lodging                     1.7        ^2.8         5.1         2.2        ^0.4
44                               Shopping and                2.2         1.6         1.4         2.1         1.8
                                Souvenirs
45                               Transportation              1.5         1.7         4.2        ^0.3         2.3
46                              Government                   0.9         0.8         4.8         4.7         0.6
                               Expenditures
47                               Federal Government          5.8        ^7.7        ^0.5         3.9        ^1.0
48                               State and Local             0.2         2.0         5.5         4.8         0.8
                                Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


               Table 21. Chain-Type Price Indexes for Outdoor Recreation Gross Output by Activity
                                           [index numbers, 2012 = 100]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   Total Outdoor           100.000     101.416     102.558     100.234      99.990     102.211
                      Recreation
 2                     Total Core            100.000     101.652     102.630     102.831     103.296     104.570
                     Outdoor Recreation
 3                       Conventional        100.000     101.668     102.502     101.536     101.537     102.838
                        Outdoor
                        Recreation
 4                        Bicycling          100.000      99.638     100.264     101.079     102.956     103.542
 5                        Boating/           100.000     101.993     103.863     102.839     103.338     104.836
                         Fishing
 6                         Canoeing          100.000     101.931     103.380     105.211     106.883     108.185
 7                         Kayaking          100.000     102.571     106.008     106.843     108.548     109.462
 8                         Fishing           100.000     103.692     104.544     105.338     105.415     106.250
                          (excludes
                          Boating)
 9                         Sailing           100.000     100.955     102.700     104.695     106.069     106.309
10                         Other Boating     100.000     101.730     103.770     102.110     102.585     104.311
11                        Climbing/          100.000     101.500     103.429     106.098     103.695     104.993
                         Hiking/Tent
                         Camping
12                        Equestrian         100.000     101.713     104.159     103.997     103.605     105.417
13                        Hunting/           100.000     102.886     104.203     105.088     105.856     107.046
                         Shooting/
                         Trapping
14                         Hunting/          100.000     103.489     105.482     106.607     107.334     108.997
                          Trapping
15                         Shooting          100.000     102.264     102.899     103.537     104.344     105.099
                          (includes
                          Archery)
16                        Motorcycling/      100.000     100.600     100.038      96.332      96.679      99.798
                         ATVing
17                        Recreational       100.000     103.770     101.688      88.870      84.471      90.066
                         Flying
18                        RVing              100.000     101.797     103.784     102.676     102.900     104.466
19                        Snow               100.000     100.198     100.391      95.110      94.439      97.661
                         Activities
20                         Skiing            100.000     100.276     101.548     103.526     104.944     105.335
21                         Snowboarding      100.000     100.427     101.787     104.017     105.376     105.731
22                         Other Snow        100.000     100.037      98.959      84.917      81.748      88.537
                          Activities
                          (includes
                          Snowmobiling)
                          \1\
23                        Other              100.000     101.596     101.066      93.936      92.011      94.743
                         Conventional
                         Outdoor
                         Recreation
                         Activities
24                         Other             100.000     101.329     100.588      91.643      89.099      92.355
                          Conventional
                          Air and Land
                          Activities \2\
25                         Other             100.000     102.976     103.491     105.233     106.356     106.371
                          Conventional
                          Water
                          Activities \3\
26                        Multi-use          100.000     101.765     102.198     103.733     104.116     103.959
                         Apparel and
                         Accessories
                         (Conventional)
                         \4\
27                       Other Outdoor       100.000     101.624     102.847     105.038     106.305     107.531
                        Recreation
28                        Amusement          100.000     106.303     111.245     115.945     121.159     125.522
                         Parks/Water
                         Parks
29                        Festivals/         100.000     102.276     104.972     111.178     114.675     117.094
                         Sporting Events/
                         Concerts
30                        Field Sports       100.000     102.079     103.189     104.604     105.624     106.475
31                        Game Areas         100.000     100.219     101.367     103.227     104.113     103.481
                         (includes
                         Golfing and
                         Tennis)
32                        Guided Tours/      100.000     101.299     102.881     105.085     106.631     108.076
                         Outfitted
                         Travel
33                         Air and Land      100.000     101.143     102.500     104.600     105.955     107.379
                          Guided Tours/
                          Outfitted
                          Travel
34                         Water Guided      100.000     101.487     103.357     105.707     107.557     109.032
                          Tours/
                          Outfitted
                          Travel
                          (includes
                          Boating and
                          Fishing
                          Charters)
35                        Productive         100.000     100.843      95.324      92.939      91.203      92.806
                         Activities
                         (includes
                         Gardening)
36                        Other Outdoor      100.000     101.150     102.466     102.961     101.987     102.351
                         Recreation
                         Activities \5\
37                        Multi-use          100.000     100.697     101.082     100.618      99.770     100.952
                         Apparel and
                         Accessories
                         (Other) \4\
38                     Supporting            100.000     101.181     102.491      97.584      96.620      99.821
                     Outdoor Recreation
39                        Construction       100.000     104.073     108.890     112.045     115.877     120.747
40                        Local Trips        100.000     100.201      99.849      88.470      85.189      89.949
                         and Travel \6\
41                        Trips and          100.000     101.069     102.671      98.889      98.400     101.112
                         Travel \7\
42                         Food and          100.000     102.293     104.749     107.517     110.029     112.707
                          Beverages
43                         Lodging           100.000     102.323     105.783     108.186     110.700     113.274
44                         Shopping and      100.000     101.087     102.971     101.417     100.238     101.636
                          Souvenirs
45                         Transportatio     100.000     100.083     100.481      91.174      88.680      91.966
                          n
46                        Government         100.000     103.250     105.170     103.843     102.906     105.833
                         Expenditures
47                         Federal           100.000     101.702     104.104     105.271     106.583     109.365
                          Government
48                         State and         100.000     103.463     105.317     103.682     102.476     105.420
                          Local
                          Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


      Table 22. Percent Changes in Chain-Type Price Indexes for Outdoor Recreation Gross Output by Activity
                                                [Percent Change]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                                         2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                         Total Outdoor Recreation          1.4         1.1        ^2.3        ^0.2         2.2
 2                           Total Core Outdoor              1.7         1.0         0.2         0.5         1.2
                           Recreation
 3                             Conventional Outdoor          1.7         0.8        ^0.9         0.0         1.3
                              Recreation
 4                              Bicycling                   ^0.4         0.6         0.8         1.9         0.6
 5                              Boating/Fishing              2.0         1.8        ^1.0         0.5         1.5
 6                               Canoeing                    1.9         1.4         1.8         1.6         1.2
 7                               Kayaking                    2.6         3.4         0.8         1.6         0.8
 8                               Fishing (excludes           3.7         0.8         0.8         0.1         0.8
                                Boating)
 9                               Sailing                     1.0         1.7         1.9         1.3         0.2
10                               Other Boating               1.7         2.0        ^1.6         0.5         1.7
11                              Climbing/Hiking/Tent         1.5         1.9         2.6        ^2.3         1.3
                               Camping
12                              Equestrian                   1.7         2.4        ^0.2        ^0.4         1.7
13                              Hunting/Shooting/            2.9         1.3         0.8         0.7         1.1
                               Trapping
14                               Hunting/Trapping            3.5         1.9         1.1         0.7         1.5
15                               Shooting (includes          2.3         0.6         0.6         0.8         0.7
                                Archery)
16                              Motorcycling/ATVing          0.6        ^0.6        ^3.7         0.4         3.2
17                              Recreational Flying          3.8        ^2.0       ^12.6        ^5.0         6.6
18                              RVing                        1.8         2.0        ^1.1         0.2         1.5
19                              Snow Activities              0.2         0.2        ^5.3        ^0.7         3.4
20                               Skiing                      0.3         1.3         1.9         1.4         0.4
21                               Snowboarding                0.4         1.4         2.2         1.3         0.3
22                               Other Snow                  0.0        ^1.1       ^14.2        ^3.7         8.3
                                Activities (includes
                                Snowmobiling) \1\
23                              Other Conventional           1.6        ^0.5        ^7.1        ^2.0         3.0
                               Outdoor Recreation
                               Activities
24                               Other Conventional          1.3        ^0.7        ^8.9        ^2.8         3.7
                                Air and Land
                                Activities \2\
25                               Other Conventional          3.0         0.5         1.7         1.1         0.0
                                Water Activities \3\
26                              Multi-use Apparel            1.8         0.4         1.5         0.4        ^0.2
                               and Accessories
                               (Conventional) \4\
27                             Other Outdoor                 1.6         1.2         2.1         1.2         1.2
                              Recreation
28                              Amusement Parks/             6.3         4.6         4.2         4.5         3.6
                               Water Parks
29                              Festivals/Sporting           2.3         2.6         5.9         3.1         2.1
                               Events/Concerts
30                              Field Sports                 2.1         1.1         1.4         1.0         0.8
31                              Game Areas (includes         0.2         1.1         1.8         0.9        ^0.6
                               Golfing and Tennis)
32                              Guided Tours/                1.3         1.6         2.1         1.5         1.4
                               Outfitted Travel
33                               Air and Land Guided         1.1         1.3         2.0         1.3         1.3
                                Tours/Outfitted
                                Travel
34                               Water Guided Tours/         1.5         1.8         2.3         1.7         1.4
                                Outfitted Travel
                                (includes Boating
                                and Fishing
                                Charters)
35                              Productive                   0.8        ^5.5        ^2.5        ^1.9         1.8
                               Activities (includes
                               Gardening)
36                              Other Outdoor                1.2         1.3         0.5        ^0.9         0.4
                               Recreation Activities
                               \5\
37                              Multi-use Apparel            0.7         0.4        ^0.5        ^0.8         1.2
                               and Accessories
                               (Other) \4\
38                           Supporting Outdoor              1.2         1.3        ^4.8        ^1.0         3.3
                           Recreation
39                              Construction                 4.1         4.6         2.9         3.4         4.2
40                              Local Trips and              0.2        ^0.4       ^11.4        ^3.7         5.6
                               Travel \6\
41                              Trips and Travel \7\         1.1         1.6        ^3.7        ^0.5         2.8
42                               Food and Beverages          2.3         2.4         2.6         2.3         2.4
43                               Lodging                     2.3         3.4         2.3         2.3         2.3
44                               Shopping and                1.1         1.9        ^1.5        ^1.2         1.4
                                Souvenirs
45                               Transportation              0.1         0.4        ^9.3        ^2.7         3.7
46                              Government                   3.3         1.9        ^1.3        ^0.9         2.8
                               Expenditures
47                               Federal Government          1.7         2.4         1.1         1.2         2.6
48                               State and Local             3.5         1.8        ^1.6        ^1.2         2.9
                                Government
----------------------------------------------------------------------------------------------------------------
Legend/Footnotes:
\1\ Consists of dog mushing, sleighing, snowmobiling, snow shoeing, snow tubing.
\2\ Consists of air sports, driving for pleasure, geocaching/orienteering/rock hounding, ice skating, inline
  skating, land/sand sailing, races, running/walking/jogging, skateboarding, and wildlife watching/birding.
\3\ Consists of boardsailing/windsurfing, SCUBA diving, snorkeling, stand-up paddling, surfing, tubing,
  wakeboarding, water skiing, and whitewater rafting.
\4\ Consists of backpacks, bug spray, coolers, general outdoor clothing, GPS equipment, hydration equipment,
  lighting, sports racks, sunscreen, watches, and other miscellaneous gear and equipment.
\5\ Consists of agritourism, augmented reality games, beachgoing, disc golf, hot springs soaking, kite flying,
  model airplane/rocket/UAV, paintball, photography, stargazing/astronomy, swimming, therapeutic programs, water
  polo, yard sports.
\6\ Trip expenses less than 50 miles away from home, including food and beverages, lodging, shopping and
  souvenirs, and transportation.
\7\ Travel and tourism expenses in the Outdoor Recreation Satellite Account are consistent with the Travel and
  Tourism Satellite Account, which includes only expenses for travel at least 50 miles away from home.


------------------------------------------------------------------------
 
-------------------------------------------------------------------------
  Editor's note: this table of information was excluded from the pdf
 submitted, and posted on the U.S. Bureau of Economic Analysis website.
 It is incoporated herein, in [brackets] and is available in the xlsx
 file entitled, Outdoor Recreation Activities in Conventional Definition
 (https://www.bea.gov/system/files/2019-09/orsa0919-GO-Activity_1.xlsx)
                            [Activity List *
 
        [Outdoor Recreation Activities in Conventional Definition
 
[Bicycling (All recreational bicycling, including BMX, E-bikes,
 Mountain, On-road)
[Boating/Fishing (All recreational boating, including Canoeing, Fishing,
 Inboard/Outboard, Kayaking, Personal watercraft, Sailing)
[Climbing/Hiking/Tent Camping
[Equestrian
[Hunting/Trapping/Shooting (including Archery)
[Motorcycling/ATVs (Off-road, On-road)
[Recreational flying (Experimental, Glider, Turboprop, Ultralight)
[RVing
[Snow activities (Dog mushing, Skiing, Sleighing, Snowboarding,
 Snowmobiling, Snow shoeing, Tubing)
 
                     [Other Conventional Activities
 
[Other Conventional Air and Land activities
  [Air sports (Base jumping, Hang gliding, Skydiving)
  [Driving for pleasure (Gas spending only)
  [Geocaching/Orienteering/Rock hounding
  [Ice skating
  [Inline skating
  [Land/Sand sailing
  [Races (includes Bike and Endurance racing)
  [Running/Jogging/Walking
  [Skateboarding
  [Wildlife watching/Birding
[Other Conventional Water activities
  [Boardsailing/Windsurfing
  [SCUBA Diving
  [Snorkeling
  [Stand-up paddling
  [Surfing
  [Tubing/Wakeboarding
  [Water skiing
  [Whitewater rafting
 
           [Outdoor Recreation Activities in Other Definition
 
[Amusement parks/Water parks
[Festivals/Sporting events/Concerts (includes Professional sports)
[Field sports (e.g., Football, Lacrosse, Soccer)
[Game area sports (e.g., Basketball, Golf, Tennis)
[Guided tours/Outfitted travel (includes Boating and Fishing charters)
[Productive activities (Beekeeping, Foraging, Gardening, Panning for
 ore)
 
                            [Other Activities
[Agritourism (Animal sanctuaries, Petting zoos, Pick-your-own produce
 farms, Vineyard tours)
[Augmented reality games
[Beachgoing
[Disc golf
[Hot springs soaking
[Kite flying
[Model airplane/rocket/UAV
[Paintball
[Photography
[Stargazing/Astronomy
[Swimming
[Therapeutic Programs
[Water Polo
[Yard sports (e.g., Bocce ball, Croquet)]
------------------------------------------------------------------------


                           Table 23. Real Outdoor Recreation Gross Output by Industry
                                      [Millions of chained (2012) dollars]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   All Industries          691,782     699,173     708,666     730,321     742,793     762,768
 2                     Private               651,193     658,779     668,072     687,893     698,553     718,236
                      industries
 3                       Agriculture,         10,923      12,147      13,010      13,749      13,483      13,372
                        forestry,
                        fishing, and
                        hunting
 4                        Farms                7,970       8,941       9,930      10,548      11,208      11,014
 5                        Forestry,            2,953       3,207       3,105       3,236       2,497       2,552
                         fishing, and
                         related
                         activities
 6                       Mining                  576         510         500         405         368         521
 7                        Oil and gas            194         199         227         215         217         225
                         extraction
 8                        Mining, except         330         263         215         151         123         263
                         oil and gas
 9                        Support                 51          46          50          33          28          31
                         activities for
                         mining
10                       Utilities                 2           2           2           2           2           2
11                       Construction          8,591       8,598       8,670       9,833      10,555      10,338
12                       Manufacturing       147,357     152,559     152,242     154,419     157,223     162,069
13                        Durable goods       44,100      46,962      47,691      48,381      48,179      51,889
14                         Wood products           4           4           4           4           4           5
15                         Nonmetallic            81          81          82          80          82          84
                          mineral
                          products
16                         Primary                13          10          13          11          10          11
                          metals
17                         Fabricated          3,062       3,443       3,151       3,491       3,763       4,277
                          metal products
18                         Machinery           5,009       4,712       4,486       3,769       2,509       3,235
19                         Computer and          789         780         884       1,384       1,098       1,199
                          electronic
                          products
20                         Electrical          1,294       1,142       1,176       1,099       1,002         979
                          equipment,
                          appliances,
                          and components
21                         Motor              11,160      13,234      14,091      14,189      15,324      16,630
                          vehicles,
                          bodies and
                          trailers, and
                          parts
22                         Other              15,418      16,393      17,304      17,914      17,628      18,557
                          transportation
                          equipment
23                         Furniture and         134         143         134         127         111         112
                          related
                          products
24                         Miscellaneous       7,136       7,007       6,375       6,354       6,601       6,737
                          manufacturing
25                        Nondurable         103,257     105,572     104,473     105,955     109,526     109,450
                         goods
26                         Food and           17,661      17,898      18,002      18,262      18,872      18,925
                          beverage and
                          tobacco
                          products
27                         Textile mills         887         790         837         864         894         911
                          and textile
                          product mills
28                         Apparel and         4,488       4,368       4,187       4,308       5,582       6,342
                          leather and
                          allied
                          products
29                         Paper                 731         712         757         700         686         716
                          products
30                         Printing and          208         203         211         217         222         190
                          related
                          support
                          activities
31                         Petroleum and      72,112      74,010      72,649      73,899      74,543      72,648
                          coal products
32                         Chemical            6,567       7,000       7,193       7,130       7,225       7,289
                          products
33                         Plastics and          602         602         595         598         624         622
                          rubber
                          products
34                       Wholesale trade      58,414      55,224      57,130      56,237      54,317      54,987
35                       Retail trade        139,090     146,030     147,038     151,773     154,595     160,768
36                        Motor vehicle       12,667      12,684      12,723      15,034      17,044      19,894
                         and parts
                         dealers
37                        Food and             9,087       8,938       8,930       8,890       8,786       8,878
                         beverage stores
38                        General             22,958      24,890      24,500      25,071      24,367      24,440
                         merchandise
                         stores
39                        Other retail        94,377      99,537     100,889     102,735     104,281     107,438
40                       Transportation       71,843      73,208      75,812      79,716      78,942      81,068
                        and warehousing
41                        Air                 46,990      47,877      49,449      53,025      52,701      53,432
                         transportation
42                        Rail                 1,094       1,082       1,103       1,100       1,116       1,163
                         transportation
43                        Water                9,071       9,416      10,168      10,246       9,994      10,747
                         transportation
44                        Truck                7,630       7,556       7,689       7,544       7,417       7,466
                         transportation
45                        Transit and          3,303       3,369       3,425       3,538       3,530       3,704
                         ground
                         passenger
                         transportation
46                        Pipeline               555         559         567         623         600         601
                         transportation
47                        Other                3,159       3,308       3,384       3,617       3,574       3,869
                         transportation
                         and support
                         activities
48                        Warehousing             42          42          40          41          43          44
                         and storage
49                       Information           2,131       2,163       2,262       2,366       2,515       2,717
50                        Publishing             761         720         716         714         689         739
                         industries,
                         except internet
                         (includes
                         software)
51                        Motion picture          74          69          68          76          82          83
                         and sound
                         recording
                         industries
52                        Broadcasting         1,068       1,140       1,236       1,298       1,435       1,521
                         and
                         telecommunicati
                         ons
53                        Data                   228         235         244         282         316         381
                         processing,
                         internet
                         publishing, and
                         other
                         information
                         services
54                       Finance,             28,769      28,521      25,647      27,494      28,772      29,132
                        insurance, real
                        estate, rental,
                        and leasing
55                        Finance and          7,238       7,030       7,399       7,674       7,847       7,924
                         insurance
56                         Federal               574         563         544         580         587         589
                          Reserve banks,
                          credit
                          intermediation
                          , and related
                          activities
57                         Securities,             0           0           0           0           0           0
                          commodity
                          contracts, and
                          investments
58                         Insurance           6,664       6,467       6,855       7,095       7,260       7,336
                          carriers and
                          related
                          activities
59                         Funds,                  0           0           0           0           0           0
                          trusts, and
                          other
                          financial
                          vehicles
60                       Real estate and      21,531      21,490      18,264      19,831      20,938      21,221
                        rental and
                        leasing
61                        Real estate         15,900      15,701      12,448      13,390      13,687      13,574
62                         Housing            15,894      15,697      12,443      13,386      13,682      13,569
63                         Other real              5           5           5           5           5           5
                          estate
64                        Rental and           5,631       5,790       5,820       6,451       7,330       7,795
                         leasing
                         services and
                         lessors of
                         intangible
                         assets
65                       Professional         11,336      11,645      12,177      12,908      13,658      14,717
                        and business
                        services
66                        Professional,        1,627       1,668       1,827       1,922       2,070       2,242
                         scientific, and
                         technical
                         services
67                         Legal                   0           0           0           0           0           0
                          services
68                         Computer               64          52          51          60          62          68
                          systems design
                          and related
                          services
69                         Miscellaneous       1,563       1,616       1,777       1,862       2,009       2,175
                          professional,
                          scientific,
                          and technical
                          services
70                        Management of            0           0           0           0           0           0
                         companies and
                         enterprises
71                        Administrative       9,709       9,978      10,349      10,984      11,586      12,472
                         and waste
                         management
                         services
72                         Administrativ       9,708       9,977      10,348      10,983      11,585      12,471
                          e and support
                          services
73                         Waste                   1           1           1           1           1           1
                          management and
                          remediation
                          services
74                       Educational           6,217       6,152       6,370       6,511       6,590       6,749
                        services, health
                        care, and social
                        assistance
75                        Educational          5,647       5,600       5,788       5,899       5,949       6,086
                         services
76                         Health care           570         553         582         612         643         666
                          and social
                          assistance
77                          Ambulatory           345         345         369         393         420         437
                           health care
                           services
78                          Hospitals            174         156         160         166         172         177
79                          Nursing and           24          21          21          21          21          21
                           residential
                           care
                           facilities
80                          Social                28          31          32          33          31          31
                           assistance
81                       Arts,               160,042     156,400     161,405     166,342     171,052     175,455
                        entertainment,
                        recreation,
                        accommodation,
                        and food
                        services
82                        Arts,               73,256      74,346      75,936      77,394      80,026      84,615
                         entertainment,
                         and recreation
83                         Performing         19,373      19,599      20,324      20,587      21,259      22,080
                          arts,
                          spectator
                          sports,
                          museums, and
                          related
                          activities
84                         Amusements,        53,884      54,748      55,609      56,808      58,770      62,561
                          gambling, and
                          recreation
                          industries
85                        Accommodation       86,785      82,060      85,468      88,943      91,020      90,841
                         and food
                         services
86                         Accommodation      46,580      48,095      50,429      52,113      53,127      52,790
87                         Food services      40,205      33,967      35,041      36,833      37,896      38,054
                          and drinking
                          places
88                       Other services,       5,902       5,821       5,906       6,015       6,220       6,290
                        except
                        government
89                     Government             40,589      40,399      40,606      42,422      44,196      44,518
90                       Federal               4,644       4,811       4,478       4,453       4,587       4,541
91                        General              3,965       4,190       3,870       3,848       4,006       3,964
                         government
92                         National                0           1           1           1           1           1
                          defense
93                         Non-defense         3,964       4,190       3,869       3,848       4,005       3,964
94                        Government             679         619         609         605         575         571
                         enterprises
95                       State and local      35,944      35,590      36,123      37,960      39,600      39,968
96                        General             33,916      33,700      34,392      36,233      37,910      38,257
                         government
97                        Government           2,029       1,891       1,730       1,727       1,695       1,717
                         enterprises
----------------------------------------------------------------------------------------------------------------


                              Table 24. Outdoor Recreation Gross Output by Industry
                                          [Millions of current dollars]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   All Industries          691,782     709,072     725,728     730,955     741,630     778,487
 2                     Private               651,193     667,458     683,184     686,929     696,061     731,385
                      industries
 3                       Agriculture,         10,923      12,386      12,717      12,878      12,038      12,098
                        forestry,
                        fishing, and
                        hunting
 4                        Farms                7,970       9,050       9,377       9,348       9,285       9,212
 5                        Forestry,            2,953       3,335       3,340       3,530       2,753       2,886
                         fishing, and
                         related
                         activities
 6                       Mining                  576         508         496         317         271         431
 7                        Oil and gas            194         209         251         150         135         185
                         extraction
 8                        Mining, except         330         247         191         127          99         206
                         oil and gas
 9                        Support                 51          52          54          41          36          40
                         activities for
                         mining
10                       Utilities                 2           2           2           2           2           2
11                       Construction          8,591       8,948       9,439      11,020      12,237      12,488
12                       Manufacturing       147,357     151,604     148,878     127,511     121,696     133,051
13                        Durable goods       44,100      47,946      49,357      50,666      50,630      55,064
14                         Wood products           4           4           4           4           5           5
15                         Nonmetallic            81          82          83          83          86          89
                          mineral
                          products
16                         Primary                13          10          13          11          10          10
                          metals
17                         Fabricated          3,062       3,710       3,423       3,786       4,046       4,661
                          metal products
18                         Machinery           5,009       4,787       4,662       3,968       2,599       3,360
19                         Computer and          789         763         867       1,285         920         994
                          electronic
                          products
20                         Electrical          1,294       1,148       1,192       1,119       1,020       1,002
                          equipment,
                          appliances,
                          and components
21                         Motor              11,160      13,543      14,696      15,110      16,545      18,367
                          vehicles,
                          bodies and
                          trailers, and
                          parts
22                         Other              15,418      16,632      17,707      18,556      18,471      19,771
                          transportation
                          equipment
23                         Furniture and         134         147         141         136         123         124
                          related
                          products
24                         Miscellaneous       7,136       7,119       6,568       6,609       6,806       6,681
                          manufacturing
25                        Nondurable         103,257     103,658      99,521      76,845      71,066      77,987
                         goods
26                         Food and           17,661      18,186      19,025      19,123      19,283      19,507
                          beverage and
                          tobacco
                          products
27                         Textile mills         887         827         892         921         958         982
                          and textile
                          product mills
28                         Apparel and         4,488       4,486       4,302       4,471       5,846       6,748
                          leather and
                          allied
                          products
29                         Paper                 731         711         752         694         681         710
                          products
30                         Printing and          208         204         213         221         225         195
                          related
                          support
                          activities
31                         Petroleum and      72,112      71,532      66,278      43,305      35,789      41,337
                          coal products
32                         Chemical            6,567       7,106       7,448       7,501       7,651       7,874
                          products
33                         Plastics and          602         608         610         609         632         635
                          rubber
                          products
34                       Wholesale trade      58,414      59,128      61,302      61,158      59,585      61,089
35                       Retail trade        139,090     146,262     149,260     157,377     161,764     168,440
36                        Motor vehicle       12,667      12,965      13,523      15,851      17,827      20,318
                         and parts
                         dealers
37                        Food and             9,087       9,131       9,450       9,872      10,076      10,286
                         beverage stores
38                        General             22,958      24,412      23,665      24,074      23,686      23,960
                         merchandise
                         stores
39                        Other retail        94,377      99,754     102,621     107,580     110,175     113,875
40                       Transportation       71,843      73,622      77,497      78,757      77,800      81,437
                        and warehousing
41                        Air                 46,990      48,019      50,719      51,580      50,199      52,127
                         transportation
42                        Rail                 1,094       1,116       1,153       1,133       1,142       1,226
                         transportation
43                        Water                9,071       9,387      10,066      10,221      10,676      11,430
                         transportation
44                        Truck                7,630       7,666       7,898       7,599       7,419       7,637
                         transportation
45                        Transit and          3,303       3,458       3,519       3,674       3,764       4,003
                         ground
                         passenger
                         transportation
46                        Pipeline               555         583         628         723         712         720
                         transportation
47                        Other                3,159       3,351       3,471       3,786       3,844       4,250
                         transportation
                         and support
                         activities
48                        Warehousing             42          42          41          41          43          45
                         and storage
49                       Information           2,131       2,197       2,316       2,427       2,577       2,781
50                        Publishing             761         735         741         747         734         798
                         industries,
                         except internet
                         (includes
                         software)
51                        Motion picture          74          76          79          87          90          97
                         and sound
                         recording
                         industries
52                        Broadcasting         1,068       1,147       1,248       1,307       1,435       1,500
                         and
                         telecommunicati
                         ons
53                        Data                   228         238         248         286         319         387
                         processing,
                         internet
                         publishing, and
                         other
                         information
                         services
54                       Finance,             28,769      29,224      27,041      29,267      31,125      32,541
                        insurance, real
                        estate, rental,
                        and leasing
55                        Finance and          7,238       7,173       7,663       8,096       8,594       9,086
                         insurance
56                         Federal               574         586         577         623         649         666
                          Reserve banks,
                          credit
                          intermediation
                          , and related
                          activities
57                         Securities,             0           0           0           0           0           0
                          commodity
                          contracts, and
                          investments
58                         Insurance           6,664       6,587       7,086       7,474       7,945       8,420
                          carriers and
                          related
                          activities
59                         Funds,                  0           0           0           0           0           0
                          trusts, and
                          other
                          financial
                          vehicles
60                        Real estate         21,531      22,051      19,378      21,171      22,531      23,455
                         and rental and
                         leasing
61                         Real estate        15,900      16,146      13,206      14,713      15,604      16,065
62                          Housing           15,894      16,141      13,201      14,708      15,599      16,060
63                          Other real             5           5           5           5           5           5
                           estate
64                         Rental and          5,631       5,905       6,172       6,457       6,927       7,390
                          leasing
                          services and
                          lessors of
                          intangible
                          assets
65                       Professional         11,336      11,820      12,515      13,541      14,591      15,999
                        and business
                        services
66                        Professional,        1,627       1,707       1,909       2,066       2,285       2,520
                         scientific, and
                         technical
                         services
67                         Legal                   0           0           0           0           0           0
                          services
68                         Computer               64          56          56          65          64          72
                          systems design
                          and related
                          services
69                         Miscellaneous       1,563       1,652       1,853       2,000       2,222       2,447
                          professional,
                          scientific,
                          and technical
                          services
70                        Management of            0           0           0           0           0           0
                         companies and
                         enterprises
71                        Administrative       9,709      10,113      10,606      11,476      12,306      13,480
                         and waste
                         management
                         services
72                         Administrativ       9,708      10,112      10,605      11,474      12,304      13,478
                          e and support
                          services
73                         Waste                   1           1           1           1           1           1
                          management and
                          remediation
                          services
74                       Educational           6,217       6,315       6,660       6,968       7,184       7,558
                        services, health
                        care, and social
                        assistance
75                        Educational          5,647       5,753       6,068       6,342       6,523       6,868
                         services
76                        Health care            570         563         592         627         661         690
                         and social
                         assistance
77                         Ambulatory            345         353         373         396         420         438
                          health care
                          services
78                         Hospitals             174         159         167         177         187         197
79                         Nursing and            24          21          22          22          23          24
                          residential
                          care
                          facilities
80                         Social                 28          29          30          31          31          32
                          assistance
81                       Arts,               160,042     159,449     168,847     179,212     188,336     196,288
                        entertainment,
                        recreation,
                        accommodation,
                        and food
                        services
82                        Arts,               73,256      75,602      78,943      83,482      88,259      94,255
                         entertainment,
                         and recreation
83                         Performing         19,373      20,037      21,322      22,849      24,333      25,806
                          arts,
                          spectator
                          sports,
                          museums, and
                          related
                          activities
84                         Amusements,        53,884      55,565      57,621      60,633      63,926      68,450
                          gambling, and
                          recreation
                          industries
85                        Accommodation       86,785      83,847      89,905      95,731     100,076     102,032
                         and food
                         services
86                         Accommodation      46,580      49,114      53,206      56,130      58,385      59,153
87                         Food services      40,205      34,733      36,699      39,600      41,692      42,879
                          and drinking
                          places
88                       Other services,       5,902       5,993       6,214       6,492       6,857       7,181
                        except
                        government
89                     Government             40,589      41,614      42,544      44,026      45,569      47,102
90                       Federal               4,644       4,871       4,605       4,589       4,787       4,865
91                        General              3,965       4,262       4,028       4,051       4,268       4,334
                         government
92                         National                0           1           1           1           1           1
                          defense
93                         Non-defense         3,964       4,261       4,028       4,050       4,268       4,334
94                        Government             679         610         576         538         518         531
                         enterprises
95                       State and local      35,944      36,743      37,939      39,437      40,782      42,237
96                        General             33,916      34,792      36,137      37,588      38,924      40,318
                         government
97                        Government           2,029       1,951       1,803       1,848       1,859       1,919
                         enterprises
----------------------------------------------------------------------------------------------------------------


              Table 25. Chain-Type Quantity Indexes for Outdoor Recreation Gross Output by Industry
                                           [index numbers, 2012 = 100]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   All Industries          100.000     101.069     102.441     105.571     107.374     110.261
 2                     Private               100.000     101.165     102.592     105.636     107.273     110.295
                      industries
 3                       Agriculture,        100.000     111.204     119.108     125.877     123.436     122.422
                        forestry,
                        fishing, and
                        hunting
 4                        Farms              100.000     112.189     124.598     132.356     140.632     138.199
 5                        Forestry,          100.000     108.573     105.132     109.556      84.550      86.427
                         fishing, and
                         related
                         activities
 6                       Mining              100.000      88.512      86.822      70.378      63.888      90.509
 7                        Oil and gas        100.000     102.721     117.093     111.024     111.797     115.889
                         extraction
 8                        Mining, except     100.000      79.445      65.052      45.548      37.283      79.520
                         oil and gas
 9                        Support            100.000      90.060      96.822      64.899      54.217      60.294
                         activities for
                         mining
10                       Utilities           100.000     101.498      86.151      87.632      89.177      86.030
11                       Construction        100.000     100.087     100.926     114.457     122.864     120.336
12                       Manufacturing       100.000     103.530     103.315     104.793     106.695     109.984
13                        Durable goods      100.000     106.490     108.144     109.708     109.250     117.663
14                         Wood products     100.000     100.778     107.625     115.268     118.055     127.101
15                         Nonmetallic       100.000     100.975     101.225      99.043     101.447     104.176
                          mineral
                          products
16                         Primary           100.000      75.998      93.904      78.952      76.647      79.514
                          metals
17                         Fabricated        100.000     112.466     102.932     114.018     122.910     139.694
                          metal products
18                         Machinery         100.000      94.065      89.566      75.235      50.081      64.575
19                         Computer and      100.000      98.858     112.091     175.409     139.216     151.964
                          electronic
                          products
20                         Electrical        100.000      88.243      90.897      84.951      77.466      75.670
                          equipment,
                          appliances,
                          and components
21                         Motor             100.000     118.585     126.260     127.143     137.315     149.013
                          vehicles,
                          bodies and
                          trailers, and
                          parts
22                         Other             100.000     106.323     112.229     116.187     114.330     120.358
                          transportation
                          equipment
23                         Furniture and     100.000     106.537     100.294      94.629      83.178      83.535
                          related
                          products
24                         Miscellaneous     100.000      98.187      89.330      89.037      92.504      94.403
                          manufacturing
25                        Nondurable         100.000     102.241     101.177     102.612     106.071     105.997
                         goods
26                         Food and          100.000     101.342     101.931     103.403     106.858     107.158
                          beverage and
                          tobacco
                          products
27                         Textile mills     100.000      89.022      94.361      97.333     100.739     102.687
                          and textile
                          product mills
28                         Apparel and       100.000      97.327      93.293      95.991     124.387     141.325
                          leather and
                          allied
                          products
29                         Paper             100.000      97.361     103.463      95.745      93.837      97.927
                          products
30                         Printing and      100.000      97.473     101.496     104.634     106.663      91.606
                          related
                          support
                          activities
31                         Petroleum and     100.000     102.632     100.744     102.478     103.371     100.743
                          coal products
32                         Chemical          100.000     106.584     109.532     108.563     110.017     110.989
                          products
33                         Plastics and      100.000      99.914      98.743      99.287     103.654     103.167
                          rubber
                          products
34                       Wholesale trade     100.000      94.539      97.803      96.273      92.987      94.134
35                       Retail trade        100.000     104.990     105.715     109.119     111.147     115.586
36                        Motor vehicle      100.000     100.132     100.436     118.681     134.551     157.049
                         and parts
                         dealers
37                        Food and           100.000      98.356      98.272      97.838      96.687      97.696
                         beverage stores
38                        General            100.000     108.415     106.716     109.203     106.136     106.455
                         merchandise
                         stores
39                        Other retail       100.000     105.467     106.900     108.855     110.494     113.839
40                       Transportation      100.000     101.899     105.524     110.958     109.880     112.839
                        and warehousing
41                        Air                100.000     101.888     105.233     112.845     112.154     113.710
                         transportation
42                        Rail               100.000      98.944     100.872     100.603     101.999     106.297
                         transportation
43                        Water              100.000     103.806     112.090     112.954     110.171     118.474
                         transportation
44                        Truck              100.000      99.037     100.783      98.873      97.208      97.853
                         transportation
45                        Transit and        100.000     102.004     103.691     107.121     106.868     112.127
                         ground
                         passenger
                         transportation
46                        Pipeline           100.000     100.712     102.051     112.209     108.041     108.227
                         transportation
47                        Other              100.000     104.718     107.120     114.493     113.149     122.492
                         transportation
                         and support
                         activities
48                        Warehousing        100.000      99.781      96.587      98.139     103.719     105.238
                         and storage
49                       Information         100.000     101.504     106.164     111.071     118.070     127.529
50                        Publishing         100.000      94.581      94.103      93.804      90.616      97.142
                         industries,
                         except internet
                         (includes
                         software)
51                        Motion picture     100.000      93.038      92.486     102.829     110.743     112.002
                         and sound
                         recording
                         industries
52                        Broadcasting       100.000     106.727     115.747     121.513     134.315     142.392
                         and
                         telecommunicati
                         ons
53                        Data               100.000     103.202     106.812     123.479     138.473     167.258
                         processing,
                         internet
                         publishing, and
                         other
                         information
                         services
54                       Finance,            100.000      99.137      89.149      95.567     100.011     101.261
                        insurance, real
                        estate, rental,
                        and leasing
55                        Finance and        100.000      97.129     102.223     106.030     108.408     109.476
                         insurance
56                         Federal           100.000      98.153      94.868     101.032     102.310     102.641
                          Reserve banks,
                          credit
                          intermediation
                          , and related
                          activities
57                         Securities,         0.000       0.000       0.000       0.000       0.000       0.000
                          commodity
                          contracts, and
                          investments
58                         Insurance         100.000      97.040     102.872     106.472     108.946     110.078
                          carriers and
                          related
                          activities
59                         Funds,              0.000       0.000       0.000       0.000       0.000       0.000
                          trusts, and
                          other
                          financial
                          vehicles
60                        Real estate        100.000      99.810      84.825      92.105      97.247      98.561
                         and rental and
                         leasing
61                         Real estate       100.000      98.752      78.289      84.219      86.084      85.373
62                          Housing          100.000      98.756      78.285      84.217      86.083      85.372
63                          Other real       100.000      88.142      88.794      89.007      89.119      86.836
                           estate
64                         Rental and        100.000     102.808     103.355     114.555     130.164     138.417
                          leasing
                          services and
                          lessors of
                          intangible
                          assets
65                       Professional        100.000     102.727     107.415     113.861     120.482     129.824
                        and business
                        services
66                        Professional,      100.000     102.494     112.291     118.145     127.213     137.823
                         scientific, and
                         technical
                         services
67                         Legal               0.000       0.000       0.000       0.000       0.000       0.000
                          services
68                         Computer          100.000      80.829      78.795      94.010      96.236     105.877
                          systems design
                          and related
                          services
69                         Miscellaneous     100.000     103.404     113.710     119.168     128.513     139.169
                          professional,
                          scientific,
                          and technical
                          services
70                        Management of        0.000       0.000       0.000       0.000       0.000       0.000
                         companies and
                         enterprises
71                        Administrative     100.000     102.766     106.585     113.133     119.331     128.453
                         and waste
                         management
                         services
72                         Administrativ     100.000     102.766     106.585     113.133     119.330     128.454
                          e and support
                          services
73                         Waste             100.000     100.583     113.102     120.260     123.868     120.606
                          management and
                          remediation
                          services
74                       Educational         100.000      98.952     102.448     104.719     105.991     108.548
                        services, health
                        care, and social
                        assistance
75                        Educational        100.000      99.161     102.494     104.467     105.348     107.771
                         services
76                        Health care        100.000      96.875     102.035     107.381     112.759     116.735
                         and social
                         assistance
77                         Ambulatory        100.000     100.100     107.206     114.182     121.812     126.791
                          health care
                          services
78                         Hospitals         100.000      89.899      91.955      95.524      98.895     101.974
79                         Nursing and       100.000      86.541      86.867      86.268      86.912      87.765
                          residential
                          care
                          facilities
80                         Social            100.000     109.848     115.234     117.049     111.737     112.135
                          assistance
81                       Arts,               100.000      97.725     100.852     103.936     106.880     109.631
                        entertainment,
                        recreation,
                        accommodation,
                        and food
                        services
82                        Arts,              100.000     101.488     103.657     105.648     109.241     115.505
                         entertainment,
                         and recreation
83                         Performing        100.000     101.166     104.912     106.268     109.734     113.976
                          arts,
                          spectator
                          sports,
                          museums, and
                          related
                          activities
84                         Amusements,       100.000     101.604     103.201     105.427     109.067     116.103
                          gambling, and
                          recreation
                          industries
85                        Accommodation      100.000      94.555      98.483     102.486     104.880     104.673
                         and food
                         services
86                         Accommodation     100.000     103.253     108.263     111.878     114.056     113.331
87                         Food services     100.000      84.485      87.156      91.614      94.258      94.651
                          and drinking
                          places
88                       Other services,     100.000      98.614     100.055     101.907     105.381     106.559
                        except
                        government
89                     Government            100.000      99.533     100.042     104.516     108.887     109.681
90                       Federal             100.000     103.583      96.410      95.875      98.770      97.784
91                        General            100.000     105.691      97.602      97.062     101.029      99.985
                         government
92                         National          100.000     138.629     146.247     133.086     144.098     148.627
                          defense
93                         Non-defense       100.000     105.688      97.597      97.059     101.025      99.981
94                        Government         100.000      91.089      89.571      89.065      84.609      84.008
                         enterprises
95                       State and local     100.000      99.015     100.496     105.608     110.169     111.195
96                        General            100.000      99.363     101.405     106.833     111.778     112.800
                         government
97                        Government         100.000      93.205      85.257      85.143      83.542      84.628
                         enterprises
----------------------------------------------------------------------------------------------------------------


    Table 26. Percent Changes in Chain-Type Quantity Indexes for Outdoor Recreation Gross Output by Industry
                                                [Percent Change]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                                         2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                         All Industries                    1.1         1.4         3.1         1.7         2.7
 2                           Private industries              1.2         1.4         3.0         1.5         2.8
 3                             Agriculture,                 11.2         7.1         5.7        ^1.9        ^0.8
                              forestry, fishing, and
                              hunting
 4                              Farms                       12.2        11.1         6.2         6.3        ^1.7
 5                              Forestry, fishing,           8.6        ^3.2         4.2       ^22.8         2.2
                               and related
                               activities
 6                             Mining                      ^11.5        ^1.9       ^18.9        ^9.2        41.7
 7                              Oil and gas                  2.7        14.0        ^5.2         0.7         3.7
                               extraction
 8                              Mining, except oil         ^20.6       ^18.1       ^30.0       ^18.1       113.3
                               and gas
 9                              Support activities          ^9.9         7.5       ^33.0       ^16.5        11.2
                               for mining
10                             Utilities                     1.5       ^15.1         1.7         1.8        ^3.5
11                             Construction                  0.1         0.8        13.4         7.3        ^2.1
12                             Manufacturing                 3.5        ^0.2         1.4         1.8         3.1
13                              Durable goods                6.5         1.6         1.4        ^0.4         7.7
14                               Wood products               0.8         6.8         7.1         2.4         7.7
15                               Nonmetallic mineral         1.0         0.2        ^2.2         2.4         2.7
                                products
16                               Primary metals            ^24.0        23.6       ^15.9        ^2.9         3.7
17                               Fabricated metal           12.5        ^8.5        10.8         7.8        13.7
                                products
18                               Machinery                  ^5.9        ^4.8       ^16.0       ^33.4        28.9
19                               Computer and               ^1.1        13.4        56.5       ^20.6         9.2
                                electronic products
20                               Electrical                ^11.8         3.0        ^6.5        ^8.8        ^2.3
                                equipment,
                                appliances, and
                                components
21                               Motor vehicles,            18.6         6.5         0.7         8.0         8.5
                                bodies and trailers,
                                and parts
22                               Other                       6.3         5.6         3.5        ^1.6         5.3
                                transportation
                                equipment
23                               Furniture and               6.5        ^5.9        ^5.6       ^12.1         0.4
                                related products
24                               Miscellaneous              ^1.8        ^9.0        ^0.3         3.9         2.1
                                manufacturing
25                              Nondurable goods             2.2        ^1.0         1.4         3.4        ^0.1
26                               Food and beverage           1.3         0.6         1.4         3.3         0.3
                                and tobacco products
27                               Textile mills and         ^11.0         6.0         3.1         3.5         1.9
                                textile product
                                mills
28                               Apparel and leather        ^2.7        ^4.1         2.9        29.6        13.6
                                and allied products
29                               Paper products             ^2.6         6.3        ^7.5        ^2.0         4.4
30                               Printing and               ^2.5         4.1         3.1         1.9       ^14.1
                                related support
                                activities
31                               Petroleum and coal          2.6        ^1.8         1.7         0.9        ^2.5
                                products
32                               Chemical products           6.6         2.8        ^0.9         1.3         0.9
33                               Plastics and rubber        ^0.1        ^1.2         0.6         4.4        ^0.5
                                products
34                             Wholesale trade              ^5.5         3.5        ^1.6        ^3.4         1.2
35                             Retail trade                  5.0         0.7         3.2         1.9         4.0
36                              Motor vehicle and            0.1         0.3        18.2        13.4        16.7
                               parts dealers
37                              Food and beverage           ^1.6        ^0.1        ^0.4        ^1.2         1.0
                               stores
38                              General merchandise          8.4        ^1.6         2.3        ^2.8         0.3
                               stores
39                              Other retail                 5.5         1.4         1.8         1.5         3.0
40                             Transportation and            1.9         3.6         5.1        ^1.0         2.7
                              warehousing
41                              Air transportation           1.9         3.3         7.2        ^0.6         1.4
42                              Rail transportation         ^1.1         1.9        ^0.3         1.4         4.2
43                              Water transportation         3.8         8.0         0.8        ^2.5         7.5
44                              Truck transportation        ^1.0         1.8        ^1.9        ^1.7         0.7
45                              Transit and ground           2.0         1.7         3.3        ^0.2         4.9
                               passenger
                               transportation
46                              Pipeline                     0.7         1.3        10.0        ^3.7         0.2
                               transportation
47                              Other transportation         4.7         2.3         6.9        ^1.2         8.3
                               and support
                               activities
48                              Warehousing and             ^0.2        ^3.2         1.6         5.7         1.5
                               storage
49                             Information                   1.5         4.6         4.6         6.3         8.0
50                              Publishing                  ^5.4        ^0.5        ^0.3        ^3.4         7.2
                               industries, except
                               internet (includes
                               software)
51                              Motion picture and          ^7.0        ^0.6        11.2         7.7         1.1
                               sound recording
                               industries
52                              Broadcasting and             6.7         8.5         5.0        10.5         6.0
                               telecommunications
53                              Data processing,             3.2         3.5        15.6        12.1        20.8
                               internet publishing,
                               and other information
                               services
54                             Finance, insurance,          ^0.9       ^10.1         7.2         4.7         1.2
                              real estate, rental,
                              and leasing
55                              Finance and                 ^2.9         5.2         3.7         2.2         1.0
                               insurance
56                               Federal Reserve            ^1.8        ^3.3         6.5         1.3         0.3
                                banks, credit
                                intermediation, and
                                related activities
57                               Securities,                 0.0         0.0         0.0         0.0         0.0
                                commodity contracts,
                                and investments
58                               Insurance carriers         ^3.0         6.0         3.5         2.3         1.0
                                and related
                                activities
59                               Funds, trusts, and          0.0         0.0         0.0         0.0         0.0
                                other financial
                                vehicles
60                              Real estate and             ^0.2       ^15.0         8.6         5.6         1.4
                               rental and leasing
61                               Real estate                ^1.2       ^20.7         7.6         2.2        ^0.8
62                                Housing                   ^1.2       ^20.7         7.6         2.2        ^0.8
63                                Other real estate        ^11.9         0.7         0.2         0.1        ^2.6
64                               Rental and leasing          2.8         0.5        10.8        13.6         6.3
                                services and lessors
                                of intangible assets
65                             Professional and              2.7         4.6         6.0         5.8         7.8
                              business services
66                              Professional,                2.5         9.6         5.2         7.7         8.3
                               scientific, and
                               technical services
67                               Legal services              0.0         0.0         0.0         0.0         0.0
68                               Computer systems          ^19.2        ^2.5        19.3         2.4        10.0
                                design and related
                                services
69                               Miscellaneous               3.4        10.0         4.8         7.8         8.3
                                professional,
                                scientific, and
                                technical services
70                              Management of                0.0         0.0         0.0         0.0         0.0
                               companies and
                               enterprises
71                              Administrative and           2.8         3.7         6.1         5.5         7.6
                               waste management
                               services
72                               Administrative and          2.8         3.7         6.1         5.5         7.6
                                support services
73                               Waste management            0.6        12.4         6.3         3.0        ^2.6
                                and remediation
                                services
74                             Educational services,        ^1.0         3.5         2.2         1.2         2.4
                              health care, and
                              social assistance
75                              Educational services        ^0.8         3.4         1.9         0.8         2.3
76                               Health care and            ^3.1         5.3         5.2         5.0         3.5
                                social assistance
77                               Ambulatory health           0.1         7.1         6.5         6.7         4.1
                                care services
78                                Hospitals                ^10.1         2.3         3.9         3.5         3.1
79                                Nursing and              ^13.5         0.4        ^0.7         0.7         1.0
                                 residential care
                                 facilities
80                                Social assistance          9.8         4.9         1.6        ^4.5         0.4
81                             Arts, entertainment,         ^2.3         3.2         3.1         2.8         2.6
                              recreation,
                              accommodation, and
                              food services
82                              Arts, entertainment,         1.5         2.1         1.9         3.4         5.7
                               and recreation
83                               Performing arts,            1.2         3.7         1.3         3.3         3.9
                                spectator sports,
                                museums, and related
                                activities
84                               Amusements,                 1.6         1.6         2.2         3.5         6.5
                                gambling, and
                                recreation
                                industries
85                              Accommodation and           ^5.4         4.2         4.1         2.3        ^0.2
                               food services
86                               Accommodation               3.3         4.9         3.3         1.9        ^0.6
87                               Food services and         ^15.5         3.2         5.1         2.9         0.4
                                drinking places
88                             Other services,              ^1.4         1.5         1.9         3.4         1.1
                              except government
89                           Government                     ^0.5         0.5         4.5         4.2         0.7
90                             Federal                       3.6        ^6.9        ^0.6         3.0        ^1.0
91                              General government           5.7        ^7.7        ^0.6         4.1        ^1.0
92                               National defense           38.6         5.5        ^9.0         8.3         3.1
93                               Non-defense                 5.7        ^7.7        ^0.6         4.1        ^1.0
94                              Government                  ^8.9        ^1.7        ^0.6        ^5.0        ^0.7
                               enterprises
95                             State and local              ^1.0         1.5         5.1         4.3         0.9
96                              General government          ^0.6         2.1         5.4         4.6         0.9
97                              Government                  ^6.8        ^8.5        ^0.1        ^1.9         1.3
                               enterprises
----------------------------------------------------------------------------------------------------------------


               Table 27. Chain-Type Price Indexes for Outdoor Recreation Gross Output by Industry
                                           [index numbers, 2012 = 100]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   All Industries          100.000     101.416     102.558     100.234      99.990     102.211
 2                     Private               100.000     101.317     102.421     100.015      99.799     101.989
                      industries
 3                       Agriculture,        100.000     101.967      97.749      93.665      89.282      90.470
                        forestry,
                        fishing, and
                        hunting
 4                        Farms              100.000     101.224      94.434      88.622      82.843      83.636
 5                        Forestry,          100.000     104.010     107.572     109.112     110.243     113.073
                         fishing, and
                         related
                         activities
 6                       Mining              100.000      99.741      99.248      78.233      73.546      82.730
 7                        Oil and gas        100.000     104.978     110.516      69.456      62.322      82.229
                         extraction
 8                        Mining, except     100.000      94.276      88.888      84.193      80.618      78.486
                         oil and gas
 9                        Support            100.000     111.600     108.614     122.036     129.416     129.288
                         activities for
                         mining
10                       Utilities           100.000     104.341     108.295     114.535     118.939     124.257
11                       Construction        100.000     104.068     108.893     112.102     115.968     120.833
12                       Manufacturing       100.000      99.374      97.797      82.580      77.408      82.101
13                        Durable goods      100.000     102.096     103.493     104.723     105.088     106.120
14                         Wood products     100.000     100.147      99.615     101.825     106.511     107.292
15                         Nonmetallic       100.000     100.907     102.029     103.890     105.222     106.150
                          mineral
                          products
16                         Primary           100.000     100.264     100.488     100.600      97.819      98.102
                          metals
17                         Fabricated        100.000     107.757     108.630     108.455     107.513     108.986
                          metal products
18                         Machinery         100.000     101.599     103.915     105.280     103.594     103.881
19                         Computer and      100.000      97.878      98.063      92.842      83.761      82.903
                          electronic
                          products
20                         Electrical        100.000     100.546     101.395     101.857     101.760     102.330
                          equipment,
                          appliances,
                          and components
21                         Motor             100.000     102.337     104.299     106.488     107.965     110.448
                          vehicles,
                          bodies and
                          trailers, and
                          parts
22                         Other             100.000     101.457     102.328     103.584     104.785     106.540
                          transportation
                          equipment
23                         Furniture and     100.000     102.810     104.625     106.968     109.973     110.765
                          related
                          products
24                         Miscellaneous     100.000     101.599     103.031     104.008     103.103      99.165
                          manufacturing
25                        Nondurable         100.000      98.188      95.270      72.533      64.891      71.260
                         goods
26                         Food and          100.000     101.606     105.681     104.712     102.176     103.072
                          beverage and
                          tobacco
                          products
27                         Textile mills     100.000     104.731     106.578     106.716     107.265     107.819
                          and textile
                          product mills
28                         Apparel and       100.000     102.701     102.980     104.003     104.942     106.620
                          leather and
                          allied
                          products
29                         Paper             100.000      99.788      99.410      99.101      99.257      99.069
                          products
30                         Printing and      100.000     100.481     101.170     101.438     101.738     102.604
                          related
                          support
                          activities
31                         Petroleum and     100.000      96.652      91.231      58.600      48.011      56.900
                          coal products
32                         Chemical          100.000     101.517     103.544     105.216     105.898     108.021
                          products
33                         Plastics and      100.000     100.961     102.531     101.829     101.179     102.137
                          rubber
                          products
34                       Wholesale trade     100.000     107.070     107.763     109.219     110.169     111.575
35                       Retail trade        100.000     100.158     102.018     104.210     105.159     105.294
36                        Motor vehicle      100.000     102.215     106.294     105.440     104.596     102.134
                         and parts
                         dealers
37                        Food and           100.000     102.165     105.877     111.095     114.733     115.921
                         beverage stores
38                        General            100.000      98.079      96.958      96.385      97.574      98.405
                         merchandise
                         stores
39                        Other retail       100.000     100.217     102.363     105.381     106.323     106.665
40                       Transportation      100.000     100.565     102.265      98.839      98.594     100.498
                        and warehousing
41                        Air                100.000     100.296     102.570      97.275      95.253      97.559
                         transportation
42                        Rail               100.000     103.129     104.518     102.943     102.335     105.435
                         transportation
43                        Water              100.000      99.686      98.997      99.755     106.828     106.355
                         transportation
44                        Truck              100.000     101.453     103.112     101.133     100.424     102.691
                         transportation
45                        Transit and        100.000     102.623     102.757     103.830     106.640     108.084
                         ground
                         passenger
                         transportation
46                        Pipeline           100.000     104.167     110.870     116.063     118.720     119.686
                         transportation
47                        Other              100.000     101.316     102.592     104.683     107.550     109.837
                         transportation
                         and support
                         activities
48                        Warehousing        100.000     101.453     103.049     101.094     100.331     102.527
                         and storage
49                       Information         100.000     101.578     102.394     102.568     102.462     102.383
50                        Publishing         100.000     102.147     103.521     104.681     106.412     107.962
                         industries,
                         except internet
                         (includes
                         software)
51                        Motion picture     100.000     111.472     116.094     114.850     109.718     116.881
                         and sound
                         recording
                         industries
52                        Broadcasting       100.000     100.607     100.935     100.705     100.031      98.658
                         and
                         telecommunicati
                         ons
53                        Data               100.000     101.341     101.806     101.642     101.144     101.513
                         processing,
                         internet
                         publishing, and
                         other
                         information
                         services
54                       Finance,            100.000     102.467     105.435     106.449     108.175     111.702
                        insurance, real
                        estate, rental,
                        and leasing
55                        Finance and        100.000     102.033     103.567     105.497     109.522     114.660
                         insurance
56                         Federal           100.000     104.095     105.923     107.365     110.554     113.004
                          Reserve banks,
                          credit
                          intermediation
                          , and related
                          activities
57                         Securities,         0.000       0.000       0.000       0.000       0.000       0.000
                          commodity
                          contracts, and
                          investments
58                         Insurance         100.000     101.854     103.364     105.333     109.425     114.780
                          carriers and
                          related
                          activities
59                         Funds,              0.000       0.000       0.000       0.000       0.000       0.000
                          trusts, and
                          other
                          financial
                          vehicles
60                        Real estate        100.000     102.610     106.104     106.755     107.606     110.526
                         and rental and
                         leasing
61                         Real estate       100.000     102.832     106.094     109.878     114.004     118.354
62                          Housing          100.000     102.833     106.094     109.879     114.006     118.356
63                          Other real       100.000     102.151     105.820     107.900     110.025     112.350
                           estate
64                         Rental and        100.000     101.996     106.048     100.099      94.502      94.804
                          leasing
                          services and
                          lessors of
                          intangible
                          assets
65                       Professional        100.000     101.499     102.775     104.910     106.831     108.714
                        and business
                        services
66                        Professional,      100.000     102.375     104.488     107.466     110.420     112.377
                         scientific, and
                         technical
                         services
67                         Legal               0.000       0.000       0.000       0.000       0.000       0.000
                          services
68                         Computer          100.000     107.136     110.036     108.304     103.191     106.377
                          systems design
                          and related
                          services
69                         Miscellaneous     100.000     102.200     104.289     107.409     110.618     112.536
                          professional,
                          scientific,
                          and technical
                          services
70                        Management of        0.000       0.000       0.000       0.000       0.000       0.000
                         companies and
                         enterprises
71                        Administrative     100.000     101.352     102.485     104.472     106.210     108.080
                         and waste
                         management
                         services
72                         Administrativ     100.000     101.352     102.485     104.472     106.210     108.080
                          e and support
                          services
73                         Waste             100.000     107.857     104.949     105.651     106.833     111.679
                          management and
                          remediation
                          services
74                       Educational         100.000     102.646     104.769     107.246     109.234     112.215
                        services, health
                        care, and social
                        assistance
75                        Educational        100.000     102.729     104.846     107.500     109.648     112.848
                         services
76                        Health care        100.000     101.818     104.008     104.710     105.144     106.064
                         and social
                         assistance
77                         Ambulatory        100.000     102.225     104.617     104.426     103.821     103.878
                          health care
                          services
78                         Hospitals         100.000     102.196     104.683     106.818     108.870     111.112
79                         Nursing and       100.000     102.174     104.783     107.668     110.219     112.941
                          residential
                          care
                          facilities
80                         Social            100.000      94.661      92.829      95.066      98.325     102.075
                          assistance
81                       Arts,               100.000     101.949     104.613     107.739     110.106     111.875
                        entertainment,
                        recreation,
                        accommodation,
                        and food
                        services
82                        Arts,              100.000     101.689     103.963     107.869     110.291     111.397
                         entertainment,
                         and recreation
83                         Performing        100.000     102.235     104.911     110.988     114.463     116.875
                          arts,
                          spectator
                          sports,
                          museums, and
                          related
                          activities
84                         Amusements,       100.000     101.494     103.622     106.737     108.778     109.417
                          gambling, and
                          recreation
                          industries
85                        Accommodation      100.000     102.178     105.191     107.632     109.950     112.320
                         and food
                         services
86                         Accommodation     100.000     102.119     105.506     107.709     109.896     112.055
87                         Food services     100.000     102.253     104.732     107.512     110.015     112.680
                          and drinking
                          places
88                       Other services,     100.000     102.959     105.223     107.942     110.254     114.185
                        except
                        government
89                     Government            100.000     103.007     104.780     103.787     103.113     105.810
90                       Federal             100.000     101.258     102.891     103.109     104.404     107.180
91                        General            100.000     101.700     104.099     105.255     106.562     109.337
                         government
92                         National          100.000      99.954     100.304     100.289      98.446      98.579
                          defense
93                         Non-defense       100.000     101.700     104.100     105.255     106.563     109.338
94                        Government         100.000      98.484      95.070      89.309      90.524      93.346
                         enterprises
95                       State and local     100.000     103.238     105.029     103.890     102.987     105.675
96                        General            100.000     103.240     105.073     103.741     102.673     105.388
                         government
97                        Government         100.000     103.194     104.216     107.001     109.675     111.753
                         enterprises
----------------------------------------------------------------------------------------------------------------


      Table 28. Percent Changes in Chain-Type Price Indexes for Outdoor Recreation Gross Output by Industry
                                                [Percent Change]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                                         2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                         All Industries                    1.4         1.1        ^2.3        ^0.2         2.2
 2                           Private industries              1.3         1.1        ^2.3        ^0.2         2.2
 3                             Agriculture,                  2.0        ^4.1        ^4.2        ^4.7         1.3
                              forestry, fishing, and
                              hunting
 4                              Farms                        1.2        ^6.7        ^6.2        ^6.5         1.0
 5                              Forestry, fishing,           4.0         3.4         1.4         1.0         2.6
                               and related
                               activities
 6                             Mining                       ^0.3        ^0.5       ^21.2        ^6.0        12.5
 7                              Oil and gas                  5.0         5.3       ^37.2       ^10.3        31.9
                               extraction
 8                              Mining, except oil          ^5.7        ^5.7        ^5.3        ^4.2        ^2.6
                               and gas
 9                              Support activities          11.6        ^2.7        12.4         6.0        ^0.1
                               for mining
10                             Utilities                     4.3         3.8         5.8         3.8         4.5
11                             Construction                  4.1         4.6         2.9         3.4         4.2
12                             Manufacturing                ^0.6        ^1.6       ^15.6        ^6.3         6.1
13                              Durable goods                2.1         1.4         1.2         0.3         1.0
14                               Wood products               0.1        ^0.5         2.2         4.6         0.7
15                               Nonmetallic mineral         0.9         1.1         1.8         1.3         0.9
                                products
16                               Primary metals              0.3         0.2         0.1        ^2.8         0.3
17                               Fabricated metal            7.8         0.8        ^0.2        ^0.9         1.4
                                products
18                               Machinery                   1.6         2.3         1.3        ^1.6         0.3
19                               Computer and               ^2.1         0.2        ^5.3        ^9.8        ^1.0
                                electronic products
20                               Electrical                  0.5         0.8         0.5        ^0.1         0.6
                                equipment,
                                appliances, and
                                components
21                               Motor vehicles,             2.3         1.9         2.1         1.4         2.3
                                bodies and trailers,
                                and parts
22                               Other                       1.5         0.9         1.2         1.2         1.7
                                transportation
                                equipment
23                               Furniture and               2.8         1.8         2.2         2.8         0.7
                                related products
24                               Miscellaneous               1.6         1.4         0.9        ^0.9        ^3.8
                                manufacturing
25                              Nondurable goods            ^1.8        ^3.0       ^23.9       ^10.5         9.8
26                               Food and beverage           1.6         4.0        ^0.9        ^2.4         0.9
                                and tobacco products
27                               Textile mills and           4.7         1.8         0.1         0.5         0.5
                                textile product
                                mills
28                               Apparel and leather         2.7         0.3         1.0         0.9         1.6
                                and allied products
29                               Paper products             ^0.2        ^0.4        ^0.3         0.2        ^0.2
30                               Printing and                0.5         0.7         0.3         0.3         0.9
                                related support
                                activities
31                               Petroleum and coal         ^3.3        ^5.6       ^35.8       ^18.1        18.5
                                products
32                               Chemical products           1.5         2.0         1.6         0.6         2.0
33                               Plastics and rubber         1.0         1.6        ^0.7        ^0.6         0.9
                                products
34                             Wholesale trade               7.1         0.6         1.4         0.9         1.3
35                             Retail trade                  0.2         1.9         2.1         0.9         0.1
36                              Motor vehicle and            2.2         4.0        ^0.8        ^0.8        ^2.4
                               parts dealers
37                              Food and beverage            2.2         3.6         4.9         3.3         1.0
                               stores
38                              General merchandise         ^1.9        ^1.1        ^0.6         1.2         0.9
                               stores
39                              Other retail                 0.2         2.1         2.9         0.9         0.3
40                             Transportation and            0.6         1.7        ^3.3        ^0.2         1.9
                              warehousing
41                              Air transportation           0.3         2.3        ^5.2        ^2.1         2.4
42                              Rail transportation          3.1         1.3        ^1.5        ^0.6         3.0
43                              Water transportation        ^0.3        ^0.7         0.8         7.1        ^0.4
44                              Truck transportation         1.5         1.6        ^1.9        ^0.7         2.3
45                              Transit and ground           2.6         0.1         1.0         2.7         1.4
                               passenger
                               transportation
46                              Pipeline                     4.2         6.4         4.7         2.3         0.8
                               transportation
47                              Other transportation         1.3         1.3         2.0         2.7         2.1
                               and support
                               activities
48                              Warehousing and              1.5         1.6        ^1.9        ^0.8         2.2
                               storage
49                             Information                   1.6         0.8         0.2        ^0.1        ^0.1
50                              Publishing                   2.1         1.3         1.1         1.7         1.5
                               industries, except
                               internet (includes
                               software)
51                              Motion picture and          11.5         4.1        ^1.1        ^4.5         6.5
                               sound recording
                               industries
52                              Broadcasting and             0.6         0.3        ^0.2        ^0.7        ^1.4
                               telecommunications
53                              Data processing,             1.3         0.5        ^0.2        ^0.5         0.4
                               internet publishing,
                               and other information
                               services
54                             Finance, insurance,           2.5         2.9         1.0         1.6         3.3
                              real estate, rental,
                              and leasing
55                              Finance and                  2.0         1.5         1.9         3.8         4.7
                               insurance
56                               Federal Reserve             4.1         1.8         1.4         3.0         2.2
                                banks, credit
                                intermediation, and
                                related activities
57                               Securities,                 0.0         0.0         0.0         0.0         0.0
                                commodity contracts,
                                and investments
58                               Insurance carriers          1.9         1.5         1.9         3.9         4.9
                                and related
                                activities
59                               Funds, trusts, and          0.0         0.0         0.0         0.0         0.0
                                other financial
                                vehicles
60                              Real estate and              2.6         3.4         0.6         0.8         2.7
                               rental and leasing
61                               Real estate                 2.8         3.2         3.6         3.8         3.8
62                                Housing                    2.8         3.2         3.6         3.8         3.8
63                                Other real estate          2.2         3.6         2.0         2.0         2.1
64                               Rental and leasing          2.0         4.0        ^5.6        ^5.6         0.3
                                services and lessors
                                of intangible assets
65                             Professional and              1.5         1.3         2.1         1.8         1.8
                              business services
66                              Professional,                2.4         2.1         2.9         2.7         1.8
                               scientific, and
                               technical services
67                               Legal services              0.0         0.0         0.0         0.0         0.0
68                               Computer systems            7.1         2.7        ^1.6        ^4.7         3.1
                                design and related
                                services
69                               Miscellaneous               2.2         2.0         3.0         3.0         1.7
                                professional,
                                scientific, and
                                technical services
70                              Management of                0.0         0.0         0.0         0.0         0.0
                               companies and
                               enterprises
71                              Administrative and           1.4         1.1         1.9         1.7         1.8
                               waste management
                               services
72                               Administrative and          1.4         1.1         1.9         1.7         1.8
                                support services
73                               Waste management            7.9        ^2.7         0.7         1.1         4.5
                                and remediation
                                services
74                             Educational services,         2.6         2.1         2.4         1.9         2.7
                              health care, and
                              social assistance
75                              Educational services         2.7         2.1         2.5         2.0         2.9
76                              Health care and              1.8         2.2         0.7         0.4         0.9
                               social assistance
77                               Ambulatory health           2.2         2.3        ^0.2        ^0.6         0.1
                                care services
78                               Hospitals                   2.2         2.4         2.0         1.9         2.1
79                               Nursing and                 2.2         2.6         2.8         2.4         2.5
                                residential care
                                facilities
80                               Social assistance          ^5.3        ^1.9         2.4         3.4         3.8
81                             Arts, entertainment,          1.9         2.6         3.0         2.2         1.6
                              recreation,
                              accommodation, and
                              food services
82                              Arts, entertainment,         1.7         2.2         3.8         2.2         1.0
                               and recreation
83                               Performing arts,            2.2         2.6         5.8         3.1         2.1
                                spectator sports,
                                museums, and related
                                activities
84                               Amusements,                 1.5         2.1         3.0         1.9         0.6
                                gambling, and
                                recreation
                                industries
85                              Accommodation and            2.2         2.9         2.3         2.2         2.2
                               food services
86                               Accommodation               2.1         3.3         2.1         2.0         2.0
87                               Food services and           2.3         2.4         2.7         2.3         2.4
                                drinking places
88                             Other services,               3.0         2.2         2.6         2.1         3.6
                              except government
89                           Government                      3.0         1.7        ^0.9        ^0.6         2.6
90                             Federal                       1.3         1.6         0.2         1.3         2.7
91                              General government           1.7         2.4         1.1         1.2         2.6
92                               National defense            0.0         0.3         0.0        ^1.8         0.1
93                               Non-defense                 1.7         2.4         1.1         1.2         2.6
94                              Government                  ^1.5        ^3.5        ^6.1         1.4         3.1
                               enterprises
95                             State and local               3.2         1.7        ^1.1        ^0.9         2.6
96                              General government           3.2         1.8        ^1.3        ^1.0         2.6
97                              Government                   3.2         1.0         2.7         2.5         1.9
                               enterprises
----------------------------------------------------------------------------------------------------------------


                              Table 29. Outdoor Recreation Compensation by Industry
                                          [Millions of current dollars]
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   All Industries          177,963     179,837     186,169     195,635     203,145     213,441
 2                     Private               159,068     160,065     165,953     174,536     181,372     190,851
                      industries
 3                       Agriculture,          2,010       1,956       2,086       2,214       2,244       2,358
                        forestry,
                        fishing, and
                        hunting
 4                        Farms                1,582       1,470       1,627       1,651       1,816       1,896
 5                        Forestry,              428         486         459         563         428         462
                         fishing, and
                         related
                         activities
 6                       Mining                   81          72          61          51          48          69
 7                        Oil and gas              9           9          10          12          11           8
                         extraction
 8                        Mining, except          57          47          36          27          23          48
                         oil and gas
 9                        Support                 15          16          15          12          14          14
                         activities for
                         mining
10                       Utilities                 0           1           0           1           1           1
11                       Construction          3,421       3,317       3,498       3,602       4,018       4,465
12                       Manufacturing        15,109      15,359      15,704      16,123      16,539      17,941
13                        Durable goods        8,680       8,792       8,998       9,358       9,402      10,636
14                         Wood products           1           1           1           1           1           1
15                         Nonmetallic            18          18          18          18          19          18
                          mineral
                          products
16                         Primary                 2           2           2           2           2           2
                          metals
17                         Fabricated            736         826         801         920         926       1,215
                          metal products
18                         Machinery             834         839         805         771         559         797
19                         Computer and          286         267         307         469         339         413
                          electronic
                          products
20                         Electrical            357         323         329         322         291         299
                          equipment,
                          appliances,
                          and components
21                         Motor               1,644       1,700       1,696       1,691       1,839       2,651
                          vehicles,
                          bodies and
                          trailers, and
                          parts
22                         Other               3,004       3,144       3,422       3,450       3,617       3,410
                          transportation
                          equipment
23                         Furniture and          26          29          29          29          27          25
                          related
                          products
24                         Miscellaneous       1,773       1,644       1,588       1,685       1,782       1,806
                          manufacturing
25                        Nondurable           6,429       6,567       6,706       6,765       7,137       7,306
                         goods
26                         Food and            1,908       1,996       2,134       2,182       2,318       2,240
                          beverage and
                          tobacco
                          products
27                         Textile mills         227         208         227         232         249         231
                          and textile
                          product mills
28                         Apparel and         1,853       1,847       1,845       1,797       1,985       2,106
                          leather and
                          allied
                          products
29                         Paper                 125         118         127         120         119          86
                          products
30                         Printing and           63          61          66          69          70          64
                          related
                          support
                          activities
31                         Petroleum and       1,307       1,342       1,283       1,309       1,341       1,500
                          coal products
32                         Chemical              839         887         914         943         934         953
                          products
33                         Plastics and          108         107         109         112         120         125
                          rubber
                          products
34                       Wholesale trade      11,364      11,038      11,610      12,260      11,984      12,168
35                       Retail trade         44,085      45,357      45,731      47,717      48,207      49,804
36                        Motor vehicle        3,504       3,462       3,525       3,896       4,223       4,637
                         and parts
                         dealers
37                        Food and             3,636       3,712       3,800       4,007       4,056       4,148
                         beverage stores
38                        General              9,955      10,428       9,979      10,199      10,158      10,250
                         merchandise
                         stores
39                        Other retail        26,990      27,755      28,426      29,614      29,771      30,769
40                       Transportation       15,496      16,292      16,943      18,680      20,187      21,373
                        and warehousing
41                        Air                  9,731      10,268      10,919      12,403      13,762      14,806
                         transportation
42                        Rail                   308         293         302         336         335         350
                         transportation
43                        Water                1,275       1,467       1,480       1,559       1,600       1,700
                         transportation
44                        Truck                2,014       2,057       2,063       2,113       2,106       2,180
                         transportation
45                        Transit and          1,175       1,132       1,068       1,107       1,153       1,167
                         ground
                         passenger
                         transportation
46                        Pipeline                54          49          48          64          68          69
                         transportation
47                        Other                  926       1,011       1,049       1,082       1,146       1,081
                         transportation
                         and support
                         activities
48                        Warehousing             14          14          14          15          16          20
                         and storage
49                       Information             437         460         482         501         511         540
50                        Publishing             209         209         211         223         214         219
                         industries,
                         except internet
                         (includes
                         software)
51                        Motion picture          15          18          20          22          23          27
                         and sound
                         recording
                         industries
52                        Broadcasting           174         188         203         199         212         216
                         and
                         telecommunicati
                         ons
53                        Data                    40          45          48          57          62          78
                         processing,
                         internet
                         publishing, and
                         other
                         information
                         services
54                       Finance,              3,405       3,311       3,182       3,480       3,571       3,804
                        insurance, real
                        estate, rental,
                        and leasing
55                        Finance and          1,952       1,855       1,820       1,837       1,819       1,945
                         insurance
56                         Federal               141         145         139         164         172         176
                          Reserve banks,
                          credit
                          intermediation
                          , and related
                          activities
57                         Securities,             0           0           0           0           0           0
                          commodity
                          contracts, and
                          investments
58                         Insurance           1,811       1,710       1,681       1,673       1,648       1,769
                          carriers and
                          related
                          activities
59                         Funds,                  0           0           0           0           0           0
                          trusts, and
                          other
                          financial
                          vehicles
60                        Real estate          1,453       1,456       1,363       1,643       1,751       1,859
                         and rental and
                         leasing
61                         Real estate           564         579         459         488         503         525
62                          Housing              562         578         457         487         501         524
63                          Other real             1           1           1           1           1           1
                           estate
64                         Rental and            890         876         904       1,155       1,249       1,334
                          leasing
                          services and
                          lessors of
                          intangible
                          assets
65                       Professional          3,611       3,296       3,488       3,886       4,026       4,719
                        and business
                        services
66                        Professional,          635         557         618         707         776         853
                         scientific, and
                         technical
                         services
67                         Legal                   0           0           0           0           0           0
                          services
68                         Computer               35          30          31          40          38          43
                          systems design
                          and related
                          services
69                         Miscellaneous         600         526         587         667         739         810
                          professional,
                          scientific,
                          and technical
                          services
70                        Management of            0           0           0           0           0           0
                         companies and
                         enterprises
71                        Administrative       2,976       2,740       2,870       3,179       3,250       3,866
                         and waste
                         management
                         services
72                         Administrativ       2,975       2,739       2,870       3,179       3,249       3,866
                          e and support
                          services
73                         Waste                   0           0           0           0           0           0
                          management and
                          remediation
                          services
74                       Educational           2,614       2,663       2,880       2,984       3,119       3,237
                        services, health
                        care, and social
                        assistance
75                        Educational          2,342       2,393       2,599       2,686       2,808       2,914
                         services
76                        Health care            271         270         282         297         312         324
                         and social
                         assistance
77                         Ambulatory            164         170         179         188         199         208
                          health care
                          services
78                         Hospitals              83          76          79          83          86          89
79                         Nursing and            13          11          12          12          12          12
                          residential
                          care
                          facilities
80                         Social                 11          13          13          14          14          14
                          assistance
81                       Arts,                55,125      54,539      57,754      60,333      64,062      67,329
                        entertainment,
                        recreation,
                        accommodation,
                        and food
                        services
82                        Arts,               27,743      28,812      30,819      31,688      34,120      36,203
                         entertainment,
                         and recreation
83                         Performing          7,148       7,555       8,327       8,531       9,350       9,987
                          arts,
                          spectator
                          sports,
                          museums, and
                          related
                          activities
84                         Amusements,        20,595      21,257      22,492      23,156      24,770      26,216
                          gambling, and
                          recreation
                          industries
85                        Accommodation       27,383      25,726      26,935      28,645      29,942      31,125
                         and food
                         services
86                         Accommodation      13,818      14,032      14,605      15,379      15,886      16,321
87                         Food services      13,565      11,694      12,329      13,266      14,056      14,805
                          and drinking
                          places
88                       Other services,       2,309       2,404       2,533       2,705       2,855       3,043
                        except
                        government
89                     Government             18,896      19,772      20,216      21,099      21,773      22,590
90                       Federal               1,992       2,148       2,049       2,038       2,147       2,188
91                        General              1,726       1,864       1,778       1,786       1,904       1,933
                         government
92                         National                0           0           0           0           0           0
                          defense
93                         Non-defense         1,726       1,864       1,778       1,786       1,904       1,933
94                        Government             266         283         270         252         243         255
                         enterprises
95                       State and local      16,904      17,624      18,167      19,061      19,626      20,402
96                        General             15,053      15,448      16,228      16,976      17,549      18,403
                         government
97                        Government           1,851       2,177       1,939       2,086       2,077       1,998
                         enterprises
----------------------------------------------------------------------------------------------------------------


                               Table 30. Outdoor Recreation Employment by Industry
                                   Thousands of full- and part-time employees
                                           Bureau of Economic Analysis
----------------------------------------------------------------------------------------------------------------
                                             2012        2013        2014        2015        2016        2017
----------------------------------------------------------------------------------------------------------------
 1                   All Industries            4,841       4,794       4,879       4,983       5,081       5,171
 2                     Private                 4,557       4,509       4,594       4,694       4,787       4,873
                      industries
 3                       Agriculture,             50          47          50          52          53          55
                        forestry,
                        fishing, and
                        hunting
 4                        Farms                   45          41          44          45          47          48
 5                        Forestry,                5           6           6           7           6           7
                         fishing, and
                         related
                         activities
 6                       Mining                    1           1           1           0           0           1
 7                        Oil and gas              0           0           0           0           0           0
                         extraction
 8                        Mining, except           1           0           0           0           0           0
                         oil and gas
 9                        Support                  0           0           0           0           0           0
                         activities for
                         mining
10                       Utilities                 0           0           0           0           0           0
11                       Construction             88          90          93         101         102         103
12                       Manufacturing           227         231         230         235         244         256
13                        Durable goods          128         134         133         137         144         159
14                         Wood products           0           0           0           0           0           0
15                         Nonmetallic             0           0           0           0           0           0
                          mineral
                          products
16                         Primary                 0           0           0           0           0           0
                          metals
17                         Fabricated              9          10          10          11          11          11
                          metal products
18                         Machinery               9           9           8           8           6           7
19                         Computer and            3           3           4           5           4           4
                          electronic
                          products
20                         Electrical              5           4           4           4           4           4
                          equipment,
                          appliances,
                          and components
21                         Motor                  34          38          38          40          47          58
                          vehicles,
                          bodies and
                          trailers, and
                          parts
22                         Other                  39          41          42          43          46          50
                          transportation
                          equipment
23                         Furniture and           1           1           1           1           1           0
                          related
                          products
24                         Miscellaneous          28          27          26          26          26          25
                          manufacturing
25                        Nondurable              99          97          97          97          99          97
                         goods
26                         Food and               35          35          36          37          39          39
                          beverage and
                          tobacco
                          products
27                         Textile mills           5           5           5           5           5           5
                          and textile
                          product mills
28                         Apparel and            39          37          36          36          36          33
                          leather and
                          allied
                          products
29                         Paper                   2           2           2           1           1           1
                          products
30                         Printing and            1           1           1           1           1           1
                          related
                          support
                          activities
31                         Petroleum and           7           7           6           7           6           6
                          coal products
32                         Chemical                9           9           9           9           9           9
                          products
33                         Plastics and            2           2           2           2           2           2
                          rubber
                          products
34                       Wholesale trade         150         147         148         150         148         148
35                       Retail trade          1,601       1,610       1,612       1,632       1,629       1,627
36                        Motor vehicle           89          91          94          99         102         105
                         and parts
                         dealers
37                        Food and               126         128         131         134         135         135
                         beverage stores
38                        General                396         381         378         380         376         357
                         merchandise
                         stores
39                        Other retail           990       1,010       1,010       1,019       1,016       1,031
40                       Transportation          216         214         217         226         231         238
                        and warehousing
41                        Air                    111         108         111         119         123         130
                         transportation
42                        Rail                     3           3           3           3           3           3
                         transportation
43                        Water                   13          14          14          15          15          15
                         transportation
44                        Truck                   34          34          33          33          33          32
                         transportation
45                        Transit and             29          28          27          27          27          27
                         ground
                         passenger
                         transportation
46                        Pipeline                 1           1           1           1           1           1
                         transportation
47                        Other                   25          26          27          28          29          29
                         transportation
                         and support
                         activities
48                        Warehousing              0           0           0           0           0           0
                         and storage
49                       Information               6           6           6           6           6           6
50                        Publishing               4           4           4           4           3           3
                         industries,
                         except internet
                         (includes
                         software)
51                        Motion picture           1           1           1           1           1           1
                         and sound
                         recording
                         industries
52                        Broadcasting             2           2           2           2           2           2
                         and
                         telecommunicati
                         ons
53                        Data                     0           0           0           0           0           0
                         processing,
                         internet
                         publishing, and
                         other
                         information
                         services
54                       Finance,                 53          53          49          50          51          52
                        insurance, real
                        estate, rental,
                        and leasing
55                        Finance and             18          17          16          16          15          16
                         insurance
56                         Federal                 2           2           2           2           2           2
                          Reserve banks,
                          credit
                          intermediation
                          , and related
                          activities
57                         Securities,             0           0           0           0           0           0
                          commodity
                          contracts, and
                          investments
58                         Insurance              16          15          14          14          13          14
                          carriers and
                          related
                          activities
59                         Funds,                  0           0           0           0           0           0
                          trusts, and
                          other
                          financial
                          vehicles
60                        Real estate             35          36          33          34          35          36
                         and rental and
                         leasing
61                         Real estate            14          14          10          10          10          10
62                          Housing               14          14          10          10          10          10
63                          Other real             0           0           0           0           0           0
                           estate
64                         Rental and             21          22          23          24          25          26
                          leasing
                          services and
                          lessors of
                          intangible
                          assets
65                       Professional             67          68          69          72          77          77
                        and business
                        services
66                        Professional,           16          17          18          19          20          21
                         scientific, and
                         technical
                         services
67                         Legal                   0           0           0           0           0           0
                          services
68                         Computer                0           0           0           0           0           0
                          systems design
                          and related
                          services
69                         Miscellaneous          16          17          18          19          20          21
                          professional,
                          scientific,
                          and technical
                          services
70                        Management of            0           0           0           0           0           0
                         companies and
                         enterprises
71                        Administrative          51          51          51          53          57          56
                         and waste
                         management
                         services
72                         Administrativ          51          51          51          53          57          56
                          e and support
                          services
73                         Waste                   0           0           0           0           0           0
                          management and
                          remediation
                          services
74                       Educational              96         102         108         112         118         123
                        services, health
                        care, and social
                        assistance
75                        Educational             91          98         103         108         113         118
                         services
76                        Health care              4           4           4           5           5           5
                         and social
                         assistance
77                         Ambulatory              2           3           3           3           3           3
                          health care
                          services
78                         Hospitals               1           1           1           1           1           1
79                         Nursing and             0           0           0           0           0           0
                          residential
                          care
                          facilities
80                         Social                  0           0           0           0           0           0
                          assistance
81                       Arts,                 1,941       1,880       1,948       1,994       2,065       2,123
                        entertainment,
                        recreation,
                        accommodation,
                        and food
                        services
82                        Arts,                  870         892         938         953         999       1,036
                         entertainment,
                         and recreation
83                         Performing             73          75          79          80          81          84
                          arts,
                          spectator
                          sports,
                          museums, and
                          related
                          activities
84                         Amusements,           796         816         859         873         918         952
                          gambling, and
                          recreation
                          industries
85                        Accommodation        1,071         988       1,010       1,041       1,066       1,088
                         and food
                         services
86                         Accommodation         425         434         441         453         461         470
87                         Food services         646         554         568         589         604         618
                          and drinking
                          places
88                       Other services,          61          61          64          64          64          64
                        except
                        government
89                     Government                284         285         285         289         294         297
90                       Federal                  24          26          23          23          23          23
91                        General                 24          26          23          23          23          23
                         government
92                         National                0           0           0           0           0           0
                          defense
93                         Non-defense            24          26          23          23          23          23
94                        Government               0           0           0           0           0           0
                         enterprises
95                       State and local         260         259         262         266         271         275
96                        General                236         233         239         242         247         253
                         government
97                        Government              23          26          23          24          24          22
                         enterprises
----------------------------------------------------------------------------------------------------------------

                    state level news release tables

                            Table 1. Outdoor Recreation Value-Added, Employment, and Compensation as a Percent of Total, 2017
                                                              [Millions of current dollars]
                                                               Friday, September 20, 2019
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                   Total Outdoor
                                  Total Outdoor                            Total Outdoor                            Recreation
                                Recreation Value-    Percent of Total       Recreation       Percent of Total      Compensation       Percent of Total
                               Added (Thousands of    Value-Added \1\       Employment        Employment \1\       (Thousands of      Compensation \1\
                                     Dollars)                                                                        Dollars)
--------------------------------------------------------------------------------------------------------------------------------------------------------
             United States           427,189,444                 2.2           5,170,670                 3.4         213,440,905                  2.1
  Alabama....................          4,133,003                 2.0              62,647                 3.0           2,083,927                  1.8
  Alaska.....................          2,187,367                 4.2              22,677                 6.4           1,030,701                  3.8
  Arizona....................          8,654,150                 2.7             108,460                 3.8           4,327,385                  2.4
  Arkansas...................          2,887,050                 2.3              39,299                 3.1           1,390,053                  2.0
  California.................         52,120,252                 1.9             588,680                 3.3          27,383,466                  1.9
  Colorado...................         11,308,942                 3.3             146,178                 5.3           5,963,912                  3.1
  Connecticut................          3,594,652                 1.4              48,390                 2.8           1,923,607                  1.4
  Delaware...................          1,309,865                 1.8              18,485                 4.0             611,026                  1.9
  District of Columbia.......          1,623,489                 1.2              23,651                 3.0             977,279                  1.1
  Florida....................         42,183,230                 4.3             502,939                 5.6          20,690,183                  3.9
  Georgia....................         12,319,942                 2.2             144,203                 3.1           6,274,833                  2.1
  Hawaii.....................          4,794,590                 5.4              57,584                 7.9           2,437,813                  5.1
  Idaho......................          2,328,949                 3.2              33,831                 4.5           1,182,979                  3.0
  Illinois...................         14,725,840                 1.8             165,400                 2.7           7,737,696                  1.7
  Indiana....................          9,658,524                 2.8             108,535                 3.4           4,486,832                  2.4
  Iowa.......................          3,442,812                 1.9              48,185                 3.0           1,634,494                  1.8
  Kansas.....................          2,918,117                 1.8              39,776                 2.7           1,425,887                  1.7
  Kentucky...................          4,135,194                 2.1              53,632                 2.7           1,973,149                  1.8
  Louisiana..................          5,898,325                 2.5              59,460                 2.9           2,588,692                  2.1
  Maine......................          2,957,847                 4.8              40,720                 6.4           1,373,098                  3.8
  Maryland...................          7,058,582                 1.8              92,683                 3.3           3,746,066                  1.7
  Massachusetts..............          9,210,427                 1.7             111,609                 3.0           4,907,443                  1.6
  Michigan...................          9,954,756                 2.0             126,681                 2.8           4,755,614                  1.7
  Minnesota..................          9,638,553                 2.7             101,035                 3.4           4,505,794                  2.2
  Mississippi................          2,629,162                 2.4              33,111                 2.7           1,119,665                  1.9
  Missouri...................          6,761,351                 2.2              91,090                 3.1           3,586,118                  2.0
  Montana....................          2,381,709                 5.1              28,847                 5.9           1,068,201                  4.2
  Nebraska...................          2,273,407                 1.9              29,863                 2.9           1,095,738                  1.8
  Nevada.....................          4,462,542                 2.8              56,940                 4.2           2,239,107                  2.7
  New Hampshire..............          2,710,336                 3.3              37,818                 5.5           1,315,354                  2.9
  New Jersey.................         11,222,802                 1.9             139,017                 3.3           6,070,879                  1.9
  New Mexico.................          2,314,310                 2.5              33,486                 3.9           1,167,986                  2.4
  New York...................         26,299,866                 1.6             293,447                 3.0          14,178,838                  1.7
  North Carolina.............         11,936,052                 2.2             151,589                 3.3           5,758,490                  2.0
  North Dakota...............          1,208,579                 2.3              14,856                 3.3             542,894                  2.0
  Ohio.......................         10,167,019                 1.6             137,073                 2.4           5,348,251                  1.5
  Oklahoma...................          3,836,530                 2.0              47,096                 2.8           1,793,835                  1.8
  Oregon.....................          6,538,383                 2.9              86,529                 4.4           3,583,571                  2.8
  Pennsylvania...............         13,173,567                 1.8             173,588                 2.8           6,826,124                  1.7
  Rhode Island...............          1,391,601                 2.3              21,642                 4.3             748,122                  2.2
  South Carolina.............          6,853,918                 3.1             101,274                 4.7           3,466,434                  2.8
  South Dakota...............          1,341,806                 2.7              18,718                 4.1             615,661                  2.6
  Tennessee..................          7,342,537                 2.1             101,033                 3.3           3,707,056                  2.0
  Texas......................         34,565,594                 2.1             340,798                 2.7          14,285,680                  1.7
  Utah.......................          5,514,051                 3.3              75,143                 4.9           2,844,732                  3.2
  Vermont....................          1,468,493                 4.5              17,301                 5.3             612,583                  3.2
  Virginia...................          9,285,508                 1.8             128,407                 3.1           4,795,163                  1.6
  Washington.................         11,535,055                 2.2             128,991                 3.7           5,850,632                  2.2
  West Virginia..............          1,497,706                 2.0              22,202                 3.1             688,507                  1.8
  Wisconsin..................          7,785,344                 2.4              93,009                 3.1           3,889,401                  2.1
  Wyoming....................          1,647,761                 4.4              23,062                 8.0             829,955                  4.7
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Based on state level data published on bea.gov, GDP estimates were published on May 1, 2019, compensation estimates were published on March 26, 2019
  and employment estimates were published on September 25, 2018.
Source: U.S. Bureau of Economic Analysis.


                                                                               Table 2. Outdoor Recreation Value-Added by State, Selected Activities, 2017
                                                                                                         [Thousands of dollars]
                                                                                                       Friday, September 20, 2019
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                     Conventional                                                                                                                                                      All Other
                 Total Outdoor          Outdoor                                                                      Other Outdoor     Amusement Parks/   Festivals/Sporting      Game Areas          Supporting          Government
                  Recreation          Recreation        Boating/Fishing          RVing          Snow Activities       Recreation          Water Parks       Events/Concerts     (including Golf         Outdoor          Expenditures
                Activities \1\        Activities                                                                      Activities                                                  and Tennis)         Recreation
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
United               427,189,444         130,843,864          20,886,503          16,887,771           5,646,013          82,401,718          11,858,821          14,143,242          18,470,569         191,428,668          22,515,194
 States
  Alabama              4,133,003           1,513,165             287,174             192,640              17,382             705,054              48,474              37,770             228,052           1,687,077             227,708
  Alaska               2,187,367             396,836              99,675              67,133              22,454             251,753              10,309               8,553              33,336           1,426,362             112,417
  Arizona              8,654,150           2,198,635             275,125             410,065              33,605           1,604,016              77,969             393,827             406,973           4,316,331             535,168
  Arkansas             2,887,050           1,169,862             245,991             125,510               4,871             440,253              36,367              40,479             144,598           1,107,668             169,267
  California          52,120,252          14,903,257           1,805,319           1,492,339             652,463          11,103,139           2,463,511           2,017,050           2,261,707          23,183,116           2,930,739
  Colorado            11,308,942           3,779,399             319,683             338,657           1,542,589           1,678,724             107,085             330,373             379,270           5,186,972             663,848
  Connecticu           3,594,652           1,473,762             280,836             100,671              57,557             742,060              53,472              55,665             247,065           1,203,746             175,083
   t
  Delaware             1,309,865             316,284              53,390              32,914               4,421             168,869              20,225              11,448              53,363             775,680              49,032
  District             1,623,489             182,503              29,630              10,124               2,104             266,267               9,138             144,003              22,579             856,311             318,408
   of
   Columbia
  Florida             42,183,230           8,823,495           2,692,393             936,806              38,143           9,938,871           4,652,634           1,158,660           1,826,905          21,881,235           1,539,629
  Georgia             12,319,942           3,565,188             542,342             351,011              20,616           2,178,995             192,305             322,345             566,169           6,081,781             493,978
  Hawaii               4,794,590             567,859             127,848              25,590               5,899             651,644              29,675              20,097             181,338           3,357,456             217,630
  Idaho                2,328,949             891,370             112,086             168,340              53,062             317,197              29,776              13,234              98,608             998,799             121,584
  Illinois            14,725,840           4,059,338             542,627             324,438              38,319           3,296,306             306,325             624,093             680,335           6,424,837             945,360
  Indiana              9,658,524           5,193,968             516,539           2,878,685              44,666           1,727,556              96,387             290,061             268,160           2,430,991             306,008
  Iowa                 3,442,812           1,389,040             139,288             373,661              13,838             722,578              45,760              56,268             164,808           1,159,670             171,523
  Kansas               2,918,117           1,019,262             128,938              90,201              11,752             594,558              33,804              21,233             164,844           1,111,376             192,921
  Kentucky             4,135,194           1,423,568             177,406             133,018               9,109             782,697              55,870              90,043             174,357           1,707,784             221,144
  Louisiana            5,898,325           1,732,372             317,086             232,828              49,347             771,031              61,229             202,510             142,639           2,979,713             415,209
  Maine                2,957,847             905,466             248,946             137,428              75,279             277,110              16,847              22,537              94,552           1,694,895              80,376
  Maryland             7,058,582           1,929,167             444,438             160,930              38,592           1,198,978              98,341             271,629             273,773           3,125,590             804,847
  Massachuse           9,210,427           2,862,275             561,534             166,855             124,803           2,177,186             119,437             477,173             622,702           3,818,889             352,077
   tts
  Michigan             9,954,756           3,271,515             735,330             488,864              73,329           2,074,983              86,816             327,382             523,178           4,159,714             448,544
  Minnesota            9,638,553           3,635,061             631,370             319,703             149,706           1,775,834             119,703             290,706             470,772           3,608,163             619,495
  Mississipp           2,629,162             891,794             114,900             101,986              21,077             377,259              24,866               7,477              95,054           1,163,174             196,936
   i
  Missouri             6,761,351           2,276,350             399,748             253,040              16,152           1,687,485             153,005             447,573             293,834           2,395,916             401,599
  Montana              2,381,709             753,790             134,869             132,604              76,189             387,345              13,115              18,072              98,954           1,117,209             123,365
  Nebraska             2,273,407             889,006              92,293              65,735               9,300             428,485              22,070              23,684             121,723             835,163             120,753
  Nevada               4,462,542           1,109,185             147,494             114,943              40,467             776,603              46,962             143,734             183,061           2,175,122             401,632
  New                  2,710,336           1,020,325             117,569             110,153             151,646             370,199              47,261              23,696             105,782           1,256,029              63,781
   Hampshire
  New Jersey          11,222,802           3,252,606             576,794             263,841              94,839           2,135,241             280,278             403,538             469,982           5,417,809             417,146
  New Mexico           2,314,310             634,520              58,572              89,462              85,949             244,833              23,108              13,573              67,115           1,206,577             228,380
  New York            26,299,866           8,505,481           1,087,834             528,351             173,532           5,329,389             269,502           1,686,377             967,921          10,985,837           1,479,158
  North               11,936,052           3,329,353             601,451             351,652              53,031           2,153,456             155,146             509,620             529,178           5,790,064             663,180
   Carolina
  North                1,208,579             414,008              65,609              58,319               6,244             186,838               7,009               4,440              44,902             480,304             127,429
   Dakota
  Ohio                10,167,019           3,509,001             495,138             599,483              66,173           2,533,501             304,237             527,545             589,166           3,481,007             643,510
  Oklahoma             3,836,530           1,259,053             182,524             235,995              12,636             618,359              48,862             105,046             133,048           1,726,174             232,944
  Oregon               6,538,383           2,472,405             298,462             457,202             129,346             887,025              61,760              98,147             215,549           2,797,936             381,017
  Pennsylvan          13,173,567           4,300,774             474,598             479,694             230,038           2,993,272             274,095             645,234             716,878           5,339,144             540,377
   ia
  Rhode                1,391,601             365,212             160,492              21,992               5,296             208,147              12,471              16,883              65,659             760,084              58,159
   Island
  South                6,853,918           2,162,875             434,601             384,926               6,649           1,014,010              86,955              61,192             364,333           3,352,219             324,815
   Carolina
  South                1,341,806             457,237              50,800              66,977              12,447             189,748              12,355               9,394              52,305             558,877             135,944
   Dakota
  Tennessee            7,342,537           2,473,242             596,524             298,012              43,827           1,440,669             145,710             323,178             294,560           3,038,362             390,262
  Texas               34,565,594          11,188,472           1,587,775           1,484,522             237,143           5,949,940             643,170             846,453           1,440,466          16,320,292           1,106,890
  Utah                 5,514,051           1,842,019             192,153             218,329             549,150             871,266              80,599             128,646             250,906           2,398,643             402,122
  Vermont              1,468,493             475,685              37,934              42,752             175,855             151,325               4,974               8,404              61,472             804,911              36,572
  Virginia             9,285,508           2,394,061             402,411             222,064              23,571           1,524,070             177,989             195,534             398,927           4,661,578             705,799
  Washington          11,535,055           3,455,420             662,066             372,139             220,871           2,626,855              85,754             377,657             422,593           4,858,624             594,157
  West                 1,497,706             451,005              64,201              42,200              24,564             189,716              18,965               7,728              47,311             721,408             135,577
   Virginia
  Wisconsin            7,785,344           3,422,687             495,037             272,915              76,388           1,546,930              82,615             280,390             368,694           2,477,944             337,782
  Wyoming              1,647,761             335,653              39,657              60,069              19,726             134,096               4,533               2,889              41,110           1,024,101             153,910
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Total outdoor recreation activit[i]es includes core activities, supporting activities, and activities with secondary production that are designated as outdoor recreation.
Source: U.S. Bureau of Economic Analysis.


                                                                                                   Table 3. Outdoor Recreation Value-Added by State, Selected Industries, 2017
                                                                                                                             [Thousands of dollars]
                                                                                                                           Friday, September 20, 2019
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                       Finance, insurance,
                                                      Total Outdoor          Private industries         Manufacturing             Retail trade         real estate, rental,     Arts, entertainment,    Accomodations and food     All other private            Government
                                                  Recreation Industries                                                                                    and leasing             and recreation              service                 industries
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
United States                                                427,189,444              401,263,550               51,667,166               95,660,596               24,599,990               52,879,893               59,990,341              116,465,567               25,925,894
  Alabama                                                      4,133,003                3,868,776                  411,126                1,310,458                  224,647                  315,368                  745,847                  861,331                  264,227
  Alaska                                                       2,187,367                1,902,875                  133,404                  387,089                  135,789                  138,851                  414,822                  692,920                  284,492
  Arizona                                                      8,654,150                8,066,337                  360,525                2,116,316                  709,129                1,024,244                1,715,235                2,140,887                  587,813
  Arkansas                                                     2,887,050                2,697,898                  559,630                  787,842                  137,102                  207,343                  377,154                  628,826                  189,152
  California                                                  52,120,252               48,774,747                5,773,527               10,838,594                2,675,553                7,461,103                6,634,132               15,391,837                3,345,505
  Colorado                                                    11,308,942               10,541,979                  449,206                2,241,274                  878,328                1,788,763                2,150,763                3,033,643                  766,963
  Connecticut                                                  3,594,652                3,390,193                  451,906                  982,530                  205,969                  478,414                  402,647                  868,727                  204,459
  Delaware                                                     1,309,865                1,253,257                  112,658                  430,046                  134,604                   95,887                  316,596                  163,466                   56,607
  District of Columbia                                         1,623,489                1,274,056                    5,714                  232,081                   44,616                  183,978                  576,839                  230,828                  349,433
  Florida                                                     42,183,230               40,458,633                1,147,658                7,640,811                3,337,140                8,604,150                9,358,083               10,370,790                1,724,597
  Georgia                                                     12,319,942               11,752,952                1,234,272                2,456,209                  489,236                1,298,055                1,340,313                4,934,867                  566,990
  Hawaii                                                       4,794,590                4,547,173                  107,705                  665,996                  238,976                  317,556                1,278,773                1,938,168                  247,416
  Idaho                                                        2,328,949                2,191,639                  295,780                  695,638                  139,219                  206,892                  325,647                  528,461                  137,311
  Illinois                                                    14,725,840               13,660,892                1,894,583                2,840,819                  667,136                1,708,275                1,199,480                5,350,598                1,064,949
  Indiana                                                      9,658,524                9,314,465                4,738,520                1,739,953                  219,873                  705,935                  494,850                1,415,334                  344,058
  Iowa                                                         3,442,812                3,244,711                  744,066                  896,247                   96,639                  301,964                  294,473                  911,324                  198,101
  Kansas                                                       2,918,117                2,697,547                  684,153                  684,044                   86,645                  211,491                  322,902                  708,312                  220,570
  Kentucky                                                     4,135,194                3,880,834                  712,851                1,102,575                  156,872                  354,668                  473,982                1,079,887                  254,359
  Louisiana                                                    5,898,325                5,424,409                1,553,033                1,237,542                  237,811                  459,348                  547,295                1,389,382                  473,916
  Maine                                                        2,957,847                2,867,990                  328,022                  610,533                  401,661                  228,192                  986,874                  312,709                   89,857
  Maryland                                                     7,058,582                6,155,998                  279,759                1,743,814                  385,701                  813,696                1,193,063                1,739,966                  902,584
  Massachusetts                                                9,210,427                8,803,667                  982,280                1,940,554                  643,326                1,363,963                1,291,584                2,581,961                  406,760
  Michigan                                                     9,954,756                9,435,579                1,142,187                2,548,301                  892,593                1,085,448                1,170,175                2,596,875                  519,177
  Minnesota                                                    9,638,553                8,949,024                1,843,732                1,956,471                  553,258                  885,278                  656,192                3,054,092                  689,529
  Mississippi                                                  2,629,162                2,409,268                  647,087                  739,081                  123,513                  119,458                  319,220                  460,910                  219,894
  Missouri                                                     6,761,351                6,311,424                1,176,775                1,547,960                  354,856                  968,809                  716,288                1,546,737                  449,927
  Montana                                                      2,381,709                2,245,956                  194,459                  518,297                  140,878                  337,060                  509,882                  545,381                  135,754
  Nebraska                                                     2,273,407                2,135,018                  416,639                  546,354                   70,117                  181,077                  255,271                  665,560                  138,389
  Nevada                                                       4,462,542                4,020,274                   93,084                1,079,368                  218,216                  536,725                  682,962                1,409,919                  442,268
  New Hampshire                                                2,710,336                2,629,758                  317,346                  757,303                  294,166                  294,782                  602,650                  363,511                   80,577
  New Jersey                                                  11,222,802               10,744,273                  901,545                2,736,368                  903,195                1,460,630                1,347,769                3,394,764                  478,529
  New Mexico                                                   2,314,310                2,054,069                  122,001                  617,224                  185,928                  176,106                  595,921                  356,891                  260,241
  New York                                                    26,299,866               24,434,332                1,687,444                5,635,691                1,745,373                3,616,572                3,091,380                8,657,873                1,865,533
  North Carolina                                              11,936,052               11,181,670                1,513,993                2,798,488                  622,800                1,391,631                1,895,312                2,959,448                  754,382
  North Dakota                                                 1,208,579                1,064,864                   74,471                  378,362                   50,506                   79,538                  119,321                  362,666                  143,716
  Ohio                                                        10,167,019                9,432,595                1,620,087                2,667,856                  397,680                1,518,966                  694,283                2,533,724                  734,424
  Oklahoma                                                     3,836,530                3,568,921                  462,148                  998,936                  197,984                  384,577                  360,539                1,164,737                  267,609
  Oregon                                                       6,538,383                6,109,216                  561,501                1,568,294                  293,692                  561,962                1,217,677                1,906,089                  429,168
  Pennsylvania                                                13,173,567               12,534,629                1,679,625                3,073,179                  865,696                1,978,941                1,239,418                3,697,772                  638,938
  Rhode Island                                                 1,391,601                1,324,679                   91,310                  308,017                   76,209                  163,119                  420,202                  265,823                   66,922
  South Carolina                                               6,853,918                6,487,440                  855,561                1,702,804                  371,669                  560,882                2,061,767                  934,756                  366,478
  South Dakota                                                 1,341,806                1,193,064                   86,596                  360,369                   50,733                   93,594                  284,198                  317,575                  148,741
  Tennessee                                                    7,342,537                6,912,889                1,031,143                1,832,094                  322,063                  892,723                1,287,678                1,547,189                  429,648
  Texas                                                       34,565,594               33,278,498                7,283,778                8,488,429                1,308,366                3,385,750                2,230,830               10,581,345                1,287,097
  Utah                                                         5,514,051                5,065,651                  441,331                1,353,907                  402,922                  670,673                  849,359                1,347,458                  448,400
  Vermont                                                      1,468,493                1,422,689                  148,923                  294,569                  231,625                  150,214                  413,979                  183,382                   45,803
  Virginia                                                     9,285,508                8,470,711                  594,651                2,341,920                  428,290                  961,205                1,548,477                2,596,170                  814,797
  Washington                                                  11,535,055               10,846,978                1,547,813                2,781,151                  506,584                1,059,994                1,344,415                3,607,022                  688,077
  West Virginia                                                1,497,706                1,346,611                   99,649                  463,473                  110,069                  122,593                  251,044                  299,782                  151,095
  Wisconsin                                                    7,785,344                7,402,179                1,966,479                1,636,411                  584,357                  880,771                  742,139                1,592,021                  383,165
  Wyoming                                                      1,647,761                1,480,264                  105,430                  348,956                   50,680                   92,677                  640,641                  241,878                  167,497
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
The estimates are based on the 2012 North American Industry Classification System (NAICS).
Source: U.S. Bureau of Economic Analysis


                                                                                                   Table 4. Outdoor Recreation Employment by State, Selected Industries, 2017
                                                                                                                           Friday, September 20, 2019
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                       Finance, insurance,
                                                      Total Outdoor          Private industries         Manufacturing             Retail trade         real estate, rental,     Arts, entertainment,    Accomodations and food     All other private            Government
                                                  Recreation Industries                                                                                    and leasing             and recreation              service                 industries
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
United States                                                  5,170,670                4,873,294                  255,664                1,627,246                   51,860                1,035,899                1,087,555                  815,069                  297,376
  Alabama                                                         62,647                   58,757                    4,167                   24,498                      536                    8,835                   13,330                    7,391                    3,890
  Alaska                                                          22,677                   20,802                      202                    6,161                      179                    3,081                    6,645                    4,533                    1,875
  Arizona                                                        108,460                  102,631                    2,255                   33,386                    1,437                   19,829                   30,358                   15,366                    5,829
  Arkansas                                                        39,299                   36,950                    4,568                   13,633                      270                    6,337                    7,141                    5,002                    2,349
  California                                                     588,680                  554,550                   27,339                  169,229                    5,490                  123,559                  116,571                  112,362                   34,130
  Colorado                                                       146,178                  136,013                    2,645                   38,330                    2,738                   35,010                   37,188                   20,099                   10,165
  Connecticut                                                     48,390                   46,228                    1,496                   16,698                      579                   12,025                    7,968                    7,461                    2,162
  Delaware                                                        18,485                   17,944                      335                    7,719                      161                    2,314                    5,995                      (D)                      541
  District of Columbia                                            23,651                   21,312                      (D)                    3,907                       80                    1,584                   12,889                    2,097                    2,339
  Florida                                                        502,939                  488,810                   11,068                  124,273                    4,608                  128,529                  153,556                   66,776                   14,129
  Georgia                                                        144,203                  135,841                    8,637                   47,227                    1,280                   25,814                   25,229                   27,653                    8,362
  Hawaii                                                          57,584                   54,626                      484                   11,405                      472                    6,883                   22,012                   13,370                    2,958
  Idaho                                                           33,831                   32,073                    2,053                   12,066                      363                    7,071                    6,258                    4,262                    1,758
  Illinois                                                       165,400                  147,208                    7,662                   51,859                    1,780                   30,073                   24,094                   31,740                   18,192
  Indiana                                                        108,535                  104,160                   35,577                   30,163                      766                   16,089                   10,117                   11,448                    4,375
  Iowa                                                            48,185                   45,727                    7,720                   16,970                      371                    8,950                    5,544                    6,172                    2,458
  Kansas                                                          39,776                   36,383                    3,131                   14,636                      256                    6,805                    6,314                    5,240                    3,392
  Kentucky                                                        53,632                   50,641                    2,939                   20,130                      499                   10,287                    8,769                    8,017                    2,991
  Louisiana                                                       59,460                   55,079                    2,606                   21,441                      512                    8,930                   10,134                   11,456                    4,380
  Maine                                                           40,720                   39,498                    2,441                   10,512                      597                    7,429                   15,563                    2,956                    1,222
  Maryland                                                        92,683                   86,187                    1,549                   31,266                      875                   16,944                   22,522                   13,031                    6,496
  Massachusetts                                                  111,609                  108,041                    4,867                   32,757                    1,396                   25,303                   24,730                   18,989                    3,568
  Michigan                                                       126,681                  121,266                    5,660                   46,162                    1,527                   27,247                   21,514                   19,156                    5,415
  Minnesota                                                      101,035                   92,390                    7,943                   33,052                    1,206                   20,062                   12,302                   17,825                    8,645
  Mississippi                                                     33,111                   30,956                    2,559                   14,547                      231                    3,998                    6,150                    3,473                    2,154
  Missouri                                                        91,090                   84,360                    6,548                   31,331                      842                   18,369                   14,432                   12,839                    6,730
  Montana                                                         28,847                   27,589                      711                    8,387                      285                    6,406                    8,132                    3,668                    1,258
  Nebraska                                                        29,863                   27,996                    2,229                    9,785                      259                    5,876                    4,633                    5,213                    1,868
  Nevada                                                          56,940                   53,012                      615                   18,153                      495                    9,793                   14,425                    9,532                    3,927
  New Hampshire                                                   37,818                   36,902                    1,150                   13,022                      608                    7,952                   10,457                    3,712                      916
  New Jersey                                                     139,017                  131,008                    4,516                   47,518                    1,551                   27,370                   25,960                   24,092                    8,009
  New Mexico                                                      33,486                   30,883                      385                   10,933                      380                    5,423                   10,231                    3,531                    2,603
  New York                                                       293,447                  274,043                    9,046                   88,847                    2,939                   56,551                   57,011                   59,649                   19,404
  North Carolina                                                 151,589                  143,515                    7,472                   49,948                    1,226                   30,102                   33,952                   20,816                    8,074
  North Dakota                                                    14,856                   12,805                      230                    5,566                      104                    2,204                    2,378                    2,321                    2,051
  Ohio                                                           137,073                  125,846                    7,083                   49,016                    1,579                   33,818                   14,416                   19,932                   11,227
  Oklahoma                                                        47,096                   44,274                    2,275                   18,058                      479                    8,933                    6,819                    7,707                    2,821
  Oregon                                                          86,529                   81,082                    5,126                   25,744                      697                   13,440                   22,121                   13,954                    5,447
  Pennsylvania                                                   173,588                  164,944                    8,022                   56,906                    2,227                   45,789                   24,452                   27,549                    8,645
  Rhode Island                                                    21,642                   21,238                      785                    5,327                      180                    4,345                    8,126                    2,179                      404
  South Carolina                                                 101,274                   96,368                    5,726                   29,885                      697                   15,048                   36,663                    8,351                    4,906
  South Dakota                                                    18,718                   16,873                      510                    6,242                      103                    2,893                    4,810                    2,314                    1,845
  Tennessee                                                      101,033                   95,875                    6,233                   34,829                      876                   18,118                   23,524                   12,293                    5,158
  Texas                                                          340,798                  324,713                   14,184                  132,757                    3,352                   68,160                   44,093                   62,167                   16,085
  Utah                                                            75,143                   68,826                    3,833                   23,228                      980                   15,010                   14,921                   10,856                    6,317
  Vermont                                                         17,301                   16,918                      581                    5,589                      232                    2,154                    6,649                    1,713                      383
  Virginia                                                       128,407                  118,037                    2,437                   42,158                    1,042                   24,119                   30,251                   18,030                   10,370
  Washington                                                     128,991                  121,379                    7,209                   37,077                    1,097                   23,622                   26,729                   25,644                    7,611
  West Virginia                                                   22,202                   20,391                      274                    9,213                      185                    3,454                    4,944                    2,322                    1,812
  Wisconsin                                                       93,009                   89,052                    8,378                   29,528                    1,148                   21,389                   14,157                   14,451                    3,957
  Wyoming                                                         23,062                   21,291                      (D)                    6,172                       90                    2,572                   10,375                      (D)                    1,772
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
(D) Data are suppressed to avoid disclosure of confidential information.
The estimates are based on the 2012 North American Industry Classification System (NAICS).
Source: U.S. Bureau of Economic Analysis.


                                                                                                  Table 5. Outdoor Recreation Compensation by State, Selected Industries, 2017
                                                                                                                             [Thousands of dollars]
                                                                                                                           Friday, September 20, 2019
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                       Finance, insurance,
                                                      Total Outdoor          Private industries         Manufacturing             Retail trade         real estate, rental,     Arts, entertainment,    Accomodations and food     All other private            Government
                                                  Recreation Industries                                                                                    and leasing             and recreation              service                 industries
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
United States                                                213,440,905              190,850,673               17,941,414               49,803,996                3,804,191               36,203,459               31,125,464               51,972,151               22,590,232
  Alabama                                                      2,083,927                1,836,504                  167,396                  656,008                   35,002                  206,113                  383,589                  388,396                  247,424
  Alaska                                                       1,030,701                  855,609                   13,367                  202,798                   10,053                  100,387                  202,056                  326,951                  175,091
  Arizona                                                      4,327,385                3,911,667                  171,258                1,033,321                   87,207                  748,683                  881,278                  989,922                  415,717
  Arkansas                                                     1,390,053                1,234,191                  228,658                  380,557                   15,676                  155,889                  196,088                  257,324                  155,862
  California                                                  27,383,466               24,223,717                2,139,669                5,804,727                  429,890                5,275,931                3,432,888                7,140,612                3,159,749
  Colorado                                                     5,963,912                5,294,002                  186,924                1,200,145                  210,520                1,269,076                1,098,658                1,328,679                  669,910
  Connecticut                                                  1,923,607                1,756,921                  163,870                  523,014                   68,330                  339,726                  213,537                  448,444                  166,686
  Delaware                                                       611,026                  570,365                   25,609                  222,975                   10,668                   62,596                  169,369                   76,035                   40,661
  District of Columbia                                           977,279                  751,938                      (D)                  128,943                    6,099                  137,529                  338,136                      (D)                  225,341
  Florida                                                     20,690,183               19,566,765                  529,000                3,982,411                  298,301                5,411,340                4,720,704                4,625,008                1,123,418
  Georgia                                                      6,274,833                5,687,701                  541,765                1,392,935                   92,768                  849,054                  708,207                2,102,973                  587,132
  Hawaii                                                       2,437,813                2,237,381                   27,906                  351,466                   26,970                  217,816                  668,783                  944,442                  200,432
  Idaho                                                        1,182,979                1,071,911                  123,291                  379,802                   19,116                  161,860                  172,278                  215,563                  111,069
  Illinois                                                     7,737,696                6,571,896                  731,439                1,547,051                  178,949                1,197,759                  653,786                2,262,912                1,165,800
  Indiana                                                      4,486,832                4,236,457                1,955,843                  853,596                   52,943                  475,626                  262,233                  636,216                  250,375
  Iowa                                                         1,634,494                1,474,390                  342,683                  459,026                   26,988                  193,816                  152,537                  299,340                  160,103
  Kansas                                                       1,425,887                1,238,015                  215,912                  410,667                   19,322                  149,186                  173,319                  269,609                  187,872
  Kentucky                                                     1,973,149                1,771,477                  207,078                  528,650                   38,676                  301,065                  244,352                  451,655                  201,673
  Louisiana                                                    2,588,692                2,263,917                  294,475                  613,824                   34,860                  322,617                  285,247                  712,896                  324,775
  Maine                                                        1,373,098                1,293,114                  157,644                  313,821                   34,284                  182,207                  478,538                  126,619                   79,984
  Maryland                                                     3,746,066                3,167,505                  118,826                  935,491                   69,292                  601,959                  633,175                  808,763                  578,561
  Massachusetts                                                4,907,443                4,546,628                  487,878                1,056,129                  111,983                  958,112                  693,052                1,239,475                  360,815
  Michigan                                                     4,755,614                4,419,974                  412,051                1,363,076                  100,435                  827,337                  600,975                1,116,101                  335,640
  Minnesota                                                    4,505,794                3,945,849                  646,592                  969,545                  103,269                  643,558                  333,420                1,249,465                  559,945
  Mississippi                                                  1,119,665                  984,995                  162,806                  376,121                   12,568                   88,970                  167,905                  176,625                  134,670
  Missouri                                                     3,586,118                3,203,870                  462,395                  891,515                   57,478                  700,363                  380,455                  711,664                  382,248
  Montana                                                      1,068,201                  978,075                   55,391                  256,506                   13,520                  198,144                  250,047                  204,467                   90,125
  Nebraska                                                     1,095,738                  985,653                  168,047                  288,977                   20,613                  127,509                  132,343                  248,163                  110,085
  Nevada                                                       2,239,107                1,961,778                   37,992                  556,264                   29,493                  294,709                  385,311                  658,010                  277,329
  New Hampshire                                                1,315,354                1,255,150                  120,739                  399,670                   38,796                  198,070                  299,392                  198,483                   60,205
  New Jersey                                                   6,070,879                5,380,208                  361,543                1,523,860                  139,805                1,032,284                  722,952                1,599,764                  690,671
  New Mexico                                                   1,167,986                  966,658                   27,915                  325,587                   22,621                  126,951                  303,237                  160,347                  201,328
  New York                                                    14,178,838               12,108,598                  702,857                3,093,606                  244,301                2,314,439                1,618,258                4,135,136                2,070,240
  North Carolina                                               5,758,490                5,212,748                  434,113                1,411,882                   82,776                1,034,961                  979,248                1,269,768                  545,743
  North Dakota                                                   542,894                  449,310                   19,467                  174,464                    6,340                   54,058                   64,121                  130,861                   93,585
  Ohio                                                         5,348,251                4,529,076                  484,790                1,365,860                  130,263                1,070,871                  365,465                1,111,828                  819,174
  Oklahoma                                                     1,793,835                1,594,219                  129,849                  526,156                   33,557                  272,265                  188,872                  443,519                  199,616
  Oregon                                                       3,583,571                3,180,745                  274,546                  860,625                   44,450                  374,616                  633,061                  993,446                  402,826
  Pennsylvania                                                 6,826,124                6,021,655                  617,055                1,553,903                  164,706                1,415,369                  643,184                1,627,438                  804,469
  Rhode Island                                                   748,122                  710,837                   39,611                  171,309                   13,368                  121,237                  228,240                  124,185                   37,284
  South Carolina                                               3,466,434                3,154,607                  384,565                  869,506                   41,835                  358,725                1,073,339                  426,636                  311,827
  South Dakota                                                   615,661                  520,305                   35,646                  176,065                    5,796                   59,883                  138,167                  104,746                   95,356
  Tennessee                                                    3,707,056                3,375,504                  374,536                  988,271                   57,641                  589,153                  662,672                  703,232                  331,551
  Texas                                                       14,285,680               13,073,825                1,267,875                3,940,372                  248,482                2,286,128                1,161,087                4,169,882                1,211,855
  Utah                                                         2,844,732                2,539,561                  229,323                  726,438                   67,217                  448,569                  438,367                  629,647                  305,171
  Vermont                                                        612,583                  580,133                   44,766                  175,469                   13,435                   56,407                  205,948                   84,109                   32,449
  Virginia                                                     4,795,163                4,106,889                  146,074                1,202,353                   70,598                  694,592                  831,889                1,161,383                  688,274
  Washington                                                   5,850,632                5,153,886                  537,080                1,375,660                   73,490                  711,594                  727,135                1,728,927                  696,746
  West Virginia                                                  688,507                  600,895                   19,219                  242,725                    9,992                   81,427                  134,336                  113,192                   87,612
  Wisconsin                                                    3,889,401                3,591,160                  886,836                  830,992                   74,788                  634,183                  376,684                  787,679                  298,240
  Wyoming                                                        829,955                  702,435                      (D)                  189,858                    4,664                   68,739                  317,546                      (D)                  127,520
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
(D) Data are suppressed to avoid disclosure of confidential information.
The estimates are based on the 2012 North American Industry Classification System (NAICS).
Source: U.S. Bureau of Economic Analysis

                                 ______
                                 
Submitted Article by Hon. Chellie Pingree, a Representative in Congress 
                               from Maine
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Unsung champs of carbon capture, small Maine woodlots can have big 
        impact
https://www.pressherald.com/2019/09/17/unsung-champs-of-carbon-capture-
small-maine-woodlots-can-have-big-impact/
Posted September 17
Updated September 17

          Fires in the Amazon this summer have increased global 
        awareness of the role of rainforests in tempering climate 
        change. Less appreciated is the carbon storage capacity of 
        forests like Maine's.

By Tux Turkel (https://www.pressherald.com/author/tux-turkel), Staff 
Writer

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Denny Gallaudet has been harvesting his woodlot in Cumberland 
        for 40 years, mostly for firewood to heat his home, but has 
        changed his management techniques to reduce carbon loss from 
        the carbon-rich soil and carbon-banking trees. Derek Davis/
        Staff Photographer.

          This story is part of Covering Climate Now, a global 
        collaboration of more than 220 news outlets to strengthen 
        coverage of the climate story.

    Cumberland--The big, old pine isn't good for much, at least not 
financially. A legacy tree from 75 years ago when the rolling woodlands 
in this Portland suburb were hayfields, it's a landmark on Denny 
Gallaudet's 25 acre woodlot, its spindly, branch-studded trunk reaching 
like fingers toward the sky.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    A logging contractor might suggest felling it for softwood chips. 
But to Gallaudet, the misshapen pine has a higher value. By his 
calculations, it's storing roughly 6 metric tons of carbon as it grows, 
keeping heat-trapping carbon dioxide out of Earth's warming atmosphere.
    Fires in the Amazon this summer have increased awareness of the 
role of rain forests in blunting climate change. Less appreciated is 
the carbon storage capacity of northern temperate forests, like the one 
covering most of Maine.
    Now Gallaudet, who's leading a team at Sierra Club Maine, is trying 
to figure out how the state's small woodlot owners can be encouraged to 
manage their land not only for income, wildlife and recreation, but to 
maximize carbon sequestration. Together, these local forests have the 
potential to become a world-class carbon sink, Gallaudet and other 
activists say.
    America's northern forest covers roughly 176 million acres and its 
growth has been increasing, according to the most recent USDA survey, 
in part because of reduced timber harvesting for the region's 
contracted paper industry. By some measures, today's forest is soaking 
up 1 to 2 tons of carbon per acre every year.
    As the state with the highest percentage of forest land in the 
nation, Maine is a critical vault in this carbon bank, removing and 
storing 1.4 pounds of carbon (https://www.mdf.org/wp-content/uploads/
2019/04/MOG-FullReport2019-FNL.pdf) for every pound emitted by burning 
fossil fuels. Put another way, 5.5 acres of forest (https://
www.epa.gov/energy/greenhouse-gas-equivalencies-calculator) can capture 
the annual emissions from one passenger car, according to the 
Environmental Protection Agency.
    But Gallaudet believes the small landowners who control 40 percent 
of Maine's 17.6 million acres are in a unique position to do more. 
Collectively, they could substantially offset the CO<INF>2</INF> 
emitted each year in Maine from cars, factories and energy production.
Transformational Tactics
    To get there, many small owners would need to change the way they 
manage their land and embrace the practices of low-impact forestry.
    They'll have to leave more big, carbon-banking trees standing, like 
Gallaudet's old pine, as well as more dead trees. After a harvest, 
they'll need to leave more limbs and branches on the forest floor. Both 
will emit carbon, of course, but slowly, as they decay over time.
    Landowners also will need to employ logging methods that have less 
impact on the soil, where a surprising 50 percent carbon is stored. And 
in some instances, for some trees, they just shouldn't do any cutting.
    In the long run, this transformation will require changes in 
government policies and perhaps modifications to the nascent markets 
that offer financial rewards for storing carbon, so small owners can 
see value from carbon storage, just as they do from pulp, chips or saw 
logs.
    Right now, those financial incentives are largely absent for small 
woodlots, which in Maine tend to be less than 500 acres.
    ``We've struggled to find a way for small owners to participate in 
the carbon market,'' said Tom Doak, executive director of Maine 
Woodland Owners, whose members own a total of 500,000 acres. ``We've 
looked at this for years and so far can't make the numbers work.''
    But simply increasing awareness of how forests store carbon, Doak 
said, can lead owners to make changes.
    ``There is an educational role,'' he said.
Earning Credit for Carbon
    One example is an upcoming presentation (http://www.mofga.org/The-
Fair/Schedule) on carbon-capture forestry techniques, Sept. 21 at the 
Common Ground Fair. It will be led by Peter Hagerty, who serves on a 
low-impact forestry committee with the Maine Organic Farmers and 
Gardeners Association and logs 100 acres of woodland with draft horses. 
Hagerty said one challenge in making the transition will be for 
landowners and policy makers to agree on the science behind carbon-
friendly harvesting techniques and not see it as a threat to jobs and 
traditional logging.
    ``I'm hopeful that the forest industry in Maine can adapt,'' he 
said.
Carbon Cycle

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Minnesota Board of Soil and Water Resources, Staff 
        Graphic D Michael Fisher.

    Managing woodlands for carbon capture isn't an entirely new idea. 
Some leading environmental groups with a presence in Maine, as well as 
the Passamaquoddy Tribe, have been pioneers in what's known as the 
carbon offsets markets.
    Based largely in California, these markets (https://
californiacarbon.info/) require a landowner to maintain a certified 
level of carbon storage, typically for 100 years. In exchange, they get 
a given price-per-ton, which recently stood around $15. That's 
comparable to what they might get paid for stumpage, or timber sales. 
The credits are sold under what's called a cap-and-trade arrangement 
with utilities or petroleum companies, which buy them to offset their 
emissions and meet state mandates.
    In 2012, the Downeast Lakes Land Trust (https://downeastlakes.org/
the-finite-carbon-lyme-grand-lake-stream-improved-forest-management-
project/) completed the nation's first carbon credit sale. It finished 
a second project in 2016, earning millions of dollars to buy additional 
land for its conservation objectives around Grand Lake Stream. Similar 
sales have been done by the Appalachian Mountain Club and The Nature 
Conservancy. These projects total more than 200,000 acres.
    Maine's large, commercial timberland owners so far haven't embraced 
this model. In 2017, the Keeping Maine's Forest collaborative group 
surveyed several land managers and found that while they had explored 
the California market, they are holding off for now.
    The group's report (https://crsf.umaine.edu/wp-content/uploads/
sites/214/2017/03/Carbon-Markets-in-Maine.pdf) found: ``While the up-
front payout from carbon credits can be substantial and a good way to 
diversify income from forest land, the land managers found the costs, 
risks, and the 100 year commitment required by carbon projects not 
worthwhile at current credit prices.''
    These cost and time commitments present major hurdles for small 
owners. Gallaudet, a former bank President, estimated it would cost him 
$15,000 to have his woodlot's carbon storage certified to meet 
California standards, or even the less-valuable Regional Greenhouse Gas 
Initiative standards in the Northeast.
    ``To my knowledge,'' Gallaudet said, ``there are no lead certifiers 
in Maine either for California or RGGI. If small Maine landowners chose 
to forgo timber sales in favor of banking carbon, they currently have 
no way of monetizing the value they are creating in the form of 
sequestered metric tons of CO<INF>2</INF>.''
Careful Stewardship 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Denny Gallaudet uses low-impact forestry techniques to 
        preserve as much of his woodlot's carbon storage as he can. He 
        estimates his 25 acre lot has 39 tons of carbon per acre stored 
        in its trees. Derek Davis/Staff Photographer.

    Gallaudet changed his management practices voluntarily; he thinks 
it's the right thing to do. He worked with a forestry consultant, who 
helped with the details. On a recent tour of his woodlot, Gallaudet 
highlighted some of the techniques he's using.
    Gallaudet's old farm includes a mixed stand of softwoods such as 
pine and hemlock, and hardwoods including, oak, maple and birch. The 
land is hilly and bisected by a small brook.
    Protecting the soil is a top priority. Gallaudet cuts four cords of 
firewood each year to help heat his home, and occasional saw logs, if a 
stand gets crowded. He uses a small Massey Ferguson tractor with rubber 
tires that don't chew up the forest floor. He works when it's dry in 
the fall. Shallow ruts are barely visible below the leaf litter, along 
an opening where he pulled out logs using a skidding winch mounted on 
the rear.
    Entering the woodlot, dappled sunlight lit the forest. Overhead, 
Gallaudet pointed to the tree canopy. He's careful not to cut too many 
trees in one place, which would let the soil dry out.
    During a conventional logging operation on a family woodlot, it's 
not unusual to clean up the branches and limbs left over from a 
harvest, to open the forest floor. Maybe they're sold to be burned in a 
biomass energy plant. Gallaudet keeps the slash, taking the time to 
create brush piles here and there across his land. They'll decompose 
slowly, providing homes for wildlife today and, in time, nutrients for 
the forest.
Future Possibilities
    On a knoll, orange flagging tape is tied around trees in a sample 
plot, noting trunks more than 4" in diameter. That's a first step in 
estimating the volume or weight of a tree and how much carbon a forest 
can store, based on its species and other factors. Carbon calculators, 
(https://fsht.org/forestcarbonproject/forestcarbonproject-calculator/) 
such as one linked on the website of the Francis Small Heritage Trust 
in Limerick, make the task easier.
    Big hardwoods are denser and store the most carbon. Older stands 
capture more than new growth. Gallaudet's calculations show that his 
woodlot holds roughly 39 tons of carbon per acre, nearly eight times 
the carbon footprint of his home and small farm.
    Maine small landowners could join forces to maximize carbon storage 
and combine their acreage to take advantage of the offset markets, at 
least in theory. But the existing markets don't recognize so-called 
aggregation, so Sierra Club Maine and other advocates will be looking 
at other options in the months ahead.
    One idea could be to expand Maine's Tree Growth Tax, the 47 year 
old law that reduces property taxes for owners who keep at least 10 
acres in commercial timberland. But there are high financial penalties 
for removing land from the program, and Doak said the rules are 
constantly under assault by interest groups trying to modify them. He 
wonders if the Farm and Open Space Tax law, which values land at less 
than fair market value if certain requirements are met, might be a 
better vehicle.
    Another model could be the credits that some major corporations use 
to offset their power consumption, by getting a percentage of their 
energy from wind power, for instance. Hagerty foresees the possibility 
of Maine companies partnering with small woodlot owners, buying local 
credits to offset their carbon footprint.
    ``In a state where people know each other well, that could be 
possible,'' he said.
                                 ______
                                 
Submitted Letter by Hon. Kim Schrier, a Representative in Congress from 
                               Washington
April 1, 2019

  Hon. Betty McCollum,
  Chairwoman,
  House Appropriations Subcommittee on Interior, Environment, and 
    Related Agencies,
  Washington, D.C.;

  Hon. David Joyce,
  Ranking Minority Member,
  House Appropriations Subcommittee on Interior, Environment, and 
    Related Agencies,
  Washington, D.C.

    Dear Chairwoman McCollum and Ranking Member Joyce:

    I am writing requesting your support for watershed restoration and 
addressing backlogs of road and trail maintenance on our National 
Forests by appropriating $50 million in funding for the Forest Service 
Legacy Roads and Trails Remediation Program (CMLG).
    Since its authorization in FY 2008, the Legacy Roads and Trails 
program has significantly enhanced the Forest Service's ability to 
address key problems associated with its aging and poorly maintained 
road system. This includes repairing roads and trails needed for public 
access, replacing failed or undersized culverts to improve aquatic 
passage and retire unneeded roads to prevent sediment pollution from 
entering waterways important for salmon, trout, and other aquatic 
species. The program delivers funds to address road problems in real 
time, which enables the Forest Service to efficiently plan, design, and 
implement restoration treatments. It is a critical tool for leveraging 
non-Federal funds resulting in stronger projects and enhanced community 
engagement. And because funds primarily go to actual work on the 
ground, Legacy Roads and Trails creates high wage jobs for contractors, 
including those who specialize in stream restoration, environmental 
design, and heavy equipment operation.
    From 2008-2018, this unique bipartisan program has invested over 
$430 million to the following tangible and accountable results on our 
National Forest watersheds:

  <bullet> Maintained and/or storm-proofed 18,057 miles of needed 
        roads, helping Americans get where they wish to go on Forest 
        Service lands;

  <bullet> Reclaimed 7,053 miles of unneeded roads, preventing sediment 
        from entering streams, many of which supply drinking water to 
        rural and urban towns and cities;

  <bullet> Replaced 1,030 culverts restoring fish passage to 1,671 
        miles of habitat, aiding the recovery of fish species important 
        to restoration goals, Tribal communities and sportfishing 
        enthusiasts;

  <bullet> Improved 5,020 miles of trails, keeping the $535 million 
        National Forest recreation industry going strong;

  <bullet> Created or maintained 697-1,115 jobs annually across the 
        nation, bringing dollars and jobs into rural communities;

  <bullet> Saved America's taxpayers $3.5 million per year in road 
        maintenance costs, promoting a more sustainable Forest Service 
        road system in the future.

    In Washington, D.C. we've seen an interest in rebuilding America's 
infrastructure. During these conversations we ask that you encourage 
your colleagues to consider the proven track record of success from the 
Legacy Roads and Trails program as a model. The program helps adapt the 
road system to a more manageable size over time, reducing fiscal and 
environmental burdens and enabling the Forest Service to ensure better 
and more reliable access. It focuses on the key areas where projects 
improve up and downstream connections for salmon, improve water quality 
and ensure road/trail resilience in a changing climate. It's a simple 
solution to a formidable problem. But it needs funding to succeed.
    FY19 was the first year that the Legacy Roads and Trail program was 
not specifically funded despite making a difference for Forest Service 
watersheds, fish habitat, recreational infrastructure and local jobs 
for a decade.
    We ask for your support of the program by reinstating Legacy Roads 
and Trails as a separate line item in the Fiscal Year (FY) 2020 
Interior-Environment Appropriations Bill with a $50M allocation. This 
is a small down payment on the growing problem impacting how people 
access and experience public lands.
            Sincerely,
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Hon. Kim Schrier.
                                 ______
                                 
                          Submitted Questions
Response from Lenise Lago, Associate Chief, U.S. Forest Service, U.S. 
        Department of Agriculture
Questions Submitted by Hon. Abigail Davis Spanberger, a Representative 
        in Congress from Virginia
    Question 1. Associate Chief Lago, how does the Forest Service 
calculate and classify deferred maintenance?
    Answer. The Forest Service determines deferred maintenance for each 
asset based on condition assessments conducted at different intervals 
depending on the asset. During these assessments, staff collects 
information on maintenance and repair needs. Condition surveys for most 
assets are performed on a 5 year revolving schedule, except for road 
bridges. Road bridges are required to be inspected every 2 years in 
accordance with the National Bridge Inspection Standards. Deferred 
maintenance for National Forest System (NFS) roads for passenger cars 
is determined bi-annually from a random sample. Deferred maintenance 
for high clearance/closed roads is not reported at this time.

    Question 2. The Forest Service periodically assesses the condition 
of its assets in order to estimate deferred maintenance. Please provide 
detail on how the agency conducts these assessments, including whether 
they differ for the various asset classes (e.g., roads versus 
facilities) and the frequency of the assessments.
    Answer. The procedures to conduct condition assessments varies 
between assets. The assessments occur as follows:

  <bullet> Facilities--Assessments are generally done every 5 years. 
        Assessments are conducted following the enclosed guidance (see 
        Facilities Condition Assessment Field Training Guide [see 
        Attachment 1]);

  <bullet> Roads--A random sample of road segments is surveyed every 2 
        years using the Deferred Maintenance Protocols for Roads 
        (enclosed [see Attachment 2]); and

  <bullet> Road Bridges--Inspection reports are done every 2 years as 
        required by the National Bridge Inspection Standards. Detailed 
        procedures on how to conduct these inspections can be found in 
        the Bridge Inspection Guide (BIG).

  <bullet> Trails--A random sample of 1% of Forest Service trails that 
        are Trail Class 1-4 are assessed each year via the Trail 
        Assessment and Condition Surveys. All Class 5 trails, those 
        that are most highly developed, are surveyed every 5 years.

    Question 3. The Forest Service receives funding to address deferred 
maintenance from several sources. They include discretionary accounts 
(e.g., Capital Improvement and Maintenance), mandatory appropriations 
(e.g., recreation fees), and other agencies (e.g., the Federal Highway 
Administration). Please identify all sources of funding that are used 
for deferred maintenance, and the total from all funding sources used 
in FY 2018.
    Answer. The Forest Service uses different sources of funding to 
address deferred maintenance including direct appropriations to the 
Capital Improvement and Maintenance account, and external allocations 
from the Federal Highway Administration's Federal Lands Transportation 
Program and Federal Lands Access Program. The Agency also uses 
partnerships to accomplish some of the deferred maintenance work 
including cost-share agreements with counties and states, volunteer 
work on trail improvement, and via the Good Neighbor Authority. Total 
spending from all sources was approximately $230 million in 2018 to 
address deferred maintenance directly.

    Question 4. Associate Chief Lago, can you speak to the role 
individual forests, regional foresters, and headquarters will play in 
prioritizing maintenance projects moving forward?
    Answer. Prioritization of routine maintenance, including annual 
maintenance, and small non-recurring maintenance projects will continue 
to be identified, prioritized and managed at the forest level with the 
Regional Forester providing guidance and allocating funding based on 
the Agency's priorities. The role of the Washington Office is to 
communicate agency priorities and develop national policies and 
standards to help determine where appropriated dollars should be 
allocated for deferred maintenance projects that target larger agency 
goals.

    Question 5. In the past, Forest Service has needed to transfer 
funds from other accounts to help cover the costs of wildfire 
suppression. The wildfire funding fix, however, is intended to 
eliminate some of the need for fire transfer and is set to take effect 
in FY 2020. Has fire transfer affected the Forest Service's ability to 
address maintenance needs? If so, in what ways might the wildfire 
funding fix alleviate those concerns?
    Answer. In the past, funds for maintenance were transferred to 
firefighting efforts usually during the summer season, which is also 
the time that most of the Agency's maintenance activities are scheduled 
to occur, when there are an increased number of seasonal staff for 
oversight of activities and favorable weather conditions. When fire 
transfers from capital maintenance accounts occurred, planned 
maintenance activities were deferred to the following year continuing 
the never-ending cycle of deferring maintenance. The wildland fire 
suppression funding fix should allow maintenance projects to proceed as 
planned, allowing for less deferred maintenance to accumulate.

    Question 6. How can the Forest Service enhance public-private 
partnerships to address deferred maintenance projects? What is the 
staffing level assigned to work on public-private partnerships, how has 
that changed in recent years, and is the current staffing level 
sufficient to foster and manage additional partnerships?
    Answer. With a $5.2 billion deferred maintenance backlog, the 
Forest Service recognizes new approaches are needed to address deferred 
maintenance and infrastructure priorities on NFS lands. The Agency is 
placing a major emphasis on building capacity for public-private 
partnerships, with partnership coordinators assigned to every Forest 
Service region, and an increasing number of National Forests 
designating specific partnership positions. While we do face staffing 
capacity challenges due to a workforce that has migrated into wildland 
fire related work, partnerships are increasingly important to 
accomplish our mission.
    Trails maintenance is already highly leveraged within the Forest 
Service to maximize maintenance and infrastructure funds. Furthermore, 
the Forest Service engages a robust volunteer community that annually 
contributes 4.7 million hours of work valued at $120,000,000 with the 
help of 110,000 individuals.
    Limited capacity to meet competing priorities continues to 
challenge the Forest Service to find new ways to meet the needs of an 
aging infrastructure. Conservation finance, through Pay for Success and 
other funding models, has proven promising in recent pilot projects, as 
a way of bringing private sector funding to local recreation projects. 
Growing our skills and staffs in partnership collaboration will allow 
us to foster new and innovative ways to accomplish work. For example, a 
collaborative of local governments in Athens County, Ohio, industry 
partners, nonprofits, Quantified Ventures and the Wayne National Forest 
are funding sustainable recreation infrastructure by introducing the 
first-ever Outdoor Recreation Environmental Impact Bond. Together, the 
partners are developing the 88 mile Baileys Trail System on the Wayne 
National Forest to revitalize the rural economy of southeast Ohio. The 
Baileys Trail System will utilize a mix of new and existing trail 
infrastructure on and adjacent to the National Forest to provide new 
access to public lands and create new jobs within the Athens County 
tourism industry. The Forest Service has partnered with the U.S. 
Endowment for Forestry and Communities to implement a grant fund that 
hopes to replicate the Baileys Trail System model, among other types of 
conservation finance projects, in additional communities that rely on 
the National Forest System.
Questions Submitted by Hon. Marcia L. Fudge, a Representative in 
        Congress from Ohio
    Question 1. Ms. Lago, what are the existing pathways for hiring Job 
Corps students into the Forest Service?
    Answer. The Forest Service is committed to connecting our Job Corps 
Civilian Conservation Centers directly to our mission and continuously 
improving the performance of our centers and our student outcomes. The 
current pathways for hiring our Job Corps students include:

  <bullet> Public Lands Corps Act. The Public Land Corps (PLC) allows 
        any student completing 640 hours of special conservation 
        project work under a Natural Resource Agency to apply for a 
        merit vacancy announcement (open to current Federal employees 
        and others with competitive eligibility) for up to 2 years upon 
        program completion. Eligible candidates can be selected for 
        permanent positions and are provided career-conditional 
        appointments.

  <bullet> Pathways Program. Students attending any of our five 
        accredited Job Corps Centers may qualify for the Pathways 
        special hiring authority if their specific trades align with an 
        applicable Forest Service position. A student selected under 
        the Pathways Intern Program must complete 640 paid work hours 
        and additional training upon Job Corps graduation to be 
        eligible for conversion into a permanent or Term Forest Service 
        position. The 640 hours must be performed on a unit-school 
        program hours do not count toward eligibility. In addition, 
        students who have completed an accredited trades program within 
        the last 2 years or are within 9 months of graduation may be 
        selected under the Pathways Recent Graduate Program for a 
        Forest Service position. Those who have not yet graduated will 
        be appointed upon graduation.

  <bullet> Schedule A or Veterans Recruitment Action (VRA). Students 
        who qualify for Schedule A (disability hiring) or VRA may be 
        hired non-competitively, by applying to a vacancy announcement 
        or other recruitment avenues, such as non-competitive direct 
        appointment.

  <bullet> Direct Hire Authority for Firefighters. On August 8, 2019, 
        the Office of Personnel Management authorized the Forest 
        Service to use a direct hire authority to assist in meeting 
        critical hiring needs in support of the FY 2020 wildland 
        firefighting season. This authority enables the Forest Service 
        to streamline the hiring process for permanent and temporary 
        firefighting positions. Every civilian conservation center 
        supports a wildland fire program, training students to serve as 
        firefighters. Eligible, qualifying students can be hired 
        directly upon graduation into Federal firefighter positions.

    Question 1a. What does that process look like for a Job Corps 
student?
    Answer. Every center has a student advisor who assists students in 
creating their resumes and applying for positions under the PLC 
authority or any other authority they qualify for when applying for a 
Forest Service job. To date, the PLC program has resulted in over 200 
students completing internships that led to receiving a non-competitive 
hiring authority preference. Of those students, approximately 20 have 
been placed into permanent, full-time positions with the Forest 
Service.

    Question 1b. Are students made aware of opportunities within the 
Forest Service?
    Answer. Yes. Students who are interested in Forest Service careers 
learn about those opportunities through the Job Corps Program. Students 
compete for internship opportunities with the Forest Service, and if 
they are successful, they complete a 4 month work experience and 
receive non-competitive application preference status. This status 
gives students a competitive advantage for permanent Forest Service 
positions.

    Question 2. You mentioned that the Forest Service is interested in 
working with OPM to create a direct hiring authority for Job Corps 
students. What is the status of this effort currently?
    Answer. The Forest Service Job Corps National Office is working to 
assemble and approve the appropriate materials through USDA and OPM 
that will provide:

  <bullet> Direct hiring authority for Job Corps graduates under the 
        Public Land Corps Authority that is similar to the direct 
        hiring authority available for Resource Assistants.

  <bullet> Special hiring authority for Job Corps graduates that is 
        similar to the special hiring authority for AmeriCorps and 
        Peace Corps.

    Question 3. What activities are Civilian Conservation Corps 
students trained to assist with? How does that help to reduce the 
deferred maintenance backlog?
    Answer. Student trades include a variety of construction, 
information technology, and natural resource trades. Construction 
trades include carpentry, facilities maintenance, masonry, bricklaying, 
painting, welding, operation of heavy equipment, and floor-covering. 
Center students perform work on their local unit. In the last 2 years, 
this work has contributed a total of almost $3 million in deferred 
maintenance projects.

    Question 4. You mentioned that the Forest Service is interested in 
expanding the conservation trades to all of the Job Corps centers. When 
do you expect to make that expansion? What impact could that have on 
the deferred maintenance backlog?
    Answer. Currently ten trades directly align with Forest Service 
conservation work, including forestry, fire suppression, and dispatch. 
The Forest Service is working to increase the alignment through an 
expansion of conservation-related training curricula. Centers will also 
work directly with their local National Forests to fully integrate 
their curricula into the Forest's annual program of work. In addition, 
each Center will be represented on their local National Forest's 
leadership team and will participate in the planning of work for the 
districts in their forest. Students will take part in work-based 
learning on National Forests and in communities, including facilities 
maintenance. The value of these projects could eventually add up to 
millions of dollars but will still be far less than what would be 
needed to appreciably slow the growth of deferred maintenance across 
the agency.
    We welcome the opportunity to update the Committee on our efforts 
to strengthen Job Corps.
Question Submitted by Hon. Tom O'Halleran, a Representative in Congress 
        from Arizona
    Question. In Arizona, road and trail repair needs account for 
nearly 50% of the deferred maintenance backlog on Federal lands. Lack 
of road and trail access to Federal public lands reduces visitation and 
limits opportunities for recreation, impacting the economy of gateway 
communities. Understanding this, our local governments have stepped up 
to play their part in maintaining roads and other access points. 70% of 
the 2,100 vehicles using Lake Mary road each day are due to 
recreational traffic. For nearly a century, Coconino county has 
maintained this road through a combination of funds, including local 
taxes. Has the Forest Service explored similar partnerships with local 
governments and does the forest service see this or other existing 
partnerships as potential models for tackling deferred maintenance?
    Answer. The cooperative road maintenance agreement as described 
above is widely used on Forest Service transportation systems across 
the country. This mechanism is actively used and promoted to allow 
other public entities to participate in maintenance of routes critical 
to local communities. Other methods of public-public partnerships are 
also employed and encouraged by the Forest Service. One example of 
these partnerships is the agreement between the Tennessee Valley 
Authority (TVA) and the Forest Service under which TVA performs 
inspections of Forest Service road bridges to meet the requirement 
under the National Bridge Inspection Standards for a quality assurance 
check of Forest Service road bridges by an external agency.
Questions Submitted by Hon. Chellie Pingree, a Representative in 
        Congress from Maine
    Question 1. The Forest Service has an FY 2020 list of 25 Land and 
Water Conservation Fund priority projects for acquisition, and 22 for 
Forest Legacy. These projects would likely be funded under anticipated 
appropriations for next year, but the agency has unmet needs beyond the 
current list of projects. Based on need alone, how many acquisition and 
Forest Legacy projects would the agency need to pursue? Can your agency 
quantify the backlog, and say how many projects beyond the list could 
improve management and reduce costs, if LWCF was more fully funded?
    Answer. Each year, Forest Legacy Program (FLP) projects are 
selected through a two-stage competitive process. The first stage is 
state-level identification and approval. After a project is selected at 
the state level, the second stage is a national level project review 
conducted by a panel of representatives from states participating in 
the FLP and the Forest Service. This two-stage process results in high-
quality projects that are supported both locally and nationally.
    For FY 2020, 36 projects, with a total request of $123 million, 
were submitted for consideration through the FLP. Some of these 
projects received funding when FY 2019 appropriations were enacted, 
while some of the proposed projects were no longer viable.
    Maine has been an active participant in the FLP at 741,000 acres. 
In terms of funds, Maine has received $76,061,534, which is second only 
to Montana, which has received $77,405,533.
    For land acquisition, the Forest Service works with a variety of 
non-governmental organizations and willing sellers from the general 
public. In Fiscal Year 2020, Congress appropriated $57,639,000 for 
purchase of lands from willing sellers in 18 states. The acquisition 
projects are prioritized based on: (1) the significance of the 
acquisition; (2) the urgency of the acquisition; (3) management 
efficiencies; (4) management cost savings; (5) geographic distribution; 
(6) threats to the integrity of the land; and (7) the recreational 
value of the land. The Forest Service's nine regions hold competitions 
to cull the projects from units within the region's National Forests 
and Grasslands, then submit top projects to the Washington Office (WO) 
for a national competition. The WO competition results in a smaller 
list of projects that is submitted to Congress, which determines the 
amount of appropriations for the projects.

    Question 2. Based on budget documents that I have received from 
USDA, I understand the Forest Service spent $3.3 million on the climate 
hubs in 2016, which I think is great, but the 2019 estimate is 
$400,000. Given the challenges that we are dealing with, why is there 
such a big drop, and do you see those as a valuable part of what you 
are doing?
    Answer. In FY 2016, the Forest Service allocated $3.3 million for 
Climate Hubs. The Forest Service allocated $1.85 million per year for 
both FY 2017 and FY 2018. In FY 2019, Climate Hub allocation was $1.665 
million and has been budgeted to remain at this level for FY 2020. The 
funding drop is reflective of prioritization of urgent forest 
restoration program and project work. However, the agency continues to 
support many important initiatives through our multiple Research and 
Development programs.
Questions Submitted by Hon. Cynthia Axne, a Representative in Congress 
        from Iowa
    Question 1. The Forest Service supplies water for agriculture and 
communities and is a major economic driver for many forest dependent 
communities. In fact, National Forest System lands are the nation's 
largest source of municipal drinking water supply, serving more than 66 
million people. Ms. Lago, please speak to the importance of these 
systems to the environment, public health, and safety. Can you speak to 
the current condition of Forest Service water systems?
    Answer. The Forest Service continues to foster conditions for 
clean, abundant water to help ensure the productive and sustainable use 
of National Forest System lands. The Agency emphasizes reforestation 
and revegetation efforts. Restoring ecosystems ensures that vital 
amenities, such as clean water, are available to society. In FY 2018, 
the Agency targeted investments in the National Best Management 
Practices Program to improve tools to meet agency requirements under 
the Clean Water Act and other statutes to protect clean water. The 
program made advancements to increase the speed and accuracy of use and 
sharing of data with state water quality agencies, the Environmental 
Protection Agency, and other partners.
    The Forest Service owns and operates over 4,700 drinking water 
systems, of which over 30% are in poor or fair condition. Thirty-six 
percent of all drinking water systems are more than 50 years old with 
escalating repair costs every year. With a current water system 
deferred maintenance backlog of $93 million, the impact of not 
addressing this will affect the ability for the public and employees to 
access recreation facilities, fire, administration and other 
facilities.

    Question 2. We recognize that restoration and maintenance of our 
National Forests can be a source of long-term, sustainable jobs in 
rural communities. Studies have indicated that for every $1 million 
spent on forest watershed restoration, 14.5 jobs can be generated. Can 
you provide references to studies documenting the impact of 
infrastructure improvements on jobs?
    Answer. Federal agencies examined job contributions of 
infrastructure improvements with the American Recovery and Reinvestment 
Act of 2009 (ARRA) consistent with goals of the act, specifically, to 
preserve and create jobs and stimulate economic recovery. Further, USDA 
agencies used a common general framework for estimating the potential 
effects of the ARRA using concepts and techniques embodied in a tool 
called IMPLAN. Infrastructure investments by USDA Rural Development in 
community facilities, water and waste, rural business support, single 
family housing support, broadband and Rural Development Salary resulted 
in 16 jobs per $1 million invested (USDA NRCS, 2010). Infrastructure 
investments by USDA Farm Service Agency in information technology 
resulted in 22 jobs per $1 million invested (USDA NRCS, 2010). A 2010 
study partially funded by the Forest Service indicated that forest and 
watershed restoration activities have the potential to create an 
average of 14 jobs per $1 million invested (M. Nielsen-Pincus and C. 
Moseley, 2010). A more recent study published by the Public Library of 
Science, cites up to 33 jobs per $1 million invested from environmental 
restoration, restoration-related conservation, and mitigation actions 
(BenDor, et al., 2015). Infrastructure investments by USDA Natural 
Resource Conservation Service in floodplain, dam and other projects 
resulted in 220 jobs per $1 million invested (USDA NRCS 2010). Recent 
examination of Forest Service investment in over $3 billion in 
infrastructure indicates that 35,000 to 38,000 jobs annually could be 
sustained across the nation, or 11 to 12 jobs per $1 million invested 
(USDA Forest Service, 2017). In addition, a 2017 analysis of Forest 
Service resource management investments ($5.9 billion) in program areas 
such as infrastructure construction and maintenance, firefighting, 
ecosystem restoration, research and development, fuels treatments, Job 
Corps, salaries, etc. contributed 120,620 jobs across the nation; or 20 
jobs per $1 million invested (USDA Forest Service, 2019).
References
    BenDor, T. et al. ``Estimating the size and impact of the 
ecological restoration economy,'' PLoS ONE, 10 (6) (2015): e0128339.
    M. Nielsen-Pincus and C. Moseley. Economic and Employment Impacts 
of Forest and Watershed Restoration in Oregon, 2010. Available from 
Oregon State University at https://scholarsbank.uoregon.edu/xmlui/
bitstream/handle/1794/10776/WP24.pdf?sequence=1.
    USDA NRCS 2010. Job Creation Estimates for Rural Development, FSA, 
and NRCS Items in the American Recovery and Reinvestment Act. Available 
from NRCS at https://www.nrcs.usda.gov/wps/portal/nrcs/detail/national/
technical/econ/tools/?cid=nrcs143_009732.
    USDA Forest Service 2017. Briefing Paper on Forest Service 
Infrastructure Improvement Opportunities.
    USDA Forest Service 2019. Briefing Paper on Forest Service Jobs and 
GDP Economic Contribution. Supporting the FY2020 Budget Justification.
Questions Submitted by Hon. Kim Schrier, a Representative in Congress 
        from Washington
Capital Improvement Plan Projects
    Question 1. What considerations are made to narrow down the list of 
projects submitted that meet the national priorities outlined?
    Answer. The primary considerations for selecting and ranking 
capital improvement projects are how the projects support our current 
priorities including the following benefit areas: active management, 
access to recreation, economic benefits, fire operations, environment 
and sustainability, and research and technology. In addition, project 
criticality and readiness are also considered when scheduling 
implementation.

    Question 2. Are Regions allocated a percentage of the CIP budget 
based on need, miles of road, acres of Forest Service land? Or are 
simply the top number of projects funded?
    Answer. Regions are allocated funds for operations and maintenance 
based on a distribution formula that includes miles of roads, 
visitation, timber volume targets and others. Since 2017, the Forest 
Service has set aside a small portion of the Capital Improvement and 
Maintenance (CI&M) account for Roads and Facilities to fund competitive 
Capital Improvement Plan (CIP) and Decommissioning projects.

    Question 3. Given that the states with the highest concentration of 
deferred repairs are: California, Montana, Idaho, Oregon, Colorado, and 
Washington, respectively, will these states be allocated larger 
proportion of the CIP budget due to their needs?
    Answer. In general, these states get a large portion of CI&M 
funding for operations and maintenance. However, the national CIP 
project competition focuses on project specific cost-benefit ratio 
rather than accumulated deferred maintenance. The reduction of deferred 
maintenance as result of implementing a project is a desired outcome.

    Question 4. How are Regional priorities considered? For example, in 
Region 6, if improving Chinook salmon habitat and removing fish passage 
barriers is of utmost priority, what weight will that be given in the 
national priorities?
    Answer. The CIP model used to rank and prioritize project uses 
quantitative metrics and criticality scoring. Although the regional 
ranking of projects is not used in the calculation of the final score, 
it would be taken into consideration. Before finalizing the CIP list of 
projects for each fiscal year the Asset Management Review Board (AMRB) 
would make necessary adjustments to ensure that regional and national 
priorities are in alignment.
Legacy Roads and Trails Program
    Question 5. What direction are you providing to Regional Offices to 
Legacy Roads and Trails program projects are implemented and tracked?
    Answer. While the Legacy Roads and Trails Program was retired from 
our budget line items starting in FY 2018, the Forest Service continues 
to plan, implement and track projects which meet the goals of this 
formerly dedicated funding mechanism.

    Question 6. Is the USFS continuing to track and report annual 
accomplishments under the program?
    Answer. The Forest Service continues to track accomplishments from 
transportation projects that improve watershed conditions, including 
bettering streams for water quality and aquatic organisms.

    Question 7. Across National Forest lands in OR/WA, 6,000 stream 
miles are designated as critical habitat for federally listed fish, and 
5,550 stream miles have been listed as water quality impaired under the 
Federal Clean Water Act of 1972. What management improvements does the 
USFS need to make to ensure waters are removed from the listings?
    Answer. The Forest Service established a Watershed Condition 
Framework to provide a consistent, comparable, and credible process for 
improving the health of watersheds on National Forests and Grasslands 
in 2011. The Pacific Northwest Region continues to focus on the 
priority watersheds and choose projects to fund that improve watershed 
conditions, including bettering streams for water quality and aquatic 
organisms.

    Question 8. How will the USFS meet its obligations to protect water 
quality and salmon in my state?
    Answer. The Pacific Northwest Region continues to leverage existing 
and new partnerships to invest in watershed improvement projects that 
address water quality and aquatic organism passage.
Questions Submitted by Hon. Jimmy Panetta, a Representative in Congress 
        from California
    Question 1. The Nacimiento-Fergusson Road is a 24 mile long Forest 
Service road in the Los Padres National Forest. When Big Sur residents 
face inclement weather like mudslides and wildfires that cause road 
failures on Highway 1, the Nacimiento-Fergusson road is the only way 
they can get out of the Big Sur region. After storms in 2017 that shut 
down Highway 1, there were hundreds of people who had no way to get out 
of Big Sur. At the same time, the Nacimiento-Fergusson road has 
suffered as a result of the Forest Service's maintenance backlog. 
Associate Chief Lago, once the Wildfire Funding Fix is implemented in 
Fiscal Year 2020, would you be willing to continue this dialogue and 
work with me to ensure the Big Sur community can access much-needed 
funding to for deferred maintenance on their roads?
    Answer. Yes, the implementation of the Wildfire Funding Fix is 
going to allow the agency to be more efficient in addressing 
infrastructure needs and to better plan long term solutions to address 
the deferred maintenance backlog.

    Question 2. In Los Padres National Forest, our deferred maintenance 
exceeds $24 million. My question is where does that lie relative to 
other National Forests?
    Answer. Los Padres National Forest deferred maintenance is 
consistent with other National Forests. We have enclosed a file with 
more detailed information on the deferred maintenance for all units of 
the National Forest System [see Attachment 3].

    Question 3. The State of California prides itself on technological 
innovation. I am consistently impressed when I see the innovation in 
our agricultural fields, from robotic harvesters to agricultural drones 
that monitor crop growth. Can you speak to any Forest Service 
investments in technology, including drones, satellites, and fire 
surveillance cameras?
    Answer. The Forest Service is actively involved in leveraging 
leading edge technology to support decision-making at all levels of the 
Forest Service from the field, to the regional offices, and to the 
Washington Office. The FY 2021 Forest Service budget proposes $5 
million to be used to implement the Wildfire Technology Modernization 
section of the Dingell Conservation and Management Act (2019). 
Implementation includes the development of a common, single display of 
all fire resources and will significantly increase accountability for 
how the agency uses assets. This will allow the agency to monitor, 
analyze, and evaluate how tactical decisions and resource utilization 
influences incident outcomes. This information will create a feedback 
loop, allowing the agency to learn where, when, and how resources are 
most effective. When combined with the Risk Management Assistance 
framework, technology modernization for fire resources will enable 
improvement in the efficient use of agency resources through early, 
risk-based decision-making with State and local partners and through 
transparent deployment of assets. The Forest Service is accelerating 
adoption of new technologies to modernize the wildland fire system, 
consistent with direction provided in the Dingell Act. Technology is 
key not only for real-time incident management, but also to be able to 
learn where and when resources are most effective. That learning will 
be key for improved deployment in the future that will reduce risk to 
responders and be more cost-effective. Investments in technology 
include (among others):

  <bullet> UAS (drones). The Forest Service began evaluating UAS in 
        2003, and we now have an established Forest Service--UAS 
        Program Office to manage, support and expand the use of this 
        revolutionary capability. We are actively leveraging UAS 
        technologies to support a number of business needs including 
        fire/disaster support, engineering fieldwork (infrastructure 
        inspection and assessment), invasive species mapping, and 
        environmental cleanup. The Forest Service has also started 
        testing the use of drones to perform bridge inspection. The use 
        of UAS provides new data streams, saves time, and improves 
        personnel safety in the field.

  <bullet> Satellite Imagery. The Forest Service heavily leverages the 
        use of imagery from Federal-civil and commercial satellites to 
        support traditional mapping (paper and digital maps) and fire/
        disaster support. The remote sensing community continues to 
        evaluate and incorporate new sensor data streams as they come 
        online. The Forest Service is a significant user of commercial 
        high-resolution satellite imagery, which is provided at no cost 
        to Federal-civil agencies by the National Geospatial-
        Intelligence Agency.

  <bullet> Fire Surveillance Cameras. Federal, state and local fire 
        managers are increasingly relying on both airborne and ground 
        (fixed) fire surveillance cameras. The Forest Service is 
        actively pursuing automated smoke detection in the networked 
        ground surveillance cameras, as well as the use of UAS, new 
        thermal infrared cameras and the use of national systems to 
        support improved fire detection (and reporting) and active fire 
        management.
Questions Submitted by Hon. Doug LaMalfa, a Representative in Congress 
        from California
    Question 1. Timber receipts have been down. Back years ago, we are 
looking at 1991, we could see that there is $680 million in timber 
receipts, of which ten percent goes directly towards forest roads, and 
it is also very important, those receipts, for local schools and roads 
under what is the Secure Rural Schools Fund. And so, now you want $680 
million in receipts, and more recently, it is down to $21 million. So, 
it would seem to me we could be going farther if we had the timber 
receipts for the road maintenance for that ten percent.
    Would you comment upon that?

    Question 1a. Do you know that number now compared to the $680 
million not-inflation-adjusted 1991 number?
    Answer 1-1a. The 2014-2018 5 year average of timber receipts was 
$32.8 million (see Table [1] below), as compared to the $686.6 million 
sold, $845.7 million in receipts, and $84.57 million in ``Purchaser 
Road Credits'' in 1991. This 5 year average is roughly 4% of the 1991 
timber receipts. In 1991, the Forest Service changed from collecting 
``Purchaser Road Credits'' to the ``Specified Road Costs'' approach to 
maintaining Forest Service Roads above the standards necessary for 
timber harvest. As in the past, where the road maintenance credits were 
10% of the receipts, we are very close to that same rate today, as we 
calculate the road costs to be 9% of total receipts.

                                    Table 1. Total Timber Receipts 2014-2018
                                              [millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                     2014-2018
     Timber            2018            2017            2016            2015            2014           Average
----------------------------------------------------------------------------------------------------------------
Class 1--Timber            40.83           33.22           29.96           29.93           30.04           32.80
KV Revenue                 60.38           68.13           57.61           56.80           50.80           58.74
Specified Road             14.61           15.06           15.48           14.70            9.60           13.89
 Costs
Timber Salvage             40.06           36.69           35.83           36.69           35.14           36.88
 Sale
TPTP Revenue                4.29            4.72            5.57            5.51            5.25            5.07
                 -----------------------------------------------------------------------------------------------
  Total Timber            160.16          157.83          144.45          143.63          130.82          147.38
----------------------------------------------------------------------------------------------------------------

    Under Forest Service Manual (FSM 2432.34a), the Purchaser pays for 
the cost of building a road to the standard needed for consistency with 
applicable environmental laws and regulations and as needed for timber 
harvest. If the sale contract provides for road design standards in 
excess of those needed for the harvest and removal of timber from that 
sale, including measures to protect adjacent resource values, provision 
shall be made in the contract for compensating the Purchaser for the 
additional costs, unless the Purchaser elects Government construction 
under section 14(i) of the National Forest Management Act of 1976. In 
the absence of supplemental funds, the sale would need to be redesigned 
or rescheduled.
    The FY 2020 and FY 2021 Forest Service budget proposes to use the 
Roads and Trails for States fund, without regard to the state in which 
the amounts were derived, to repair or reconstruct roads, bridges, and 
trails on National Forest System lands or to carry out and administer 
projects to improve forest health conditions. This work may include the 
repair or reconstruction of roads, bridges, and trails on National 
Forest System lands in the wildland-community interface where there is 
an abnormally high risk of fire.

    Question 2. When we were talking about the backlog, when we are 
seeing the Forest Service absorbing more lands through donations from 
maybe NGOs or other instances, or the LWCF has also introduced more 
land back into Forest Service control. How is that contributing to the 
backlog and your ability to keep up, and as well as updating this $5.2 
billion backlog figure?
    Answer. The Forest Service has a policy not to acquire properties 
that will increase deferred maintenance requirements when LWCF funds 
are utilized. Naturally, there is a long-term maintenance cost to the 
agency to own any acre of land or asset within the National Forest 
System.
Question Submitted by Hon. Rick W. Allen, a Representative in Congress 
        from Georgia
    Question. In your written testimony, you mentioned that perhaps 
most critically, forest infrastructure provides fire protection for 
communities, especially by providing access to forest lands and roads 
for firefighters and emergency responders during rescue operations.
    Due to the deferred maintenance backlog, how many miles of Forest 
Service system roads have been decommissioned over the past 10 years?
    Answer. Historically, the Forest Service has had a targeted road 
mile decommissioning strategy in order to minimize resource damage to 
the landscape caused by the presence of built infrastructure. The table 
below presents those targets and associated decommissioning 
accomplishments. It should be noted that the targets and 
accomplishments include both System and non-System mileage. System 
roads are roads inventoried, maintained and managed by the Forest 
Service. Non-System roads are roads within National Forest System 
boundaries, but which are not Forest Service roads. Until FY 2013, 
System and non-System miles were not reported separately.

                                                   Forest Service Road Decommissioning FY 2010-FY 2019
--------------------------------------------------------------------------------------------------------------------------------------------------------
             FY                  2010         2011         2012         2013         2014        2015        2016        2017        2018        2019
--------------------------------------------------------------------------------------------------------------------------------------------------------
      Target (Mi., Total)         1,519        2,158        2,028        1,936        1,200       1,600       2,000       2,000       2,000           0
     System Accomp. (Mi.)           N/A          N/A          N/A       780.78       508.00         416      265.36       296.3       142.7       132.9
         Non-System (Mi.)           N/A          N/A          N/A       709.44       908.00      883.32      671.65       548.2       398.1       207.1
--------------------------------------------------------------------------------------------------------------------------------------------------------

                              attachment 1

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Facilities Condition Assessment Field Training Guide

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a moderate-sized building with shingle siding, a 
        concrete foundation, and a steel-ribbed roof. A large brick 
        chimney extends above the roof in the center where the three 
        wings of the building meet. Tall conifer trees and a grass lawn 
        surround the building.
          This 1934 building at the Cle Elum Ranger Station on the 
        Okanogan-Wenatchee National Forest, Pacific Northwest Region is 
        still in use and is in serviceable condition.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Forest Service, National Technology & Development Program
1473-2830-MTDC Facilities
January 2015
About the Authors
    Kathleen Snodgrass joined the Missoula Technology and Development 
Center (MTDC) as a project leader in 2001. She began her career with 
the Forest Service at the Nez Perce National Forest working in 
facilities, landscape architecture, land line, and general engineering 
before serving as the facilities architect for about 7 years. She also 
spent about 10 years working in highway design and construction with 
the Idaho Division of Highways after graduating from Washington State 
University in 1974 with a bachelor's degree in architectural studies.
    Kathleen C. Marks is a multidisciplinary project leader at MTDC for 
the facilities and environmental compliance and protection (ECAP) 
programs. She began work for MTDC in 2010 after receiving a bachelor's 
degree in civil engineering from Montana State University.

    Kathleen Snodgrass, Project Leader;
    Kathleen Marks Project Assistant,
    USDA Forest Service, National Technology and Development Program, 
    Missoula, MT
    9E92L11 Facility Inspection Field Guide

January 2015
    USDA Nondiscrimination Statement
          The U.S. Department of Agriculture (USDA) prohibits 
        discrimination in all its programs and activities on the basis 
        of race, color, national origin, age, disability, and where 
        applicable, sex, marital status, familial status, parental 
        status, religion, sexual orientation, genetic information, 
        political beliefs, reprisal, or because all or part of an 
        individual's income is derived from any public assistance 
        program. (Not all prohibited bases apply to all programs.) 
        Persons with disabilities who require alternative means for 
        communication of program information (Braille, large print, 
        audiotape, etc.) should contact USDA's TARGET Center at (202) 
        720-2600 (voice and TDD). To file a complaint of 
        discrimination, write USDA, Director, Office of Civil Rights, 
        1400 Independence Avenue, S.W., Washington, D.C. 20250-9410, or 
        call (800) 795-3272 (voice) or (202) 720-6832 (TDD). USDA is an 
        equal opportunity provider and employer.
    Forest Service
          The Forest Service, an agency of the U.S. Department of 
        Agriculture (USDA), has developed this information for the 
        guidance of its employees, its contractors, and its cooperating 
        Federal and State agencies. The Forest Service assumes no 
        responsibility for the interpretation or use of this 
        information by anyone except its own employees. The use of 
        trade, firm, or corporation names is for the information and 
        convenience of the reader. Such use does not constitute an 
        official endorsement or approval of any product or service to 
        the exclusion of others that may be suitable.
Acknowledgments
    The authors deeply appreciate the contributions of Steve Oravetz, 
Bruce Crockett, Randy Warbington, and Mark McDonough, who were the lead 
developers of the Forest Service Condition Assessment system and 
provided advice about and information for this publication. The authors 
also thank the many Forest Service employees who provided great photos 
of facilities, especially those who responded to specific item 
requests. The authors thank the editors and visual information 
specialists for turning the rough draft into a polished field guide.
The Facility Condition Assessment Form
    This training guide is a memory-jogger that you can take with you 
as you perform facility condition assessments. It contains the same 
items in the same order as the complex facility condition assessment 
form that is used to record work items for entry into the Natural 
Resources Manager (NRM) Infra database. Use this guide to perform 
condition assessments in a manner consistent with those performed by 
other inspectors throughout the Forest Service.
    Keep in mind that facility condition assessments are only intended 
to record major facility maintenance needs. Performing operations work 
and minor maintenance work on a regular basis is important, but such 
work is not recorded through the facility condition assessment process. 
The National Technology and Development Program (T&D) report ``So 
That's Why It's Always Cold in Here: A Guide for Conducting Facilities 
Condition Assessment Surveys'' (0473-2839-MTDC), provides detailed 
guidance for inspecting buildings and associated assets to determine 
their condition and what work is needed to correct deficiencies, 
including operations and minor maintenance. The report is available in 
printed form from the Missoula Technology and Development Center (MTDC) 
or electronically at http://fsweb.mtdc.wo.fs.fed.us/php/
library_card.php?p_num=0473 2839.
    This guide does not explain how to properly conduct condition 
assessments on Forest Service buildings. You will need to take the 
7100--Basic Building Condition Assessment and Work Items or 7300--
Complex Building Condition Survey Training course in person or through 
AgLearn before using this guide in the field.
    This guide does not explain how to use the NRM Infra database. 
Please see your supervisor and forest NRM specialist if you need more 
information about NRM or role assignments to access and modify data in 
the NRM Infra database.
    Before using this guide in the field, print the condition 
assessment form for each building using the NRM Infra report 
BLDSRV01JRL: Facility Condition Assessment Form (figure 1). NRM Infra 
automatically populates the header information for the printed form, 
except for the inspector signature, inspection date, and inspector 
name. Check to ensure that you've printed the appropriate form (complex 
versus basic building) and that the header information is accurate.
Figure 1

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Part of the Facility Condition Assessment Form for the 
        Missoula Technology and Development Center office/lab/shop.

    Be sure to check the gross square feet (Gross SqFt) of the building 
to ensure that it is correct. Compute gross square feet using physical 
or as-built plan measurements to the outside faces of exterior walls 
for all stories of the building. Don't include crawl spaces or areas 
with less than a 3 clear ceiling height. Don't include the open air 
over a double height room as part of the floor above; count only the 
floor area that can be walked on. Do include excavated basement areas, 
indoor mechanical spaces, mezzanines, penthouses and attics with 
floors, garages, covered porches (with or without walls), balconies you 
can stand on, and interior or covered corridors or walkways. Do include 
the footprints of stairways, elevator shafts, and vertical duct shafts 
as gross area on each floor through which they pass. If this 
explanation is confusing, more details and sketches showing how these 
rules are applied to a building are available at the U. S. Department 
of Education's Facilities Inventory and Classification Manual Web page 
http://nces.ed.gov/pubs2006/ficm/
content.asp?ContentType=Section&chapter=3&section=2&subsection=1.
    All work item costs automatically populate when your inspection 
data is entered into the NRM Infra database. The costs include the RS 
Means estimated cost multiplied by 1.10 for design costs, by 1.10 for 
contracting costs, and by 1.15 for overhead costs. The RS Means costs 
are updated each year to match the current national average costs of 
the work.
    A multiplier is also applied to all work items to account for the 
increasing costs as the distance increases from the building to the 
nearest town with contractors and supplies. The multiplier is based on 
the Estimated Travel Time (Hrs) value that is entered on the Building 
Details screen in the NRM Infra database. The multiplier is 1.0 for 1 
hour of travel time, 1.5 for 2 hours, 2.0 for 4 hours, 3.0 for 8 hours, 
and 4.0 for more than 8 hours of travel time. The estimated travel time 
is shown in the Facility Condition Assessment Form header. Check this 
value for accuracy. If it is inaccurate, correct it on the Buildings 
screen before entering work items.
    Another multiplier, 1.5, is automatically applied to all work items 
for buildings with Historic Status in the NRM Infra database of 
EVALUATED/MEETS (has been evaluated and meets National Register 
criteria), IN/PENDING (included in the National Register of Historic 
Places or on a pending list), or MEETS AGE/FRTHR (more than 50 years 
old, but requires further evaluation). The Facility Condition 
Assessment Form header shows the Historic Status. Check this value for 
accuracy. If it is inaccurate, correct it on the Buildings screen 
before entering work items.
    Whether you are assessing a complex or basic building, all the 
standard work items are on the Facility Condition Assessment Form. 
Complex buildings have 62 standard work items and simple buildings have 
16 standard work items. This guide addresses each work item in the same 
order as on the printed complex building form. If you are inspecting a 
basic building, ignore the work items in this guide that are not on 
your form.
Filling in the Facility Condition Assessment Form
    You will need to physically inspect each building and fill in 
Quantity, Reason, and Date Needed for each item that requires repair, 
and check the box in the Critical column, if necessary. The cost for 
each item self-populates from an interface with the current edition of 
RS Means Building Construction Cost Data when the information from the 
printed form is entered electronically into the NRM Infra database.
    Quantity of work must be measured, calculated, or counted, unless 
the preprinted unit is LS (lump sum). If the unit is LS, the quantity 
is always ``1'' if the work is needed and ``0'' if no work is needed.
    Other units of measure are:

    CSF: 100 square feet
    EA: each
    LF: linear feet
    MSF: 1,000 square feet
    M.S.F.: 10,000 square feet
    SF: square feet
    SQ: 100 square feet
    STEP, EA: stair riser
    SYSTEM: each complete system

    To calculate square feet, measure the length and width (or length 
and height for vertical surfaces) in feet, then multiply length by 
width (or length by height). CSF, MSF, SQ, and M.S.F. are variants of 
SF, and are explained further under items using these units of measure. 
Do not confuse M.S.F. with MSF. Available fonts prevented use of the 
Roman numeral for 10,000 on the form. Designating 10,000 square feet as 
M.S.F. was the workaround.
    The Reason column identifies the reason for performing the work. It 
contains only three choices:

  1.  Resource protection work items must be performed to avoid damage, 
            obstruction, or negative impact to a natural or cultural 
            resource.

  2.  Mission work items must be completed to ensure the ability of 
            employees to carry out the Forest Service mission. Needs 
            are related to administration and providing services 
            (transportation, recreation, grazing, etc.) that do not 
            fall into the H&S or Resource categories.

  3.  Health and safety (H&S) work items are necessary to address 
            immediate threats to human health and safety.

    In the Date Needed column, you normally should write in the last 
day of the fiscal year in which the work needs to be performed.
    Check the box in the Critical column only if completion of the work 
item is necessary to correct a serious and immediate threat to health 
or safety, a natural or cultural resource, or the ability of the Forest 
Service to carry out its mission. Other work items necessary to address 
potential risks to public or employee safety or health; compliance with 
codes, standards, regulations, etc.; or needs that address potential 
adverse consequences to natural resources or mission accomplishment are 
considered non-critical. For example:

  <bullet> Complying with Notices of Violation (Occupational Safety and 
        Health Administration [OSHA], Environmental Protection Agency 
        [EPA], etc.) is a critical health and safety need.

  <bullet> Preventing irreversible damage to or loss of a historic 
        structure is a critical resource protection need.

  <bullet> Providing accessibility for people with disabilities is a 
        non-critical health and safety need.

  <bullet> Complying with Federal, State, and local building codes is a 
        non-critical health and safety need.

  <bullet> Making modifications to accommodate increased visitation is 
        a non-critical mission need.

  <bullet> Energy efficiency or renewable energy retrofits are a non-
        critical mission need.

    Please DO check your data to ensure that everything is entered 
correctly, including the unit of measure.
Inspection Tips
    Experienced inspectors provided the following tips to help you 
perform a quicker, more effective inspection.

  <bullet> Use two people to survey large labs or office buildings. One 
        person can measure while the other records.

  <bullet> Use a set of as-built plans (if available) to count light 
        fixtures, windows, etc.

  <bullet> If you don't have as-built plans, sketch a simple floor plan 
        as you inspect to show doors, windows, flooring types, and 
        dimensions. Keep the sketch in the building file for future 
        reference.

  <bullet> Builders often use rules of thumb to estimate quantities. 
        You can, too, where it seems prudent. For instance:

    b Multiply the gross square feet of the finished area of a house by 
            4.5 for a good approximation of the total square feet of 
            gypsum board that would be needed to completely replace the 
            gypsum board inside the house. If the garage is a full-
            finish structure, multiply its square footage by 2.25 and 
            then add the result to the house total. A reasonable 
            multiplier for small office buildings is 3.2.

      <diamond> These estimating multipliers also work for repainting 
            the entire interior.

    b Each region has a cooling ratio that is either implied or 
            dictated by the local building officials. The ratio states 
            how many square feet can be conditioned per ton of cooling. 
            If you know this ratio, you can easily estimate the tons of 
            cooling capacity needed for the building.

      <diamond> Use the adjustment factors shown in table 1 to figure 
            the roof area on the 
              slope, if you know the roof pitch and the horizontal area 
            covered by the roof 
              (including overhangs). Multiply the covered area by the 
            adjustment factor.

                                 Table 1
------------------------------------------------------------------------
             Roof Slope                        Adjustment Factor
------------------------------------------------------------------------
                3 in 12                                 1.031
                4 in 12                                 1.054
                6 in 12                                 1.118
                8 in 12                                 1.202
               12 in 12                                 1.414
------------------------------------------------------------------------

  <bullet> After entering the work items into the NRM Infra database, 
        check your entered data to ensure that you entered everything 
        correctly and that you used the unit of measure the work item 
        requires.

    b Enter roofing and siding quantities in 100 square feet units 
            (CSF), not square feet units (SF).

    b Enter parking lot seal coat in 10,000 square feet units (M.S.F.), 
            and parking lot resurfacing in 1,000 square feet units 
            (MSF).

  <bullet> A work item is deferred maintenance if the material has been 
        in place longer than the typical life cycle listed on the page 
        for each work item. A carpet that was installed in 2000 and 
        inspected in 2012 was 12 years old when inspected. Because the 
        life cycle for carpeting is 8 years, replacing the carpet would 
        be considered deferred maintenance using the Forest Service 
        standard, even if the carpet was still in good condition. 
        Whether you agree with this logic or not, please conform to the 
        standard so our practices remain uniform and defensible.

  <bullet> A list of survey tools a facility inspector may wish to take 
        along to increase efficiency when performing condition 
        assessment inspections is available at http://
        fsweb.wo.fs.fed.us/eng/programs/facilities/documents/
        ToolList.doc.
Work Items
    The remainder of this guide consists of information about the 
standard work items. Each work item has its own page that includes a 
photo or two depicting the item as well as information to help you 
decide whether the item applies to the building you're inspecting, how 
often this work normally is needed, and how to measure and record the 
quantity of work. This guide includes much of the information included 
in the ``Building Work Items Data Dictionary'' http://
fsweb.wo.fs.fed.us/eng/programs/facilities/documents/
BldgsWIDDictionary.pdf.
    In the interest of minimizing the number of work items, similar 
work is sometimes grouped together under a single work item. The actual 
replacement costs for these similar items aren't identical, so a 
representative cost is used. The work item title may not reflect the 
range of work covered by the item. Check the considerations bullets for 
more information about the work included in the item.
    If the standard work items don't cover needed major maintenance 
work, you may need to create a custom work item, as explained following 
the standard work item pages.
Notes
Work Item 01001--Building Replacement, Complete
    Definition: Remove and replace an entire building (figures 2 and 
3).
    Unit of Measure: lump sum (LS).
    Typical Life Cycle: 50 years.

  <bullet> A well constructed and maintained building can last several 
        hundred years, and a poorly constructed and maintained building 
        may become unusable in a decade or 2. Base the replacement 
        decision on the condition and function and not the age of the 
        building.

    Considerations:

  <bullet> Replacement is justified if a building is still needed, but:

    b Deferred maintenance costs exceed the current replacement value 
            shown in the NRM Infra database.

    b The building becomes functionally obsolete.

    b The building cannot be modified to meet accessibility standards.

  <bullet> Check the Facilities Master Plan (FMP) to see whether the 
        building is needed.

  <bullet> Decide whether this work item is appropriate based on the 
        FMP decision and the building's condition.

  <bullet> If this item is selected, DO NOT record any other work items 
        for this building.
Figure 2 *
---------------------------------------------------------------------------
    * Editor's note: the following figures, in addition to having a 
text descriptor, have a description embedded in the picture. These are 
captured in this publication as well and immediately follow the figure 
as an italic descriptor.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an old barn building next to a newer, larger barn. 
        The old barn's foundation posts are leaning and the door is 
        propped open with a board braced against the ground.
          This old barn is in extremely poor condition. If the 
        Facilities Master Plan shows a continuing need for barn or 
        storage space here, the barn should be replaced. If not, the 
        barn should be removed.
Figure 3

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an older wood-framed and wood-sided vault toilet 
        with a fiberglass roof, The building is only about 4 wide by 
        4 deep. Green algae is growing up the siding from the concrete 
        slab foundation and there are holes in the bottom of the siding 
        in three places.
          Buildings that can't be modified to meet accessibility 
        requirements need to be replaced, if the function they provide 
        is still required. This outhouse is too small to provide the 
        required turning space.
Work Item 02001--Parking Lot, Repair and Seal Coating (per 10,000 S.F.)
    Definition: Perform minor repairs, apply emulsified asphalt seal 
coat to the asphalt-paved surface, and paint traffic and parking 
markings (figure 4).
    Unit of Measure: 10,000 square feet (M.S.F.).

  <bullet> To determine the number of units, calculate the total area 
        in square feet, then divide by 10,000. Round to the nearest 
        tenth. Enter this number as the quantity. Example: 67,543 SF & 
        10,000 (SF per M.S.F.) = 6.7543 M.S.F. Rounded to the nearest 
        tenth = 6.8 M.S.F.

    Typical Life Cycle: 5 years.
    Considerations:

  <bullet> Includes thoroughly cleaning the surface, patching holes, 
        filling cracks, applying two coats of petroleum emulsion, and 
        restriping the parking lot.

  <bullet> Includes asphalt seal only, not chip seal; use a custom item 
        for chip seal.

  <bullet> Asphalt parking lots need to be maintained with an 
        emulsified asphalt seal coat about every 5 years to maximize 
        pavement life.

  <bullet> Use only for pavement associated with a building, not a 
        road.

  <bullet> Use only for parking lots that are in relatively good 
        condition.
Figure 4

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an asphalt parking lot with faded parking 
        delineation paint and a few cracks that have been coated with 
        tar.
          This supervisor's office parking lot is in pretty good 
        condition, but could use a seal and repainting.
Work Item 02002--Parking Lot, Repair and Resurface
    Definition: Repair defects, place 2" thick asphalt pavement overlay 
on asphalt-paved surfaces, and paint traffic and parking markings 
(figure 5).
    Unit of Measure: 1,000 square feet (MSF).

  <bullet> To determine the number of units, calculate the total area 
        in square feet, then divide by 1,000. Round to the nearest 
        tenth. Example: 485 SF & 1,000 SF per MSF = 0.485 MSF. Rounded 
        to the nearest tenth = 0.5 MSF.

    Typical Life Cycle: 10 years.

  <bullet> Asphalt pavement may last much longer if properly 
        maintained.

    Considerations:

  <bullet> Includes thoroughly cleaning the surface, patching holes, 
        filling cracks, applying an emulsion tack coat, laying an 
        asphaltic concrete wearing course, and restriping the lot.

  <bullet> Use only for pavement associated with a building, not a 
        road.

  <bullet> Use when the aggregate base is generally sound but the 
        asphalt is broken up, has potholes, and, in general, is in poor 
        but salvageable condition.
Figure 5

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an area paved with asphalt in poor condition behind 
        two buildings.
          The raveling, developing potholes, and alligatoring on this 
        parking lot and driveway can't be cured by a seal coat; it 
        should have an asphalt overlay.
Work Item 02003--Concrete, Sidewalk or Curb, Remove/Replace
    Definition: Replace concrete or asphalt curbs (figure 6) or 
sidewalks (figure 7).
    Unit of Measure: linear feet (LF) of sidewalk or curb.

  <bullet> Sidewalk only: measure linear feet to the nearest foot for a 
        sidewalk that is 24" to 48" wide. If the sidewalk is wider than 
        48", record proportionally more length.

  <bullet> Curb only: measure linear feet to the nearest foot.

  <bullet> Both sidewalk and curb: measure linear feet of each to the 
        nearest foot and add the lengths together.

    Typical Life Cycle: 25 years.

  <bullet> Concrete typically has a long life, but may become degraded 
        because of overloading or poor initial construction. Continued 
        exposure to freeze-thaw cycles may shift alignment vertically 
        or horizontally, creating tripping hazardsand making surfaces 
        nonaccessible.

    Considerations:

  <bullet> Includes removing the existing sidewalk or curb, placing a 
        3" thick, vibratory-plate-compacted aggregate base and a 4" 
        thick, broom-finished concrete sidewalk or formed curb with 
        gutter.

  <bullet> Does not include repair work, such as patching or grinding, 
        which is minor maintenance.
Figure 6

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a section of concrete curb and gutter at the edge of 
        an asphalt-paved parking lot. The concrete is cracked about 
        every 2, with chipping and spalling at most of the cracks.
          This curb and gutter are deteriorating and no longer provide 
        good drainage flow, so they should be replaced.
Figure 7

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of two sidewalks leading to the back door of a wood-
        sided Forest Service residence. The left sidewalk is 
        perpendicular to the bade wall of the house and has an 1\1/2\" 
        high ``step'' where the walk cracked and part of it settled. 
        The right sidewalk is parallel to the back wall of the house 
        and has a 2" wide gap in the concrete at a joint where the 
        sidewalk separated.
          Two short sections of this sidewalk should be replaced to 
        correct the vertical alignment shift on the left and the 
        horizontal shift on the right. Use work item 15001 to record 
        the needed work to provide accessibility at the door.
Work Item 02004--Fence, All, Remove/Replace or Install New
    Definition: Remove and replace existing fencing (figure 8) and 
gates (figure 9).
    Typical Life Cycle: 20 years.
    Unit of Measure: linear feet (LF) of fence.

  <bullet> Measure to the nearest foot the linear feet of the section 
        of fence that needs to be replaced.

    Considerations:

  <bullet> Includes replacing worn-out fences of all standard quality 
        types (worm, picket, chain link, barbed wire, etc.) regardless 
        of height or material, including gates.

  <bullet> Does not include premium quality fencing, such as 
        replicating an elaborate historic pattern or extensive use of 
        exotic hardwoods. If such work is necessary, it is a custom 
        item.

  <bullet> Does not include fence repair or routine maintenance, such 
        as tightening wires, staining, or replacing a couple of 
        pickets.
Figure 8

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a low post-and-rail fence beside a sidewalk in back 
        of a wood-sided Forest Service office. Part of the fence is 
        leaning away from the viewer.
          Although the stain hides most of the deficiencies, the posts 
        of this fence are rotted at the base, cracked at the top, and 
        the rails are deteriorated. This fence should be replaced.
Figure 9

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a man standing beside a partly opened gate in a tall 
        chain-link fence with three strands of barbed wire on top. A 
        chain and padlock hang from the fence next to the gate latch. 
        The fence separates a parking lot from a wareyard.
          This gate may still be fine for use in a low-security area, 
        even though the wire panel is warped. If the gate is in an area 
        with high-security needs, it should be replaced.
Work Item 02005--Electric, Outdoor Pole Lights, Remove/Replace or 
        Install New
    Definition: Remove and replace an outdoor light fixture, complete 
with supporting pole or bollard (figure 10).
    Typical Life Cycle: 20 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes replacing security or parking lot site light 
        fixtures. Does not include replacing landscape lights, wall 
        packs, or other less expensive outdoor lights, which are 
        included in work item 13004.

  <bullet> Includes turning the branch circuit off, positioning the 
        truck, raising and lowering the boom bucket, removing and 
        installing the pole and 400 W HPS fixture with lamp and 
        ballast, testing the pole-mounted fixture, and turning the 
        branch circuit back on.

  <bullet> Consider relamping costs (labor, equipment, and frequency of 
        bulb replacement) when choosing new site lights. Relamping site 
        lights is an operations expense.

  <bullet> Before recording this item in the NRM Infra database, check 
        to ensure that the Forest Service owns the light(s). Many 
        utility companies retain ownership of site lights and charge 
        monthly rent for them. If a utility company owns the light, 
        have them replace it.
Figure 10

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a cobra head yard light atop a wood pole behind a 
        brick Forest Service office. The light illuminates a parking 
        lot.
          This parking lot light pole has a distinct lean and minor rot 
        at the base. The light fixture lens is cracked. The fixture and 
        pole should be replaced.
Work Item 03001--Concrete Slab or Stem Wall, Minor Repair, Spalls & 
        Cracks
    Definition: Repair concrete stem walls, retaining walls (figure 
11), slabs (figure 12), etc.
    Typical Life Cycle: 15 years.

  <bullet> Concrete slabs and stem walls last indefinitely unless 
        adversely affected by soil movement, overloading, or poor 
        initial construction (inadequate base, poor-quality concrete, 
        overworked finish, inadequate control joints, etc.). Typical 
        ``wearing-out'' life cycles don't usually drive the need to 
        repair concrete on buildings.

    Unit of Measure: square feet (SF).

  <bullet> Calculate the square feet of the concrete slab or wall that 
        needs work.

    Considerations:

  <bullet> Includes extensive nonstructural repairs or sealing cracks 
        and spalls on formed concrete and concrete masonry units that 
        are part of a building, including entry sidewalks, ramps, and 
        cracked slabs in open buildings, such as carports or picnic 
        shelters.

  <bullet> Does not include major overlay, repair, or replacement 
        because of failure of the wall or slab. Does not include stone 
        or brick masonry work. Use a custom item for such work.
Figure 11

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a thick concrete wall with a stone cap that 
        separates a grass lawn from an outdoor stairway.
          This wall remains sturdy, but the surface layer of the 
        concrete is peeling off. The surface layer should be removed 
        and refinished.
Figure 12

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of a joint in a concrete walkway slab at the 
        entrance to a building.
          This concrete slab is cracked and is spalled at the edge of 
        the control joint. The deficiencies should be repaired.
Work Item 04001--Basic Roof, Fiberglass Shingles, Removal/Replacement
    Definition: Remove and replace standard-quality, moderate-cost 
roofing (figures 13 and 14).
    Typical Life Cycle: 20 years.
    Unit of Measure: square (SQ) of roofing.

  <bullet> A square of roofing covers about 100 square feet.

  <bullet> Calculate the square feet of roof on the slope and divide by 
        100; round up to the nearest square.

    Considerations:

  <bullet> Includes standard-cost asphalt or fiberglass shingles (30 
        year shingle or less); V-crimp metal roofing; delta-rib, 
        exposed-fastener metal roofing; asphalt-roll roofing; or other 
        moderate-cost roof materials that typically have about a 20 
        year life cycle.

  <bullet> Includes setting up, securing, and taking down the ladder; 
        removing existing roofing; removing damaged metal flashing; 
        installing 15 pound roofing felt; installing new aluminum 
        flashing; installing roofing; and cleaning up.

  <bullet> Does not include repair work; fixing isolated leaks is 
        operations or minor maintenance work that needs to be completed 
        as soon as possible.

  <bullet> Does not include replacing sheathing or vents, other than 
        integral ridge vents.
Figure 13

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a small, wood-sided Forest Service ``gas house'' 
        with a wood-shingle roof that is about half covered with a 
        thick growth of moss.
          Timely operations and maintenance work, especially moss and 
        debris removal, could have extended the life of this roof. The 
        roofing has deteriorated to the point that it should be 
        replaced.
Figure 14

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of an asphalt-shingle roof on a Forest Service 
        warehouse building.
          This roof has many patches of missing shingles and the 
        remaining shingles are in poor condition. The roof probably 
        leaks in several places. The shingles should be replaced.
Work Item 04002--Premium Roof, Metal/Membrane/Shakes, Removal and 
        Replacement
    Definition: Remove and replace premium-quality roofing (figures 15 
and 16).
    Typical Life Cycle: membrane--20 years; wood, tile, or 
architectural-grade shingles--30 years; standing-seam metal--50 years.
    Unit of Measure: square (SQ) of roofing.

  <bullet> A square of roofing covers about 100 square feet.

  <bullet> Calculate the square feet of roof on the slope and divide by 
        100; round up to the nearest square.

    Considerations:

  <bullet> Includes replacing wood shakes or shingles; tile roofing; 
        standing-seam metal roofing; slate-, shingle-, or tile-
        patterned metal roofing; single-ply membrane roofing; 
        architectural-grade composition shingles; and other premium-
        quality roofing.

  <bullet> Includes setting up, securing, and taking down the ladder; 
        removing existing roofing; removing flashing metal; installing 
        new flashing; installing a new roof system, including felt or 
        an underlayer; and cleaning up.

  <bullet> Because removing and reinstalling rooftop equipment, such as 
        condensing units, is often required, a crane might be needed to 
        remove and reinstall equipment. The cost of this work is 
        reflected in this standard work item.

  <bullet> Does not include replacing nonfunctioning or inadequate 
        roof-mounted equipment or vents. Use a custom item for such 
        work if the work is a major expense.

  <bullet> Does not include repair work; fixing isolated leaks is 
        operations or minor maintenance work that needs to be completed 
        as soon as possible.
Figure 15

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of an asphalt-shingle roof on a Forest Service 
        warehouse building.
          This roof membrane has been patched so many times that it 
        should be replaced the next time it springs a leak.
Figure 16

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of a standing-seam metal roof on a partially 
        earth-sheltered wood-sided Forest Service building.
          This standing-seam roofing is rusting and has come apart in 
        several places, including at one seam that has been ``fixed'' 
        with caulking. The roofing should be replaced.
Work Item 04003--Skylight, Remove/Replace
    Definition: Remove and replace a typical, unvented, non-opening 
skylight (figure 17).
    Typical Life Cycle: 30 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing bubble-type or similar 
        skylights that are broken, brittle, or no longer transmit 
        daylight.

  <bullet> Includes setting up and securing the scaffold, removing the 
        skylight, removing flashing, installing new flashing, 
        installing the new skylight, and removing scaffold.

  <bullet> Skylight leaks usually come from worn-out or improperly 
        installed flashing. They may leak through the frame if the 
        frame has separated. Skylights seldom leak through the glass or 
        plastic unless a crack or break is visible.

  <bullet> Do not reuse the existing flashing.

  <bullet> It may be necessary to replace some of the roofing 
        immediately surrounding the skylight to properly install new 
        flashing; such work is included in this item.
Figure 17

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of a rectangular domed skylight set in a sloped 
        composition-shingle roof on a wood-sided Forest Service 
        restroom building.
          This building has typical bubble-type skylights. This 
        skylight probably leaks during windblown, heavy rain because of 
        the separated flashing at the lower end. Carefully evaluate 
        whether to replace the skylight or just repair the flashing and 
        roofing.
Work Item 04004--Gutters/Downspouts, Remove/Replace
    Definition: Remove and replace downspouts (figure 18) and gutters 
(figure 19).
    Typical Life Cycle: 15 years.
    Unit of Measure: linear feet (LF).

  <bullet> Measure the length of both gutters and downspouts, including 
        downspout returns, and add all segments for total linear feet.

    Considerations:

  <bullet> Unless downspouts are directly piped into an underground 
        stormwater system, include minimum 3 downspout returns to 
        carry water away from the building (even if the existing 
        downspouts don't have returns).
Figure 18

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of the bottom of a square metal downspout with 
        peeling paint. A compressed section is directly above ground 
        level. It is visibly plugged with pine needles.
          This downspout is crushed and plugged and should be replaced.
Figure 19

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of a section of collapsed gutter above the front 
        door of a wood-sided Forest Service residence. The back of the 
        gutter remains securely screwed to the fascia, but the outside 
        wall of the gutter has been bent down so that it is nearly 
        perpendicular to the ground, and the end seam has burst.
          An ice dam overloaded this gutter. The outside edge of the 
        gutter is detached from the clip supports and is bent out and 
        down. The end seams have burst. This gutter should be replaced.
Work Item 05001--Steps, Exterior, Remove/Replace
    Definition: Remove and replace exterior steps made from concrete 
(figure 20), wood, or other materials.
    Typical Life Cycle: 20 years.
    Unit of Measure: step, each (STEP, EA).

  <bullet> Count the stair risers to determine the number of steps. For 
        example, the photo shows three risers, for a count of ``3 EA.''

    Considerations:

  <bullet> Includes replacing exterior steps from 2 to 12 high that 
        are deteriorated or don't meet code requirements for existing 
        buildings.

  <bullet> Does not include tread resurfacing, painting, etc., which 
        are operations or minor maintenance expenses.

  <bullet> Does not include replacing railings. Use work item 05003 for 
        railings.

  <bullet> Does not include replacing the porch, deck, or stoop. Use 
        work item 05002 for a wood deck or porch or a custom item for a 
        concrete porch or stoop.
Figure 20
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a concrete porch and two concrete steps. Corners of 
        two steps have broken off, the front edge of the steps have 
        become rounded because of deterioration, and the surface of 
        both treads and parts of the risers has spalled off, revealing 
        the aggregate.
          These deteriorated concrete steps are a tripping hazard and 
        should be replaced.
Work Item 05002--Wood Decks, Removal/Replace
    Definition: Remove and replace a deteriorated wood (figure 21) or 
plastic composite deck or porch.
    Typical Life Cycle: 20 years.

  <bullet> If the ultraviolet-resistant finish on wood decks is 
        reapplied as needed, the boards should last about 20 years. If 
        not, they may last no more than 10 to 15 years.

    Unit of Measure: square feet (SF).

  <bullet> Calculate the total square feet of deck that needs to be 
        replaced.

    Considerations:

  <bullet> Includes replacing wood decking, stringers, the 
        substructure, and the foundation.

  <bullet> Does not include railings. Use work item 05003 for railings.

  <bullet> Does not include washing, sealing, or waterproofing, which 
        are operations or minor maintenance expenses.
Figure 21
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          View of a partly snow-covered porch with wood board decking 
        on a concrete foundation, with two concrete steps. Two gaps are 
        visible where deck boards are missing.
          The decking on this porch is badly deteriorated. Most of the 
        boards are buckled and several are missing. The decking should 
        be replaced. The joists supporting the deck are probably also 
        rotten and should be replaced.
Work Item 05003--Railing, Porch & Deck, Remove/Replace
    Definition: Remove and replace standard-quality exterior guardrail 
(figures 22 and 23) and handrail around porches and decks and along 
steps and ramps.
    Typical Life Cycle: 20 years.
    Unit of Measure: linear feet (LF).

  <bullet> Measure the total length in feet of railing to be replaced.

    Considerations:

  <bullet> Includes porch, deck, and stairway rails that are 
        deteriorated or don't meet code requirements for the intended 
        use of the structure.

  <bullet> Includes all usual materials, including dimensioned lumber, 
        plastic composites, and metal.

  <bullet> Includes replacing a complete railing system 36" to 42" 
        high, including guardrails and the required scaffolding to 
        accomplish the task.
Figure 22
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a wood-framed guardrail with woven wire panels. The 
        top rail is missing above four of the panels.
          This guardrail is in worse condition than is evident in a 
        photo of this size. Aside from the missing boards, many of the 
        bottom rails and posts are not attached to the structure, many 
        of the boards are rotted nearly through, fruiting fungi are 
        growing on many of the boards and posts, and some of the wire 
        panels are held in place with zip ties. The guardrail needs to 
        be completely replaced.
Figure 23
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of part of the middle rail of an observation 
        deck guardrail. Rot is visible on a 2 long section of the top 
        of the rail. Part of the rotten wood has fallen off,
          This guardrail board on an overlook tower is rotten. If it's 
        the only rotten board, replacement is considered operations 
        work that should be completed as soon as possible. If most of 
        the boards are rotten, the entire guardrail should be recorded 
        under item 05003 and replaced.
Work Item 06001--Siding, All Types, Remove/Replace
    Definition: Remove and replace siding (figures 24 and 25).
    Typical Life Cycle: 25 years.
    Unit of Measure: 100 square feet (CSF).

  <bullet> Calculate the square feet of all siding areas to be 
        replaced, then divide by 100.

  <bullet> Do not deduct for door and window openings.

    Considerations:

  <bullet> Includes removing all types of siding (cement board, wood, 
        EIFS, plywood, aluminum, vinyl, hardboard, etc.) and replacing 
        it with the Forest Service standard: fiber cement board or 
        similar. Includes eaves, trim, fascia, and proper flashing 
        around windows and doors.

  <bullet> Includes setting up, securing, and taking down the ladder. 
        Includes painting the new siding.
Figure 24
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of part of the front of a Forest Service building with 
        wood lap siding and a metal roof.
          This is not the original siding, and it's in poor condition. 
        Most siding boards are damaged and some siding is missing near 
        the door where knee braces for an entrance hood were removed. 
        This replacement siding should be replaced.
Figure 25
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of wood shingles on part of an outside wall of a 
        Forest Service building. Many shingles are broken, rotten, or 
        warped and some have been partly dislodged.
          This shingle siding is worse in some places than in others, 
        but all the siding is weather damaged and brittle and should be 
        replaced.
Work Item 06002--Door, Exterior, Remove/Replace
    Definition: Remove and replace an exterior pedestrian door (figures 
26 and 27).
    Typical Life Cycle: 20 years.
    Unit of Measure: each (EA).

  <bullet> ``Each'' means each door. Double doors are counted as 2 EA. 
        An entry with both a door and a screen door is counted as 2 EA 
        if both need to be replaced.

    Considerations:

  <bullet> Includes replacing pedestrian doors up to 4 wide and 8 
        tall (any material-wood, aluminum, steel, etc.), insulated 
        vision pane glass (if any), doorframes, closers, and all 
        commercial hardware and locksets.

  <bullet> Does not include metal-framed glass storefront-type door 
        surrounds, only the door. Use item 07006 for windows not 
        included within doors.

  <bullet> Does not include custom replication of fancy historic door 
        styles. Use a custom item for such work.
Figure 26
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a small storage building with a badly deteriorated 
        Craftsman style door. Some siding boards are cracked or broken.
          The broken-out glass could be replaced, but the delaminating 
        panels on this door can't be repaired without expert 
        restoration skills. Preservation requirements determine whether 
        this historic building's door should be replaced in kind or 
        restored.
Figure 27
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a deteriorated door in an exterior wall. On the 
        bottom quarter of the door, the surface layers are peeling off 
        the pressed wood core and some of the surface layer is missing. 
        The bottom left side of the door frame trim is rotted and 
        cracked.
          This door looks like an interior door that was mistakenly 
        installed on an exterior wall. It is badly deteriorated and 
        should be replaced with an exterior door.
Work Item 06003--Door, Garage, Overhead Door
    Definition: Remove and replace overhead doors (figures 28 and 29).
    Typical Life Cycle: 20 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and disposing of doors up to 16 wide and 
        9 high that are broken, rotten, or nonfunctional, including 
        old swinging or sliding doors that need to be replaced with 
        modern overhead doors.

  <bullet> Includes all door materials (wood, steel, fiberglass, etc.) 
        along with any vision panes, rollers, springs, and hardware.

  <bullet> Does not include replacing swinging or sliding historic 
        garage or warehouse doors in kind. Use a custom item to replace 
        historic doors in kind.
Figure 28
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of part of a warehouse and loading dock, centered on a 
        large four-panel overhead door. An irregularly shaped scrape 
        that is about 6 long and 1 high is evident on the bottom 
        panel of the door.
          This overhead warehouse door is damaged. Because several 
        layers of plywood were peeled off the panel, the strength of 
        the door is compromised. The door should be replaced.
Figure 29
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of the end of a garage with a bent and bowed overhead 
        garage door. The four-panel door has windows all across the 
        width of the second panel from the top.
          This residential garage door is warped and does not open 
        properly. The door should be replaced.
Work Item 06004--Painting, Exterior, Includes Prep, Prime and Paint
    Definition: Repaint the exterior of a building, including 
preparation and prime coat (figures 30 and 31).
    Typical Life Cycle: 5 years.

  <bullet> Typical life cycle is for paint on wood siding and trim. 
        Some other finishes, such as paint on cement composite siding 
        or semitransparent stain on wood siding, may last longer.

    Unit of Measure: square feet (SF).

  <bullet> Calculate the gross square feet of the surface area to be 
        painted. Do not deduct for openings, such as doors and windows.

    Considerations:

    Includes surface preparation, caulking (if needed), a full or spot 
prime coat (as needed), and painting or staining of all exterior 
surfaces, including trim, with latex paint or water-based stain.

  <bullet> Use this item regardless of how many coats of paint are 
        actually needed, the type of paint (oil base, latex, stain, 
        etc.), or the type of siding being painted.

  <bullet> Does not include lead paint removal. Use work item 16001 for 
        removing lead paint.
Figure 30
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a building with wood Dutch-lap siding. The building 
        has a partial second floor under the roof. The building has two 
        doors, five windows, and a brick chimney 1extending above the 
        wood-shingle roof.
          Although the paint is peeling badly, the wood siding of this 
        historic building is in decent condition. New paint will keep 
        the siding serviceable. Because it's a historic building, old 
        layers of paint may contain lead, requiring special preparation 
        (see work item 16001). Follow the building preservation plan 
        and use historic colors when repainting.
Figure 31
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of part of an outside building wall and a wood-
        framed, double-hung window. There is little stain left on the 
        siding and some portions have darkened. Nearly all the paint on 
        the window frame is peeling.
          The T1-11 siding should be cleaned and restained with a 
        semitransparent penetrating stain. Loose paint should be 
        scraped or sanded from the window frame and trim before they 
        are primed and repainted.
Work Item 07001--Doors, Interior, Remove/Replace
    Definition: Remove and replace an interior door (figure 32).
    Typical Life Cycle: 30 years.
    Unit of Measure: each (EA).

  <bullet> ``Each'' means each door. Double doors are counted as 2 EA.

    Considerations:

  <bullet> Includes replacing worn-out, damaged, or nonfunctioning 
        interior doors up to 4 wide and 8 tall, whether solid or 
        hollow core; wood, steel, fiberglass, or other standard-grade 
        material; casing; and hardware of all types.

  <bullet> Includes removing the old doors, doorframes, hardware, and 
        door closers (if any); installing new doorframes, hinges, 
        vision panes (if any), and doors; and replacing or reinstalling 
        the door casing, closers, and latches.

  <bullet> Does not include luxury-grade doors or custom replication of 
        fancy historic door styles. Use a custom item for such work.
Figure 32
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a wood-faced, flat-slab interior door and frame. The 
        face veneer is pulling away from the door on both sides.
          This interior door is delaminated at the top and should be 
        replaced. Although only the door should be replaced (not the 
        frame or hardware), use item 07001 and its standard cost. To 
        improve accessibility, the knob should be replaced with a 
        lever-type handle.
Work Item 07002--Toilet Partitions, Per Stall, Remove/Replace
    Definition: Remove and replace a toilet partition (figure 33) or 
urinal screen (figure 34).
    Typical Life Cycle: 20 years.

  <bullet> Partitions often need to be replaced because of vandalism or 
        abuse rather than for exceeding their expected life.

    Unit of Measure: each (EA).

  <bullet> Count each complete stall or each urinal screen as 1 EA.

    Considerations:

  <bullet> Includes removing and replacing all types and sizes of 
        partitions and doors, all types of hardware and mounting 
        systems, and cleaning up.

  <bullet> Replacement partitions should be the Forest Service 
        standard-solid phenolic resin. Because of durability and 
        graffiti concerns, do not install wood or painted metal 
        partitions in locations used by the public.
Figure 33
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of part of four stalls in a restroom. The door of one 
        stall has been replaced with an unpainted piece of plywood, 
        fastened to the stall frame with heavy-duty hinges that don't 
        match the hinges on the rest of the stall doors.
          Although the obvious problem is the mismatched plywood stall 
        door, all these partitions and doors are constructed of aging 
        plastic laminated to pressed board. The edges of the partitions 
        and doors are chipped, some are delaminating in places, and 
        some are warped. The doors and partitions should be replaced.
Figure 34
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a urinal and adjacent painted metal privacy screen. 
        The screen has extensive rust, especially on the portion that 
        is beside the urinal catch basin.
          This urinal screen began to rust after the painted finish 
        became scratched and chipped. The screen should be replaced.
Work Item 07003--Drywall, Install & Taped, Remove/Replace
    Definition: Remove and replace gypsum wallboard (figures 35 and 
36).
    Typical Life Cycle: 75 years.

  <bullet> Replacement is usually needed because of water damage, 
        vandalism, or abuse and is not typically related to the 
        expected life of the product.

    Unit of Measure: square feet (SF).
    Measure the replacement area to the center of the next nearest 
support (stud, joist, etc.), because replacement material must be 
fastened to a support. Calculate the total square feet to be replaced.

    Considerations:

  <bullet> Includes taping and texturing \1/2\" or \5/8\" thick type X 
        gypsum wallboard (also called drywall, plasterboard, or 
        Sheetrock).

  <bullet> Includes removing other wall surfacing, such as plywood or 
        pressed-board paneling, and replacing it with gypsum wallboard.

  <bullet> Does not include painting. Use work item 09001 for painting.

  <bullet> Does not include in-kind replacement of plaster, premium 
        wood paneling, or other high-end wall surfaces. Use a custom 
        item for such work.
Figure 35
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of part of a ceiling. Water drops cling to the 
        painted surface in three large areas. Water coming through the 
        ceiling caused the paint on one area to bubble down from the 
        ceiling.
          Water damage from a leaking roof ruined this gypsum wallboard 
        ceiling. The paint is probably the only thing keeping the 
        ceiling in place, because exposure to water degrades the 
        structural integrity of ordinary gypsum wallboard. After the 
        roof is repaired, the gypsum wallboard ceiling should be 
        replaced. See item 16002--Environmental Mitigation, if there is 
        mold.
Figure 36
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of part of a floor and wall next to an open 
        door. The bottom of the wall is fluted because of swelling and 
        delamination of the paper surface layer of the gypsum wallboard 
        caused by water.
          Water damage from a burst pipe during the off-season caused a 
        flood in this crew-quarters building that damaged the bottom of 
        all the kitchen walls. The damaged gypsum wallboard should be 
        replaced.
Work Item 07004--Cabinets, Kitchen, Remove/Replace
    Definition: Remove and replace built-in cabinetry and countertops 
(figure 37).
    Typical Life Cycle: 30 years.
    Unit of Measure: linear feet (LF).

  <bullet> Measure linear feet along the wall from one end of the 
        cabinets to the other end.

  <bullet> All cabinets along the same wall are measured together for 
        this work item. The cost per linear foot includes base cabinets 
        and wall cabinets or either of these components alone. For 
        example, if only upper cabinets will be replaced, enter the 
        total length of the upper cabinets under this work item. Do not 
        reduce the length entered because the base cabinets will not be 
        replaced.

    Considerations:

  <bullet> Includes removing and replacing all types of worn-out, 
        broken, or nonfunctioning cabinets, except laboratory cabinets, 
        in all locations. Use item 07005 for laboratory cabinets.

  <bullet> Includes countertops, base cabinets, wall cabinets, hinges, 
        and pulls.

  <bullet> Does not include cabinet repair or refinishing, which could 
        be operations or minor maintenance work or a custom work item 
        if the expense is significant.
Figure 37
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          View of a kitchen wall with old wooden cabinets and a wide, 
        sliding, wood-framed window above the sink. The paint has come 
        off the cabinet drawers and doors in several places.
          Although the doors are crooked and the drawers don't slide 
        easily, these cabinets are still functional. Because they are 
        sturdier than most modern cabinets, it may be better to fix 
        than to replace them, especially if they have historic 
        significance.
Work Item 07005--Cabinets, Laboratory, Remove/Replace
    Definition: Remove and replace built-in laboratory cabinetry and 
countertops (figures 38 and 39).
    Typical Life Cycle: 40 years.
    Unit of Measure: linear feet (LF).

  <bullet> Measure linear feet along the wall from one end of the 
        cabinets to the other end.

  <bullet> All cabinets along the same wall are measured together for 
        this work item. The cost per linear foot includes base cabinets 
        and wall cabinets or either of these components alone. For 
        example, if only base cabinets will be replaced, enter the 
        total length of the base cabinets under this work item. Do not 
        reduce the length entered because wall-hung upper cabinets are 
        not needed.

    Considerations:

  <bullet> Includes removing and replacing worn-out, broken, or 
        nonfunctioning chemical-resistant countertops, base cabinets, 
        and wall cabinets.

  <bullet> Does not include cabinet repair or refinishing, which could 
        be operations or minor maintenance work, or a custom item if 
        the expense is significant.
Figure 38
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an old, painted steel base cabinet supporting a lab 
        sink. One cabinet door under the sink won't close completely.
          This old lab cabinet has remained in use for more than 50 
        years, and it shows. Rust and pitting are extensive. The 
        cabinet should be replaced.
Figure 39
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a clear-finish wood cabinet supporting a lab sink 
        and counter. One cabinet door has a large horizontal scratch. 
        The cabinet finish is stained and deteriorating in a few 
        places.
          This wooden lab cabinet and countertop look as though they 
        are in poor condition. However, a thorough cleaning and 
        refinishing will probably restore them. They still function 
        well.
Work Item 07006--Window, Remove/Replace
    Definition: Remove and replace a window (figure 40).
    Typical Life Cycle: 30 years.
    Unit of Measure: each (EA).

  <bullet> Count each window unit as 1 EA. Window units are separated 
        by a section of wall or by a vertical support mullion, as shown 
        in figure 41. The paired components of sliding or double-hung 
        windows are counted as one window unit.

    Considerations:

  <bullet> Includes removing and replacing existing windows with new 
        windows that meet the Forest Service standard (good quality, 
        thermally efficient). Includes all materials, equipment, and 
        scaffolding required to complete the work, including replacing 
        or repairing trim.

  <bullet> Includes replacing windows that should be tempered but often 
        aren't, such as windows near doors and stairways or within 18" 
        of the floor.

  <bullet> Includes replacing single-pane windows with new windows to 
        increase energy efficiency.

  <bullet> Does not include storefront windows (large expanses of glass 
        typically surrounding an entry door), which are custom work.

  <bullet> Does not include window repair (an operations or maintenance 
        expense) or rebuilding historic windows (a custom item).

  <bullet> Caution: for buildings that are eligible for or listed on 
        the National Register of Historic Places, it is often better to 
        rebuild and/or add storm windows rather than replacing original 
        windows. Such work is a custom item.
Figure 40
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of part of a steel-frame, multi-pane window in a 
        painted brick wall. Two panes are cracked. The inside half of 
        part of the frame is missing and the glass is held in place at 
        the bottom by a 1" by 1" board.
          It's difficult to tell in this photo, but the steel frame of 
        this window isn't in any better condition than the cracked 
        windowpanes. The frame is warped, rusted in places, and 
        partially missing. The window should be replaced.
Figure 41
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of the inside of a lookout tower cab. A low cabinet, 
        low shelf, woodstove on a ceramic tile base, and an Osborne 
        Firefinder are visible, as are the catwalk rails, mountains, 
        valleys, and lake beyond the windows.
          This photo shows nine windows separated by support mullions 
        and a door with three vision panes. Each window has four 
        windowpanes (lites). If you had to replace them all, you would 
        count nine each of work item 07006 (windows) and one each of 
        work item 06002 (exterior door).
Work Item 08001--Stairs, Interior, Remove/Replace
    Definition: Remove and replace interior stairs (figure 42).
    Typical Life Cycle: 40 years.
    Unit of Measure: step, each (STEP, EA).

  <bullet> Count the stair risers to determine the number of steps.

    Considerations:

  <bullet> Includes removing and replacing a complete flight of 
        interior stairs (including pull-down units) up to 42" wide, 
        constructed of any standard material, that are deteriorated or 
        don't meet code requirements for existing buildings.

  <bullet> Does not include replacing carpeting or other flooring for 
        the stairs or replacing railings. Use work items 09002, 09003, 
        09004, 09005, and 08002 for such work.

  <bullet> Does not include replacing flights of stairs more than 42" 
        wide (a custom item) or replacing one or two treads, which is 
        an operations or minor maintenance expense.
Figure 42
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Sideview photo of an interior stairway in a historic ranger's 
        house. An arrow and dimensions indicate the head clearance for 
        the stair is only 56".
          The stairway of this early 20th century log house should be 
        replaced because it is unsafe and doesn't comply with building 
        codes for existing buildings. The stairway doesn't have enough 
        head clearance and the steps are too steep.
Work Item 08002--Railing, Stair, Guards and Handrails, Remove/Replace
    Definition: Remove and replace interior handrails and guardrails 
(figure 43).
    Typical Life Cycle: 45 years.
    Unit of Measure: linear feet (LF).

  <bullet> Measure the handrail and guardrail separately if they are 
        not integrated and both need to be replaced. Add the linear 
        feet of the handrail and the linear feet of the guardrail to 
        get the total linear feet.

    Considerations:

  <bullet> Includes removing and replacing nonfunctional, worn-out, or 
        non-code-compliant handrails and guardrails constructed of any 
        common building material.
Figure 43
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an interior stairway looking at the top landing and 
        down the stairs. Mouse droppings and other debris litter the 
        floor and steps, but the structure is sound and undamaged. A 
        low hand rail is on the left and on the right is a guardrail 
        with a fancy newel post protecting the landing from the 
        stairwell dropoff.
          This handrail is in good condition. It should be raised so 
        that it is 34" to 38" above the noses of the steps. The 
        guardrail should be rebuilt so that the top of the rail is 42" 
        above the floor. Because this structure is historic, the top 
        rail, newel cap, and newel base should be retained, refinished 
        and mounted atop longer balusters and a longer newel post that 
        have the same horizontal dimensions and appearance as the 
        originals.
Work Item 09001--Painting, Interior Walls and Ceiling, Includes Prep, 
        Prime and One Coat Latex
    Definition: Prepare and paint interior walls, the ceiling, and trim 
with prime and topcoat (figure 44).
    Typical Life Cycle: 5 years.
    Unit of Measure: square feet (SF).

  <bullet> Calculate the total square feet to be refinished. Do not 
        deduct for openings.

    Considerations:

  <bullet> Includes repainting any common wall or ceiling surface, such 
        as gypsum wallboard, plaster, and pressed board.

  <bullet> Includes masking and providing floor protection; cleaning 
        and preparing the surface; priming or sealing; painting 
        interior walls, ceiling, and trim; and removing masking and 
        drop cloths.

  <bullet> Does not include removing lead-based paint. Use work item 
        16001 for removing lead-based paint.
Figure 44
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an inside corner of an attic room. The walls and 
        ceiling are covered with painted plywood with \1/2\" by 2" wood 
        battens over the seams.
          The walls and ceiling of this second floor room already are 
        sanded in preparation for a badly needed repainting. The 
        varying depth of sanding indicates the paint was in very poor 
        condition.
Work Item 09002--Flooring, Carpet, Repair/Replacement
    Definition: Remove and replace standard-quality carpet and padding 
(figure 45).
    Typical Life Cycle: 8 years.
    Unit of Measure: square feet (SF).

  <bullet> Calculate the square feet of carpet to be replaced. Unless 
        carpet is unitized (carpet ``tiles''), extend the replacement 
        area to a logical joint, such as under a door. Do not ``patch'' 
        sheet carpet in the middle of a room.

    Considerations:

  <bullet> Includes removing damaged carpet and installing new carpet 
        and pad.

  <bullet> Includes moving furniture out of the room (if the room is 
        furnished) and moving it back in.

  <bullet> If the carpet is not badly worn or damaged, consider 
        cleaning it instead of replacing it. Cleaning would be 
        considered an operations cost.

  <bullet> Consider replacing sheet carpet with carpet tiles to make it 
        easier to remove and replace damaged sections, add floor 
        outlets, etc.
Figure 45
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a badly stained and severely worn level loop carpet 
        in an empty office.
          This carpet has exceeded its useful life and should be 
        replaced. The pile is completely worn away in some areas, the 
        seam is raveling, and the staining is severe.
Work Item 09003--Flooring, Tile, Remove/Replace
    Definition: Remove and replace wood, laminate, ceramic, or quarry 
floor or wall tiles or boards (figures 46 and 47).
    Typical Life Cycle: 30 years.
    Unit of Measure: square feet (SF).

  <bullet> Calculate the square feet of flooring to be replaced.

    b If the material can be matched exactly, replace only the area 
            that is damaged.

    b If the material cannot be matched exactly, extend the replacement 
            area to a logical joint, such as under a door. Do not 
            install a mismatched ``patch'' in the middle of a room.

    Considerations:

  <bullet> Includes removing and replacing damaged or excessively worn 
        ceramic, quarry, wood, or laminate wall tiles, floor tiles, or 
        flooring boards. Includes surface preparation.

  <bullet> Does not include refinishing existing wood flooring. Use 
        work item 09004 for refinishing.

  <bullet> Does not include vinyl or other composition flooring tiles. 
        Use work item 09005 for vinyl or composition flooring.

  <bullet> Does not include replacing underlayment, subfloor, or floor 
        joists. Such work is a custom item.
Figure 46
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of a floor covered with 1" by 1" ceramic tiles 
        with narrow grout lines.
          Many of the individual tiles in this floor are chipped or 
        cracked. If it is impossible to find matching tiles to 
        individually replace the bad tiles, the entire floor surface 
        should be replaced.
Figure 47
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of part of a deteriorated narrow-width tongue and 
        groove wood floor.
          The wood flooring of this lookout cabin is warped and pieces 
        are missing. The flooring should be completely replaced before 
        the building is returned to use.
Work Item 09004--Flooring, Wood, Sand and Refinish
    Definition: Sand and refinish wood plank or tongue and groove 
flooring (figure 48).
    Typical Life Cycle: 10 years.
    Unit of Measure: square feet (SF) of flooring to be refinished.

  <bullet> Calculate the square feet of the entire room. It's not 
        possible to satisfactorily refinish only a portion of a room's 
        wood floor.

    Considerations:

  <bullet> Includes removing any remaining old finish and applying new 
        stain and a wear layer, as appropriate.

  <bullet> Does not include replacing wood flooring. Use work item 
        09003 for wood flooring.
Figure 48
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of part of a narrow-width tongue and groove wood floor 
        beside a kitchen cabinet. The boards are still perfectly flat 
        and the joints are tight.
          The finish of this wood floor is completely worn off in some 
        areas. The entire floor should be sanded and refinished.
Work Item 09005--Flooring, Vinyl, Remove/Replace
    Definition: Remove and replace vinyl or other composition flooring, 
either sheet (figure 49) or tile.
    Typical Life Cycle: 18 years.
    Unit of Measure: square feet (SF).

  <bullet> Calculate the square feet of flooring to be replaced.

    b If the material can be matched exactly, measure the area that is 
            damaged to the nearest pattern line that will camouflage 
            the patch.

    b If the material cannot be matched exactly, measure the 
            replacement area to a logical joint, such as under a door. 
            Do not install a mismatched ``patch'' in the middle of a 
            room.

    Considerations:

  <bullet> Includes removing damaged flooring, preparing the surface, 
        and installing new vinyl flooring.

  <bullet> Does not include removing flooring that contains asbestos. 
        Asbestos tiles typically are 9" by 9". Test if uncertain. Use 
        work item 16001 for removing asbestos.
Figure 49
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of part of a sheet vinyl floor. Arrows point to 
        large scratches and scrapes in two locations.
          The wearing surface and color layer of this vinyl flooring 
        are completely scraped off in places. This damage cannot be 
        repaired. The flooring should be replaced.
Work Item 09006--Ceiling, Acoustic, Remove/Replace
    Definition: Remove and replace acoustic ceiling tiles and the 
support grid (figure 50).
    Typical Life Cycle: 20 years.

  <bullet> Failure more typically results from water damage than 
        wearing out.

    Unit of Measure: 100 square feet (CSF).

  <bullet> Calculate the square feet of the ceiling and divide by 100, 
        then round up to the nearest whole number.

  <bullet> Unless you can match the material exactly, replace the 
        ceiling of the entire room.

    Considerations:

  <bullet> Includes setting up, securing, and taking down scaffold; 
        removing old ceiling tiles; removing the old ceiling grid; 
        installing the new ceiling grid; installing new ceiling tiles; 
        resetting existing light fixtures, diffusers, grills, etc.; and 
        sweeping and cleaning debris.

  <bullet> Does not include replacing light fixtures, diffusers, or 
        grills. Use work item 13004 for light fixtures. Replacing 
        diffusers or grills can be operations, minor maintenance, or a 
        custom item, depending on the extent and expense of the work.

  <bullet> Does not include replacing a couple of individual tiles in a 
        room. Such work is operations or minor maintenance.
Figure 50
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of part of a suspended acoustic ceiling, including a 
        vent, a grill, and a fire sprinkler set into the ceiling 
        panels.
          This ceiling has suffered repeated water damage. Previous 
        stains were covered with spray paint. Darker areas of the 
        ceiling are currently wet. The corners of some of the panels 
        are coming apart and the grid is beginning to rust (circled). 
        The panels should be replaced before they lose structural 
        integrity and fall down. Roof leaks should be corrected before 
        the ceiling is replaced. See item 16002--Environmental 
        Mitigation, if there is mold.
Work Item 10001--Toilet/Urinal Fixture, Remove/Replace
    Definition: Remove and replace a toilet (figure 51) or urinal, 
including flush valves.
    Typical Life Cycle: 35 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes turning shutoff valves off and on, removing 
        fixtures, installing new wall- or floor-mounted fixtures 
        (including wax rings and other connectors), installing flush 
        valves and pipes, and checking operation. For public restrooms, 
        use elongated toilet bowls (not round) with open-front seats.

  <bullet> Includes replacing an old fixture to provide accessibility 
        for employees and the public. Refer to the Architectural 
        Barriers Act (ABA) Accessibility Standards at http://
        www.access-board.gov/ for requirements.

  <bullet> Includes replacing old fixtures to reduce water use. Refer 
        to http://fsweb.wo.fs.fed.us/eng/programs/facilities/sus_green/
        fix_pro.htm for new fixture testing and performance 
        information.

  <bullet> Does not include replacing grab bars or toilet seats, which 
        usually are operations or minor maintenance work.

  <bullet> Does not include replacing a flush valve only, which is an 
        operations or minor maintenance expense. Life expectancy for a 
        flush valve is 10 years.
Figure 51
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an old-style, tank-type toilet with an open-front 
        seat set in an alcove with a painted tile-patterned, pressed-
        board wainscot on the lower half of the wall and composition 
        floor tiles.
          This toilet from the 1930s still works, but it uses about 8 
        gallons of water per flush. Consider historic preservation and 
        accessibility requirements as well as water efficiency before 
        deciding whether to replace or modify historic fixtures in 
        historic buildings. Consult a mechanical engineer to learn 
        whether a historic fixture can be modified to use less water[.]
Work Item 10002--Lavatory Fixture, Remove/Replace
    Definition: Remove and replace a sink, including faucets and drain 
(figures 52 and 53).
    Typical Life Cycle: 35 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes bathroom (lavatory) sinks, laundry room sinks, non-
        freestanding single- and double-bowl kitchen sinks, and other 
        similar sinks.

  <bullet> Includes shutting off water (hot and cold); disconnecting 
        and removing sinks; and installing new sinks, faucets, drains, 
        and tubing.

  <bullet> Does not include oversize freestanding sinks or laboratory 
        sinks, which are custom work items.

  <bullet> Includes replacing sinks to provide accessibility for office 
        or crew-quarters restrooms or kitchens. Refer to the ABA 
        Accessibility Standards at http://www.access-board.gov/ for 
        requirements.
Figure 52
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of a one-piece lavatory countertop with integral 
        sink, set on a base cabinet. One corner of the countertop is 
        cracked all the way through diagonally.
          This combination lavatory and countertop is broken (circled) 
        and should be replaced.
Figure 53
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of a double kitchen sink with dirty dishes 
        stacked in one bowl. A sign posted on the wall behind the sink 
        reads: ``Notice: Non-potable water. Not for drinking or 
        cleaning.['']
          Although it has two bowls, this double kitchen sink would 
        count as ``1 each.'' A larger problem needs to be addressed, 
        however: the water is apparently nonpotable and not suitable 
        for washing the dishes that are stacked in the sink. To prevent 
        illness, water to the sink should be shut off until the water 
        system is restored to potability.
Work Item 10003--Tub/Shower Complete, Remove/Replace
    Definition: Remove and replace a bathtub or shower, including 
spout, faucet(s), and showerhead (figure 54).
    Typical Life Cycle: 25 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing a tub, shower, or combo 
        unit, whether porcelain, tile, fiberglass, or other material.

  <bullet> Includes removing shower enclosures; installing new shower 
        enclosures; and installing new showerheads, arms, faucets and 
        drains, and valves.

  <bullet> Includes replacing showers or tubs to provide accessibility 
        in offices, fire stations, or crew quarters. Refer to the ABA 
        Accessibility Standards at http://www.access-board.gov/ for 
        requirements.

  <bullet> Does not include extensive reframing necessitated by severe 
        deterioration. Use a custom item for reframing.
Figure 54
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of two steel shower stalls with open curtains. Rust is 
        on the inside and outside of the stalls.
          These old metal shower stalls are rusted, allowing water to 
        escape from the walls and pans of the stalls. The stalls should 
        be replaced.
Work Item 10004--Drinking Fountain, Remove/Replace
    Definition: Remove and replace a drinking fountain (figure 55).
    Typical Life Cycle: 18 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing the complete old drinking 
        fountain or water cooler and installing a new water cooler 
        unit. Don't save or reuse an old refrigerated drinking 
        fountain.

  <bullet> Includes replacing water coolers or drinking fountains 
        because of compressor failure or to provide accessibility 
        (figure 56). Refer to the ABA Accessibility Standards at http:/
        /www.access-board.gov/ for requirements.
Figure 55
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an old electrical panel with a wall-hung drinking 
        fountain directly below it and a wall phone to the right of it.
          This is a very bad location for a drinking fountain. The 
        fountain must be outside the 36" clear area for the electrical 
        panel and should ideally be several feet away. The fountain 
        should be removed. It doesn't meet accessibility requirements. 
        If a drinking fountain is needed, install a new, accessible 
        fountain at a different location.
Figure 56
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          These drawings show some of the clearance and size 
        requirements for accessible drinking fountains. Refer to the 
        Architectural Barriers Act Accessibility Standards for more 
        information about accessibility requirements.
Work Item 10005--Eye Wash, Remove/Replace
    Definition: Remove and replace an eyewash station (figures 57 and 
58).
    Typical Life Cycle: 25 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing eye wash stations that are 
        worn-out, damaged, dysfunctional, or that cannot be sanitized.

  <bullet> Test existing units during the condition assessment 
        inspection to ensure that they are functional and easy to 
        access.
Figure 57
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a sink faucet with an eyewash station operated using 
        a squeeze lever and automatic flip-up spout covers. The eyewash 
        station has a retractable extension hose so it can be pulled 
        out and over the sink for use. The eyewash station is very 
        dirty and greasy, as are the sink, counter, and sink faucet.
          This eyewash station is too dirty to ensure a rinse with 
        uncontaminated water. If a thorough cleaning isn't sufficient 
        to return it to a sanitary condition, it should be replaced.
Figure 58
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a dirty, stained sink with a very old eyewash 
        station mounted on the end of a chrome sink faucet with an 
        ``X''-type handle. The eyewash spouts look like sink faucet 
        aerators and have no protective covers. Beside the eye wash is 
        a rough-plumbed pipe extending from the wall with a wheel-type 
        handle and an elbow to a downturned discharge opening that 
        serves as the sink faucet.
          The lack of protective covers and an easy-to-operate 
        activator make this eyewash station unsuitable for use. It 
        clearly should be replaced.
Work Item 10006--Water Heater, Remove/Replace
    Definition: Remove and replace an electric or gas water heater 
(figure 59) or small boiler (figure 60).
    Typical Life Cycle: 15 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes completely removing and replacing commercial water 
        heaters (propane, natural gas, or electric) or small boilers up 
        to about 150,000 British thermal units (Btu) per hour, 
        including valves, venting, etc.

    b Includes an anti-scald device and a pop-off valve with a 
            discharge pipe plumbed to a floor drain or to the outside.

    b Includes seismic restraints, as required locally.

    b Includes installing to code standards, including piping, 
            clearances, and elevation of the heater 18" above the floor 
            if it's in a garage or shop.

    b Includes checking operation after installation.

  <bullet> Includes replacing water heaters to improve energy 
        efficiency--older units typically are 60-percent efficient, 
        while new condensing units are 90-percent efficient or more.
Figure 59
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an old-style hot-water storage tank that is about 
        16" in diameter and 66" tall. It is piped at the bottom to the 
        cold-water supply, and hot water would exit the top. To the 
        left are the severed ends of the pipes near the bottom and top 
        of the tank that used to connect the heating coils inside the 
        tank to the heat-extracting coils inside a wood stove.
          This old tank held water that was heated by coils inside a 
        wood heat or cook stove that was removed. The tank should be 
        replaced if hot water is still needed at this location.
Figure 60
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an old vertical-tank gas boiler with a large exhaust 
        flue and 1\1/2\" diameter cold- and hot-water pipes entering 
        and leaving the boiler to the left of the photo. Exposed 
        single-strand plastic-coated wires connect various sensors and 
        controls on the boiler tank.
          This old boiler may work, but it probably runs inefficiently, 
        and the exposed wiring connections are not safe. It should be 
        replaced.
Work Item 10007--Gas/LP Yard Line, Remove/Replace
    Definition: Remove and replace underground natural gas, propane 
(figure 61), or fuel oil piping.
    Typical Life Cycle: 30 years.
    Unit of Measure: linear feet (LF).

  <bullet> Measure and include the vertical portions of the line at the 
        tank and up the outside of the building, as well as the 
        horizontal line.

    Considerations:

  <bullet> Includes completely replacing a rusted, corroded, deformed, 
        or leaking gas or oil underground service line.

    b Includes piping and fittings, as well as trenching and backfill 
            to the building, from either an above-ground or buried 
            tank.

    b Includes replacing hard or soft copper, black iron, or 
            polyethylene lines with code-compliant, properly sized 
            materials.

    b Includes obtaining a permit, where required.

    b Includes checking for breaks or leaks before removing the old 
            line and checking for leaks after installing the new line.

  <bullet> Check with the local fuel supplier; they may be responsible 
        for part of the work.

  <bullet> Ensure that the tank is the proper distance from the 
        building and openings. Refer to http://www.propane101.com/
        propanetankdistancerules.htm.

  <bullet> Use detergent in water to check for leaks on exposed parts. 
        Refer to http://www.propane101.com/checkingforgasleaks.htm.
Figure 61
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo showing one wall of a wood-sided building on the left 
        and a large propane tank about 20 from the building on the 
        right. Shrubs and a couple of large conifer tree trunks are 
        visible between the building and the tank. A gas pipe runs 
        partway up the building wall and extends into the building. At 
        the tank, a regulator perches atop a gas pipe that runs from 
        the tank into the ground,
          What's underground between the propane tank and the building? 
        The consequences can be severe if the line is defective. 
        Defective lines should be replaced immediately.
Work Item 11001--Pump, Circulation, Water or HVAC, Remove/Replace
    Definition: Remove and replace a booster, vacuum, or circulation 
pump (figure 62), including mounts, connections, and controls.
    Typical Life Cycle: 20 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes circulation pumps, booster pumps, and vacuum pumps 
        up to about 3 horsepower, including controls.

  <bullet> Includes needed upgrades of support, vibration mounts, 
        isolation valves, flexible connections, disconnects, and 
        similar items to ensure efficient operation.

  <bullet> Includes removing flanged connection pumps, replacing pumps 
        and motor assemblies, and installing new flanged connection 
        pumps.

  <bullet> Does not include potable water, irrigation, or wastewater 
        pumps in pump/control houses or outside. Such pumps are covered 
        under water and wastewater maintenance or improvement.
Figure 62
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Close-up photo of a circulation pump mounted on a concrete 
        pedestal and connected to insulated piping at the top and left 
        side. The pump motor is on the right side of the pump.
          The motor on this pump looks newer than the pump and 
        fittings. The extent of rust and the pump's marginal 
        performance indicate that the pump and fittings should be 
        replaced.
Work Item 11002--Boiler, Remove/Replace
    Definition: Remove and replace a large boiler that uses any fuel 
(figure 63).
    Typical Life Cycle: 30 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes boilers from about 150,000 Btu per hour up to about 
        2 million Btu per hour, including connections and fittings.

  <bullet> Old boilers may be cast iron, steel, copper fin, or 
        condensing type.

  <bullet> Includes replacing boilers to improve energy efficiency.
Figure 63
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a small modern boiler in a rectangular housing that 
        is about 2 wide by 2 high by 4 deep. The boiler is connected 
        to insulated water and glycol pipes and a natural gas line. A 
        gas flue extends from the top of the boiler.
          This relatively new and efficient 1 million Btu boiler is 
        about \1/4\ the size of an older, equal-capacity boiler. This 
        boiler is only about 10 years old and is in good condition.
Work Item 11003--Cooling Tower, Remove/Replace--Average 50 Ton
    Definition: Remove and replace a cooling tower and its 
appurtenances (figure 64).
    Typical Life Cycle: 15 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes completely removing and replacing worn-out cooling 
        towers and appurtenances. Unit cost is based on a 50 to 100 ton 
        cooling tower.

  <bullet> Includes towers located indoors in a mechanical room or 
        outdoors on a roof or in a separate tower.

  <bullet> Cooling towers typically are used in conjunction with water-
        cooled chillers (work item 11004).
Figure 64
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a large-enough-to-walk-into cooling tower enclosure. 
        On the front are an access door and controls. A cylindrical 
        pressure tank sits on the top. Ductwork on the right exhausts 
        hot air, and pipes connect to the chiller in figure 65.
          This indoor cooling tower was installed in 1962 and is still 
        operating satisfactorily more than 50 years later. It has far 
        exceeded the typical operating life for cooling towers.
Work Item 11004--Chiller, Water Cooled, Remove/Replace--Average 50 Ton
    Definition: Remove and replace a water-cooled chiller, including 
its appurtenances (figure 65).
    Typical Life Cycle: 20 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing worn-out centrifugal-, 
        screw-, or piston and cylinder-type chillers or water coolers, 
        50 to 100 ton capacity, including fittings and connections.

  <bullet> Water-cooled chillers typically are used in conjunction with 
        cooling towers (work item 11003).

  <bullet> Units with 60 to 100 tons of cooling capacity are common at 
        Forest Service labs.
Figure 65
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of the front of the rectangular control box, support 
        frame, cooling tube, and compressor of a chiller that cools 
        refrigerant for air conditioning. Numerous wires and pipes 
        connect to the chiller.
          This indoor chiller, installed in 1962, uses water from the 
        cooling tower shown in figure 64. It has far exceeded the 
        typical operating life for chillers. It is inefficient and 
        replacement parts are becoming difficult to obtain. Both the 
        chiller and cooling tower should be replaced in the near 
        future.
Work Item 11005--Chiller, Air Cooled, Remove/Replace
    Definition: Remove and replace an air-cooled chiller, including its 
appurtenances (figure 66).
    Typical Life Cycle: 15 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing worn-out, air-cooled 
        chillers, 50 to 100 ton capacity, including fittings and 
        connections.

  <bullet> Includes air-cooled chillers in any location (typically 
        outside on a pad or on the roof).

  <bullet> Units with 70 to 100 tons of cooling capacity are common at 
        Forest Service labs.
Figure 66
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of two Forest Service employees inspecting the housing 
        for four outdoor chillers. The housing is about 8 wide by 6 
        tall by 12 deep. Grills constitute most of the left side of 
        the enclosure, and four fan guards are on the top. Two large 
        insulated pipes run from the left side of the enclosure through 
        the supporting concrete slab.
          These chillers still work, but they are inefficient and 
        repair parts are becoming difficult to find. They should be 
        replaced within a few years.
Work Item 11006--Replace Condenser, Air Cooled, 5 Ton
    Definition: Remove and replace an air-cooled condenser (figure 67).
    Typical Life Cycle: 15 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing a residential or light 
        commercial air-cooled condenser up to 5 tons of cooling 
        capacity, including fittings and connections.

  <bullet> Includes replacing pipe because of new refrigerant 
        requirements.

  <bullet> Includes replacing a condenser to improve energy efficiency, 
        to convert to ozone-saving refrigerants, because the 
        refrigerant pipe insulation is damaged, because it has 
        inadequate clearance, because it is not level, or because it 
        has bent fins or guards.

  <bullet> Does not include larger units up to about 60 tons that are 
        common at Forest Service labs. Use a custom item for condensers 
        with more than 5 tons of cooling capacity.
Figure 67
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a condenser outside a building. mounted on a 1 high 
        metal stand. Liquid and electric lines run between the 
        condenser and the building. A fuse box on the wall serves the 
        electric lines that run from the building to the condenser. The 
        three sides of the condenser that do not face the building are 
        covered with grills.
          This 3 ton condensing unit is only about 5 years old and is 
        in pretty good condition. It should continue to work well for 
        many more years.
Work Item 11007--Replace Furnace
    Definition: Remove and replace a furnace (figure 68), heat pump 
(figure 69), wood heat stove, or pellet stove.
    Typical Life Cycle: 15 years for heat pumps; 20 years for furnaces; 
10 to 30 years or more for stoves.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes electric, liquid propane, fuel oil, natural gas, 
        wood, coal, or pellet furnaces; water-source or air-source heat 
        pump blower coil units; or free-standing gas, wood, or pellet 
        heat stoves about 20,000 to 150,000 Btu per hour. Includes 
        venting and connection to fuel lines, ductwork, electric power, 
        etc.

  <bullet> Includes replacing heating systems to improve energy 
        efficiency.

  <bullet> Does not include heat pumps with underground or underwater 
        exchange tubing, which are custom items.

  <bullet> Does not include replacing carbon monoxide detectors. Use 
        work item 13006 for carbon monoxide detectors.

  <bullet> Does not include clearing heat pump condensate lines and 
        terminations, increasing clearance from combustibles, repairing 
        leaks in piping, or changing filters, all of which normally are 
        operations or minor maintenance work.

  <bullet> Does not include replacing masonry flues or chimneys, which 
        are custom items.
Figure 68
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of the cast iron front of an old, rusty furnace. Doors 
        for flue cleanout, access to the firebox, access to the vapor 
        fan, and access to the ash pan are arrayed vertically, and a 
        long cleaning lever is at the left.
          This pre-1930 Sunbeam Fox 1044-BDA model is a ductless 
        furnace. Although it's possible that it has been well 
        maintained and is safe to operate, it's definitely not as 
        efficient as modern furnaces. It should be replaced.
Figure 69
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of two roughly cube-shaped heat pumps mounted or, 
        concrete pads outside a vinyl-sided Forest Service office with 
        a stone-faced base. The concrete pads have settled and aren't 
        level. The heat pumps have grills on the front and sides.
          These air-source heat pumps would probably operate acceptably 
        if they were sitting on level pads. The heat pumps are old and 
        not very efficient, however, so they probably should be 
        replaced.
Work Item 11008--Replace Package Terminal HVAC Unit
    Definition: Remove and replace a package air-conditioning unit 
(figures 70 and 71).
    Typical Life Cycle: 10 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing worn-out or inoperative 
        through-wall, gas-pack, hotel-type, rooftop, window, suspended-
        ceiling, or small ductless split-system air conditioners, 
        including fittings and connections, controls, fan motors, 
        compressors, condensers, and refrigerant.

  <bullet> Includes replacing air conditioners (which vary a lot in 
        efficiency) to reduce energy use.
Figure 70
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a very rusty outside condenser. One of the two 
        electrical conduits has separated from the condenser, exposing 
        two wires.
          This split-system air conditioner is severely corroded. If it 
        hasn't already failed, it will soon. It should be replaced.
Figure 71
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an air conditioner mounted nearly flush with the 
        interior wall of an office, surrounded by wood trim.
          This window-type air conditioner is permanently mounted in 
        the wall. Check the manufacturer's literature. If this 
        nonstandard installation is unsafe, the air conditioner should 
        be replaced.
Work Item 11009--Unit Heater, Remove/Replace
    Definition: Remove and replace an electric (figures 72 and 73) or 
gas unit heater.
    Typical Life Cycle: 15 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing unsafe, damaged, or 
        inefficient gas or electric unit heaters (single-room size) or 
        gas-fired radiant or infrared tube heaters, including fittings 
        and connections.

  <bullet> Does not include replacing carbon monoxide monitors if the 
        heaters are gas or oil fired. Use work item 13006 for carbon 
        monoxide detectors.
Figure 72
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a boxy electric heater with a discharge face 
        slightly tilted down from vertical, suspended from the ceiling 
        by two angled metal rods. The wiring is inside flexible 
        conduit.
          This 5 kilowatt horizontal electric unit heater is suspended 
        from the ceiling. The wiring installation is inelegant, but all 
        the wiring is protected inside conduit.
Figure 73
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an electric heater suspended about 1 below the 
        ceiling from a frame made from steel L-shaped, perforated bars. 
        Air intakes are on the sides and discharge is downward.
          Many heaters are designed to be mounted with a specific 
        orientation and are hazardous if mounted improperly. This 
        electric heater was designed to be installed vertically on a 
        wall. It should be replaced with a heater designed to be 
        suspended from a ceiling.
Work Item 12001--Compressor, Air, Remove/Replace
    Definition: Remove and replace a permanently mounted air compressor 
(figures 74 and 75).
    Typical Life Cycle: 25 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing worn-out, damaged, or 
        inoperable air compressors that are permanently mounted to a 
        building.

  <bullet> Does not include portable air compressors, which are 
        personal property.

  <bullet> Does not include monthly checks on compressors required by 
        OSHA, which is operations work.
Figure 74
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a floor-mounted permanently wired and piped air 
        compressor inside a screened alcove.
          This compressor in a laboratory building is typical of 
        permanently mounted compressors that serve pressure air lines. 
        It operates well and will probably continue to do so for many 
        more years.
Figure 75
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a large air-compressor tank with two motors on top 
        that have separate switches. Several notes and tags with 
        operating instructions are attached to the tank and wiring 
        conduit.
          This permanently mounted compressor is part of an HVAC 
        system. Although it's not new, it has been well maintained and 
        works well.
Work Item 12002--Elevator, Remove/Replace
    Definition: Remove and replace an elevator that serves up to three 
stories (figures 76 and 77).
    Typical Life Cycle: 50 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing inoperative or unsafe 
        elevators or lifts serving two or three stories, or installing 
        a new elevator that is needed to provide accessibility.

  <bullet> Does not include elevators for high-rise buildings or other 
        long vertical distances. For instance, replacing the elevator 
        that descends 216 into Blanchard Springs Caverns on the Ozark 
        National Forest would be a custom item.

  <bullet> Does not include annual state inspections, repairing leaks 
        in oil reservoirs and piping, or repairing faulty emergency 
        phones, all of which are operations work.
Figure 76
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an elevator door and frame with a bronze metallic 
        finish. A single elevator call button is on the wall beside the 
        frame. The numeral 2 is attached to the elevator door and 
        another numeral 2 is attached to the doorframe.
          This elevator was installed more than 30 years ago. Although 
        the finish on the door and trim is a little worn, it has many 
        years of service left if it is properly maintained.
Figure 77
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of part of a two-story lobby with a balcony guarded by 
        an open metal mesh rail at the second floor. Elevator doors are 
        on both the lobby and balcony levels.
          This elevator was installed when the building was constructed 
        in 2002. It serves two floors and is a typical size for a 
        Forest Service elevator. It has had a few operational problems 
        that have been corrected promptly. It is serviced regularly and 
        should continue to work well for a long time.
Work Item 12003--Laboratory Fume Hood/Exhaust Hood, Remove/Replace
    Definition: Remove and replace an enclosed laboratory fume hood 
(figure 78).
    Typical Life Cycle: 30 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing worn-out or inoperative 
        laboratory-type fume hoods, fume hoods used for painting small 
        items, and other similar enclosed or semi-enclosed countertop 
        exhaust hoods.

  <bullet> Includes replacement because of inoperative sashes, a 
        compromised enclosure, or because the system is not energy 
        efficient.

  <bullet> Does not include HVAC exhaust equipment or other exhaust 
        fans not associated with an exhaust hood. Bathroom fans; 
        exhaust fans in shop buildings; residential kitchen hoods; and 
        fans in attics, warehouses, and garages are replaced as 
        maintenance work. These fans have a life expectancy of about 10 
        years.

  <bullet> Does not include the annual inspection of fan face velocity 
        and overall function required by OSHA, which is operations 
        work.

  <bullet> Does not include ductwork. Cleaning, repairing or replacing 
        ducts, duct insulation, duct cement, and duct taping or sealing 
        are usually operations work, but may be a custom item if the 
        work is extensive.
Figure 78
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a 6 wide fume-hood cabinet with a glass door that 
        is raised about halfway. The hood enclosure rests on a counter 
        over a wood cabinet. The fan and bottom of the vent duct are on 
        top of the hood cabinet.
          This fume hood has operated satisfactorily since 1961. It 
        doesn't have modern features, but still works because it is 
        well maintained. The fan motor is probably inefficient, 
        however. Replacing the fan is ordinary maintenance work.
Work Item 13001--Main Service Switchgear, <1,200 Amps, Remove/Replace
    Definition: Remove and replace the main switchgear at an electric 
service entrance (figures 79 and 80).
    Typical Life Cycle: 20 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing obsolete, corroded, 
        undersized, or worn-out metering and service equipment up to 
        1,200 amps and 600 volts.

  <bullet> Includes replacing switchgear for which fuses and breakers 
        are no longer available.

  <bullet> Does not include transformers.
Figure 79
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an electric panel that is about 6 wide by 7 tall, 
        mounted behind a pair of open doors in an alcove under a roof 
        on the outside of a building. A meter is on the left half of 
        the panel and a main disconnect and seven subpanel shutoffs are 
        on the right half of the panel.
          This typical 1,200 amp main service panel is in good 
        condition and should continue to work well for many more years.
Figure 80
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an electric panel that is about 4 wide by 7 tall, 
        mounted inside a building in a corner on an outside wall. On 
        the panel face are a main disconnect, five subpanel shutoffs, 
        and two rows of nine circuit breakers.
          If the rust on the surface of this 100 amp main service panel 
        extends to the interior, it should be replaced.
Work Item 13002--Disconnects or Enclosed Circuit Breakers, Remove/
        Replace
    Definition: Remove and replace an equipment disconnect or enclosed 
circuit breaker (figures 81 and 82).
    Typical Life Cycle: 25 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes replacing fused, unfused, or enclosed circuit 
        breakers (example: a single circuit breaker in a cabinet) or 
        shutoff switches that serve a single piece of equipment and are 
        located within sight of the equipment that they serve.
Figure 81
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of two large, exposed shutoff switches and two 
        emergency transfer switches in cabinets mounted on a wall. 
        Smaller unlabeled shutoff switches and flip switches are 
        mounted below each elevator switch.
          Shutoff switches are sometimes grouped near the equipment 
        they serve. These heavy-duty switches are for a pair of 
        elevators. The switches are in excellent condition.
Figure 82
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a small shutoff switch mounted on a wall below a 
        panel box. The wire from the shutoff to the circuit-breaker box 
        and to the compressor is in flexible conduit. The conduit from 
        the shutoff to the compressor runs across a large round of wood 
        with an anvil attached to it. The compressor hose is looped 
        over a hose rack mounted on the wall behindthe conduit and 
        anvil block.
          The wiring from the disconnect switch to the compressor in 
        this old shop should not be suspended across the anvil block. 
        The disconnect switch should be replaced with a switch closer 
        to the compressor, and the wiring from the panel to the switch 
        should be encased in rigid conduit secured to the wall.
Work Item 13003--Electrical Panel, Remove/Replace
    Definition: Remove and replace an electrical panel (figures 83 and 
84).
    Typical Life Cycle: 30 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing an electric load center, 
        lighting, or equipment panel; single- or three-phase; up to 42 
        spaces and 400 amp rating.

  <bullet> Includes replacement because of rust and corrosion, growth 
        of the load being served, obsolescence, or possibly because of 
        hot spots revealed by thermography.

  <bullet> Does not include fitting knockouts with appropriate covers, 
        labeling circuits, or the checking and retightening of 
        electrical connections every few years by a licensed 
        electrician, which are operations or minor maintenance work.
Figure 83
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a 36-space panel box with the door open. Some of the 
        circuit numbers are written beside the breakers in felt pen, 
        some correct circuit numbers are on the breaker switches, some 
        wrong circuit numbers are on the breaker switches, and some 
        breakers are not numbered. Duct tape covers six circuit-breaker 
        switches. Three pieces of the tape are labeled ``off'' and 
        three are labeled ``leave on.'' Duct tape also covers an empty 
        slot. A note is taped to the inside of the door that says 
        ``Audio/Video Equipment. On in morning. Off in evening.''
          This old electrical panel is a bit rusty. Duct tape was used 
        as an inappropriate substitute for a knockout cover and to 
        indicate which circuits should remain on or off at all times. 
        The circuitry appears to have been modified many times, which 
        is a problem if the work was not performed according to code 
        requirements. This panel should be replaced.
Figure 84
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a 125 amp, 42 space panel box with the door open. 
        All circuit breakers are properly numbered.
          The electrical panel in this photo is a good example of a 
        properly wired and well maintained panel, except that labels 
        for a few of the circuits are missing from the list on the 
        door.
Work Item 13004--Light Fixtures, Remove/Replace
    Definition: Remove and replace a light fixture.
    Typical Life Cycle: 20 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing broken or unsafe light 
        fixtures and replacing fixtures to increase energy efficiency.

  <bullet> Includes fluorescent, incandescent, high-intensity discharge 
        (HID), or light-emitting diode (LED) fixtures, both interior 
        (figure 85) and exterior (figure 86).

  <bullet> Does not include relamping, replacing yellowed or missing 
        fixture lenses, or replacing wiring channel covers or impact 
        guards, which are operations or minor maintenance work.
Figure 85
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a suspended light fixture in an office. The fixture 
        has two sections, each with two 4 long fluorescent tubes and 
        metal ``egg crate'' grills.
          This typical, old fluorescent office light fixture uses T-12 
        tube lamps and a magnetic ballast. It is far less energy 
        efficient than modern fixtures. Although T-12 tubes are still 
        available, this fixture should be replaced in the near future.
Figure 86
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an old storage shed with numerous buckets, a barrel, 
        tires, and miscellaneous equipment stacked around it. The light 
        fixture is on the gable end between the peak of the roof and a 
        screened vent. A sign on the shed door reads: ``Danger 
        Flammable.''
          This exterior light fixture is simply a ceramic bulb socket 
        mounted under a handmade steel hood. It is unsafe and should be 
        replaced.
Work Item 13005--Emergency Light Fixture, Remove/Replace
    Definition: Remove and replace an emergency light fixture (figure 
87) or exit light (figure 88).
    Typical Life Cycle: 20 years.
    Unit of Measure: each (EA).
    Considerations:

  <bullet> Includes removing and replacing obsolete or inoperative 
        emergency light fixtures and exit signs with fluorescent or LED 
        fixtures or signs, or photoluminescent signs.

  <bullet> Photoluminescent signs must be lit continually by an outside 
        light source to work properly when the power goes out. Work 
        includes adding such a light source.

  <bullet> Includes replacing fixtures or signs to improve energy 
        efficiency.
Figure 87
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a commercial emergency light two small round 
        floodlights mounted on top of a rectangular box that holds the 
        transfer switches and battery. In the lower left corner of the 
        box are a button to push to test operation on battery and an 
        indicator light showing current power source.
          Although this emergency light was only 10 years old, it 
        failed yearly operational testing and was repaired three times 
        before the facilities manager replaced it.
Figure 88
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a photoluminescent ``EXIT'' sign illuminated by a 
        small strip fight mounted above the sign.
          The fluorescent exit signs with battery backup at this 
        building continually failed yearly operating tests and required 
        repair. Finally, the facilities manager purchased 
        photoluminescent signs and lit them with inexpensive LED strip 
        lights so that the signs would always be ``charged'' should the 
        power go out.
Work Item 13006--Fire Alarm and/or Security System, Install
    Definition: Remove and replace a fire alarm system (figure 89) or 
security system.
    Typical Life Cycle: 20 years.
    Unit of Measure: system (SYSTEM).
    Considerations:

  <bullet> Includes removing and replacing a complete inoperative or 
        obsolete fire alarm or security system, including control 
        panels, fire alarms, hard-wired smoke detectors, carbon 
        monoxide detectors, etc.

  <bullet> Includes installing a system when none exists. A change in 
        occupancy classification may make adding a system necessary. 
        For instance, converting a former office at a work center to 
        crew quarters may necessitate installing fire alarms, smoke 
        detectors, and carbon monoxide detectors.

  <bullet> Does not include testing and replacing inoperable individual 
        components of a system (figure 90), which are operations 
        expenses and should be completed immediately.

  <bullet> Combination fire alarm/intruder alarm systems are common in 
        larger buildings.
Figure 89
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of an old fire alarm manual pull switch and horn 
        mounted on a concrete block wall. The wiring for the horn and 
        alarm pull extends down from the ceiling in metal surface-
        mounted wire raceway,
          This old fire alarm system is obsolete. Even if it still 
        works, it probably should be replaced.
Figure 90
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of a small portion of a bedroom showing a wall, two 
        wood doors, and some wires dangling from a recessed box in the 
        ceiling. The dangling wires are where the smoke detector was 
        removed. One door goes to the hall and the other to the closet.
          The hard-wired smoke alarm system in this building is fine, 
        but a smoke detector is missing (circled) and should be 
        replaced immediately using operations funding.
Work Item 13007--Lightning Protection System, Remove/Replace
    Definition: Remove and replace a lightning protection system 
(figures 91 and 92).
    Typical Life Cycle: 25 years.
    Unit of Measure: system (SYSTEM).
    Considerations:

  <bullet> Includes removing and replacing a complete lightning 
        protection system for a building or lookout/observation tower.

    b Refer to ``Evaluating Lightning Protection on Lookouts and 
            Communication Facilities'' http://www.fs.fed.us/t-d/php/
            library_card.php?p_num=0873 2333 for detailed information 
            about inspecting lightning protection systems and 
            requirements for proper systems.

    b Lightning protection systems are particularly important in rural 
            and remote areas, and are mandatory for all lookout/
            observation towers.

  <bullet> Includes design for the particular building or tower and 
        installation under the direction of a licensed professional 
        engineer or a master lightning protection installer certified 
        by the National Fire Protection Association (NFPA), Underwriter 
        Laboratories (or another listing agency), or the Lighting 
        Protection Institute.

  <bullet> Includes removing and replacing cables, excavating for a 
        ground rod, installing a \5/8\" diameter, 10 long ground rod 
        and ground clamp or radials, installing lightning rods (air 
        terminals), installing down conductors, installing bonding 
        clamps, and backfilling over the ground rod.

  <bullet> Does not include systems that protect large electronic 
        equipment from lightning surges. These systems are a custom 
        (and very expensive) item.

  <bullet> Does not include the yearly preopening inspection of 
        lightning protection systems for lookout towers, which is an 
        operations cost.

  <bullet> Does not include expert inspection every 5 years, per NFPA 
        780 B.5. Major work items identified during the expert 
        inspection need to be added to the NRM Infra database. Minor 
        work items should be accomplished using operations or 
        maintenance funds.
Figure 91
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of a solid guardrail high above the ground. A 
        small, single-wire antenna, a very short air terminal (vertical 
        copper rod), and the lower portion of a galvanized pipe mast 
        for a larger antenna are all mounted on it in close proximity 
        on the rail. An assortment of insulated wires, a braided steel 
        cable, and a braided, patinated copper cable--all in various 
        stages of deterioration--run horizontally along the rail and 
        are attached to it in a few places.
          This lightning protection system includes a clamp that 
        doesn't grab all the strands, an air terminal that is far from 
        being the tallest conductor on the roof, and many unbonded 
        metal items. The system should be given a major overhaul or 
        should be replaced.
Figure 92
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of the base of a timber lookout tower. A braided copper 
        cable dangles from the frame about 6 above the ground.
          This ground conductor isn't secured and the terminus 
        (circled) doesn't even come close to the ground rod. If the 
        rest of the system is as inadequate and poorly maintained, it 
        should be replaced. If the rest of the system is okay, the 
        ground conductor should be replaced immediately using 
        maintenance funds.
Work Item 14001--Fire Sprinkler System, Remove/Replace
    Definition: Remove and replace a wet-pipe or dry-pipe fire 
sprinkler system (figure 93).
    Typical Life Cycle: 40 years.
    Unit of Measure: square feet (SF).

  <bullet> Calculate the square feet of floor space to be protected by 
        the system.

    Considerations:

  <bullet> Includes removing and replacing inoperative fire sprinkler 
        systems.

    b Be sure to check the code requirements to determine whether the 
            system is adequate. A variety of NFPA standards apply, 
            including NFPA 13, 13D, 13R, 101, and 914.

  <bullet> Includes installing a new system where required and where 
        none currently exists, especially to comply with code when 
        renovating an existing building.

    b Consider installing fire sprinkler systems to protect sleeping 
            quarters, historic structures, and structures with high-
            value or irreplaceable contents, even when not required by 
            code.

  <bullet> Does not include required regular testing on existing 
        systems, which is operations work.
Figure 93
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of a fire sprinkler in a wood-paneled ceiling.
          The system that includes this fire sprinkler is 10 years old 
        and in good condition. Replacement should not be necessary for 
        many years.
Work Item 15001--ABA Mitigation
    Definition: Custom work item. Modify a building to provide 
accessibility to people with disabilities, as required by the 
Architectural Barriers Act Accessibility Standards.
    Typical Life Cycle: none.
    Unit of Measure: lump sum (LS).
    Considerations:

  <bullet> Includes any work that must be done to meet accessibility 
        standards inside the building or to the porch, deck, entry 
        steps, or other assemblies directly tied to the building.

    b Interior barriers often include halls or doors (figure 94) that 
            are too narrow or toilet rooms that are too small or 
            configured improperly.

    b Exterior barriers often include lack of a ramp or door thresholds 
            (figure 95) that are too high.

  <bullet> All work under this item is specific to each building; there 
        is no standard unit cost.

  <bullet> Enter all building accessibility improvements using this 
        item so that the accessibility work can be tracked.

    b If any work is consistent with a standard work item, use the unit 
            cost numbers from the standard work item, but calculate the 
            total and enter it as a lump sum under this item. Note how 
            the cost is generated (RS Means or borrowed from a standard 
            work item) in the remarks section.

    b In some cases, it will be easiest to estimate the cost of 
            completely replacing the affected portion of the building.
Figure 94
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of the legs, feet, and hands of a man standing 
        in a bathroom doorway, using a tape to measure the width of the 
        door. Part of the bathtub and toilet are visible behind the 
        man. They are about as far apart as the door is wide.
          This 26" wide door opening cannot be widened enough to 
        accommodate a 36" wide door. The bathroom can't be made 
        accessible. It must be enlarged and completely rebuilt if 
        accessibility is required.
Figure 95
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of the bottom portion of a new doorframe and 
        threshold for the front door of a log cabin.
          This 36" wide door is retrofitted with a beveled threshold to 
        provide accessibility.
Work Item 16001--Lead Based Paint/Asbestos Mitigation
    Definition: Custom work item. Remove or mitigate asbestos material 
(figure 96) or lead-based paint (figure 97) in or on a building.
    Typical Life Cycle: none.
    Unit of Measure: lump sum (LS).
    Considerations:

  <bullet> Includes lead-based paint or asbestos removal or abatement 
        work performed in accordance with National Emission Standards 
        for Hazardous Air Pollutants (NESHAP), EPA, and OSHA 
        requirements.

  <bullet> All work under this item is specific to each building; there 
        is no standard unit cost.

  <bullet> Enter all lead-based paint and asbestos work using this item 
        so that the work can be tracked.

    b Calculate separate totals for lead-based paint and for asbestos 
            work for the building and enter each as a lump sum.

    b If work is consistent with a standard work item, use the unit 
            cost numbers from the standard work item, but calculate the 
            total and enter it as a lump sum under this item. Note how 
            the cost is generated in the remarks section.

  <bullet> See the Facilities Toolbox for more information about 
        working with and removing asbestos at http://www.fs.fed.us/eng/
        toolbox/haz/haz02.htm and lead-based paint at http://
        www.fs.fed.us/eng/toolbox/haz/haz03.htm.
Figure 96
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Detail photo of a section of pipe in good condition. The 
        legible portion of the text printed on the pipe reads: ``Johns-
        Manville TRANSITE 10" Round Type 2."
          This intact transite pipe manufactured before 1980 is a 
        Category II asbestos-containing material. It does not have to 
        be removed unless it is in poor condition or is coming apart.
Figure 97
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of three people in full protective suits with hoods and 
        filtered-air-supply pumps strapped to their waists, standing on 
        drop cloths and facing an old, wood-sided building. They are 
        using tools to scrape loose paint off the building.
          This crew is properly suited, certified, and equipped to 
        remove lead-based paint from an old Forest Service building.
Work Item 16002--Environmental Mitigation
    Definition: Custom work item. Remove or abate an environmental 
hazard in or on a building.
    Typical Life Cycle: none.
    Unit of Measure: lump sum (LS).
    Considerations:

  <bullet> Includes removing or abating hazardous substances other than 
        lead-based paint and asbestos in buildings. See the Facilities 
        Toolbox hazardous materials section at http://www.fs.fed.us/
        eng/toolbox/haz/index.htm for more information.

  <bullet> Includes large mold infestations (figure 98).

  <bullet> Does not include lead-based paint or asbestos--see work item 
        16001.

  <bullet> All work under this item is specific to each building; there 
        is no standard unit cost.

    b Enter all environmental mitigation work using this work item so 
            that the work can be tracked.

    b If work is consistent with a standard work item, use the unit 
            cost numbers from the standard work item, but calculate the 
            total and enter it as a lump sum under this item. Note how 
            the cost is generated in the remarks section.
Figure 98
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo of the inside of a pump room. A large electric pump 
        mounted on a cube-shaped concrete base is connected to a large-
        diameter pipe with various fittings, gauges, and valves that 
        stretches across the width of the room. Most of the wall 
        surfaces of the room are smudged with black or orange (mold) 
        and there are several cracks on the wall surfaces. A thin layer 
        of water covers about half of the concrete floor.
          Removing this substantial mold infestation in a pump room 
        requires a lot of work. The leak also must be fixed (a water/
        wastewater project), and continuous ventilation probably should 
        be added to the room.
Custom Work Item--No Assigned Work Item Number
    Definition: Custom work item.
    Typical Life Cycle: Not applicable.
    Unit of Measure: varies.
    Considerations:

  <bullet> Includes work that is not one of the standard items on the 
        form, but is of significant value relative to the building 
        value.

    b Suggest recording items that are at least one percent of the 
            total building value, or more than $10,000.

  <bullet> Does not include small or routine items--these items are 
        part of routine facilities operations and maintenance 
        practices.

  <bullet> Custom work item examples:

    b Chip sealing a driveway or parking lot.

    b Replacing a concrete porch or stoop.

    b Overlaying, repairing, or replacing large concrete or masonry 
            slabs, walls, chimneys, or other structural elements.

    b Replacing a retardant tank or plumbing at an air tanker base.

    b Replacing a refrigeration unit for a tree seedling cooler.

    b Replacing structural components or guy cabling on a fire lookout 
            tower.

    b Replacing large expanses of glazing or the support structure on a 
            greenhouse.

    b Conducting extensive restoration work on a historic log 
            structure.

    b Replacing a snow-damaged flue for a woodburning stove and 
            installing a cricket to protect against future damage.

    b Replacing swinging or sliding historic garage or warehouse doors 
            in kind.

    b Replacing large expanses of plaster, premium wood paneling, or 
            other high-end wall surfaces in kind.

    b Replacing storefront windows (large expanses of metal-framed 
            glass typically surrounding an entry door).

    b Replacing an oversize, freestanding commercial kitchen or 
            laboratory sink.

    b Replacing a large, air-cooled condenser with more than a 5 ton 
            capacity.

    b Replacing underground or underwater exchange tubing for a heat 
            pump.

    b Exterminating termites or other insects and replacing extensively 
            damaged structural members.

    b Performing extensive rodent disinfection and deterrence 
            (structure modification).

  <bullet> To record custom work items, use the ``RS Assem,'' ``RS 
        Unit$'' or ``Mtnce/Rpr'' tabs (figure 99). You may need to 
        choose the item listed in RS Means that is closest to the work 
        you need and note any differences in the ``Remarks'' section.

    b Custom work items not included in RS Means may be needed for 
            specialized assets.
Figure 99
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Screen shot of part of the NRM Infra Work Items screen for 
        the Missoula Technology and Development Center office building. 
        At the top of the left column, the ``RS Assem,'' ``Rs Units,'' 
        and ``M[t]nce/Rpr'' tabs are circled. The ``RS Units'' tab is 
        open. Below the tabs, the MasterSpec construction divisions are 
        listed. To the right are the ``Features,'' ``Tasks,'' 
        ``Remarks,'' and ``Costs'' sections. The ``Remarks'' box is 
        circled.
          This screen shot shows the NRM Infra database Work Items tabs 
        for custom items.

    That's it. Congratulations! You have completed the facilities 
condition assessment for the building.
Library Card
    Snodgrass, K.; Marks, K. 2014. Facilities condition assessment 
field training guide. 1473-2830-MTDC. Missoula, MT: U.S. Department of 
Agriculture, Forest Service, Missoula Technology and Development 
Center. 142 p.
    This booklet is a training guide and a memory-jogger for Forest 
Service employees who are trained to do facilities condition 
assessments. The format enables inspectors to easily reference 
necessary information onsite and to easily conduct assessments in a 
manner that is consistent throughout the Forest Service. Each work item 
has its own page that includes photos, guidance on whether the item 
applies to the building being inspected, the normal useful life of the 
item, and how to measure and record the quantity of necessary work.
    Keywords: assessment, basic, building, complex, condition, 
construction, database, deficiencies, energy, facility, facility 
engineers, facilities, Infra, inspect, inspections, Iweb, maintenance, 
measure, natural resources manager, NRM, operations, quantity, record, 
survey, work item[.]

    Additional single copies of this document may be ordered from:

    USDA Forest Service,
    Missoula Technology and Development Center,
    5785 Hwy. 10 West,
    Missoula, MT 59808-9361
    Phone: 406-329-3978
    Fax: 406-329-3719
    Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="562139093b223235092623342516302578303332782325">[email&#160;protected]</a>

    For additional technical information, contact MTDC:

    Phone: 406-329-3900
    Fax: 406-329-3719

    Electronic copies of National Technology and Development documents 
are available on the Internet at: http://www.fs.fed.us/eng/pubs

    Forest Service and Bureau of Land Management employees can search 
National Technology and Development documents, CDs, DVDs, and videos on 
their internal computer networks at: http://fsweb.mtdc.wo.fs.fed.us/
search/; http://fsweb.sdtdc.wo.fs.fed.us/.

Produced by the National Technology & Development Program Missoula, MT
1473-2830-MTDC
                              attachment 2
FY 2020_Deferred Maintenance Protocols for Roads
Contents
    1. Requirements for Reporting Deferred Maintenance, Annual 
Maintenance, and Capital Improvement Needs for Roads
    2. National Random Sample for Roads
    3. Business Rules for Field Surveys
    4. Year-End Schedule and Summarization Processes
    5. Required Data Fields from FSH 7709.55, Zero Code
    6. Frequently Asked Questions
Purpose of National Random Sample
    The national random sample for roads is generated solely for:

  1.  External reporting of:

      a.  Critical and non-critical deferred maintenance needs for 
            passenger 
                car roads in FS financial statement

      b.  Deferred Maintenance backlog to Congress, and

      c.  Condition class of transportation system (Performance 
            Measures--not yet 
                implemented)

    The following guidelines are applicable only for collecting and 
reporting the agency's national deferred maintenance needs.

          Thank you to Catherine Taylor and Christina Foreman of the 
        Volpe Center for their work on our Deferred Maintenance Method 
        in accordance with the OIG Audit recommendations and 
        contributing information incorporated into this document on the 
        revised sample methodology goals and objectives and their 
        Tables 1-3.
1. Requirements for Reporting Deferred Maintenance, Annual Maintenance, 
        and Capital Improvement Needs for Roads
Deferred Maintenance
    The agency has moved to a national random sample to report deferred 
maintenance for passenger car roads (operational maintenance level 3-
5). See item 2 below. There are no requirements to report deferred 
maintenance needs at the Regional or Forest level.
Annual Maintenance
    There are no national requirements to report annual maintenance 
needs. Collection of annual maintenance needs, costs, and 
accomplishments for the random sample is not required for agency 
reporting purposes.
    Reporting annual maintenance accomplishments on all system roads, 
regardless of the random sample is required. The Road Maintenance 
Planning tool is now available in NRM to support annual maintenance 
planning, cost estimating, and accomplishment reporting. The tool can 
be useful in prioritizing annual maintenance needs within a given 
budget to produce annual maintenance plans. For more information on the 
Road Maintenance Planning tool, see the Travel Routes Road User Board 
webpage (https://usdagcc.sharepoint.com/sites/fs-wo-eng/SitePages/
RUB.aspx)[.]
Capital Improvements
    There are no requirements to report capital improvement needs at 
any level.
2. National Random Sample for Roads
    Note: Conclusions and extrapolations determined from national 
random sample condition survey data for roads are ONLY VALID AT THE 
NATIONAL LEVEL.
Limitations of National Random Sample
  1.  Deferred maintenance needs determined from the national random 
            sample are only valid for required reporting at the Forest 
            Service national level.

  2.  Only deferred maintenance needs must be collected for the random 
            sample. Collection of annual maintenance needs data for the 
            national random sample is optional. Such data will not be 
            used at the national level but may be useful at the forest 
            level for planning purposes

  3.  All deferred maintenance summaries or extrapolations resulting 
            from the data collected on the random sample are only valid 
            in the context of nationally averaged unit costs.

  4.  The data gathered through this effort has been analyzed and 
            determine to be statistically invalid for use below the 
            national level reporting.
Business Process for Running the National Random Sample
    There are four key considerations to address within the Random 
Sample process:

  1.  The total sample size (i.e., the total number of ML3-ML5 road 
            fragments to pull from the national database); and

  2.  All the fragments in the new subset database have an equal 
            probability of being selected regardless of whether a 
            segment is on the same road has already been selected, and

  3.  Roads sampled in prior years are available for inclusion in the 
            current sample, and

  4.  The method for ensuring randomness.

    Each of the four steps is summarized in the following sections.
Goals and Objectives
    Because the goal is to estimate deferred maintenance cost per mile, 
the statistic of interest is a ratio. The sample size calculation for a 
ratio estimator is more intricate than the basic estimator because its 
calculation takes into account variations in both the deferred 
maintenance costs and segment lengths.
    The original sampling method relied on the ROADCORE II database 
which contains road segments of varying lengths that are defined by 
natural breakpoints in the road such as county boundaries, bridges, 
change in surface types like gravel, pavement, etc. As the result the 
length of the segments in the database varied significantly from 0.1 
miles to 40 miles. This variation in the underlying population of the 
road segment length is a significant contributor to the large sample 
size of segments and also increased the total road mileage sampled 
since long segments would require the entire length to be analyzed for 
deferred maintenance needs.
    To keep the sample size and effort reasonable, while addressing OIG 
concerns of calculating sample size based on ratio estimators, the 
Random Roads sample methodology originally created for 2018 and 
continued for use in 2020 creates fragment (previously based upon Road 
Core segments) sample sections from the ROADCORE II database 
(hereinafter referred to as fragments) of more uniform and shorter 
length.
    All fragments included need to meet the following criteria:

          from ii--Road--Core
          where JURISDICTION like `FS%'
          and ROUTE--STATUS like `EX%'
          and SYSTEM like `NFSR%'
          and substr(OPER--MAINT--LEVEL,1,1) in (`3',`4',`5')
          and ADMIN_ORG is not Null

    The steps involved in this alternative method are:

  1.  Create a new subset within the database of road fragments with 
            more uniform fragment lengths to be used as the sampling 
            frame for selecting road fragments for analysis of deferred 
            maintenance needs. The roads in the database are divided 
            into 1 mile fragments from the beginning mile post (BMP). 
            Since roads are rarely exact integers in length, the last 
            fragment of a road may be less than a mile.

  2.  Based on the new fragmentation of the road database, the 
            calculated appropriate sample size to yield a point 
            estimate of deferred maintenance per mile that has a 90 
            percent confidence interval that is +/- 15% of the point 
            estimate incorporates the concept that the statistic of 
            interest is a ratio (as pointed out by OIG) and is based on 
            data from 2013, 2014, and 2015.

  3.  The sample stratification plan results in a sample that is 
            representative of the entire FS network.
Total Sample Size
    The total target sample size for FY 2020 is 600 road fragments (the 
same as for FY 2018). This value represents the estimated required 
sample size to obtain an estimate of mean deferred maintenance cost per 
mile with a precision of 15% at the 90% confidence level. Note that in 
FY 2018, the 600 fragment sample actually yielded a statistically 
calculated precision of +/- 12% at the 90% confidence level. The 
resulting data showed less variation than presumed in developing the FY 
2018 sampling plan. If this FY 2020 effort similarly results in 
precision tighter than +/- 15% using a sample size of 600, it may be 
possible to reduce the sample size in future years.
    Table 1 presents the counts and percentages of fragments in the new 
roads database based on a snapshot of the roads database created for 
the FY 2018 sample draw. For the purposes of the FY 2020 effort, it is 
assumed that the underlying characteristics of the roads database has 
not changed substantially since the FY18 effort. In that database snap 
shot, 66% of the fragments have uniform lengths of 1 mile while the 
remaining 34% of the road fragment population has lengths that vary 
(between 0 and less than 1 mile). This also translates into 85% of the 
miles from 1 mile fragments and 15% from incomplete fragments (54,913 
miles and 10,015 miles).

  Table 1. Counts and Percentages of Fragment Types from the new Road Database Subset from the FY 2018 Snapshot
----------------------------------------------------------------------------------------------------------------
         Fragment Type                  Count         % Count from Total         Miles        % Miles from Total
----------------------------------------------------------------------------------------------------------------
 Complete One Mile Fragments                54,913                 66%              54,913                 85%
        Incomplete Fragments                27,838                 34%              10,015                 15%
                                --------------------------------------------------------------------------------
  Total........................             82,751                100%              64,928                100%
----------------------------------------------------------------------------------------------------------------

    For the purposes of this analysis we assume a required sample size 
that is weighted average of the sample size needed for a ratio 
statistic that has a uniform denominator of 1 (that is, a statistic 
that is not actually a ratio) and the sample size needed for ratio 
statistic that has a denominator that is variable (that is, a statistic 
that actually is a ratio).
    Previously, the characteristics of deferred maintenance per mile 
data from 2013, 2014, and 2015 yielded a sample size of 327 road 
segments (non-ratio statistic). Calculations based on the OIG Audit 
concerns yielded a required sample size of 1,121 segments (ratio 
statistic). Taking the weighted average of two yields a sample size of 
approximately 600 fragments based on (0.67  327 + 0.33  1,121 = 589).
Region-Level Sample Size
    As with the FY 2018 sample, the total FY 2020 sample is stratified 
by region, proportionally with respect to each region's share of newly 
created road fragments. The target sample sizes by region are presented 
in Table 1, by number of complete 1 mile fragments, the number of 
incomplete fragments and the total fragments in the sample:

       Table 2 Presents the Resulting Percentages of the New Database by Region Based on FY 2018 Snapshot
----------------------------------------------------------------------------------------------------------------
                                                                                       % of
                   Complete      % of Complete                      Incomplete      Incomplete         % of
                  Fragments      Fragments from   % of Complete      Fragments    Fragments from    Incomplete
    Region       (length = 1     Total Complete   Fragments from    (length <1         Total      Fragments from
                    mile)          Fragments      Overall Total        mile)        Incomplete     Overall Total
                                                                                     Fragments
----------------------------------------------------------------------------------------------------------------
           1            11,186           20.45%              14%           4,267          15.24%              5%
           2             5,218            9.54%               6%           2,928          10.46%              4%
           3             3,988            7.29%               5%           1,650           5.89%              2%
           4             5,051            9.23%               6%           3,239          11.57%              4%
           5             6,910           12.63%               8%           3,907          13.96%              5%
           6             8,472           15.49%              10%           2,723           9.73%              3%
           8             7,809           14.28%               9%           5,089          18.18%              6%
           9             5,523           10.10%               7%           3,921          14.01%              5%
          10               544            0.99%               1%             269           0.96%              0%
              --------------------------------------------------------------------------------------------------
  Total......           54,701             100%              66%          27,993         100.00%             34%
----------------------------------------------------------------------------------------------------------------

    Table 3 summarizes the proposed stratification plan based on 
effective sample size. For example, 118 fragments should be drawn from 
Region 1, and 104 should be drawn from the collection of fragments that 
are 1 mile in length, and 14 drawn from fragments that are less than 1 
mile in length.

Table 3: Region-Level Sample Sizes Based on FY 2018 Snapshot, for Use in
                             FY 2020 Effort
------------------------------------------------------------------------
                      Complete          Incomplete
                     Fragments          Fragments
     Region     --------------------------------------  Total Fragments
                 (length = 1 mile)   (length <1 mile)
------------------------------------------------------------------------
            1                 104                 14                118
            2                  49                  9                 58
            3                  37                  5                 42
            4                  47                 10                 57
            5                  64                 13                 77
            6                  79                  9                 88
            8                  73                 16                 89
            9                  52                 13                 64
           10                   5                  1                  6
                --------------------------------------------------------
  Total........               510                 90                600
------------------------------------------------------------------------

    Regional distribution of the total sample does not match the 
regional distribution of the total ML3-ML5 system mileage.
Randomness
    Following are the requirements for ensuring the sample is purely 
random. Note that the resulting random sample for FY 2020 is expected 
to be substantially different than the random sample selected for FY 
2018. Therefore, the analyst responsible for drawing the FY 2020 sample 
should compare it to the random sample drawn for FY 2018 and confirm 
that few, if any, segments that were drawn in FY 2018 are also drawn 
for FY 2020.

  1.  Each road fragment has an equal probability of being selected 
            within a region and road (It is possible to have multiple 
            fragments in one road.)

  2.  The target region-level sample sizes in Table 3 are achieved.

  3.  An entire road fragment is selected unless the ML changes or the 
            route ends.
FY 2018 Random Sample
    The National Random Sample of 600 fragments, generated with the 
above criteria is available from within NRM by running the roads report 
RD--DM01L. These roads must receive a deferred maintenance condition 
survey in FY 2020. The data collected from the condition surveys will 
be used to determine the Forest Service's agency-wide road deferred 
maintenance needs for ML 3-5 roads. The accuracy of the data contained 
in the sixteen required fields listed in the Travel Planning Handbook 
(FSH 7709.55, Zero Code) must be validated, and corrections made when 
errors are discovered.
    Users will be able to query live NRM data by security ID to monitor 
condition survey accomplishments and check data entry. A Random Sample 
List and Accomplishment Report are available for managers on the 
Corporate Data Warehouse (CDW), under Deferred Maintenance/Roads, using 
a snapshot of data that will be refreshed regularly.
3. Business Rules for Field Surveys

  1.  Only Deferred Maintenance needs are required to be collected for 
            the random sample. Collection of Annual Maintenance needs 
            is optional.

  2.  Deferred maintenance needs should be collected by Priority 
            (Critical/Non-Critical) and Reason (Health & Safety/
            Resource Protection/Forest Mission), according to Deferred 
            Maintenance Protocols already established.

  3.  All condition surveys should be based on operational maintenance 
            level needs. This change occurred in FY 2007, and was done 
            to place condition surveys in the context of annual 
            maintenance planning.

  4.  All deferred maintenance needs will be computed using the 
            National Unit Costs accessed through the Task Tab in NRM or 
            ERL.

  5.  If ERL is not used to conduct the condition survey, a Condition 
            Survey record must be entered in the Record of Events.

  6.  Field surveys for random sample roads shall validate all existing 
            deferred maintenance work items and/or create new deferred 
            maintenance work items that reflect current conditions. If 
            a previous year's work item is no longer valid, it should 
            be deleted.

  7.  Field surveys shall validate and reconcile the data contained in 
            the sixteen required fields listed in the Travel Planning 
            Handbook (FSH 7709.55, Zero Code). Make corrections in the 
            database when errors are found.

  8.  Deferred Maintenance data for the random sample will be loaded 
            into NRM, and quality checked, by the date specified in the 
            Year-End Schedule.

  9.  The Regional Engineer shall assure the quality and completeness 
            of the data collected for the Random Sample at the end of 
            each fiscal year. The Forest Staff Officer for Engineering 
            is responsible for the estimate of Deferred Maintenance 
            needs and will select individuals to complete condition 
            surveys based on knowledge, education, and experience.

  10.  At a minimum, survey and enter work items for the road fragment 
            that is included in the random sample list. Surveying and 
            entering work items for any other portion of the road is 
            optional. Data on fragments not in the random sample will 
            not be used at the national level but may be useful at the 
            forest level for planning purposes.
4. Year-End Schedule and Summarization Processes
Schedule
    October 31, 2019-September 29, 2020: Forests and regions enter 
deferred maintenance needs and validate data for the random sample in 
NRM. Forests and regions use NRM accomplishment and summarization 
reports to check NRM data and make appropriate edits before agency 
summaries are generated.
    September 30: NRM is closed to editing.

    The following dates are approximate:

    October 2-6: Data Summarization Process is executed by NRM 
Programmers. WO Roads Program Manager validates and approves data. (See 
Summarization description below.) Once approved, NRM programmers will 
finalize agency summaries and formats for formal submittal.
    October 6: NRM is open for editing. Records cannot be deleted until 
replication with CPAIS resumes. This can take up to 6 weeks.
Summarization Process
    The data summarization process occurs after Forests and Regions 
have validated their data in NRM and involves calculating total 
deferred maintenance needs by Priority (Critical/Non-Critical) and 
Reason (Health & Safety/Resource Protection/Forest Mission) for the 
Random Sample. The WO Road Program Manager will use the random sample 
subtotals, prior year needs reports, and other information to validate 
the data for the Random Sample. Once validated, the random sample data 
will be used to determine a national average unit cost per mile 
extrapolated over the total Operational Maintenance Level 3-5 system to 
determine the agency's deferred maintenance needs by priority and 
reason.
5. Required Data Fields from FSH 7709.55, Zero Code

  1.  Route number.

  2.  Beginning mile post.

  3.  Ending mile post.

  4.  System.

  5.  Jurisdiction.

  6.  Development status.

  7.  State.

  8.  County.

  9.  Congressional district.

  10.  Administrative Unit (region, forest, and ranger district).

  11.  Functional class.

  12.  Number of lanes.

  13.  Surface type.

  14.  Primary maintainer.

  15.  Operational maintenance level.

  16.  Objective maintenance level.
6. Frequently Asked Questions:
Field Surveys
    Q1. What do I do if the selected road does not physically exist?

  <bullet> Do not survey a replacement road.

  <bullet> Document road numbers and explain why they exist in the 
        inventory.

  <bullet> Forward documentation to the RO User Board Representative.

  <bullet> Correct data in NRM. For example, update the route status 
        for decommissioned roads.

    Q2. What do I do if the selected road does not have any fragments 
with FS jurisdiction?

  <bullet> Do not survey a replacement road.

  <bullet> Document road numbers and explain why Jurisdiction is 
        incorrect in the inventory.

  <bullet> Forward documentation to the RO User Board Representative.

  <bullet> Correct data in NRM. For example, update the road fragments 
        with incorrect Jurisdiction values equal to FS.

    Q3. What do I do if the road selected is not a ML 3-5?

    The random sample business process and NRM scripts are designed to 
only select ML 3-5 roads. However, there may be situations where data 
discrepancies or data edits that occurred after the random sample was 
generated resulted on ML 1-2 roads being selected for the random 
sample. In such cases:

  <bullet> Do not survey a replacement road.

  <bullet> Document road numbers and explain the maintenance level is 
        incorrect in the inventory.

  <bullet> Forward documentation to the RO User Board Representative.

  <bullet> Correct data in NRM. For example, update the operational 
        maintenance level.

    Q4. How are these condition surveys related to Real Property Roads 
Inventory?

    The purpose of the condition surveys is to allow the Forest Service 
to estimate its Deferred Maintenance needs on its passenger car road 
system. As part of those surveys, units are required to validate the 16 
required data fields, and update as needed. The Real Property Roads 
Inventory is done to verify the existence of all roads in our 
inventory, and to verify some of the data elements. These two efforts 
are not related.

    Q5. What do I do if the selected road has been changed from ML3 to 
ML2?

  <bullet> Do not survey a replacement road.

  <bullet> Document road numbers and explain why they exist in the 
        inventory.

  <bullet> Forward documentation to the RO User Board Representative.

  <bullet> Correct data in NRM.
Data
    Q1. What date fields are populated in NRM from ERL?

    A ``Record of Event'' entry is made for a Condition Survey type 
Inspection with the date (Inspection Date) and survey party (to 
Remarks) from ERL.
    For existing tasks:

  <bullet> The YEAR field is left unchanged

  <bullet> the DAY_ID field is updated with the date of the current 
        field survey

  <bullet> The CREATED_DATE is left unchanged

  <bullet> The MODIFIED_DATE is updated with the date of the upload.

    For new tasks:

  <bullet> The YEAR field is populated with the current FY

  <bullet> The DAY_ID field is populated with the date of the current 
        field survey

  <bullet> The CREATED_DATE is populated with the date of the upload

  <bullet> The MODIFIED_DATE is populated with the date of the upload.

    An ``Event'' entry is made in NRM. An Inspection Event Subtype = 
CS--Condition Survey is made with the date of the condition survey 
recorded in ERL.

    Q2. Where is the Deferred Maintenance data collected prior to FY 
2006?

  <bullet> Prior to FY06, all tasks (AM, DM, CI) regardless of 
        completion were archived. Beginning in FY06 and forward, only 
        completed tasks were archived. This change occurred due to file 
        size concerns, and accomplishment reporting requirements.

  <bullet> In addition, a snapshot of all tasks that existed at the end 
        of FY05 is included with the completed tasks on the Archived 
        Tasks screen.

  <bullet> To date, the Archived Tasks screen (filtered view of the ii 
        tasks table) contains a mix of completed tasks (AM, DM, CI) 
        when the YEAR is >= 2006, and all tasks (completed and 
        uncompleted) when the YEAR equals 2005.

  <bullet> To access road tasks older than 2005, utilize the Archived 
        Tasks for Roads (II_TASKS_ARCHIVR_ROAD_V) user view or submit a 
        helpdesk ticket. These tasks are stored in a separate table in 
        the database.

  <bullet> For condition surveys performed using ERL, the Survey Date 
        (DAY_ID) field will retain the original survey date, until the 
        work item is revisited on a subsequent condition survey; at 
        which time it will be overwritten with the latest survey date. 
        The work item date history, which records when the work item 
        was originally identified on a condition survey, is no longer 
        available. This eliminates the ability to determine how long 
        some of the maintenance needs have been languishing.

    NRM's business rules for how date fields are handled has changed 
several times. This has resulted in inconsistencies in date related 
data for work tasks. It is difficult to establish any pattern for how 
these dates have been handled since condition survey data was collected 
in 1999. It is nearly impossible, without a major undertaking, to 
utilize archived data older than FY 2006 for any kind of accomplishment 
reporting or trend analysis.
                              attachment 3
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

USDA Forest Service FY 2018 Deferred Maintenance

                              By Asset Type
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Buildings                                                 $1,236,746,593
Dams                                                         $79,560,275
Drinking Water Systems                                       $93,021,549
Heritage                                                     $17,503,549
Minor Construction Features                                  $85,809,375
Road Bridges                                                $260,505,527
Roads                                                     $3,152,783,200
Trail Bridges                                                 $7,846,506
Trails                                                      $278,012,495
Wastewater Systems                                           $30,803,655
                                                      ------------------
  Grand Total                                             $5,242,592,725
------------------------------------------------------------------------


                      By Region and National Forest
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Region 1                                                    $880,610,366
  Beaverhead-Deerlodge National Forest                      $100,438,396
  Bitterroot National Forest                                 $47,513,708
  Custer Gallatin National Forest                            $62,471,940
  Dakota Prairie Grasslands                                  $31,943,232
  Flathead National Forest                                   $71,878,120
  Helena-Lewis and Clark National Forest                     $65,673,050
  Idaho Panhandle National Forests                          $140,540,397
  Kootenai National Forest                                  $108,312,397
  Lolo National Forest                                      $102,044,311
  Montana Aerial Fire Depot                                   $2,372,916
  Nez Perce-Clearwater National Forest                      $144,904,488
  Region 1 Unassigned Unit                                    $2,517,411
Region 2                                                    $477,091,648
  Arapaho-Roosevelt National Forest                          $39,292,966
  Bighorn National Forest                                    $22,805,899
  Black Hills National Forest                                $45,180,445
  Grand Mesa Uncomp * Gunnison National Forest               $65,629,294
  Medicine Bow-Routt National Forest                         $81,322,769
  Nebraska National Forest                                    $8,275,636
  Pike-San Isabel National Forest                            $55,039,152
  Rio Grande National Forest                                 $39,927,539
  San Juan National Forest                                   $48,087,303
  Shoshone National Forest                                   $17,688,978
  White River National Forest                                $53,841,668
Region 3                                                    $320,262,246
  Apache-Sitgreaves National Forest                          $44,882,535
  Carson National Forest                                     $24,751,450
  Cibola National Forest                                     $22,058,719
  Coconino National Forest                                   $46,245,731
  Coronado National Forest                                   $26,904,461
  Gila National Forest                                       $33,943,741
  Kaibab National Forest                                     $31,023,736
  Lincoln National Forest                                    $18,881,588
  Prescott National Forest                                    $5,136,259
  Region 3 Unit Unassigned                                       $14,522
  Santa Fe National Forest                                   $32,271,870
  Tonto National Forest                                      $34,147,634
Region 4                                                    $513,267,130
  Ashley National Forest                                     $43,683,425
  Boise National Forest                                      $38,579,411
  Bridger-Teton National Forest                              $42,720,609
  Caribou-Targhee National Forest                            $51,928,130
  Dixie National Forest                                      $37,864,379
  Fishlake National Forest                                   $17,193,962
  Humboldt-Toiyabe National Forest                           $53,186,162
  Manti-Lasal National Forest                                $18,224,469
  Payette National Forest                                    $43,330,143
  Region 4 Unit Unassigned                                      $510,692
  Salmon-Challis National Forest                             $70,800,531
  Sawtooth National Forest                                   $34,043,137
  Uinta-Wasatch-Cache National Forest                        $61,202,080
Region 5                                                    $894,955,732
  Angeles National Forest                                    $33,478,687
  Cleveland National Forest                                  $37,143,160
  Eldorado National Forest                                   $71,088,508
  Inyo National Forest                                       $18,387,546
  Klamath National Forest                                    $89,670,357
  Lake Tahoe Basin Mgt. Unit                                 $30,419,417
  Lassen National Forest                                     $42,936,187
  Los Padres National Forest                                 $45,861,623
  Mendocino National Forest                                  $43,412,592
  Modoc National Forest                                      $31,128,839
  Plumas National Forest                                     $50,300,037
  Region 5 Unassigned Unit                                      $527,675
  San Bernardino National Forest                             $22,804,344
  Sequoia National Forest                                    $46,102,641
  Shasta Trinity National Forest                             $89,096,956
  Sierra National Forest                                     $95,826,714
  Six Rivers National Forest                                 $59,417,958
  Stanislaus National Forest                                 $34,321,666
  Tahoe National Forest                                      $53,030,825
Region 6                                                    $834,627,114
  Columbia River Gorge National Scenic Area                   $2,888,754
  Colville National Forest                                   $26,799,109
  Deschutes National Forest                                  $49,858,085
  Fremont-Winema National Forests                            $68,485,067
  Gifford Pinchot National Forest                            $98,244,205
  Malheur National Forest                                    $28,577,945
  Mt. Baker-Snoqualmie National Forest                       $66,389,938
  Mt. Hood National Forest                                   $58,798,653
  Ochoco National Forest                                     $24,077,730
  Okanogan-Wenatchee National Forests                       $108,439,944
  Olympic National Forest                                    $29,816,032
  Rogue River-Siskiyou National Forest                       $77,923,069
  Siuslaw National Forest                                    $21,575,353
  Umatilla National Forest                                   $37,248,092
  Umpqua National Forest                                     $40,507,099
  Wallowa Whitman National Forest                            $44,611,060
  Willamette National Forest                                 $50,386,980
Region 8                                                    $617,866,943
  Chattahoochee-Oconee National Forest                       $37,394,009
  Cherokee National Forest                                   $28,185,380
  Daniel Boone National Forest                               $28,601,485
  El Yunque National Forest                                   $3,578,753
  Francis Marion-Sumter National Forests                     $51,765,646
  George Washington and Jefferson National Forests           $54,677,814
  Kisatchie National Forest                                  $49,819,841
  Land Between the Lakes NRA                                 $26,163,626
  National Forests in Alabama                                $32,819,764
  National Forests in Florida                                $70,172,784
  National Forests in Mississippi                            $45,479,915
  National Forests in North Carolina                         $61,401,598
  National Forests in Texas                                  $46,546,327
  Ouachita National Forest                                   $64,184,569
  Ozark-St. Francis National Forest                          $17,075,432
Region 9                                                    $501,510,365
  Allegheny National Forest                                  $38,960,612
  Chequamegon-Nicolet National Forest                       $122,636,004
  Chippewa National Forest                                   $34,694,078
  Green Mountain and Finger Lakes National Forests            $7,180,071
  Hiawatha National Forest                                   $34,043,140
  Hoosier National Forest                                     $4,501,551
  Huron Manistee National Forest                             $34,167,611
  Mark Twain National Forest                                 $38,385,203
  Midewin National Tallgrass Prairie                         $16,829,521
  Monongahela National Forest                                $43,282,272
  Ottawa National Forest                                     $31,491,082
  Shawnee National Forest                                    $15,409,686
  Superior National Forest                                   $41,041,386
  Wayne National Forest                                       $4,535,554
  White Mountain National Forest                             $34,352,593
Region 10                                                   $100,338,382
  Chugach National Forest                                    $11,114,034
  Tongass National Forest                                    $89,224,348
Engineering                                                   $3,590,861
  Missoula Technology and Development Center                     $74,439
  San Dimas Technology and Development Center                 $3,516,422
Job Corps                                                     $3,316,536
  Angell Job Corp Center                                        $412,615
  Blackwell Job Corp Center                                     $108,355
  Cass Job Corp Center                                           $45,726
  Curlew Job Corp Center                                        $260,739
  Frenchburg Job Corp Center                                     $85,043
  Jacobs Creek Job Corp Center                                  $230,663
  Ouachita Job Corp Center                                       $29,171
  Pine Knot Job Corp Center                                     $726,180
  Timber Lake Job Corp Center                                   $701,188
  Trapper Creek Job Corp Center                                  $65,718
  Wolf Creek Job Corp Center                                    $651,139
Other                                                           $720,678
  Grey Towers National Historic Site                            $720,678
Research                                                     $94,434,725
  Forest Products Laboratory                                  $4,856,527
  International Institute of Tropical Forestry                $2,342,201
  Northern Research Station                                  $19,237,722
  Pacific Northwest Research Station                         $30,709,039
  Rocky Mountain Research Station                            $22,267,162
  Southern Research Station                                  $14,667,630
  Wood Education and Resource Center                            $354,445
                                                      ------------------
    Grand Total                                           $5,242,592,725
------------------------------------------------------------------------
* Editor's note: the table, as submitted, when referring to the Grand
  Mesa, Uncompahgre & Gunnison National Forest shortened ``Uncompahgre
  &'' to ``Uncomp''.

By Region
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


               By Region, National Forest, and Asset Type
------------------------------------------------------------------------
               National Forests
   Region       & Grasslands/       State    Asset Type      Deferred
                   Station                                 Maintenance
------------------------------------------------------------------------
Region 1--    Northern Region    ID, MT,                    $880,610,366
 Northern      Totals             ND, SD
              Region 1           MT          Buildings        $2,517,411
               Unassigned Unit
              Beaverhead-        MT          Buildings        $4,787,917
               Deerlodge
               National Forest
              Beaverhead-        MT          Dams                 $9,200
               Deerlodge
               National Forest
              Beaverhead-        MT          Drinking           $119,708
               Deerlodge                      Water
               National Forest                Systems
              Beaverhead-        MT          Heritage            $11,000
               Deerlodge
               National Forest
              Beaverhead-        MT          Minor            $1,079,118
               Deerlodge                      Construct
               National Forest                ed
                                              Features
              Beaverhead-        MT          Road             $5,094,455
               Deerlodge                      Bridges
               National Forest
              Beaverhead-        MT          Roads           $83,278,740
               Deerlodge
               National Forest
              Beaverhead-        MT          Trail               $72,867
               Deerlodge                      Bridges
               National Forest
              Beaverhead-        MT          Trails           $5,680,950
               Deerlodge
               National Forest
              Beaverhead-        MT          Wastewater         $304,440
               Deerlodge                      Systems
               National Forest
              Bitterroot         ID, MT      Buildings        $1,695,407
               National Forest
              Bitterroot         ID, MT      Dams                 $8,500
               National Forest
              Bitterroot         ID, MT      Drinking           $398,355
               National Forest                Water
                                              Systems
              Bitterroot         ID, MT      Heritage                 $0
               National Forest
              Bitterroot         ID, MT      Minor              $257,785
               National Forest                Construct
                                              ed
                                              Features
              Bitterroot         ID, MT      Road             $1,671,285
               National Forest                Bridges
              Bitterroot         ID, MT      Roads           $40,344,476
               National Forest
              Bitterroot         ID, MT      Trail               $31,330
               National Forest                Bridges
              Bitterroot         ID, MT      Trails           $3,037,699
               National Forest
              Bitterroot         ID, MT      Wastewater          $68,870
               National Forest                Systems
              Idaho Panhandle    ID          Buildings       $25,059,093
               National Forests
              Idaho Panhandle    ID          Drinking           $548,530
               National Forests               Water
                                              Systems
              Idaho Panhandle    ID          Heritage            $41,218
               National Forests
              Idaho Panhandle    ID          Minor              $408,283
               National Forests               Construct
                                              ed
                                              Features
              Idaho Panhandle    ID          Road             $6,509,244
               National Forests               Bridges
              Idaho Panhandle    ID          Roads          $100,686,192
               National Forests
              Idaho Panhandle    ID          Trail               $59,550
               National Forests               Bridges
              Idaho Panhandle    ID          Trails           $7,110,788
               National Forests
              Idaho Panhandle    ID          Wastewater         $117,499
               National Forests               Systems
              Flathead National  MT          Buildings       $17,006,459
               Forest
              Flathead National  MT          Dams                 $3,000
               Forest
              Flathead National  MT          Drinking           $545,508
               Forest                         Water
                                              Systems
              Flathead National  MT          Heritage                 $0
               Forest
              Flathead National  MT          Minor              $299,248
               Forest                         Construct
                                              ed
                                              Features
              Flathead National  MT          Road             $3,517,659
               Forest                         Bridges
              Flathead National  MT          Roads           $46,374,147
               Forest
              Flathead National  MT          Trail              $118,330
               Forest                         Bridges
              Flathead National  MT          Trails           $3,920,538
               Forest
              Flathead National  MT          Wastewater          $93,230
               Forest                         Systems
              Custer Gallatin    MT          Buildings       $20,867,935
               National Forest
              Custer Gallatin    MT          Dams               $132,339
               National Forest
              Custer Gallatin    MT          Drinking         $1,500,418
               National Forest                Water
                                              Systems
              Custer Gallatin    MT          Heritage            $18,000
               National Forest
              Custer Gallatin    MT          Minor              $459,312
               National Forest                Construct
                                              ed
                                              Features
              Custer Gallatin    MT          Road             $2,405,159
               National Forest                Bridges
              Custer Gallatin    MT          Roads           $30,358,991
               National Forest
              Custer Gallatin    MT          Trail              $242,460
               National Forest                Bridges
              Custer Gallatin    MT          Trails           $6,071,562
               National Forest
              Custer Gallatin    MT          Wastewater         $415,764
               National Forest                Systems
              Kootenai National  MT          Buildings       $15,911,640
               Forest
              Kootenai National  MT          Drinking           $134,628
               Forest                         Water
                                              Systems
              Kootenai National  MT          Heritage            $25,500
               Forest
              Kootenai National  MT          Minor              $710,621
               Forest                         Construct
                                              ed
                                              Features
              Kootenai National  MT          Road             $6,515,186
               Forest                         Bridges
              Kootenai National  MT          Roads           $81,677,918
               Forest
              Kootenai National  MT          Trail               $28,650
               Forest                         Bridges
              Kootenai National  MT          Trails           $3,153,765
               Forest
              Kootenai National  MT          Wastewater         $154,489
               Forest                         Systems
              Helena-Lewis and   MT          Buildings        $8,139,467
               Clark National
               Forest
              Helena-Lewis and   MT          Dams                $99,385
               Clark National
               Forest
              Helena-Lewis and   MT          Drinking           $263,994
               Clark National                 Water
               Forest                         Systems
              Helena-Lewis and   MT          Heritage             $8,000
               Clark National
               Forest
              Helena-Lewis and   MT          Minor              $955,740
               Clark National                 Construct
               Forest                         ed
                                              Features
              Helena-Lewis and   MT          Road             $4,907,608
               Clark National                 Bridges
               Forest
              Helena-Lewis and   MT          Roads           $45,095,462
               Clark National
               Forest
              Helena-Lewis and   MT          Trail               $69,444
               Clark National                 Bridges
               Forest
              Helena-Lewis and   MT          Trails           $6,112,010
               Clark National
               Forest
              Helena-Lewis and   MT          Wastewater          $21,940
               Clark National                 Systems
               Forest
              Lolo National      MT          Buildings       $17,350,923
               Forest
              Lolo National      MT          Dams                 $1,420
               Forest
              Lolo National      MT          Drinking           $618,148
               Forest                         Water
                                              Systems
              Lolo National      MT          Heritage                 $0
               Forest
              Lolo National      MT          Minor              $303,601
               Forest                         Construct
                                              ed
                                              Features
              Lolo National      MT          Road             $5,867,533
               Forest                         Bridges
              Lolo National      MT          Roads           $73,552,902
               Forest
              Lolo National      MT          Trail               $28,065
               Forest                         Bridges
              Lolo National      MT          Trails           $4,134,945
               Forest
              Lolo National      MT          Wastewater         $186,773
               Forest                         Systems
              Nez Perce-         ID          Buildings       $34,716,465
               Clearwater
               National Forest
              Nez Perce-         ID          Dams               $368,382
               Clearwater
               National Forest
              Nez Perce-         ID          Drinking         $1,297,082
               Clearwater                     Water
               National Forest                Systems
              Nez Perce-         ID          Heritage            $45,000
               Clearwater
               National Forest
              Nez Perce-         ID          Minor              $255,536
               Clearwater                     Construct
               National Forest                ed
                                              Features
              Nez Perce-         ID          Road             $7,166,532
               Clearwater                     Bridges
               National Forest
              Nez Perce-         ID          Roads           $91,446,468
               Clearwater
               National Forest
              Nez Perce-         ID          Trail               $97,810
               Clearwater                     Bridges
               National Forest
              Nez Perce-         ID          Trails           $8,884,326
               Clearwater
               National Forest
              Nez Perce-         ID          Wastewater         $626,887
               Clearwater                     Systems
               National Forest
              Dakota Prairie     ND, SD      Buildings          $110,705
               Grasslands
              Dakota Prairie     ND, SD      Dams             $1,006,459
               Grasslands
              Dakota Prairie     ND, SD      Drinking               $800
               Grasslands                     Water
                                              Systems
              Dakota Prairie     ND, SD      Heritage                 $0
               Grasslands
              Dakota Prairie     ND, SD      Minor               $29,558
               Grasslands                     Construct
                                              ed
                                              Features
              Dakota Prairie     ND, SD      Road                 $3,921
               Grasslands                     Bridges
              Dakota Prairie     ND, SD      Roads           $30,357,287
               Grasslands
              Dakota Prairie     ND, SD      Trail                    $0
               Grasslands                     Bridges
              Dakota Prairie     ND, SD      Trails             $428,503
               Grasslands
              Dakota Prairie     ND, SD      Wastewater           $6,000
               Grasslands                     Systems
              Montana Aerial     MT          Buildings        $2,372,916
               Fire Depot
Region 2--    Rocky Mountain     CO, KS,                    $477,091,648
 Rocky         Region Totals      NE, SD,
 Mountain                         WY
              Bighorn National   WY          Buildings        $5,688,418
               Forest
              Bighorn National   WY          Dams               $275,477
               Forest
              Bighorn National   WY          Drinking            $85,439
               Forest                         Water
                                              Systems
              Bighorn National   WY          Heritage            $49,000
               Forest
              Bighorn National   WY          Minor            $1,451,896
               Forest                         Construct
                                              ed
                                              Features
              Bighorn National   WY          Road               $589,967
               Forest                         Bridges
              Bighorn National   WY          Roads           $12,681,616
               Forest
              Bighorn National   WY          Trail                    $0
               Forest                         Bridges
              Bighorn National   WY          Trails           $1,915,142
               Forest
              Bighorn National   WY          Wastewater          $68,945
               Forest                         Systems
              Black Hills        SD, WY      Buildings        $6,566,163
               National Forest
              Black Hills        SD, WY      Dams               $897,670
               National Forest
              Black Hills        SD, WY      Drinking         $1,102,103
               National Forest                Water
                                              Systems
              Black Hills        SD, WY      Heritage           $200,600
               National Forest
              Black Hills        SD, WY      Minor            $1,050,420
               National Forest                Construct
                                              ed
                                              Features
              Black Hills        SD, WY      Road               $441,446
               National Forest                Bridges
              Black Hills        SD, WY      Roads           $32,163,815
               National Forest
              Black Hills        SD, WY      Trail               $35,028
               National Forest                Bridges
              Black Hills        SD, WY      Trails           $2,330,336
               National Forest
              Black Hills        SD, WY      Wastewater         $392,863
               National Forest                Systems
              Grand Mesa Uncomp  CO          Buildings        $9,242,988
               ** Gunnison
               National Forest
              Grand Mesa Uncomp  CO          Dams               $190,797
               ** Gunnison
               National Forest
              Grand Mesa Uncomp  CO          Drinking           $899,128
               ** Gunnison                    Water
               National Forest                Systems
              Grand Mesa Uncomp  CO          Heritage            $86,216
               ** Gunnison
               National Forest
              Grand Mesa Uncomp  CO          Minor              $667,442
               ** Gunnison                    Construct
               National Forest                ed
                                              Features
              Grand Mesa Uncomp  CO          Road             $4,049,368
               ** Gunnison                    Bridges
               National Forest
              Grand Mesa Uncomp  CO          Roads           $44,191,761
               ** Gunnison
               National Forest
              Grand Mesa Uncomp  CO          Trail                    $0
               ** Gunnison                    Bridges
               National Forest
              Grand Mesa Uncomp  CO          Trails           $6,209,948
               ** Gunnison
               National Forest
              Grand Mesa Uncomp  CO          Wastewater          $91,647
               ** Gunnison                    Systems
               National Forest
              Medicine Bow-      CO, WY      Buildings        $9,181,056
               Routt National
               Forest
              Medicine Bow-      CO, WY      Dams               $126,255
               Routt National
               Forest
              Medicine Bow-      CO, WY      Drinking           $499,919
               Routt National                 Water
               Forest                         Systems
              Medicine Bow-      CO, WY      Heritage           $585,450
               Routt National
               Forest
              Medicine Bow-      CO, WY      Minor              $763,323
               Routt National                 Construct
               Forest                         ed
                                              Features
              Medicine Bow-      CO, WY      Road             $2,260,834
               Routt National                 Bridges
               Forest
              Medicine Bow-      CO, WY      Roads           $63,748,270
               Routt National
               Forest
              Medicine Bow-      CO, WY      Trail               $14,600
               Routt National                 Bridges
               Forest
              Medicine Bow-      CO, WY      Trails           $4,056,263
               Routt National
               Forest
              Medicine Bow-      CO, WY      Wastewater          $86,800
               Routt National                 Systems
               Forest
              Nebraska National  NE          Buildings        $1,982,720
               Forest
              Nebraska National  NE          Dams               $655,158
               Forest
              Nebraska National  NE          Drinking           $149,832
               Forest                         Water
                                              Systems
              Nebraska National  NE          Heritage           $109,033
               Forest
              Nebraska National  NE          Minor              $682,706
               Forest                         Construct
                                              ed
                                              Features
              Nebraska National  NE          Road                $60,739
               Forest                         Bridges
              Nebraska National  NE          Roads            $3,983,380
               Forest
              Nebraska National  NE          Trail                    $0
               Forest                         Bridges
              Nebraska National  NE          Trails             $640,401
               Forest
              Nebraska National  NE          Wastewater          $11,668
               Forest                         Systems
              Rio Grande         CO          Buildings        $5,565,704
               National Forest
              Rio Grande         CO          Dams               $154,231
               National Forest
              Rio Grande         CO          Drinking           $388,449
               National Forest                Water
                                              Systems
              Rio Grande         CO          Heritage            $80,000
               National Forest
              Rio Grande         CO          Minor              $319,879
               National Forest                Construct
                                              ed
                                              Features
              Rio Grande         CO          Road             $1,383,018
               National Forest                Bridges
              Rio Grande         CO          Roads           $29,643,992
               National Forest
              Rio Grande         CO          Trail               $28,773
               National Forest                Bridges
              Rio Grande         CO          Trails           $2,324,870
               National Forest
              Rio Grande         CO          Wastewater          $38,622
               National Forest                Systems
              Arapaho-Roosevelt  CO          Buildings        $9,643,521
               National Forest
              Arapaho-Roosevelt  CO          Dams               $109,750
               National Forest
              Arapaho-Roosevelt  CO          Drinking         $3,298,473
               National Forest                Water
                                              Systems
              Arapaho-Roosevelt  CO          Heritage           $264,750
               National Forest
              Arapaho-Roosevelt  CO          Minor              $920,014
               National Forest                Construct
                                              ed
                                              Features
              Arapaho-Roosevelt  CO          Road             $1,315,482
               National Forest                Bridges
              Arapaho-Roosevelt  CO          Roads           $20,952,906
               National Forest
              Arapaho-Roosevelt  CO          Trail                $5,558
               National Forest                Bridges
              Arapaho-Roosevelt  CO          Trails           $2,452,555
               National Forest
              Arapaho-Roosevelt  CO          Wastewater         $329,957
               National Forest                Systems
              Pike-San Isabel    CO, KS      Buildings       $14,825,699
               National Forest
              Pike-San Isabel    CO, KS      Dams               $403,610
               National Forest
              Pike-San Isabel    CO, KS      Drinking         $1,495,910
               National Forest                Water
                                              Systems
              Pike-San Isabel    CO, KS      Heritage            $59,595
               National Forest
              Pike-San Isabel    CO, KS      Minor            $1,193,135
               National Forest                Construct
                                              ed
                                              Features
              Pike-San Isabel    CO, KS      Road             $1,617,872
               National Forest                Bridges
              Pike-San Isabel    CO, KS      Roads           $30,891,940
               National Forest
              Pike-San Isabel    CO, KS      Trail              $285,262
               National Forest                Bridges
              Pike-San Isabel    CO, KS      Trails           $3,665,841
               National Forest
              Pike-San Isabel    CO, KS      Wastewater         $600,289
               National Forest                Systems
              San Juan National  CO          Buildings        $7,572,490
               Forest
              San Juan National  CO          Dams                $87,973
               Forest
              San Juan National  CO          Drinking           $148,208
               Forest                         Water
                                              Systems
              San Juan National  CO          Heritage           $585,247
               Forest
              San Juan National  CO          Minor            $1,790,326
               Forest                         Construct
                                              ed
                                              Features
              San Juan National  CO          Road               $846,023
               Forest                         Bridges
              San Juan National  CO          Roads           $33,246,251
               Forest
              San Juan National  CO          Trail              $163,350
               Forest                         Bridges
              San Juan National  CO          Trails           $3,563,263
               Forest
              San Juan National  CO          Wastewater          $84,171
               Forest                         Systems
              Shoshone National  WY          Buildings        $4,295,397
               Forest
              Shoshone National  WY          Dams
               Forest                         $6,500
              Shoshone National  WY          Drinking           $288,787
               Forest                         Water
                                              Systems
              Shoshone National  WY          Heritage            $15,200
               Forest
              Shoshone National  WY          Minor              $225,196
               Forest                         Construct
                                              ed
                                              Features
              Shoshone National  WY          Road               $931,579
               Forest                         Bridges
              Shoshone National  WY          Roads            $9,007,450
               Forest
              Shoshone National  WY          Trail               $29,920
               Forest                         Bridges
              Shoshone National  WY          Trails           $2,766,121
               Forest
              Shoshone National  WY          Wastewater         $122,829
               Forest                         Systems
              White River        CO          Buildings       $20,927,879
               National Forest
              White River        CO          Dams               $418,796
               National Forest
              White River        CO          Drinking           $234,238
               National Forest                Water
                                              Systems
              White River        CO          Heritage           $460,800
               National Forest
              White River        CO          Minor              $355,964
               National Forest                Construct
                                              ed
                                              Features
              White River        CO          Road             $4,299,987
               National Forest                Bridges
              White River        CO          Roads           $21,478,297
               National Forest
              White River        CO          Trail            $1,145,832
               National Forest                Bridges
              White River        CO          Trails           $4,463,015
               National Forest
              White River        CO          Wastewater          $56,861
               National Forest                Systems
Region 3--    Southwestern       AZ, NM                     $320,262,246
 Southwester   Region Totals
 n
              Region 3 Unit                  Buildings           $14,522
               Unassigned
              Apache-Sitgreaves  AZ          Buildings        $2,783,777
               National Forest
              Apache-Sitgreaves  AZ          Dams               $266,400
               National Forest
              Apache-Sitgreaves  AZ          Drinking           $428,297
               National Forest                Water
                                              Systems
              Apache-Sitgreaves  AZ          Heritage             $2,018
               National Forest
              Apache-Sitgreaves  AZ          Minor              $688,981
               National Forest                Construct
                                              ed
                                              Features
              Apache-Sitgreaves  AZ          Road             $1,038,118
               National Forest                Bridges
              Apache-Sitgreaves  AZ          Roads           $37,015,571
               National Forest
              Apache-Sitgreaves  AZ          Trail                    $0
               National Forest                Bridges
              Apache-Sitgreaves  AZ          Trails           $2,479,199
               National Forest
              Apache-Sitgreaves  AZ          Wastewater         $180,173
               National Forest                Systems
              Carson National    NM          Buildings        $2,492,264
               Forest
              Carson National    NM          Dams               $106,150
               Forest
              Carson National    NM          Drinking           $374,307
               Forest                         Water
                                              Systems
              Carson National    NM          Heritage            $71,446
               Forest
              Carson National    NM          Minor              $231,912
               Forest                         Construct
                                              ed
                                              Features
              Carson National    NM          Road               $955,019
               Forest                         Bridges
              Carson National    NM          Roads           $19,420,244
               Forest
              Carson National    NM          Trail                $1,100
               Forest                         Bridges
              Carson National    NM          Trails           $1,045,432
               Forest
              Carson National    NM          Wastewater          $53,577
               Forest                         Systems
              Cibola National    NM          Buildings        $4,939,524
               Forest
              Cibola National    NM          Dams               $175,141
               Forest
              Cibola National    NM          Drinking           $278,391
               Forest                         Water
                                              Systems
              Cibola National    NM          Heritage           $678,682
               Forest
              Cibola National    NM          Minor              $441,703
               Forest                         Construct
                                              ed
                                              Features
              Cibola National    NM          Road               $295,785
               Forest                         Bridges
              Cibola National    NM          Roads           $13,805,343
               Forest
              Cibola National    NM          Trail                    $0
               Forest                         Bridges
              Cibola National    NM          Trails           $1,256,930
               Forest
              Cibola National    NM          Wastewater         $187,220
               Forest                         Systems
              Coconino National  AZ          Buildings        $5,404,267
               Forest
              Coconino National  AZ          Dams               $141,143
               Forest
              Coconino National  AZ          Drinking           $506,794
               Forest                         Water
                                              Systems
              Coconino National  AZ          Heritage                 $0
               Forest
              Coconino National  AZ          Minor              $279,598
               Forest                         Construct
                                              ed
                                              Features
              Coconino National  AZ          Road             $2,220,571
               Forest                         Bridges
              Coconino National  AZ          Roads           $35,945,363
               Forest
              Coconino National  AZ          Trail                    $0
               Forest                         Bridges
              Coconino National  AZ          Trails           $1,641,135
               Forest
              Coconino National  AZ          Wastewater         $106,860
               Forest                         Systems
              Coronado National  AZ          Buildings        $3,469,336
               Forest
              Coronado National  AZ          Dams               $331,855
               Forest
              Coronado National  AZ          Drinking         $2,434,441
               Forest                         Water
                                              Systems
              Coronado National  AZ          Heritage           $238,863
               Forest
              Coronado National  AZ          Minor            $2,358,430
               Forest                         Construct
                                              ed
                                              Features
              Coronado National  AZ          Road             $1,077,978
               Forest                         Bridges
              Coronado National  AZ          Roads           $15,094,252
               Forest
              Coronado National  AZ          Trail                    $0
               Forest                         Bridges
              Coronado National  AZ          Trails           $1,845,666
               Forest
              Coronado National  AZ          Wastewater          $53,640
               Forest                         Systems
              Gila National      NM          Buildings        $8,934,954
               Forest
              Gila National      NM          Drinking           $910,698
               Forest                         Water
                                              Systems
              Gila National      NM          Heritage           $203,069
               Forest
              Gila National      NM          Minor               $88,530
               Forest                         Construct
                                              ed
                                              Features
              Gila National      NM          Road             $1,247,983
               Forest                         Bridges
              Gila National      NM          Roads           $19,240,212
               Forest
              Gila National      NM          Trail                    $0
               Forest                         Bridges
              Gila National      NM          Trails           $3,110,700
               Forest
              Gila National      NM          Wastewater         $207,595
               Forest                         Systems
              Kaibab National    AZ          Buildings        $3,097,724
               Forest
              Kaibab National    AZ          Dams               $784,546
               Forest
              Kaibab National    AZ          Drinking           $254,183
               Forest                         Water
                                              Systems
              Kaibab National    AZ          Heritage           $152,059
               Forest
              Kaibab National    AZ          Minor              $831,768
               Forest                         Construct
                                              ed
                                              Features
              Kaibab National    AZ          Road               $205,104
               Forest                         Bridges
              Kaibab National    AZ          Roads           $24,589,233
               Forest
              Kaibab National    AZ          Trails           $1,098,940
               Forest
              Kaibab National    AZ          Wastewater          $10,180
               Forest                         Systems
              Lincoln National   NM          Buildings        $1,237,951
               Forest
              Lincoln National   NM          Drinking            $15,405
               Forest                         Water
                                              Systems
              Lincoln National   NM          Heritage            $64,500
               Forest
              Lincoln National   NM          Minor               $94,367
               Forest                         Construct
                                              ed
                                              Features
              Lincoln National   NM          Road               $284,675
               Forest                         Bridges
              Lincoln National   NM          Roads           $16,094,529
               Forest
              Lincoln National   NM          Trail                    $0
               Forest                         Bridges
              Lincoln National   NM          Trails             $911,680
               Forest
              Lincoln National   NM          Wastewater         $178,480
               Forest                         Systems
              Prescott National  AZ          Buildings        $1,077,537
               Forest
              Prescott National  AZ          Dams               $239,075
               Forest
              Prescott National  AZ          Drinking           $287,201
               Forest                         Water
                                              Systems
              Prescott National  AZ          Heritage           $124,300
               Forest
              Prescott National  AZ          Minor               $62,157
               Forest                         Construct
                                              ed
                                              Features
              Prescott National  AZ          Road                $49,598
               Forest                         Bridges
              Prescott National  AZ          Roads            $1,449,654
               Forest
              Prescott National  AZ          Trail                    $0
               Forest                         Bridges
              Prescott National  AZ          Trails           $1,513,969
               Forest
              Prescott National  AZ          Wastewater         $332,767
               Forest                         Systems
              Santa Fe National  NM          Buildings        $7,764,975
               Forest
              Santa Fe National  NM          Dams                $72,330
               Forest
              Santa Fe National  NM          Drinking           $238,885
               Forest                         Water
                                              Systems
              Santa Fe National  NM          Heritage           $682,516
               Forest
              Santa Fe National  NM          Minor              $415,085
               Forest                         Construct
                                              ed
                                              Features
              Santa Fe National  NM          Road             $1,202,227
               Forest                         Bridges
              Santa Fe National  NM          Roads           $20,129,802
               Forest
              Santa Fe National  NM          Trail                    $0
               Forest                         Bridges
              Santa Fe National  NM          Trails           $1,555,768
               Forest
              Santa Fe National  NM          Wastewater         $210,281
               Forest                         Systems
              Tonto National     AZ          Buildings        $4,153,314
               Forest
              Tonto National     AZ          Drinking           $687,641
               Forest                         Water
                                              Systems
              Tonto National     AZ          Heritage         $4,961,944
               Forest
              Tonto National     AZ          Minor            $1,593,062
               Forest                         Construct
                                              ed
                                              Features
              Tonto National     AZ          Road               $735,268
               Forest                         Bridges
              Tonto National     AZ          Roads           $20,284,906
               Forest
              Tonto National     AZ          Trail                $1,000
               Forest                         Bridges
              Tonto National     AZ          Trails           $1,579,496
               Forest
              Tonto National     AZ          Wastewater         $151,004
               Forest                         Systems
Region 4--    Intermountain      ID, NV,                    $513,267,130
 Intermounta   Region Totals      UT, WY
 in
              Region 4 Unit                  Buildings          $510,692
               Unassigned
              Ashley National    UT          Buildings       $11,687,166
               Forest
              Ashley National    UT          Dams               $278,656
               Forest
              Ashley National    UT          Drinking         $1,071,097
               Forest                         Water
                                              Systems
              Ashley National    UT          Heritage            $67,512
               Forest
              Ashley National    UT          Minor              $744,309
               Forest                         Construct
                                              ed
                                              Features
              Ashley National    UT          Road               $548,031
               Forest                         Bridges
              Ashley National    UT          Roads           $27,260,647
               Forest
              Ashley National    UT          Trail               $33,102
               Forest                         Bridges
              Ashley National    UT          Trails           $1,817,060
               Forest
              Ashley National    UT          Wastewater         $175,845
               Forest                         Systems
              Boise National     ID          Buildings        $6,302,105
               Forest
              Boise National     ID          Drinking           $890,648
               Forest                         Water
                                              Systems
              Boise National     ID          Heritage                 $0
               Forest
              Boise National     ID          Minor              $405,315
               Forest                         Construct
                                              ed
                                              Features
              Boise National     ID          Road             $2,377,138
               Forest                         Bridges
              Boise National     ID          Roads           $25,029,547
               Forest
              Boise National     ID          Trail                $8,002
               Forest                         Bridges
              Boise National     ID          Trails           $3,498,329
               Forest
              Boise National     ID          Wastewater          $68,327
               Forest                         Systems
              Bridger-Teton      WY          Buildings        $2,789,851
               National Forest
              Bridger-Teton      WY          Dams               $313,541
               National Forest
              Bridger-Teton      WY          Drinking         $1,531,967
               National Forest                Water
                                              Systems
              Bridger-Teton      WY          Heritage                 $0
               National Forest
              Bridger-Teton      WY          Minor              $382,328
               National Forest                Construct
                                              ed
                                              Features
              Bridger-Teton      WY          Road             $2,432,682
               National Forest                Bridges
              Bridger-Teton      WY          Roads           $29,121,237
               National Forest
              Bridger-Teton      WY          Trail               $83,300
               National Forest                Bridges
              Bridger-Teton      WY          Trails           $5,949,505
               National Forest
              Bridger-Teton      WY          Wastewater         $116,198
               National Forest                Systems
              Dixie National     UT          Buildings        $4,575,170
               Forest
              Dixie National     UT          Dams               $417,500
               Forest
              Dixie National     UT          Drinking         $1,180,572
               Forest                         Water
                                              Systems
              Dixie National     UT          Heritage            $20,000
               Forest
              Dixie National     UT          Minor            $1,052,979
               Forest                         Construct
                                              ed
                                              Features
              Dixie National     UT          Road             $1,169,318
               Forest                         Bridges
              Dixie National     UT          Roads           $25,906,380
               Forest
              Dixie National     UT          Trail                    $0
               Forest                         Bridges
              Dixie National     UT          Trails           $2,981,382
               Forest
              Dixie National     UT          Wastewater         $561,078
               Forest                         Systems
              Fishlake National  UT          Buildings          $657,759
               Forest
              Fishlake National  UT          Dams                 $7,000
               Forest
              Fishlake National  UT          Drinking           $157,993
               Forest                         Water
                                              Systems
              Fishlake National  UT          Heritage                 $0
               Forest
              Fishlake National  UT          Minor              $509,026
               Forest                         Construct
                                              ed
                                              Features
              Fishlake National  UT          Road                $72,007
               Forest                         Bridges
              Fishlake National  UT          Roads           $10,575,772
               Forest
              Fishlake National  UT          Trail                    $0
               Forest                         Bridges
              Fishlake National  UT          Trails           $4,360,463
               Forest
              Fishlake National  UT          Wastewater         $853,941
               Forest                         Systems
              Manti-Lasal        UT          Buildings          $965,908
               National Forest
              Manti-Lasal        UT          Dams                $92,560
               National Forest
              Manti-Lasal        UT          Drinking           $189,305
               National Forest                Water
                                              Systems
              Manti-Lasal        UT          Heritage           $401,311
               National Forest
              Manti-Lasal        UT          Minor              $282,350
               National Forest                Construct
                                              ed
                                              Features
              Manti-Lasal        UT          Road               $214,448
               National Forest                Bridges
              Manti-Lasal        UT          Roads           $14,440,873
               National Forest
              Manti-Lasal        UT          Trail                    $0
               National Forest                Bridges
              Manti-Lasal        UT          Trails           $1,631,198
               National Forest
              Manti-Lasal        UT          Wastewater           $6,517
               National Forest                Systems
              Payette National   ID          Buildings       $15,635,510
               Forest
              Payette National   ID          Drinking           $174,963
               Forest                         Water
                                              Systems
              Payette National   ID          Heritage             $1,900
               Forest
              Payette National   ID          Minor              $174,121
               Forest                         Construct
                                              ed
                                              Features
              Payette National   ID          Road               $646,182
               Forest                         Bridges
              Payette National   ID          Roads           $23,393,794
               Forest
              Payette National   ID          Trail              $148,250
               Forest                         Bridges
              Payette National   ID          Trails           $3,148,664
               Forest
              Payette National   ID          Wastewater           $6,760
               Forest                         Systems
              Salmon-Challis     ID          Buildings       $40,249,383
               National Forest
              Salmon-Challis     ID          Drinking         $1,129,587
               National Forest                Water
                                              Systems
              Salmon-Challis     ID          Heritage            $19,500
               National Forest
              Salmon-Challis     ID          Minor              $616,282
               National Forest                Construct
                                              ed
                                              Features
              Salmon-Challis     ID          Road             $2,310,770
               National Forest                Bridges
              Salmon-Challis     ID          Roads           $19,845,573
               National Forest
              Salmon-Challis     ID          Trail               $65,175
               National Forest                Bridges
              Salmon-Challis     ID          Trails           $5,915,674
               National Forest
              Salmon-Challis     ID          Wastewater         $648,587
               National Forest                Systems
              Sawtooth National  ID          Buildings       $12,127,509
               Forest
              Sawtooth National  ID          Drinking         $1,260,920
               Forest                         Water
                                              Systems
              Sawtooth National  ID          Heritage            $30,000
               Forest
              Sawtooth National  ID          Minor              $661,385
               Forest                         Construct
                                              ed
                                              Features
              Sawtooth National  ID          Road               $862,545
               Forest                         Bridges
              Sawtooth National  ID          Roads           $14,947,506
               Forest
              Sawtooth National  ID          Trail                $1,456
               Forest                         Bridges
              Sawtooth National  ID          Trails           $4,069,876
               Forest
              Sawtooth National  ID          Wastewater          $81,940
               Forest                         Systems
              Caribou-Targhee    ID          Buildings        $3,765,298
               National Forest
              Caribou-Targhee    ID          Drinking           $493,229
               National Forest                Water
                                              Systems
              Caribou-Targhee    ID          Heritage                 $0
               National Forest
              Caribou-Targhee    ID          Minor              $606,523
               National Forest                Construct
                                              ed
                                              Features
              Caribou-Targhee    ID          Road             $1,699,244
               National Forest                Bridges
              Caribou-Targhee    ID          Roads           $38,182,424
               National Forest
              Caribou-Targhee    ID          Trail              $272,455
               National Forest                Bridges
              Caribou-Targhee    ID          Trails           $6,815,957
               National Forest
              Caribou-Targhee    ID          Wastewater          $93,000
               National Forest                Systems
              Humboldt-Toiyabe   NV          Buildings        $8,615,628
               National Forest
              Humboldt-Toiyabe   NV          Dams                $11,000
               National Forest
              Humboldt-Toiyabe   NV          Drinking         $2,474,189
               National Forest                Water
                                              Systems
              Humboldt-Toiyabe   NV          Heritage           $607,625
               National Forest
              Humboldt-Toiyabe   NV          Minor            $1,186,642
               National Forest                Construct
                                              ed
                                              Features
              Humboldt-Toiyabe   NV          Road               $220,431
               National Forest                Bridges
              Humboldt-Toiyabe   NV          Roads           $33,425,496
               National Forest
              Humboldt-Toiyabe   NV          Trail                    $0
               National Forest                Bridges
              Humboldt-Toiyabe   NV          Trails           $6,103,056
               National Forest
              Humboldt-Toiyabe   NV          Wastewater         $542,095
               National Forest                Systems
              Uinta-Wasatch-     UT          Buildings       $13,894,929
               Cache National
               Forest
              Uinta-Wasatch-     UT          Dams               $395,200
               Cache National
               Forest
              Uinta-Wasatch-     UT          Drinking         $2,075,973
               Cache National                 Water
               Forest                         Systems
              Uinta-Wasatch-     UT          Heritage            $40,592
               Cache National
               Forest
              Uinta-Wasatch-     UT          Minor            $4,073,958
               Cache National                 Construct
               Forest                         ed
                                              Features
              Uinta-Wasatch-     UT          Road               $631,752
               Cache National                 Bridges
               Forest
              Uinta-Wasatch-     UT          Roads           $34,826,855
               Cache National
               Forest
              Uinta-Wasatch-     UT          Trail               $38,915
               Cache National                 Bridges
               Forest
              Uinta-Wasatch-     UT          Trails           $4,324,598
               Cache National
               Forest
              Uinta-Wasatch-     UT          Wastewater         $899,308
               Cache National                 Systems
               Forest
Region 5--    Pacific Southwest  CA                         $894,955,732
 Pacific       Region Totals
 Southwest
              Region 5           CA          Buildings          $527,675
               Unassigned Unit
              Angeles National   CA          Buildings       $15,211,848
               Forest
              Angeles National   CA          Drinking         $2,638,377
               Forest                         Water
                                              Systems
              Angeles National   CA          Heritage           $132,100
               Forest
              Angeles National   CA          Minor            $1,717,297
               Forest                         Construct
                                              ed
                                              Features
              Angeles National   CA          Road                $29,569
               Forest                         Bridges
              Angeles National   CA          Roads            $9,802,608
               Forest
              Angeles National   CA          Trail              $174,816
               Forest                         Bridges
              Angeles National   CA          Trails           $1,300,705
               Forest
              Angeles National   CA          Wastewater       $2,471,367
               Forest                         Systems
              Cleveland          CA          Buildings       $24,951,619
               National Forest
              Cleveland          CA          Dams                $17,600
               National Forest
              Cleveland          CA          Drinking         $5,974,053
               National Forest                Water
                                              Systems
              Cleveland          CA          Heritage           $100,000
               National Forest
              Cleveland          CA          Minor              $996,639
               National Forest                Construct
                                              ed
                                              Features
              Cleveland          CA          Road                 $4,723
               National Forest                Bridges
              Cleveland          CA          Roads            $4,300,701
               National Forest
              Cleveland          CA          Trail                    $0
               National Forest                Bridges
              Cleveland          CA          Trails             $564,442
               National Forest
              Cleveland          CA          Wastewater         $233,383
               National Forest                Systems
              Eldorado National  CA          Buildings       $42,036,548
               Forest
              Eldorado National  CA          Drinking         $1,000,106
               Forest                         Water
                                              Systems
              Eldorado National  CA          Heritage             $9,500
               Forest
              Eldorado National  CA          Minor              $297,304
               Forest                         Construct
                                              ed
                                              Features
              Eldorado National  CA          Road                $40,112
               Forest                         Bridges
              Eldorado National  CA          Roads           $26,159,328
               Forest
              Eldorado National  CA          Trail               $38,132
               Forest                         Bridges
              Eldorado National  CA          Trails           $1,461,611
               Forest
              Eldorado National  CA          Wastewater          $45,867
               Forest                         Systems
              Inyo National      CA          Buildings        $4,070,414
               Forest
              Inyo National      CA          Drinking           $918,831
               Forest                         Water
                                              Systems
              Inyo National      CA          Heritage                 $0
               Forest
              Inyo National      CA          Minor            $3,195,462
               Forest                         Construct
                                              ed
                                              Features
              Inyo National      CA          Road                $69,075
               Forest                         Bridges
              Inyo National      CA          Roads            $6,066,996
               Forest
              Inyo National      CA          Trail              $217,249
               Forest                         Bridges
              Inyo National      CA          Trails           $2,773,722
               Forest
              Inyo National      CA          Wastewater       $1,075,796
               Forest                         Systems
              Klamath National   CA          Buildings       $37,971,575
               Forest
              Klamath National   CA          Dams                 $7,400
               Forest
              Klamath National   CA          Drinking           $466,679
               Forest                         Water
                                              Systems
              Klamath National   CA          Heritage                 $0
               Forest
              Klamath National   CA          Minor              $247,550
               Forest                         Construct
                                              ed
                                              Features
              Klamath National   CA          Road             $6,631,125
               Forest                         Bridges
              Klamath National   CA          Roads           $42,490,969
               Forest
              Klamath National   CA          Trail              $145,073
               Forest                         Bridges
              Klamath National   CA          Trails           $1,580,694
               Forest
              Klamath National   CA          Wastewater         $129,292
               Forest                         Systems
              Lassen National    CA          Buildings        $6,727,998
               Forest
              Lassen National    CA          Dams                $34,039
               Forest
              Lassen National    CA          Drinking           $569,941
               Forest                         Water
                                              Systems
              Lassen National    CA          Heritage           $150,800
               Forest
              Lassen National    CA          Minor              $965,884
               Forest                         Construct
                                              ed
                                              Features
              Lassen National    CA          Road                $93,301
               Forest                         Bridges
              Lassen National    CA          Roads           $33,534,718
               Forest
              Lassen National    CA          Trail                  $395
               Forest                         Bridges
              Lassen National    CA          Trails             $775,612
               Forest
              Lassen National    CA          Wastewater          $83,500
               Forest                         Systems
              Los Padres         CA          Buildings       $22,772,624
               National Forest
              Los Padres         CA          Dams                 $7,900
               National Forest
              Los Padres         CA          Drinking         $2,003,834
               National Forest                Water
                                              Systems
              Los Padres         CA          Heritage            $35,445
               National Forest
              Los Padres         CA          Minor              $915,972
               National Forest                Construct
                                              ed
                                              Features
              Los Padres         CA          Road               $394,242
               National Forest                Bridges
              Los Padres         CA          Roads           $16,877,867
               National Forest
              Los Padres         CA          Trail                $3,500
               National Forest                Bridges
              Los Padres         CA          Trails           $2,458,809
               National Forest
              Los Padres         CA          Wastewater         $391,430
               National Forest                Systems
              Mendocino          CA          Buildings       $26,832,563
               National Forest
              Mendocino          CA          Dams                $12,648
               National Forest
              Mendocino          CA          Drinking           $267,528
               National Forest                Water
                                              Systems
              Mendocino          CA          Heritage           $205,650
               National Forest
              Mendocino          CA          Minor              $359,266
               National Forest                Construct
                                              ed
                                              Features
              Mendocino          CA          Road                 $1,709
               National Forest                Bridges
              Mendocino          CA          Roads           $14,781,295
               National Forest
              Mendocino          CA          Trail                    $0
               National Forest                Bridges
              Mendocino          CA          Trails             $942,305
               National Forest
              Mendocino          CA          Wastewater           $9,627
               National Forest                Systems
              Modoc National     CA          Buildings        $3,695,401
               Forest
              Modoc National     CA          Dams                $68,862
               Forest
              Modoc National     CA          Drinking           $235,040
               Forest                         Water
                                              Systems
              Modoc National     CA          Heritage            $60,000
               Forest
              Modoc National     CA          Minor              $449,169
               Forest                         Construct
                                              ed
                                              Features
              Modoc National     CA          Road               $290,304
               Forest                         Bridges
              Modoc National     CA          Roads           $26,112,251
               Forest
              Modoc National     CA          Trails             $217,814
               Forest
              Six Rivers         CA          Buildings       $19,765,656
               National Forest
              Six Rivers         CA          Drinking         $2,718,682
               National Forest                Water
                                              Systems
              Six Rivers         CA          Heritage            $16,000
               National Forest
              Six Rivers         CA          Minor              $199,244
               National Forest                Construct
                                              ed
                                              Features
              Six Rivers         CA          Road               $945,484
               National Forest                Bridges
              Six Rivers         CA          Roads           $34,985,688
               National Forest
              Six Rivers         CA          Trail               $11,250
               National Forest                Bridges
              Six Rivers         CA          Trails             $690,751
               National Forest
              Six Rivers         CA          Wastewater          $85,203
               National Forest                Systems
              Plumas National    CA          Buildings       $16,307,368
               Forest
              Plumas National    CA          Dams                $12,500
               Forest
              Plumas National    CA          Drinking         $2,956,784
               Forest                         Water
                                              Systems
              Plumas National    CA          Heritage           $331,801
               Forest
              Plumas National    CA          Minor              $702,028
               Forest                         Construct
                                              ed
                                              Features
              Plumas National    CA          Road               $288,643
               Forest                         Bridges
              Plumas National    CA          Roads           $27,673,908
               Forest
              Plumas National    CA          Trail                $4,335
               Forest                         Bridges
              Plumas National    CA          Trails           $1,447,278
               Forest
              Plumas National    CA          Wastewater         $575,392
               Forest                         Systems
              San Bernardino     CA          Buildings        $6,201,842
               National Forest
              San Bernardino     CA          Dams               $177,000
               National Forest
              San Bernardino     CA          Drinking           $379,446
               National Forest                Water
                                              Systems
              San Bernardino     CA          Heritage            $52,600
               National Forest
              San Bernardino     CA          Minor              $391,597
               National Forest                Construct
                                              ed
                                              Features
              San Bernardino     CA          Road                $32,870
               National Forest                Bridges
              San Bernardino     CA          Roads           $14,247,754
               National Forest
              San Bernardino     CA          Trail                    $0
               National Forest                Bridges
              San Bernardino     CA          Trails           $1,129,135
               National Forest
              San Bernardino     CA          Wastewater         $192,100
               National Forest                Systems
              Sequoia National   CA          Buildings       $11,438,207
               Forest
              Sequoia National   CA          Dams               $614,638
               Forest
              Sequoia National   CA          Drinking         $2,665,533
               Forest                         Water
                                              Systems
              Sequoia National   CA          Heritage             $1,500
               Forest
              Sequoia National   CA          Minor              $891,520
               Forest                         Construct
                                              ed
                                              Features
              Sequoia National   CA          Road             $1,881,152
               Forest                         Bridges
              Sequoia National   CA          Roads           $25,168,788
               Forest
              Sequoia National   CA          Trail              $256,300
               Forest                         Bridges
              Sequoia National   CA          Trails           $1,803,156
               Forest
              Sequoia National   CA          Wastewater       $1,381,848
               Forest                         Systems
              Shasta-Trinity     CA          Buildings       $26,129,162
               National Forest
              Shasta-Trinity     CA          Drinking         $1,372,798
               National Forest                Water
                                              Systems
              Shasta-Trinity     CA          Heritage           $542,500
               National Forest
              Shasta-Trinity     CA          Minor            $3,378,729
               National Forest                Construct
                                              ed
                                              Features
              Shasta-Trinity     CA          Road             $4,694,154
               National Forest                Bridges
              Shasta-Trinity     CA          Roads           $49,340,979
               National Forest
              Shasta-Trinity     CA          Trail              $109,740
               National Forest                Bridges
              Shasta-Trinity     CA          Trails           $2,327,104
               National Forest
              Shasta-Trinity     CA          Wastewater       $1,201,791
               National Forest                Systems
              Sierra National    CA          Buildings       $62,001,396
               Forest
              Sierra National    CA          Drinking         $1,109,990
               Forest                         Water
                                              Systems
              Sierra National    CA          Heritage                 $0
               Forest
              Sierra National    CA          Minor            $2,608,580
               Forest                         Construct
                                              ed
                                              Features
              Sierra National    CA          Road             $8,291,786
               Forest                         Bridges
              Sierra National    CA          Roads           $18,850,703
               Forest
              Sierra National    CA          Trail              $676,125
               Forest                         Bridges
              Sierra National    CA          Trails           $2,126,361
               Forest
              Sierra National    CA          Wastewater         $161,774
               Forest                         Systems
              Stanislaus         CA          Buildings        $5,613,283
               National Forest
              Stanislaus         CA          Dams               $417,083
               National Forest
              Stanislaus         CA          Drinking         $1,775,722
               National Forest                Water
                                              Systems
              Stanislaus         CA          Heritage         $1,199,033
               National Forest
              Stanislaus         CA          Minor              $285,563
               National Forest                Construct
                                              ed
                                              Features
              Stanislaus         CA          Road             $3,292,527
               National Forest                Bridges
              Stanislaus         CA          Roads           $19,188,101
               National Forest
              Stanislaus         CA          Trail               $78,460
               National Forest                Bridges
              Stanislaus         CA          Trails           $2,349,771
               National Forest
              Stanislaus         CA          Wastewater         $122,123
               National Forest                Systems
              Tahoe National     CA          Buildings       $15,501,522
               Forest
              Tahoe National     CA          Dams                $24,700
               Forest
              Tahoe National     CA          Drinking         $1,212,441
               Forest                         Water
                                              Systems
              Tahoe National     CA          Heritage            $20,000
               Forest
              Tahoe National     CA          Minor            $6,448,256
               Forest                         Construct
                                              ed
                                              Features
              Tahoe National     CA          Road               $448,413
               Forest                         Bridges
              Tahoe National     CA          Roads           $26,829,070
               Forest
              Tahoe National     CA          Trail                    $0
               Forest                         Bridges
              Tahoe National     CA          Trails           $2,504,359
               Forest
              Tahoe National     CA          Wastewater          $42,063
               Forest                         Systems
              Lake Tahoe Basin   CA          Buildings       $19,515,980
               Mgt. Unit
              Lake Tahoe Basin   CA          Dams             $3,901,259
               Mgt. Unit
              Lake Tahoe Basin   CA          Drinking         $1,523,306
               Mgt. Unit                      Water
                                              Systems
              Lake Tahoe Basin   CA          Heritage             $2,500
               Mgt. Unit
              Lake Tahoe Basin   CA          Minor            $1,002,843
               Mgt. Unit                      Construct
                                              ed
                                              Features
              Lake Tahoe Basin   CA          Road                 $1,690
               Mgt. Unit                      Bridges
              Lake Tahoe Basin   CA          Roads            $3,853,392
               Mgt. Unit
              Lake Tahoe Basin   CA          Trail                  $910
               Mgt. Unit                      Bridges
              Lake Tahoe Basin   CA          Trails             $617,538
               Mgt. Unit
Region 6--    Pacific Northwest  OR, WA (CA                 $834,627,114
 Pacific       Region Totals      * ID *)
 Northwest
              Deschutes          OR          Buildings       $19,473,598
               National Forest
              Deschutes          OR          Dams               $201,657
               National Forest
              Deschutes          OR          Drinking         $2,908,423
               National Forest                Water
                                              Systems
              Deschutes          OR          Heritage            $10,000
               National Forest
              Deschutes          OR          Minor            $1,228,740
               National Forest                Construct
                                              ed
                                              Features
              Deschutes          OR          Road               $867,752
               National Forest                Bridges
              Deschutes          OR          Roads           $21,181,879
               National Forest
              Deschutes          OR          Trail                $6,878
               National Forest                Bridges
              Deschutes          OR          Trails           $3,663,064
               National Forest
              Deschutes          OR          Wastewater         $316,093
               National Forest                Systems
              Fremont-Winema     OR          Buildings       $13,081,848
               National Forests
              Fremont-Winema     OR          Dams                $59,200
               National Forests
              Fremont-Winema     OR          Drinking           $783,111
               National Forests               Water
                                              Systems
              Fremont-Winema     OR          Heritage                 $0
               National Forests
              Fremont-Winema     OR          Minor              $756,761
               National Forests               Construct
                                              ed
                                              Features
              Fremont-Winema     OR          Road             $2,069,057
               National Forests               Bridges
              Fremont-Winema     OR          Roads           $49,046,731
               National Forests
              Fremont-Winema     OR          Trail                    $0
               National Forests               Bridges
              Fremont-Winema     OR          Trails           $2,220,160
               National Forests
              Fremont-Winema     OR          Wastewater         $468,200
               National Forests               Systems
              Gifford Pinchot    WA          Buildings       $29,343,512
               National Forest
              Gifford Pinchot    WA          Dams            $41,578,834
               National Forest
              Gifford Pinchot    WA          Drinking           $720,741
               National Forest                Water
                                              Systems
              Gifford Pinchot    WA          Heritage             $6,600
               National Forest
              Gifford Pinchot    WA          Minor              $939,575
               National Forest                Construct
                                              ed
                                              Features
              Gifford Pinchot    WA          Road             $3,699,340
               National Forest                Bridges
              Gifford Pinchot    WA          Roads           $19,297,008
               National Forest
              Gifford Pinchot    WA          Trail               $34,426
               National Forest                Bridges
              Gifford Pinchot    WA          Trails           $2,524,803
               National Forest
              Gifford Pinchot    WA          Wastewater          $99,366
               National Forest                Systems
              Malheur National   OR          Buildings        $5,689,902
               Forest
              Malheur National   OR          Dams                 $7,084
               Forest
              Malheur National   OR          Drinking           $456,654
               Forest                         Water
                                              Systems
              Malheur National   OR          Heritage            $84,000
               Forest
              Malheur National   OR          Minor               $13,873
               Forest                         Construct
                                              ed
                                              Features
              Malheur National   OR          Road             $2,621,862
               Forest                         Bridges
              Malheur National   OR          Roads           $17,503,732
               Forest
              Malheur National   OR          Trail               $25,400
               Forest                         Bridges
              Malheur National   OR          Trails           $2,173,439
               Forest
              Malheur National   OR          Wastewater           $2,000
               Forest                         Systems
              Mt. Baker-         WA          Buildings        $9,981,698
               Snoqualmie
               National Forest
              Mt. Baker-         WA          Dams                $12,418
               Snoqualmie
               National Forest
              Mt. Baker-         WA          Drinking         $1,107,015
               Snoqualmie                     Water
               National Forest                Systems
              Mt. Baker-         WA          Heritage                 $0
               Snoqualmie
               National Forest
              Mt. Baker-         WA          Minor              $666,780
               Snoqualmie                     Construct
               National Forest                ed
                                              Features
              Mt. Baker-         WA          Road             $1,974,233
               Snoqualmie                     Bridges
               National Forest
              Mt. Baker-         WA          Roads           $49,504,234
               Snoqualmie
               National Forest
              Mt. Baker-         WA          Trail                    $0
               Snoqualmie                     Bridges
               National Forest
              Mt. Baker-         WA          Trails           $2,712,189
               Snoqualmie
               National Forest
              Mt. Baker-         WA          Wastewater         $431,370
               Snoqualmie                     Systems
               National Forest
              Mt. Hood National  OR          Buildings       $34,457,234
               Forest
              Mt. Hood National  OR          Dams               $307,222
               Forest
              Mt. Hood National  OR          Drinking           $346,334
               Forest                         Water
                                              Systems
              Mt. Hood National  OR          Heritage                 $0
               Forest
              Mt. Hood National  OR          Minor              $147,241
               Forest                         Construct
                                              ed
                                              Features
              Mt. Hood National  OR          Road             $3,564,357
               Forest                         Bridges
              Mt. Hood National  OR          Roads           $17,868,047
               Forest
              Mt. Hood National  OR          Trail                $4,500
               Forest                         Bridges
              Mt. Hood National  OR          Trails           $1,930,708
               Forest
              Mt. Hood National  OR          Wastewater         $173,011
               Forest                         Systems
              Ochoco National    OR          Buildings       $10,675,652
               Forest
              Ochoco National    OR          Dams                $24,996
               Forest
              Ochoco National    OR          Drinking            $82,042
               Forest                         Water
                                              Systems
              Ochoco National    OR          Heritage            $19,000
               Forest
              Ochoco National    OR          Minor              $171,449
               Forest                         Construct
                                              ed
                                              Features
              Ochoco National    OR          Road             $1,823,505
               Forest                         Bridges
              Ochoco National    OR          Roads           $10,659,800
               Forest
              Ochoco National    OR          Trail               $27,900
               Forest                         Bridges
              Ochoco National    OR          Trails             $587,181
               Forest
              Ochoco National    OR          Wastewater           $6,204
               Forest                         Systems
              Olympic National   WA          Buildings        $3,499,359
               Forest
              Olympic National   WA          Drinking           $578,426
               Forest                         Water
                                              Systems
              Olympic National   WA          Heritage             $8,200
               Forest
              Olympic National   WA          Minor              $505,329
               Forest                         Construct
                                              ed
                                              Features
              Olympic National   WA          Road             $5,275,767
               Forest                         Bridges
              Olympic National   WA          Roads           $19,357,686
               Forest
              Olympic National   WA          Trail               $77,184
               Forest                         Bridges
              Olympic National   WA          Trails             $493,481
               Forest
              Olympic National   WA          Wastewater          $20,600
               Forest                         Systems
              Rogue River-       OR          Buildings        $7,902,639
               Siskiyou
               National Forest
              Rogue River-       OR          Dams               $113,200
               Siskiyou
               National Forest
              Rogue River-       OR          Drinking         $2,767,290
               Siskiyou                       Water
               National Forest                Systems
              Rogue River-       OR          Heritage                 $0
               Siskiyou
               National Forest
              Rogue River-       OR          Minor              $696,953
               Siskiyou                       Construct
               National Forest                ed
                                              Features
              Rogue River-       OR          Road            $12,043,385
               Siskiyou                       Bridges
               National Forest
              Rogue River-       CA *, OR    Roads           $50,137,735
               Siskiyou
               National Forest
              Rogue River-       OR          Trail              $247,384
               Siskiyou                       Bridges
               National Forest
              Rogue River-       CA *, OR    Trails           $2,297,395
               Siskiyou
               National Forest
              Rogue River-       OR          Wastewater       $1,717,088
               Siskiyou                       Systems
               National Forest
              Siuslaw National   OR          Buildings        $8,334,141
               Forest
              Siuslaw National   OR          Dams                $14,755
               Forest
              Siuslaw National   OR          Drinking           $888,293
               Forest                         Water
                                              Systems
              Siuslaw National   OR          Heritage                 $0
               Forest
              Siuslaw National   OR          Minor              $335,484
               Forest                         Construct
                                              ed
                                              Features
              Siuslaw National   OR          Road               $918,300
               Forest                         Bridges
              Siuslaw National   OR          Roads           $10,497,909
               Forest
              Siuslaw National   OR          Trail                    $0
               Forest                         Bridges
              Siuslaw National   OR          Trails             $306,924
               Forest
              Siuslaw National   OR          Wastewater         $279,545
               Forest                         Systems
              Umatilla National  OR, WA      Buildings        $7,372,498
               Forest
              Umatilla National  OR, WA      Dams               $236,954
               Forest
              Umatilla National  OR, WA      Drinking         $1,070,891
               Forest                         Water
                                              Systems
              Umatilla National  OR, WA      Heritage                 $0
               Forest
              Umatilla National  OR, WA      Minor               $86,111
               Forest                         Construct
                                              ed
                                              Features
              Umatilla National  OR, WA      Road             $2,306,646
               Forest                         Bridges
              Umatilla National  OR, WA      Roads           $22,892,437
               Forest
              Umatilla National  OR, WA      Trail               $14,679
               Forest                         Bridges
              Umatilla National  OR, WA      Trails           $2,398,509
               Forest
              Umatilla National  OR, WA      Wastewater         $869,367
               Forest                         Systems
              Umpqua National    OR          Buildings        $6,168,665
               Forest
              Umpqua National    OR          Dams                $35,154
               Forest
              Umpqua National    OR          Drinking           $264,681
               Forest                         Water
                                              Systems
              Umpqua National    OR          Heritage             $4,000
               Forest
              Umpqua National    OR          Minor              $160,808
               Forest                         Construct
                                              ed
                                              Features
              Umpqua National    OR          Road             $4,238,804
               Forest                         Bridges
              Umpqua National    OR          Roads           $26,183,415
               Forest
              Umpqua National    OR          Trail               $36,400
               Forest                         Bridges
              Umpqua National    OR          Trails           $2,135,093
               Forest
              Umpqua National    OR          Wastewater       $1,280,080
               Forest                         Systems
              Wallowa-Whitman    OR          Buildings       $10,967,001
               National Forest
              Wallowa-Whitman    OR          Drinking           $919,790
               National Forest                Water
                                              Systems
              Wallowa-Whitman    OR          Heritage            $20,000
               National Forest
              Wallowa-Whitman    OR          Minor              $841,612
               National Forest                Construct
                                              ed
                                              Features
              Wallowa-Whitman    OR          Road             $5,806,734
               National Forest                Bridges
              Wallowa-Whitman    ID *, OR    Roads           $20,732,812
               National Forest
              Wallowa-Whitman    OR          Trail               $83,300
               National Forest                Bridges
              Wallowa-Whitman    ID *, OR    Trails           $5,096,781
               National Forest
              Wallowa-Whitman    OR          Wastewater         $143,030
               National Forest                Systems
              Okanogan-          WA          Buildings       $11,011,567
               Wenatchee
               National Forests
              Okanogan-          WA          Dams                 $8,025
               Wenatchee
               National Forests
              Okanogan-          WA          Drinking         $2,774,041
               Wenatchee                      Water
               National Forests               Systems
              Okanogan-          WA          Heritage                 $0
               Wenatchee
               National Forests
              Okanogan-          WA          Minor            $1,832,152
               Wenatchee                      Construct
               National Forests               ed
                                              Features
              Okanogan-          WA          Road             $8,841,350
               Wenatchee                      Bridges
               National Forests
              Okanogan-          WA          Roads           $74,670,153
               Wenatchee
               National Forests
              Okanogan-          WA          Trail                    $0
               Wenatchee                      Bridges
               National Forests
              Okanogan-          WA          Trails           $8,962,861
               Wenatchee
               National Forests
              Okanogan-          WA          Wastewater         $339,794
               Wenatchee                      Systems
               National Forests
              Willamette         OR          Buildings        $4,793,138
               National Forest
              Willamette         OR          Dams                 $5,000
               National Forest
              Willamette         OR          Drinking         $2,365,551
               National Forest                Water
                                              Systems
              Willamette         OR          Heritage                 $0
               National Forest
              Willamette         OR          Minor              $678,208
               National Forest                Construct
                                              ed
                                              Features
              Willamette         OR          Road             $5,241,651
               National Forest                Bridges
              Willamette         OR          Roads           $34,038,691
               National Forest
              Willamette         OR          Trail               $41,400
               National Forest                Bridges
              Willamette         OR          Trails           $2,852,945
               National Forest
              Willamette         OR          Wastewater         $370,395
               National Forest                Systems
              Colville National  WA          Buildings        $7,366,453
               Forest
              Colville National  WA          Dams                 $1,100
               Forest
              Colville National  WA          Drinking           $208,443
               Forest                         Water
                                              Systems
              Colville National  WA          Heritage            $36,500
               Forest
              Colville National  WA          Minor              $127,078
               Forest                         Construct
                                              ed
                                              Features
              Colville National  WA          Road               $533,305
               Forest                         Bridges
              Colville National  WA          Roads           $17,109,514
               Forest
              Colville National  WA          Trail              $199,800
               Forest                         Bridges
              Colville National  WA          Trails             $943,946
               Forest
              Colville National  WA          Wastewater         $272,971
               Forest                         Systems
              Columbia River     OR, WA      Buildings          $757,430
               Gorge National
               Scenic Area
              Columbia River     OR, WA      Drinking           $246,164
               Gorge National                 Water
               Scenic Area                    Systems
              Columbia River     OR, WA      Heritage         $1,003,700
               Gorge National
               Scenic Area
              Columbia River     OR, WA      Minor              $126,125
               Gorge National                 Construct
               Scenic Area                    ed
                                              Features
              Columbia River     OR, WA      Road                 $9,840
               Gorge National                 Bridges
               Scenic Area
              Columbia River     OR, WA      Roads              $323,539
               Gorge National
               Scenic Area
              Columbia River     OR, WA      Trail               $14,779
               Gorge National                 Bridges
               Scenic Area
              Columbia River     OR, WA      Trails             $382,245
               Gorge National
               Scenic Area
              Columbia River     OR, WA      Wastewater          $24,932
               Gorge National                 Systems
               Scenic Area
Region 8--    Southern Region    AL, AR,                    $617,866,943
 Southern      Totals             FL, GA,
                                  KY, LA,
                                  MS, NC,
                                  OK, PR,
                                  SC, TX,
                                  VA (WV *)
              National Forests   AL          Buildings        $2,738,454
               in Alabama
              National Forests   AL          Dams               $171,881
               in Alabama
              National Forests   AL          Drinking           $178,782
               in Alabama                     Water
                                              Systems
              National Forests   AL          Heritage                 $0
               in Alabama
              National Forests   AL          Minor                $3,682
               in Alabama                     Construct
                                              ed
                                              Features
              National Forests   AL          Road             $3,515,489
               in Alabama                     Bridges
              National Forests   AL          Roads           $25,472,133
               in Alabama
              National Forests   AL          Trail               $46,400
               in Alabama                     Bridges
              National Forests   AL          Trails             $660,792
               in Alabama
              National Forests   AL          Wastewater          $32,152
               in Alabama                     Systems
              Daniel Boone       KY          Buildings        $3,041,591
               National Forest
              Daniel Boone       KY          Dams               $262,947
               National Forest
              Daniel Boone       KY          Drinking           $214,641
               National Forest                Water
                                              Systems
              Daniel Boone       KY          Heritage            $31,000
               National Forest
              Daniel Boone       KY          Minor            $2,893,661
               National Forest                Construct
                                              ed
                                              Features
              Daniel Boone       KY          Road               $139,546
               National Forest                Bridges
              Daniel Boone       KY          Roads           $20,454,185
               National Forest
              Daniel Boone       KY          Trail               $36,708
               National Forest                Bridges
              Daniel Boone       KY          Trails           $1,075,465
               National Forest
              Daniel Boone       KY          Wastewater         $451,741
               National Forest                Systems
              Chattahoochee-     GA          Buildings        $2,501,695
               Oconee National
               Forest
              Chattahoochee-     GA          Dams               $444,371
               Oconee National
               Forest
              Chattahoochee-     GA          Drinking           $116,634
               Oconee National                Water
               Forest                         Systems
              Chattahoochee-     GA          Heritage             $6,600
               Oconee National
               Forest
              Chattahoochee-     GA          Minor              $584,929
               Oconee National                Construct
               Forest                         ed
                                              Features
              Chattahoochee-     GA          Road             $3,027,760
               Oconee National                Bridges
               Forest
              Chattahoochee-     GA          Roads           $29,057,083
               Oconee National
               Forest
              Chattahoochee-     GA          Trail                $1,100
               Oconee National                Bridges
               Forest
              Chattahoochee-     GA          Trails           $1,482,610
               Oconee National
               Forest
              Chattahoochee-     GA          Wastewater         $171,226
               Oconee National                Systems
               Forest
              Cherokee National  TN          Buildings        $3,869,585
               Forest
              Cherokee National  TN          Dams               $237,001
               Forest
              Cherokee National  TN          Drinking           $162,188
               Forest                         Water
                                              Systems
              Cherokee National  TN          Heritage                 $0
               Forest
              Cherokee National  TN          Minor            $1,060,197
               Forest                         Construct
                                              ed
                                              Features
              Cherokee National  TN          Road               $363,365
               Forest                         Bridges
              Cherokee National  TN          Roads           $21,134,481
               Forest
              Cherokee National  TN          Trail               $13,400
               Forest                         Bridges
              Cherokee National  TN          Trails           $1,277,631
               Forest
              Cherokee National  TN          Wastewater          $67,531
               Forest                         Systems
              National Forests   FL          Buildings        $2,485,586
               in Florida
              National Forests   FL          Drinking           $106,369
               in Florida                     Water
                                              Systems
              National Forests   FL          Heritage            $28,020
               in Florida
              National Forests   FL          Minor              $935,383
               in Florida                     Construct
                                              ed
                                              Features
              National Forests   FL          Road             $4,797,706
               in Florida                     Bridges
              National Forests   FL          Roads           $60,441,190
               in Florida
              National Forests   FL          Trail                    $0
               in Florida                     Bridges
              National Forests   FL          Trails           $1,347,432
               in Florida
              National Forests   FL          Wastewater          $31,099
               in Florida                     Systems
              Kisatchie          LA          Buildings        $2,467,029
               National Forest
              Kisatchie          LA          Dams                $73,100
               National Forest
              Kisatchie          LA          Drinking         $1,076,638
               National Forest                Water
                                              Systems
              Kisatchie          LA          Heritage                 $0
               National Forest
              Kisatchie          LA          Minor              $754,362
               National Forest                Construct
                                              ed
                                              Features
              Kisatchie          LA          Road            $11,589,927
               National Forest                Bridges
              Kisatchie          LA          Roads           $32,932,392
               National Forest
              Kisatchie          LA          Trail              $119,655
               National Forest                Bridges
              Kisatchie          LA          Trails             $600,222
               National Forest
              Kisatchie          LA          Wastewater         $206,517
               National Forest                Systems
              National Forests   MS          Buildings        $5,858,676
               in Mississippi
              National Forests   MS          Dams               $120,501
               in Mississippi
              National Forests   MS          Heritage                 $0
               in Mississippi
              National Forests   MS          Minor              $388,327
               in Mississippi                 Construct
                                              ed
                                              Features
              National Forests   MS          Road               $711,552
               in Mississippi                 Bridges
              National Forests   MS          Roads           $37,596,942
               in Mississippi
              National Forests   MS          Trail               $74,337
               in Mississippi                 Bridges
              National Forests   MS          Trails             $712,423
               in Mississippi
              National Forests   MS          Wastewater          $17,157
               in Mississippi                 Systems
              George Washington  VA          Buildings        $6,584,161
               and Jefferson
               National Forests
              George Washington  VA          Dams             $1,195,768
               and Jefferson
               National Forests
              George Washington  VA          Drinking           $127,209
               and Jefferson                  Water
               National Forests               Systems
              George Washington  VA          Heritage                 $0
               and Jefferson
               National Forests
              George Washington  VA          Minor            $1,195,025
               and Jefferson                  Construct
               National Forests               ed
                                              Features
              George Washington  VA          Road             $1,149,834
               and Jefferson                  Bridges
               National Forests
              George Washington  VA, WV *    Roads           $40,086,227
               and Jefferson
               National Forests
              George Washington  VA          Trail              $232,630
               and Jefferson                  Bridges
               National Forests
              George Washington  VA, WV *    Trails           $3,723,931
               and Jefferson
               National Forests
              George Washington  VA          Wastewater         $383,028
               and Jefferson                  Systems
               National Forests
              Ouachita National  AR, OK      Buildings        $1,485,069
               Forest
              Ouachita National  AR, OK      Dams                $98,030
               Forest
              Ouachita National  AR, OK      Drinking            $62,798
               Forest                         Water
                                              Systems
              Ouachita National  AR, OK      Heritage            $49,591
               Forest
              Ouachita National  AR, OK      Minor              $326,302
               Forest                         Construct
                                              ed
                                              Features
              Ouachita National  AR, OK      Road             $1,201,080
               Forest                         Bridges
              Ouachita National  AR, OK      Roads           $59,276,658
               Forest
              Ouachita National  AR, OK      Trail                  $500
               Forest                         Bridges
              Ouachita National  AR, OK      Trails           $1,583,277
               Forest
              Ouachita National  AR, OK      Wastewater         $101,265
               Forest                         Systems
              Ozark-St. Francis  AR          Buildings        $2,766,971
               National Forest
              Ozark-St. Francis  AR          Dams               $734,916
               National Forest
              Ozark-St. Francis  AR          Drinking           $255,833
               National Forest                Water
                                              Systems
              Ozark-St. Francis  AR          Heritage            $30,000
               National Forest
              Ozark-St. Francis  AR          Minor              $670,771
               National Forest                Construct
                                              ed
                                              Features
              Ozark-St. Francis  AR          Road               $111,698
               National Forest                Bridges
              Ozark-St. Francis  AR          Roads           $11,377,800
               National Forest
              Ozark-St. Francis  AR          Trail                $5,041
               National Forest                Bridges
              Ozark-St. Francis  AR          Trails           $1,096,775
               National Forest
              Ozark-St. Francis  AR          Wastewater          $25,628
               National Forest                Systems
              National Forests   NC          Buildings        $7,887,343
               in North
               Carolina
              National Forests   NC          Dams               $460,916
               in North
               Carolina
              National Forests   NC          Drinking           $695,384
               in North                       Water
               Carolina                       Systems
              National Forests   NC          Heritage           $534,250
               in North
               Carolina
              National Forests   NC          Minor            $2,017,939
               in North                       Construct
               Carolina                       ed
                                              Features
              National Forests   NC          Road             $1,118,414
               in North                       Bridges
               Carolina
              National Forests   NC          Roads           $45,101,204
               in North
               Carolina
              National Forests   NC          Trail               $32,750
               in North                       Bridges
               Carolina
              National Forests   NC          Trails           $3,344,337
               in North
               Carolina
              National Forests   NC          Wastewater         $209,061
               in North                       Systems
               Carolina
              Francis Marion-    SC          Buildings        $3,553,169
               Sumter National
               Forests
              Francis Marion-    SC          Dams                $72,200
               Sumter National
               Forests
              Francis Marion-    SC          Drinking           $701,890
               Sumter National                Water
               Forests                        Systems
              Francis Marion-    SC          Heritage           $900,000
               Sumter National
               Forests
              Francis Marion-    SC          Minor              $317,884
               Sumter National                Construct
               Forests                        ed
                                              Features
              Francis Marion-    SC          Road             $2,077,568
               Sumter National                Bridges
               Forests
              Francis Marion-    SC          Roads           $42,964,196
               Sumter National
               Forests
              Francis Marion-    SC          Trail                    $0
               Sumter National                Bridges
               Forests
              Francis Marion-    SC          Trails           $1,009,693
               Sumter National
               Forests
              Francis Marion-    SC          Wastewater         $169,046
               Sumter National                Systems
               Forests
              National Forests   TX          Buildings        $3,557,152
               in Texas
              National Forests   TX          Dams             $2,589,000
               in Texas
              National Forests   TX          Drinking           $150,087
               in Texas                       Water
                                              Systems
              National Forests   TX          Heritage                 $0
               in Texas
              National Forests   TX          Minor              $525,964
               in Texas                       Construct
                                              ed
                                              Features
              National Forests   TX          Road             $1,159,739
               in Texas                       Bridges
              National Forests   TX          Roads           $37,021,426
               in Texas
              National Forests   TX          Trail              $121,670
               in Texas                       Bridges
              National Forests   TX          Trails             $753,776
               in Texas
              National Forests   TX          Wastewater         $667,514
               in Texas                       Systems
              El Yunque          PR          Buildings        $1,182,543
               National Forest
              El Yunque          PR          Drinking            $16,612
               National Forest                Water
                                              Systems
              El Yunque          PR          Heritage            $53,800
               National Forest
              El Yunque          PR          Minor            $1,945,214
               National Forest                Construct
                                              ed
                                              Features
              El Yunque          PR          Roads              $313,102
               National Forest
              El Yunque          PR          Trail                $3,600
               National Forest                Bridges
              El Yunque          PR          Trails              $33,415
               National Forest
              El Yunque          PR          Wastewater          $30,467
               National Forest                Systems
              Land Between the   KY, TN      Buildings        $7,646,875
               Lakes NRA
              Land Between the   KY, TN      Dams $54
               Lakes NRA
              Land Between the   KY, TN      Drinking           $727,372
               Lakes NRA                      Water
                                              Systems
              Land Between the   KY, TN      Heritage             $2,000
               Lakes NRA
              Land Between the   KY, TN      Minor              $128,038
               Lakes NRA                      Construct
                                              ed
                                              Features
              Land Between the   KY, TN      Road               $562,023
               Lakes NRA                      Bridges
              Land Between the   KY, TN      Roads           $16,349,447
               Lakes NRA
              Land Between the   KY, TN      Trail                    $0
               Lakes NRA                      Bridges
              Land Between the   KY, TN      Trails             $582,986
               Lakes NRA
              Land Between the   KY, TN      Wastewater         $164,830
               Lakes NRA                      Systems
Region 9--    Eastern Region     IL, IN,                    $501,510,365
 Eastern       Totals             OH, ME,
                                  MI, MN,
                                  MO, NH,
                                  NY, PA,
                                  VT, WI,
                                  WV
              Chippewa National  MN          Buildings        $3,643,067
               Forest
              Chippewa National  MN          Dams               $151,133
               Forest
              Chippewa National  MN          Drinking           $523,783
               Forest                         Water
                                              Systems
              Chippewa National  MN          Heritage                 $0
               Forest
              Chippewa National  MN          Minor              $644,795
               Forest                         Construct
                                              ed
                                              Features
              Chippewa National  MN          Road             $2,015,482
               Forest                         Bridges
              Chippewa National  MN          Roads           $26,495,968
               Forest
              Chippewa National  MN          Trail               $16,650
               Forest                         Bridges
              Chippewa National  MN          Trails           $1,047,106
               Forest
              Chippewa National  MN          Wastewater         $156,094
               Forest                         Systems
              Huron-Manistee     MI          Buildings        $4,646,900
               National Forest
              Huron-Manistee     MI          Dams               $141,611
               National Forest
              Huron-Manistee     MI          Drinking            $84,731
               National Forest                Water
                                              Systems
              Huron-Manistee     MI          Heritage                 $0
               National Forest
              Huron-Manistee     MI          Minor              $306,998
               National Forest                Construct
                                              ed
                                              Features
              Huron-Manistee     MI          Road                 $1,052
               National Forest                Bridges
              Huron-Manistee     MI          Roads           $25,777,061
               National Forest
              Huron-Manistee     MI          Trail                $8,150
               National Forest                Bridges
              Huron-Manistee     MI          Trails           $3,147,838
               National Forest
              Huron-Manistee     MI          Wastewater          $53,271
               National Forest                Systems
              Mark Twain         MO          Buildings        $6,113,981
               National Forest
              Mark Twain         MO          Dams               $917,102
               National Forest
              Mark Twain         MO          Drinking           $373,380
               National Forest                Water
                                              Systems
              Mark Twain         MO          Heritage           $175,597
               National Forest
              Mark Twain         MO          Minor              $630,307
               National Forest                Construct
                                              ed
                                              Features
              Mark Twain         MO          Road                $52,009
               National Forest                Bridges
              Mark Twain         MO          Roads           $28,647,991
               National Forest
              Mark Twain         MO          Trail               $57,685
               National Forest                Bridges
              Mark Twain         MO          Trails           $1,347,198
               National Forest
              Mark Twain         MO          Wastewater          $69,953
               National Forest                Systems
              Ottawa National    MI          Buildings        $2,546,211
               Forest
              Ottawa National    MI          Dams               $604,555
               Forest
              Ottawa National    MI          Drinking           $590,700
               Forest                         Water
                                              Systems
              Ottawa National    MI          Heritage            $12,000
               Forest
              Ottawa National    MI          Minor              $210,603
               Forest                         Construct
                                              ed
                                              Features
              Ottawa National    MI          Road               $170,181
               Forest                         Bridges
              Ottawa National    MI          Roads           $23,237,898
               Forest
              Ottawa National    MI          Trail               $66,397
               Forest                         Bridges
              Ottawa National    MI          Trails           $3,934,662
               Forest
              Ottawa National    MI          Wastewater         $117,874
               Forest                         Systems
              Shawnee National   IL          Buildings        $6,397,614
               Forest
              Shawnee National   IL          Dams               $150,982
               Forest
              Shawnee National   IL          Drinking           $261,148
               Forest                         Water
                                              Systems
              Shawnee National   IL          Heritage                 $0
               Forest
              Shawnee National   IL          Minor              $226,632
               Forest                         Construct
                                              ed
                                              Features
              Shawnee National   IL          Road             $1,218,063
               Forest                         Bridges
              Shawnee National   IL          Roads            $6,235,295
               Forest
              Shawnee National   IL          Trail                $3,325
               Forest                         Bridges
              Shawnee National   IL          Trails             $762,062
               Forest
              Shawnee National   IL          Wastewater         $154,564
               Forest                         Systems
              Superior National  MN          Buildings        $7,431,083
               Forest
              Superior National  MN          Dams               $237,490
               Forest
              Superior National  MN          Drinking           $145,613
               Forest                         Water
                                              Systems
              Superior National  MN          Heritage                 $0
               Forest
              Superior National  MN          Minor              $122,825
               Forest                         Construct
                                              ed
                                              Features
              Superior National  MN          Road             $1,060,838
               Forest                         Bridges
              Superior National  MN          Roads           $27,341,068
               Forest
              Superior National  MN          Trail              $130,700
               Forest                         Bridges
              Superior National  MN          Trails           $4,529,196
               Forest
              Superior National  MN          Wastewater          $42,573
               Forest                         Systems
              Hiawatha National  MI          Buildings        $5,690,148
               Forest
              Hiawatha National  MI          Dams                $55,039
               Forest
              Hiawatha National  MI          Drinking            $94,219
               Forest                         Water
                                              Systems
              Hiawatha National  MI          Heritage           $326,000
               Forest
              Hiawatha National  MI          Minor               $39,298
               Forest                         Construct
                                              ed
                                              Features
              Hiawatha National  MI          Road             $1,321,122
               Forest                         Bridges
              Hiawatha National  MI          Roads           $24,246,986
               Forest
              Hiawatha National  MI          Trail              $450,760
               Forest                         Bridges
              Hiawatha National  MI          Trails           $1,792,726
               Forest
              Hiawatha National  MI          Wastewater          $26,842
               Forest                         Systems
              Hoosier National   IN          Buildings          $230,295
               Forest
              Hoosier National   IN          Dams                $22,989
               Forest
              Hoosier National   IN          Drinking           $420,000
               Forest                         Water
                                              Systems
              Hoosier National   IN          Heritage                 $0
               Forest
              Hoosier National   IN          Minor              $216,126
               Forest                         Construct
                                              ed
                                              Features
              Hoosier National   IN          Road               $190,078
               Forest                         Bridges
              Hoosier National   IN          Roads            $2,164,872
               Forest
              Hoosier National   IN          Trail                    $0
               Forest                         Bridges
              Hoosier National   IN          Trails             $430,891
               Forest
              Hoosier National   IN          Wastewater         $826,300
               Forest                         Systems
              Chequamegon-       WI          Buildings        $9,274,331
               Nicolet National
               Forest
              Chequamegon-       WI          Dams               $894,141
               Nicolet National
               Forest
              Chequamegon-       WI          Drinking            $75,569
               Nicolet National               Water
               Forest                         Systems
              Chequamegon-       WI          Heritage             $5,000
               Nicolet National
               Forest
              Chequamegon-       WI          Minor              $264,673
               Nicolet National               Construct
               Forest                         ed
                                              Features
              Chequamegon-       WI          Road             $4,628,573
               Nicolet National               Bridges
               Forest
              Chequamegon-       WI          Roads          $103,102,919
               Nicolet National
               Forest
              Chequamegon-       WI          Trail               $56,170
               Nicolet National               Bridges
               Forest
              Chequamegon-       WI          Trails           $4,190,988
               Nicolet National
               Forest
              Chequamegon-       WI          Wastewater         $143,641
               Nicolet National               Systems
               Forest
              Wayne National     OH          Buildings          $598,201
               Forest
              Wayne National     OH          Dams             $1,392,811
               Forest
              Wayne National     OH          Drinking            $79,250
               Forest                         Water
                                              Systems
              Wayne National     OH          Heritage            $45,000
               Forest
              Wayne National     OH          Minor               $99,201
               Forest                         Construct
                                              ed
                                              Features
              Wayne National     OH          Roads            $1,518,585
               Forest
              Wayne National     OH          Trail                    $0
               Forest                         Bridges
              Wayne National     OH          Trails             $751,355
               Forest
              Wayne National     OH          Wastewater          $51,150
               Forest                         Systems
              Midewin National   IL          Buildings       $15,473,955
               Tallgrass
               Prairie
              Midewin National   IL          Drinking               $293
               Tallgrass                      Water
               Prairie                        Systems
              Midewin National   IL          Heritage               $800
               Tallgrass
               Prairie
              Midewin National   IL          Road             $1,200,823
               Tallgrass                      Bridges
               Prairie
              Midewin National   IL          Roads              $103,105
               Tallgrass
               Prairie
              Midewin National   IL          Trail                    $0
               Tallgrass                      Bridges
               Prairie
              Midewin National   IL          Trails              $50,544
               Tallgrass
               Prairie
              Midewin National   IL          Wastewater               $0
               Tallgrass                      Systems
               Prairie
              Allegheny          PA          Buildings        $9,432,998
               National Forest
              Allegheny          PA          Dams               $836,737
               National Forest
              Allegheny          PA          Drinking           $211,544
               National Forest                Water
                                              Systems
              Allegheny          PA          Heritage                 $0
               National Forest
              Allegheny          PA          Minor            $1,198,970
               National Forest                Construct
                                              ed
                                              Features
              Allegheny          PA          Road             $1,292,203
               National Forest                Bridges
              Allegheny          PA          Roads           $24,495,783
               National Forest
              Allegheny          PA          Trail               $14,700
               National Forest                Bridges
              Allegheny          PA          Trails           $1,352,317
               National Forest
              Allegheny          PA          Wastewater         $125,360
               National Forest                Systems
              Green Mountain     NY, VT      Buildings        $1,187,273
               and Finger Lakes
               National Forests
              Green Mountain     NY, VT      Dams                 $7,050
               and Finger Lakes
               National Forests
              Green Mountain     NY, VT      Drinking             $9,573
               and Finger Lakes               Water
               National Forests               Systems
              Green Mountain     NY, VT      Heritage            $33,000
               and Finger Lakes
               National Forests
              Green Mountain     NY, VT      Minor               $57,510
               and Finger Lakes               Construct
               National Forests               ed
                                              Features
              Green Mountain     NY, VT      Road               $246,865
               and Finger Lakes               Bridges
               National Forests
              Green Mountain     NY, VT      Roads            $3,862,130
               and Finger Lakes
               National Forests
              Green Mountain     NY, VT      Trail               $25,400
               and Finger Lakes               Bridges
               National Forests
              Green Mountain     NY, VT      Trails           $1,738,181
               and Finger Lakes
               National Forests
              Green Mountain     NY, VT      Wastewater          $13,090
               and Finger Lakes               Systems
               National Forests
              Monongahela        WV          Buildings        $4,920,297
               National Forest
              Monongahela        WV          Dams             $1,864,610
               National Forest
              Monongahela        WV          Drinking           $368,926
               National Forest                Water
                                              Systems
              Monongahela        WV          Heritage            $75,000
               National Forest
              Monongahela        WV          Minor              $553,977
               National Forest                Construct
                                              ed
                                              Features
              Monongahela        WV          Road             $1,793,986
               National Forest                Bridges
              Monongahela        WV          Roads           $31,733,627
               National Forest
              Monongahela        WV          Trail              $139,092
               National Forest                Bridges
              Monongahela        WV          Trails           $1,350,963
               National Forest
              Monongahela        WV          Wastewater         $481,795
               National Forest                Systems
              White Mountain     ME, NH      Buildings        $9,592,586
               National Forest
              White Mountain     ME, NH      Dams             $9,309,008
               National Forest
              White Mountain     ME, NH      Drinking         $1,092,901
               National Forest                Water
                                              Systems
              White Mountain     ME, NH      Heritage            $72,000
               National Forest
              White Mountain     ME, NH      Minor              $278,851
               National Forest                Construct
                                              ed
                                              Features
              White Mountain     ME, NH      Road             $3,039,285
               National Forest                Bridges
              White Mountain     ME, NH      Roads            $7,547,563
               National Forest
              White Mountain     ME, NH      Trail              $345,691
               National Forest                Bridges
              White Mountain     ME, NH      Trails           $2,885,209
               National Forest
              White Mountain     ME, NH      Wastewater         $189,500
               National Forest                Systems
Region 10--   Alaska Region      AK                         $100,338,382
 Alaska        Totals
              Chugach National   AK          Buildings        $3,919,145
               Forest
              Chugach National   AK          Dams                $21,585
               Forest
              Chugach National   AK          Drinking           $170,065
               Forest                         Water
                                              Systems
              Chugach National   AK          Heritage            $50,000
               Forest
              Chugach National   AK          Minor              $487,357
               Forest                         Construct
                                              ed
                                              Features
              Chugach National   AK          Road               $264,660
               Forest                         Bridges
              Chugach National   AK          Roads            $2,821,999
               Forest
              Chugach National   AK          Trail                $3,750
               Forest                         Bridges
              Chugach National   AK          Trails           $3,347,342
               Forest
              Chugach National   AK          Wastewater          $28,132
               Forest                         Systems
              Tongass National   AK          Buildings       $17,808,018
               Forest
              Tongass National   AK          Dams                 $4,523
               Forest
              Tongass National   AK          Drinking           $324,389
               Forest                         Water
                                              Systems
              Tongass National   AK          Heritage            $10,016
               Forest
              Tongass National   AK          Minor              $396,480
               Forest                         Construct
                                              ed
                                              Features
              Tongass National   AK          Road            $37,183,605
               Forest                         Bridges
              Tongass National   AK          Roads           $27,345,723
               Forest
              Tongass National   AK          Trail              $200,348
               Forest                         Bridges
              Tongass National   AK          Trails           $5,738,741
               Forest
              Tongass National   AK          Wastewater         $212,505
               Forest                         Systems
Other         Other Totals                                  $102,062,800
              Forest Products                Buildings        $4,856,527
               Laboratory
              San Dimas                      Buildings        $3,516,422
               Technology and
               Development
               Center
              Missoula                       Buildings           $74,439
               Technology and
               Development
               Center
              Frenchburg Job                 Buildings           $85,043
               Corp Center
              Jacobs Creek Job               Buildings          $230,663
               Corp Center
              Pine Knot Job                  Buildings          $726,180
               Corp Center
              Cass Job Corp                  Buildings           $45,726
               Center
              Ouachita Job Corp              Buildings           $29,171
               Center
              Blackwell Job                  Buildings          $108,355
               Corp Center
              Trapper Creek Job              Buildings           $65,718
               Corp Center
              Timber Lake Job                Buildings          $701,188
               Corp Center
              Wolf Creek Job                 Buildings          $651,139
               Corp Center
              Angell Job Corp                Buildings          $412,615
               Center
              Curlew Job Corp                Buildings          $260,739
               Center
              International                  Buildings        $2,287,183
               Institute of
               Tropical
               Forestry
              International                  Wastewater          $55,018
               Institute of                   Systems
               Tropical
               Forestry
              Rocky Mountain                 Buildings       $21,444,549
               Research Station
              Rocky Mountain                 Drinking           $757,084
               Research Station               Water
                                              Systems
              Rocky Mountain                 Wastewater          $65,529
               Research Station               Systems
              Northern Research              Buildings       $18,938,415
               Station
              Northern Research              Drinking            $78,777
               Station                        Water
                                              Systems
              Northern Research              Road                $82,465
               Station                        Bridges
              Northern Research              Wastewater         $138,065
               Station                        Systems
              Pacific Northwest              Buildings       $15,072,737
               Research Station
              Pacific Northwest              Drinking           $415,906
               Research Station               Water
                                              Systems
              Pacific Northwest              Wastewater         $335,584
               Research Station               Systems
              Pacific Northwest              Buildings       $14,177,965
               Research Station
              Pacific Northwest              Drinking           $555,940
               Research Station               Water
                                              Systems
              Pacific Northwest              Wastewater         $150,907
               Research Station               Systems
              Southern Research              Buildings       $14,649,003
               Station
              Southern Research              Drinking             $3,500
               Station                        Water
                                              Systems
              Southern Research              Wastewater          $15,127
               Station                        Systems
              Wood Education                 Buildings          $354,445
               and Resource
               Center
              Grey Towers                    Buildings          $201,931
               National
               Historic Site
              Grey Towers                    Drinking           $450,500
               National                       Water
               Historic Site                  Systems
              Grey Towers                    Roads               $68,247
               National
               Historic Site
                                                        ----------------
    Grand                                                 $5,242,592,725
     Total
------------------------------------------------------------------------
Deferred maintenance values for passenger car roads and trails are based
  on a statistically significant random sampling of these assets to
  generate a national deferred maintenance cost per mile. These national
  averages are not statistically valid at a regional or forest level,
  but have been applied for estimation purposes. Deferred maintenance
  values for high clearance vehicle and basic custodial care (closed)
  roads cannot be estimated with a suitable degree of confidence and are
  therefore not included.
*Roads and/or Trails may have segments located in multiple states that
  may lie outside ofproclaimed unit boundaries.
** Editor's note: the table, as submitted, when referring to the Grand
  Mesa, Uncompahgre & Gunnison National Forest shortened ``Uncompahgre
  &'' to ``Uncomp''.


              For Roads, Trails, and Road Bridges By State
------------------------------------------------------------------------
     State          Roads          Trails     Road Bridges      Total
------------------------------------------------------------------------
          AK     $30,167,722     $9,086,083    $37,448,265   $76,702,070
           AL    $25,465,968       $645,423     $3,515,489   $29,626,880
          AR     $65,004,771     $2,232,089     $1,219,489   $68,456,349
          AZ    $133,929,957     $9,977,170     $5,326,637  $149,233,764
          CA    $406,953,614    $27,000,212    $27,430,876  $461,384,703
          CO    $199,488,371    $24,714,337    $13,511,750  $237,714,459
           FL    $60,447,355     $1,317,739     $4,797,706   $66,562,800
          GA     $29,057,083     $1,479,095     $3,027,760   $33,563,938
          ID    $308,137,988    $39,290,149    $21,571,656  $368,999,793
           IL     $6,338,400       $779,887     $2,418,886    $9,537,173
          IN      $2,164,872       $430,282       $190,078    $2,785,232
          KS      $2,892,192       $134,463             $0    $3,026,655
          KY     $31,898,023     $1,532,881       $701,569   $34,132,472
            LA   $32,932,392       $618,531    $11,589,927   $45,140,849
          ME        $997,025       $215,141             $0    $1,212,166
          MI     $73,261,945     $8,847,679     $1,492,355   $83,601,979
          MN     $53,837,036     $5,136,494     $3,076,320   $62,049,851
          MO     $28,647,991     $1,344,632        $52,009   $30,044,632
          MS     $37,596,942       $726,101       $711,552   $39,034,595
          MT    $397,467,099    $30,711,396    $29,978,886  $458,157,381
          NC     $45,141,009     $3,334,688     $1,118,414   $49,594,112
          ND     $28,575,225       $430,282         $3,921   $29,009,429
          NE      $3,919,546       $295,819        $60,739    $4,276,104
          NH      $6,550,538     $2,689,264     $3,039,285   $12,279,087
          NM     $88,809,831     $7,637,510     $3,985,690  $100,433,031
          NV     $29,210,265     $2,716,157       $220,431   $32,146,853
          NY         $68,543       $134,463             $0      $203,006
          OH      $1,518,585       $752,994             $0    $2,271,579
          OK      $5,749,103       $403,390        $93,289    $6,245,781
          OR    $273,358,196    $24,203,377    $41,511,893  $339,073,466
          PA     $24,564,030     $1,344,632     $1,292,203   $27,200,865
          PR        $313,102        $26,893             $0      $339,995
          SC     $42,964,196       $995,028     $2,077,568   $46,036,791
          SD     $28,651,535     $2,366,552             $0   $31,018,087
          TN     $26,000,286     $1,479,095       $363,365   $27,842,747
          TX     $37,251,330       $726,101     $1,159,739   $39,137,170
          UT    $109,194,877    $14,844,738     $2,635,556  $126,675,171
          VA     $37,763,444     $3,442,258     $1,149,834   $42,355,537
          VT      $3,793,587     $1,586,666       $246,865    $5,627,117
          WA    $189,148,028    $16,458,296    $20,323,995  $225,930,319
          WI    $103,102,919     $4,168,359     $4,628,573  $111,899,852
          WV     $34,056,410     $1,586,666     $1,793,986   $37,437,061
          WY    $106,371,237    $13,016,038     $6,656,507  $126,043,783
               ---------------------------------------------------------
  Grand Total.  $3,152,762,57  * $270,859,05  * $260,423,0  $3,684,044,6
                           0              3             62            85
------------------------------------------------------------------------
Deferred maintenance values for passenger car roads and trails are based
  on a statistically significant random sampling of these assets to
  generate a national deferred maintenance cost per mile. These national
  averages are not statistically valid at a regional or forest level,
  but have been applied for estimation purposes. Deferred maintenance
  values for high clearance vehicle and basic custodial care (closed)
  roads cannot be estimated with a suitable degree of confidence and are
  therefore not included.
* Deferred maintenance totals for trails and bridges as shown in this
  table may differ from FY 2018 national totals as this table excludes
  assets that do not have a value for 'state' assigned in the system of
  record.

By State and Transportation Asset Type
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     For Roads, Trails, and Road Bridges By State and Congressional District
----------------------------------------------------------------------------------------------------------------
                      Congressional
      State             District             Roads            Trails           Road Bridges           Total
----------------------------------------------------------------------------------------------------------------
            AK                  01        $30,167,722        $9,086,083          $37,448,265       $76,702,070
             AL                 01           $573,875                $0             $298,693          $872,568
                                02         $1,122,508           $26,893             $465,144        $1,614,545
                                03         $9,936,917          $457,175             $769,449       $11,163,541
                                04         $6,778,593          $161,356             $630,272        $7,570,221
                                05           $454,411                $0             $857,631        $1,312,042
                                07         $6,599,664                $0             $494,299        $7,093,963
            AR                  01         $1,549,978          $242,034             $423,976        $2,215,988
                                02        $20,364,769          $376,497             $298,095       $21,039,361
                                03         $1,927,594          $242,034              $35,513        $2,205,140
                                04        $41,162,430        $1,371,525             $461,905       $42,995,860
            AZ                  01       $112,081,190        $8,363,611           $4,236,474      $124,681,276
                                02            $54,757                $0               $1,382           $56,138
                                03           $847,221           $80,678                   $0          $927,899
                                04         $4,556,246           $26,893             $101,297        $4,684,435
                                05         $2,668,069          $322,712              $31,771        $3,022,552
                                06            $19,320          $134,463               $7,817          $161,600
                                07         $1,586,871          $268,926              $19,103        $1,874,900
                                08        $12,116,284          $779,887             $928,793       $13,824,964
            CA                  01        $93,824,731        $1,855,592           $3,313,882       $98,994,205
                                02        $84,292,128        $5,055,817          $10,247,650       $99,595,595
                                03         $4,070,622        $3,415,365             $553,998        $8,039,985
                                04       $125,853,266        $2,958,191           $7,871,414      $136,682,871
                                08           $145,173           $26,893                 $979          $173,045
                                11                 $0                $0             $759,110          $759,110
                                14         $4,558,236                $0                   $0        $4,558,236
                                17         $2,135,892          $537,853              $69,654        $2,743,399
                                18         $2,397,636                $0                   $0        $2,397,636
                                19        $16,173,702        $2,474,123           $2,282,012       $20,929,838
                                20         $1,775,218           $53,785                   $0        $1,829,003
                                21        $22,716,105        $3,280,902           $1,634,700       $27,631,707
                                22         $7,124,472        $1,048,813             $284,199        $8,457,484
                                23            $14,563                $0              $31,437           $46,000
                                24        $12,576,957        $1,586,666                   $0       $14,163,623
                                25         $5,194,645        $2,554,801             $300,744        $8,050,189
                                26                 $0          $510,960                   $0          $510,960
                                27                 $0                $0              $30,982           $30,982
                                28                 $0           $26,893              $19,787           $46,679
                                33         $5,531,960                $0                   $0        $5,531,960
                                35        $11,705,557          $134,463                   $0       $11,840,020
                                37         $2,562,051           $26,893                   $0        $2,588,944
                                41                 $0          $591,638              $26,517          $618,156
                                42           $482,032                $0                   $0          $482,032
                                43            $11,650                $0                   $0           $11,650
                                44           $479,216           $80,678                   $0          $559,894
                                45            $42,184          $322,712               $3,810          $368,705
                                48             $4,854                $0                   $0            $4,854
                                49         $1,639,278          $215,141                   $0        $1,854,419
                                52         $1,641,486          $242,034                   $0        $1,883,520
            CO                  02        $21,226,446        $3,899,433           $1,538,089       $26,663,968
                                03       $148,481,717       $17,722,251          $11,091,150      $177,295,117
                                04        $13,616,409        $1,183,276              $52,762       $14,852,447
                                05        $16,154,576        $1,909,378             $829,749       $18,893,703
                                06             $9,223                $0                   $0            $9,223
             FL                 01             $6,165                $0                   $0            $6,165
                                02        $29,799,917          $376,497           $3,431,375       $33,607,789
                                03         $9,725,003          $510,960                   $0       $10,235,963
                                04        $14,020,670          $134,463           $1,366,330       $15,521,463
                                08         $6,895,601          $295,819                   $0        $7,191,420
            GA                  03         $1,861,915                $0                   $0        $1,861,915
                                03                 $0                $0              $13,813           $13,813
                                07           $463,100                $0                   $0          $463,100
                                08         $1,646,239           $26,893               $4,870        $1,678,001
                                09        $16,015,816          $699,209           $2,957,349       $19,672,373
                                10         $6,163,403          $672,316              $48,407        $6,884,126
                                11         $2,366,568           $80,678               $3,322        $2,450,568
                                12           $540,041                $0                   $0          $540,041
            ID                  01       $232,804,947       $23,073,886          $16,628,617      $272,507,450
                                02        $75,333,042       $16,216,263           $4,943,039       $96,492,343
             IL                 01           $195,628                $0              $12,135          $207,764
                                11           $103,105                $0                   $0          $103,105
                                12         $2,840,989          $188,248              $96,586        $3,125,823
                                16                 $0           $26,893           $1,255,904        $1,282,797
                                19         $3,198,678          $564,745           $1,054,261        $4,817,684
            IN                  07                 $0                $0              $62,027           $62,027
                                08         $1,427,407          $215,141                   $0        $1,642,548
                                09           $737,465          $215,141             $128,050        $1,080,657
            KS                  01         $2,892,192          $134,463                   $0        $3,026,655
            KY                  01        $11,443,837          $457,175             $554,791       $12,455,803
                                05        $17,025,982          $806,779              $91,309       $17,924,070
                                06         $3,428,204          $268,926              $55,469        $3,752,599
              LA                04         $5,310,459          $215,141           $9,118,841       $14,644,441
                                05        $21,556,825          $403,390           $2,471,086       $24,431,301
                                08         $6,065,108                $0                   $0        $6,065,108
            ME                  01           $142,231                $0                   $0          $142,231
                                02           $854,794          $215,141                   $0        $1,069,935
            MI                  01        $66,599,807        $7,234,120             $869,484       $74,703,411
                                02         $6,662,138        $1,613,558                   $0        $8,275,697
                                11                 $0                $0             $622,871          $622,871
            MN                  07         $3,343,739           $26,893             $190,216        $3,560,847
                                08        $50,493,298        $5,109,602           $2,886,104       $58,489,004
            MO                  03           $538,827           $53,785                   $0          $592,613
                                04         $1,250,274                $0                   $0        $1,250,274
                                07         $5,565,940          $322,712                   $0        $5,888,652
                                08        $21,176,447          $914,350              $52,009       $22,142,806
                                09           $116,503           $53,785                   $0          $170,288
            MS                  01         $4,673,186           $80,678              $90,755        $4,844,619
                                02         $1,591,385           $80,678              $65,606        $1,737,669
                                03         $8,718,551          $188,248             $226,529        $9,133,328
                                04        $22,607,363          $376,497             $328,662       $23,312,523
                                05             $6,456                $0                   $0            $6,456
            MT                  01       $397,467,099       $30,711,396          $29,978,886      $458,157,381
            NC                  01         $7,120,578           $80,678              $19,825        $7,221,082
                                02                 $0           $26,893                   $0           $26,893
                                03           $150,775          $188,248              $24,747          $363,770
                                06            $30,291                $0                   $0           $30,291
                                08         $1,446,339          $188,248               $1,131        $1,635,718
                                10         $5,097,064          $107,571              $29,794        $5,234,428
                                11        $31,295,963        $2,743,049           $1,042,917       $35,081,929
            ND                  01        $28,575,225          $430,282               $3,921       $29,009,429
            NE                  03         $3,919,546          $295,819              $60,739        $4,276,104
            NH                  01         $1,642,016          $806,779             $593,554        $3,042,349
                                02         $4,908,523        $1,882,485           $2,445,731        $9,236,738
            NM                  01         $1,546,386          $591,638              $53,846        $2,191,870
                                02        $42,091,004        $4,544,856           $1,686,923       $48,322,784
                                03        $45,172,441        $2,501,016           $2,244,921       $49,918,377
            NV                  01                 $0           $26,893                   $0           $26,893
                                02        $29,210,265        $2,689,264             $220,431       $32,119,960
            NY                  01                 $0           $26,893                   $0           $26,893
                                23                 $0          $107,571                   $0          $107,571
                                31            $68,543                $0                   $0           $68,543
            OH                  06         $1,459,610          $457,175                   $0        $1,916,785
                                10            $17,543                $0                   $0           $17,543
                                15            $41,431          $295,819                   $0          $337,251
            OK                  02         $5,649,687                $0              $93,289        $5,742,976
                                03                 $0          $403,390                   $0          $403,390
                                06            $99,416                $0                   $0           $99,416
            OR                  01         $4,113,534                $0                   $0        $4,113,534
                                02       $167,956,246       $16,996,149          $20,974,819      $205,927,215
                                03         $1,511,144          $699,209             $542,237        $2,752,589
                                04        $87,000,415        $5,916,381          $16,805,076      $109,721,872
                                05        $12,776,857          $591,638           $3,189,761       $16,558,256
            PA                  05        $24,495,783           $53,785                   $0       $24,549,569
                                10            $68,247                $0                   $0           $68,247
                                15                 $0        $1,290,847           $1,292,203        $2,583,050
            PR                  01           $313,102           $26,893                   $0          $339,995
            SC                  01         $2,836,901          $349,604             $199,298        $3,385,804
                                03        $15,064,155          $376,497             $507,957       $15,948,609
                                04         $3,383,496           $80,678              $10,361        $3,474,535
                                05         $7,829,889          $188,248              $81,215        $8,099,352
                                06        $13,849,755                $0           $1,278,736       $15,128,491
            SD                  01        $28,651,535        $2,366,552                   $0       $31,018,087
            TN                  01         $7,323,624          $591,638             $203,701        $8,118,963
                                02         $5,741,181          $322,712             $128,390        $6,192,282
                                03         $8,029,871          $430,282              $21,071        $8,481,225
                                07         $1,177,168          $134,463              $10,203        $1,321,834
                                08         $3,728,442                $0                   $0        $3,728,442
            TX                  01         $2,295,793                $0             $478,548        $2,774,340
                                02        $31,635,313           $53,785                   $0       $31,689,098
                                04           $127,425                $0                   $0          $127,425
                                06                 $0          $134,463             $199,312          $333,775
                                08         $2,265,089          $403,390             $428,154        $3,096,633
                                09                 $0           $53,785                   $0           $53,785
                                13           $229,905           $26,893              $53,725          $310,522
                                17           $697,806           $53,785                   $0          $751,591
            UT                  01        $41,294,700        $3,200,224             $935,156       $45,430,081
                                02        $41,125,096        $6,454,234           $1,251,518       $48,830,847
                                03        $26,775,081        $4,975,139             $433,873       $32,184,092
                                04                 $0          $215,141              $15,009          $230,150
            VA                  02            $23,689                $0                   $0           $23,689
                                05            $82,426           $53,785               $5,579          $141,791
                                06        $23,517,384        $1,721,129             $803,911       $26,042,424
                                07           $249,317           $80,678                   $0          $329,995
                                09        $11,367,023        $1,559,773             $328,479       $13,255,276
                                10         $2,523,605           $26,893              $11,865        $2,562,362
            VT                  01         $3,793,587        $1,586,666             $246,865        $5,627,118
            WA                  01           $643,195        $2,043,841             $764,922        $3,451,957
                                02        $28,095,470                $0           $2,685,239       $30,780,709
                                03        $18,722,744        $2,474,123           $3,145,959       $24,342,826
                                04        $14,187,226        $7,045,872           $4,940,120       $26,173,218
                                05        $59,522,698        $3,738,077           $3,565,076       $66,825,851
                                06        $19,357,686          $484,068           $3,857,479       $23,699,233
                                08        $48,619,009          $672,316           $1,358,995       $50,650,320
                                10                 $0                $0               $6,205            $6,205
            WI                  07        $93,282,850        $2,258,982           $3,413,728       $98,955,560
                                08         $9,820,069        $1,909,378           $1,214,846       $12,944,292
            WV                  01         $4,833,815          $215,141             $951,591        $6,000,547
                                02        $12,970,398          $618,531             $302,409       $13,891,338
                                03        $16,252,196          $752,994             $539,985       $17,545,175
            WY                  01       $106,371,237       $13,016,038           $6,656,507      $126,043,782
                  ----------------------------------------------------------------------------------------------
  Grand Totals.......................  $3,152,762,570    * $270,859,053    */** $260,423,062    $3,684,044,685
----------------------------------------------------------------------------------------------------------------
Deferred maintenance values for passenger car roads and trails are based on a statistically significant random
  sampling of these assets to generate a national deferred maintenance cost per mile. These national averages
  are not statistically valid at a regional or forest level, but have been applied for estimation purposes.
  Deferred maintenance values for high clearance vehicle and basic custodial care (closed) roads cannot be
  estimated with a suitable degree of confidence and are therefore not included.
* Deferred maintenance totals for trails and road bridges as shown in this table may differ from FY 2018
  national totals as this table excludes assets that do not have a value for `Congressional district' assigned
  in the system of record.
** Deferred maintenance values for road bridges is estimated based on the proportion of the Congressional
  district's deferred maintenance compared to the state total deferred maintenance as of March 26, 2019, as data
  for total deferred maintenance values by congressional district are dynamic and no longer available for
  September 30, 2018 as of the date of publication of this report.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
